<html>
<title> - OZONE AND PARTICULATE MATTER RESEARCH ACT OF 1997</title>
<body><pre>[Senate Hearing 105-355]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-355

 
           OZONE AND PARTICULATE MATTER RESEARCH ACT OF 1997

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
        CLEAN AIR, WETLANDS, PRIVATE PROPERTY AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1084

A BILL TO ESTABLISH A RESEARCH AND MONITORING PROGRAM FOR THE NATIONAL 
 AMBIENT AIR QUALITY STANDARDS FOR OZONE AND PARTICULATE MATTER AND TO 
REINSTATE THE ORIGINAL STANDARDS UNDER THE CLEAN AIR ACT, AND FOR OTHER 
                                PURPOSES

                               __________

                            OCTOBER 22, 1997


                               __________

  Printed for the use of the Committee on Environment and Public Works


                              <snowflake>


                   U.S. GOVERNMENT PRINTING OFFICE
 46-427cc                 WASHINGTON : 1998
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington DC 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED FIFTH CONGRESS

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director

                              ----------                              

  Subcommittee on Clean Air, Wetlands, Private Property, and Nuclear 
                                 Safety

               JAMES M. INHOFE, North Carolina, Chairman

TIM HUTCHINSON, Arkansas             BOB GRAHAM, Florida
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               BARBARA BOXER, California

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 22, 1997

                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     6
    Letter, Position on S. 1084, EPA Administrator Browner.......    29
Boxer, Hon. Barbara, U.S Senator from the State of California....     3
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
    Article, Smog Map Technology Is Launched.....................    34
    List, supporters of S. 1084..................................    50
    Prepared statement...........................................    49
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     5
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......    13

                               WITNESSES

Abbott, Ande, assistant to the international president, 
  International Brotherhood of Boilermakers, Iron Ship Builders, 
  Blacksmiths, Forgers, & Helpers, Fairfax, VA...................    12
    Prepared statement...........................................   127
Grumet, Jason, executive director, Northeast States for 
  Coordinated Air Use Management (NESCAUM), Boston, MA...........    14
    Prepared statement...........................................   130
Martin, James A., vice president, Martin's Famous Pastry Shoppe, 
  Inc., on behalf of the American Bakers Association, 
  Chambersburg, PA...............................................     8
    Letter, supplementing testimony..............................   122
    Prepared statement...........................................   121
Sharp, Adam, assistant director of governmental relations, 
  American Farm Bureau Federation................................    10
    Prepared statement...........................................   124
Smith, Thomas, president, National Coalition of Petroleum 
  Retailers, Griffin, GA.........................................    19
    Prepared statement...........................................   146
Thurston, George D., associate professor, Department of 
  Environmental Medicine, New York University School of Medicine, 
  New York, NY...................................................    17
    Prepared statement...........................................   138

                          ADDITIONAL MATERIAL

S. 1084, Ozone and Particulate Matter Research Act of 1997.......    40
Articles:
    Air Pollution's Impact on the Weather........................   123
    Smog Map Technology Is Launched..............................    34
Letter, Position on S. 1084, EPA Administrator Browner...........    29
List, supporters of S. 1084......................................    50
Statement, Associated Builders and Contractors...................   148




           OZONE AND PARTICULATE MATTER RESEARCH ACT OF 1997

                              ----------                              


                      WEDNESDAY, OCTOBER 22, 1997

                                     U.S. Senate,  
               Committee on Environment and Public Works,  
Subcommittee on Clean Air, Wetlands, Private Property, and 
                                            Nuclear Safety,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:38 a.m. in 
room 406, Senate Dirksen Building, Hon. James M. Inhofe 
(chairman of the subcommittee) presiding.
    Present: Senators Inhofe, Sessions, Thomas, and Boxer.
    Also present: Senator Baucus.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. The hearing will now come to order.
    Today's hearing will examine the Breaux-Inhofe bill, S. 
1084, which we call the Ozone and Particulate Matter Research 
Act of 1997. The legislation was introduced as a result of the 
new clean air standards for ozone and particulate matter 
promulgated by the EPA on July 17. And in the House we have a 
companion bill. It is H.R. 1984. This bill is worded 
essentially the same, with some modest changes in the $25 
million that would be set aside for ozone research.
    Senator Breaux and I thought it was necessary to introduce 
this legislation because the EPA ignored the tremendous 
opposition to these new standards. Those who oppose the 
standards include everyone from the Governors, the U.S. 
Conference of Mayors--and I used to be on the board of the U.S. 
Conference of Mayors, and it's one certainly that cannot be 
accused of being a Republican organization--National League of 
Cities, National Association of County Officials, National 
Conference of State Legislators, and local government 
officials.
    The Farm Bureau, Farmers Union, Cattleman's Association, 
American Corn Growers, fertilizer and other groups, small 
business community, including NFIB, U.S. Chamber of Commerce, 
Black Chamber of Commerce, Small Business Survival Committee, 
and a number of State environmental directors too long to 
articulate here.
    In total, there have been over 3,200 letters, resolutions, 
and comments expressing concern with these standards. While I 
don't want to take time to read the names of all the 
organizations who have sent these letters, I will distribute 
copies of an index. This is the index of these letters, Senator 
Sessions. And we're talking about thousands and thousands. Of 
course, we have many of them up here on the table. In addition, 
a number of organizations have written in support of this 
legislation being considered today.
    I would also like to introduce these letters into the 
record, showing more than 30 organizations supporting it. These 
are the letters that we have up here on the table.
    [The index of letters is printed at the end of the hearing 
record:]
    The House version currently has 191 co-sponsors, and the 
Senate bill has a bipartisan list of nine co-sponsors. I'm 
pleased to say that as of yesterday we added an additional 12 
Senators, which means we now have 21 co-sponsors for the Senate 
bill.
    Before we get to the testimony today, I'd just like to 
briefly outline what the bill does. The bill establishes an 
independent panel to be convened by the National Academy of 
Sciences to prioritize the research needs on the health effects 
of particulate matter. This step would help bring consensus to 
any new standards proposed by the EPA in the future. So we're 
dealing not just with what has happened to us since the past--
in the last 11 months, but also what could happen in the 
future. So it would make the process a little bit more 
professional and predictable.
    With the recent standards, the EPA relied on 
epidemiological studies and research performed by former EPA 
employees. The National Academy of Sciences would help restore 
credibility to this process.
    Next, in order to ensure that the Federal dollars are spent 
on the research priorities of the independent panel, the 
legislation establishes a Particulate Matter Interagency 
Committee to coordinate the activities of Federal agencies 
engaged in particulate matter research. This committee will be 
composed of eight different a agencies and departments. This is 
not a new committee, as such, but a coordination of those 
efforts that are going on currently.
    The EPA will use this research, in addition to private 
research, to review the air quality criteria through the Clean 
Air Science Advisory Committee--CASAC--set up statutorily. This 
review must be completed no earlier than 4 years after the 
enactment of this Act.
    In addition to this science research, the EPA is authorized 
to require State implementation plans in order to establish a 
particulate matter monitoring program. During this research, 
the monitoring period, the original standards for ozone and 
particulate matter will be reinstated and shall not be revised 
until scientific review is completed. The legislation also 
directs the National Institutes of Health to begin a research 
program to study the health effects of allergens in asthmatics, 
particularly in regard to urban inner cities. One of the 
biggest holes in the EPA's proposal was identifying the true 
causes of respiratory problems in inner-city children.
    Finally, the legislation authorizes $100 million to carry 
out the provisions, with 25 million of that set aside for ozone 
research. This plan follows the advice of three of the four 
past CASAC chairs who testified before this committee. It 
concentrates on understanding the science.
    For the farmers, the small businessman, the unions, the 
mayors, and the Governors, it provides continuity. Today they 
are concerned at the EPA's implementation schedule. They 
realize it can be challenged and thrown out by the courts, and 
they need stability while they try to implement the 1990 
standards. They say these will not be implemented until 6 or 9 
years, in accordance with what came from the EPA, but the EPA 
knows well and everyone here knows well that there are lawsuits 
that could come forward and challenge the fact we have double 
standards.
    I would like to remind everyone what Mary Nichols, the 
former EPA Assistant Administrator for Air, said in our last 
hearing. This is a quote. ``Under the President's 
implementation schedule, the new standards will not save any 
lives over the next 5 years.'' Therefore, the Breaux-Inhofe 
bill will provide the necessary research, monitoring, and 
stability for the American people without endangering any 
lives.
    Senator Baucus, do you have an opening statement.
    Senator Baucus. Thank you very much, Mr. Chairman.
    Actually, I'll defer to my colleague from California, 
Senator Boxer.

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. Thank you so much.
    Mr. Chairman, I wanted to thank Senator Baucus for his 
understanding. I have to be introducing a nominee over at the 
Judiciary Committee at 10:00 am.
    Mr. Chairman, with all due respect to you and Senator 
Breaux, I'm dismayed to see that the Subcommittee on Clean Air 
would give serious consideration to a bill that, in my opinion, 
will jeopardize clean air and the public health.
    S. 1084, the Ozone and Particulate Matter Research Act, 
would block the EPA from protecting the public health by 
blocking the new ozone and particulate clean air standards 
which have been in effect since September of 1997. This bill 
turns the clock back and reinstates the old, less-protective 
standards. S. 1084 would deny the American public the health 
protections they deserve, violating the most fundamental 
requirement of the Clean Air Act.
    The EPA estimates that this bill will result in at least 
60,000 premature deaths--this bill that we're considering--
300,000 additional cases of chronic bronchitis, 1.5 million 
asthma attacks, and 12.5 million work days lost.
    It seems to me for the Committee on the Environment and 
Public Works to be considering such a bill is a cruel irony.
    EPA has a statutory mandate to protect the public health 
with an adequate margin of safety. Those are the words in the 
law.
    Mr. Chairman, the very same arguments that we've heard 
today against new clean air standards we heard before the Clean 
Air Act was approved in 1970, an Act that was signed into law 
by then President Richard Nixon. And I have some of those 
quotes. I will not go into them today, but you couldn't tell 
the difference.
    When EPA announced the new ozone and particulate matter 
clean air standards in July of this year, it did so after an 
exhaustive scientific review, which indicated that current 
standards do not adequately protect public health.
    Under S. 1084, the EPA could not revise the ozone and 
particulate matter standards for at least 4 years, until 
further research and review by a new National Academy of 
Sciences panel and a new Inter-Agency Committee on Particulate 
Matter, a virtual duplication of the EPA effort, which resulted 
in the new standard.
    Are we going to keep redoing studies that we've already 
done until we find an answer every single person likes? I 
certainly hope not. We need to deal with reality , Mr. 
Chairman.
    When the EPA issued the new ozone and particulate matter 
standards earlier this year, it did so after an exhaustive 
scientific and public review process. The EPA analyzed 
thousands of peer-reviewed studies and presented its 
recommendations to an independent scientific advisory body, the 
Clean Air Scientific Advisory Committee.
    This committee concluded that EPA's standards for ozone and 
particulate matter needed to be strengthened, and I think it is 
important to note that the committee came out with a range--a 
range that it recommended--and the EPA took the middle of the 
road on this. And the panel included scientists from General 
Motors. They all agreed something had to be done, and they came 
out with a range, and the EPA hit that right down the middle.
    Mr. Chairman, I believe that, as Senators, we have no 
greater duty and responsibility than to protect the health and 
safety of the American people, and I look at that as an 
economic issue. I reject the argument that there's a conflict 
between clean air and the economy. I believe, if you look 
around the world, what you'll see in countries where the air is 
filthy dirty and they don't have any protective laws, economic 
growth grinds to a halt. It's very simple: if you can't 
breathe, you can't work.
    So we need to move forward, it seems to me, with these 
standards, and I think blocking them will have significant 
adverse impacts on the health of Americans, especially our 
children and the elderly. And we all know that when a society 
is judged, it's judged the way it treats the most vulnerable 
among us.
    The current annual average concentration of fine 
particulate matter in southeast Los Angeles County may be 
responsible for up to 3,000 deaths annually and more than 
52,000 incidents of respiratory symptoms, including 1,000 
hospital admissions. Young children constitute the largest 
group at high risk from exposure to air pollutants. They 
breathe 50 percent more air by body weight than the average 
adult. In California, alone, there are over six million 
children under the age of 14, and approximately 90 percent of 
them live in areas that fail to meed State and Federal 
standards.
    How are our children being affected? Studies show health 
effects ranging from 20 to 60 percent loss of lung capacity. It 
isn't fair, Mr. Chairman, that a baby born in a certain part of 
the county has less lung capacity than another. Despite this, 
representatives of industry claim that a 30 percent loss of 
lung capacity is not really a health effect because it's only a 
temporary, reversible loss in lung function. Tell that to a 
mother whose asthmatic child has to stay home or visit the 
emergency room a regular basis. Tell that to a mother whose 
teenage son suffers from continuous coughing, throat 
irritations, chest pain, and shortness of breath.
    And what about the potential of causing permanent damage? 
We have studies of lab animals which indicate long-term 
exposure to ozone causes permanent damage to lungs.
    In conclusion, Mr. Chairman, thank you for this opportunity 
to have the floor to cast my strong disagreement with this 
bill. You've been very generous in giving me this time. I think 
we must work together to ensure that we don't turn back the 
clock on the progress we've already made, and I think we should 
move forward with the EPA's recommendation.
    Thank you very much.
    Senator Inhofe. Thank you, Senator Boxer. Senator Sessions.

OPENING STATEMENT OF HON. JEFF SESSIONS, U.S. SENATOR FROM THE 
                        STATE OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman. I really want to 
express my appreciation to you for your intensive interest in 
this important issue, and for coming forward with a positive 
solution to a situation I've become very troubled with. For the 
past 9 months, as a new member of this Senate and a new member 
of this committee, I have looked anxiously and waited anxiously 
to find a kind of scientific basis for the kind of significant 
regulations that we are--that EPA proposes to impose on 
America. I have not found those.
    Like you, I hear from the people in my State, from the 
business community, from the mayors in the State, from the 
county commissioners in the State, and from our Department of 
Environmental Management in our State. They have serious 
reservations and really objections to the proposals as they 
are.
    Your idea of giving more intensive scientific study is the 
right approach. There was not a witness that said we had the 
kind of complete data that they would like to have to make 
these important decisions.
    On February 5, for example, the Subcommittee on Clean Air 
held a hearing, and I questioned Dr. Schwartz, a member of the 
EPA's own Scientific Advisory Committee, the CASAC committee, 
about the Birmingham study--Birmingham, Alabama. Dr. Schwartz 
had conducted that, showing increased mortality on high 
particulate matter days.
    A subsequent peer-reviewed study using the exact same data 
as Dr. Schwartz' study showed that when humidity was a factor 
in the model, no statistically significant effect could be 
observed.
    I don't know the right scientific answer, but EPA admits 
relying on Dr. Schwartz' study as a basis for their new 
standards.
    It was previously mentioned how many lives would be lost. I 
have been very concerned, troubled, and really offended that 
use of numbers in what I would consider a promotional tactic 
that would create fear in America.
    EPA announced these standards in late 1996. They stated 
40,000 lives could be saved by implementation of the 
particulate matter standards, 40,000. On February 12, the EPA 
Administrator appeared before the committee and testified that 
20,000 deaths, \1/2\ of them, could be prevented by 
implementation of these standards. In April of this year, after 
an outside analyst discovered an error in the estimates, the 
agency again lowered its numbers to 15,000 premature deaths. 
Many of these are very elderly and in severe health conditions. 
In May the same analyst who first discovered the error in EPA's 
estimates found additional errors, which brought the estimates 
of premature deaths to under 1,000.
    These are not good numbers that we're dealing with. This is 
what you are looking forward to to answer, and I think we need 
to do that.
    The CASAC votes were split. If you add up the numbers--as I 
recall their votes, those numbers really totaled in opposition 
to the standards adopted by EPA if you added them up. Every 
vote was--virtually every vote was severely split.
    The cost of these standards will be extremely high. Our air 
is getting better. Why asthma attacks are going up we don't 
know, but ozone is going down. At a time when ozone is going 
down, asthma attacks are going up. You are very wise, I think, 
to do some research into why that health condition is 
occurring.
    I support this approach. I think it is a reasoned, modest, 
and moderate alternative to a proposal of the Environmental 
Protection Agency that I think is not justified, and I support 
you and appreciate the leadership of you and Senator Breaux and 
others who put this package together.
    Senator Inhofe. Thank you, Senator Sessions. I appreciate 
your attendance, too. This is the sixth hearing that we've had 
on this particular subject, and you've been here for all six. I 
appreciate that very much.
    Senator Baucus.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you very much, Mr. Chairman.
    I'd like to point out, first, it has been almost one year 
since the EPA released its proposal to strengthen the national 
ambient air quality standards for ozone and particulate matter, 
and since that time we've heard from just about everyone 
interested in this issue.
    You mentioned, Mr. Chairman, this subcommittee has had six 
hearings. I might say that both the House and the Senate 
together have held 24 hearings to examine the science, the 
economics, the health aspects of the new standards, and we 
listened to scientists, industry folks, farmers, ranchers, 
environmentalists, health professionals, State and local 
governments. And I might add, too, that in the end the EPA also 
listened, because the final standards that went into effect on 
September 18 were changed. They were changed from what EPA 
initially proposed.
    But, more importantly, EPA acknowledged the potential 
difficulties in implementing the new standards.
    As a result of our hearings and other comments, it is clear 
that the Agency is working hard to fashion a sensible approach 
to implementation. I don't think anyone can dispute that.
    Today we will hear about recently published research that 
supports EPA's decision to set new standards. We will learn 
about new technologies that will lower the cost of improving 
air quality. That's a familiar pattern.
    Air quality standards have always been met with claims of 
economic demise. But then technology catches up, innovative 
programs are implemented, further research bolsters the initial 
decision--and I might add, in our economy, the drive to improve 
the bottom line always results in ways to reduce costs. And in 
the end, costs are a fraction of the initial claims and 
everyone breathes cleaner air.
    That is exactly the case with the emissions trading system 
set up in the 1990 Clean Air Act. Compliance costs are now one-
tenth initial estimates. That is not to say we should be making 
decisions without sufficient information. We need to continue 
the high-caliber research that has been a tradition of the 
United States.
    In fact, EPA's funding bill for fiscal year 1998 contains 
almost $50 million for particulate matter research, to the 
credit of Senators Bond and Mikulski, but I do not think we 
need this bill to authorize more research. Existing Clean Air 
Act already provides EPA with the authority it needs to conduct 
the necessary studies.
    What is much more troubling to me, though, is that S. 1084 
would revoke the ozone and particulate matter standards that 
just became effective. Furthermore, it prohibits EPA from 
revising the standards for at least 4 years, even if new 
research uncovers additional health problems resulting from 
ozone or particulate matter air pollution.
    With all due respect to you, Mr. Chairman, and the sponsors 
of the bill, I think that's the wrong approach. Instead, I 
believe that we must continue to protect public health. 
Implementing the current standards is a fair and cost-effective 
manner, and a fair and cost-effective manner is the best way to 
achieve the goal.
    I hope we can work together in a bipartisan fashion to 
ensure that it's done right. And I want to underline that I 
think that all of us here do want to improve our air quality 
standards. They are good in this country.
    Mr. Chairman, I don't see very many Americans heading for 
the door to go live in other countries because their costs are 
so high in this country to comply or because of all the 
problems in this country. It's just the opposite. We need to 
learn about pollution of other countries. It's because those 
countries have not undertaken the immense effort that is 
required to try to find air quality standards to assure that 
people in those countries breathe clean air. They just don't do 
it. They don't because they just don't make the extra effort.
    We, in our country, have made an extra effort, and I think 
it's incumbent upon us not to take the easy way--which is to 
criticize--but, rather the hard and right way--which is to work 
together to do this right. Thank you.
    Senator Inhofe. Thank you, Senator Baucus.
    I now ask our witnesses to take their places at the table.
    And, while they're coming forward, as the Chair I'll give 
you an overview of how we'll proceed at this hearing.
    We do have a time constraint. We have to be out of the room 
at 11:30. It should not take the 2 hours.
    We have six witnesses who will be testifying today. I also 
mention that, while some of the members of the subcommittee are 
not here, they will be coming in and out and the staffs are 
here at this hearing, both majority and the monitory, who will 
be monitoring and reporting back to the members.
    The witnesses will be allocated 5 minutes to give an 
opening statement. There will be lights in front of you--red, 
yellow, green. I think we all know what that means. And we'd 
ask you to try to comply with those time limitations.
    Following the 5-minute comments by the witness, I will then 
ask any member of the subcommittee if they would like to ask 
questions. They will have a round of questions and answers.
    I think we're ready to begin. Let me just introduce all six 
in the order that they will be making presentations: Mr. James 
A. Martin is the vice president of Martin's Famous Pastry 
Shoppe, Inc., on behalf of the American Bakers Associate in 
Chambersburg, PA. In just a minute I will read a letter from 
Senator Santorum, who regretted he couldn't be here today.
    We'll have Mr. Adam Sharp, assistant director of 
governmental relations, regulatory affairs, American Farm 
Bureau Federation.
    Mr. Andy Abbott, assistant to the international president, 
the International Brotherhood of Boilermakers, Iron Ship 
Builders, Blacksmiths, forgers, and Helpers, in Fairfax, VA.
    Mr. Jason Grumet, executive director, Northeast States for 
Coordinated Air Use Management in Boston, MA.
    Dr. George Thurston--I welcome Dr. Thurston back. He has 
been here with us before--associate professor, Department of 
Environmental Medicine, New York University School of Medicine, 
New York.
    And Mr. Thomas Smith; president, National Coalition for 
Petroleum Retailers in Griffin, GA.
    We that, please allow me to call on Mr. James Martin to 
present his testimony. I will convey greetings from Senator 
Santorum. His letter states every nice thing that he could say 
about you, Mr. Martin, and he's very pleased that you are here 
today, and I'm sure he'll see you during your visit.
    Mr. Martin.

 STATEMENT OF JAMES A. MARTIN, VICE PRESIDENT, MARTIN'S FAMOUS 
     PASTRY SHOPPE, INC., ON BEHALF OF THE AMERICAN BAKERS 
            ASSOCIATION, CHAMBERSBURG, PENNSYLVANIA

    Mr. Martin. Good day, and thank you for the opportunity to 
be here. I am Jim Martin, an owner of Martin's Famous Pastry 
Shoppe, Inc. We have bakeries in Chambersburg and Shippensburg, 
Pennsylvania. Ours is a family business started in 1955 by my 
parents. Perhaps you've seen our Martin's famous potato rolls 
in our grocery store bread aisles.
    Today I'm speaking for myself and the members of the 
American Bakers Association. The American Bakers Association 
represents 80 percent of the wholesale baking business, which 
includes small businesses like ours and the companies with 
national brand names that you may know. Bakeries were captured 
by the Clean Air Act because the natural process of yeast 
fermentation used to make bread and rolls produces ethanol, an 
alcohol, which is considered volatile organic compound. Ethanol 
from bakeries is non-toxic, low reactive, probably eaten by the 
bacteria in the atmosphere.
    The American Bakers Association strongly supports Senate 
1084. This bill will ensure that sound science and good 
planning have the time to develop before costly and potentially 
inappropriate controls area required.
    The baking by has already spent $28 million to comply with 
existing requirements. We estimate that the banking industry 
will spend $236 million to implement the new standard. The 
equipment to control bread aroma from a bakery costs about 
$500,000 to install and costs between $35,000 a year and 
$100,000 a year to operate. That's about $12,000 per ton of VOC 
controlled, not the $1,400 per ton estimated by the USEPA.
    The American Bakers Association has worked with the bakers 
in each State and with the State officials to develop 
reasonable rules to bring States and industry into compliance. 
The States have worked hard to implement the Clean Air Act 
under demanding and often changing EPA policies. We offer our 
compliments to Pennsylvania and many of the other States where 
hard work has put the most cost-effective control requirements 
in place. However, State officials are struggling to further 
reduce emissions and are being forced to look at smaller and 
smaller sources--that is, small businesses.
    Bakers are a low-volume, low-profit-margin business. Let me 
give an example how a small baker might be affected by control 
requirements.
    Imagine Joe's Bakery in your State. Joe is operating a 
white bread bakery he inherited from his father. The bakery has 
been in business for 80 years, with a profit margin of 1.7 
percent. His bakery, like others, is labor intensive, providing 
jobs at relatively high pay rate and supporting many families 
in the neighborhood. No one is getting rich, but everyone is 
being paid and the local area has good, fresh-tasting bread.
    His potential of emissions trigger the control 
requirements. Joe goes to his bank and asks for a loan for the 
$500,000 to install controls and cut his profit margin by 24 
percent. The bank denies his request, which is good business 
practice for the bank. If he can find a buyer, he can sell his 
bakery, or Joe can close. Sadly, some bakeries have closed 
during the implementation of the current standard.
    Now, let me share with you the situation at our bakeries. 
We emit enough ethanol to trigger control requirements. Stack 
testing, permitting, engineering reports, communications, and 
costs associated with investigating new technology have 
exceeded $250,000 to date in our bakeries. Our engineers 
calculate that adding a control device will increase our 
production energy consumption by 50 percent per package of 
rolls. However, rather than purchase the control equipment, we 
have chosen to limit our production and the growth of our 
business. This means our ability to serve the region with a 
maximum variety of product or to respond quickly to changes in 
consumer taste and demand is limited. That's not my 
understanding of free enterprise, and I have wondered, ``Is 
less bread on the table a good trade for no measurable 
improvement in air quality?''
    I and the bakers I represent urge you to pass Senate 1084 
to make clear legal statements about the funding of the 
research and science and timing of the implementation of the 
air quality standard.
    Please help us do the right thing to protect the air and 
the earth.
    Thank you for this opportunity to speak, and I'll answer 
any questions.
    Senator Inhofe. Thank you, Mr. Martin.
    Senator Inhofe. Mr. Sharp.

  STATEMENT OF ADAM SHARP, ASSISTANT DIRECTOR OF GOVERNMENTAL 
 RELATIONS, REGULATORY AFFAIRS, AMERICAN FARM BUREAU FEDERATION

    Mr. Sharp. Thank you, Mr. Chairman, for this opportunity to 
provide testimony for this important hearing on S. 1084.
    I'm Adam Sharp, assistant director of governmental 
relations for the American Farm Bureau Federation here in 
Washington, D.C. I'm also a partner in my family's farm in 
southeastern Ohio where, along with my three brothers, my 
father, and my grandfather, I operate a dairy farm and 
diversified crop farm. Today I am representing the American 
Farm Bureau Federation, the Nation's largest general farm 
organization, with more than 4.7 million member families.
    The Farm Bureau supports Senate bill 1084 for many reasons, 
but foremost because it will allow the necessary time for the 
agricultural community and EPA to gain a more accurate 
understanding of agricultural emissions, how much we emit, and 
to what extent the air quality standards will impact our 
industry.
    My comments focus primarily on PM<INF>2.5</INF> standard. 
There has been and continues to be a tremendous amount of 
conservation activity by farmers and ranchers across this 
country. These activities reduce wind erosion of the soil, 
which in turn provides cleaner air. Farmers are cleaning the 
air and should get credit for those activities; however, 
agriculture is concerned because EPA lacks actual measurements 
of what agriculture emits in the form of fine particulate. One 
estimate is that 34.3 percent of the primary fine particulate 
matter can be attributed to agriculture and forestry, and 
others suggest as low as 5 percent.
    EPA is finally acknowledging what we have been telling it: 
that agriculture is not a major emitter of this pollutant. 
However, nothing has been done to date to correct faulty 
documentation that over-estimates agricultural sources or 
solidifies Administrator Browner's promises that agriculture 
will not be impacted. The Administrator's promises have done 
little for our concerns because States decide who will be 
regulated, not her.
    I quote The Honorable Larry Combest, chairman of the House 
Agriculture Subcommittee on Forestry, Natural resources, and 
conservation. He says--and we agree--that we don't have the 
research yet to know whether we can actually attain these 
standards, how much it will cost the agricultural industry and 
the consuming public, and how much agriculture activity 
actually contributes to air pollution problems.
    Let me focus on an actual situation farmers in California 
already face in regard to present PM<INF>10</INF> serious 
nonattainment area for central and southern California. 
Agriculture in other areas of the country may face the same or 
similar situation when dealing with the new particulate matter 
PM<INF>2.5</INF> standard.
    The emission inventory for agriculture used by EPA has 
proven to have many flaws for PM<INF>10</INF>. Inaccurate 
estimates of the number of times a farmer drives his tractor 
over a field is one major example--eight times for alfalfa, 13 
times for rice, twice for rangeland. But probably the most 
blatant example of an inaccurate inventory was the initial 
emission inventory for combustion engines used to drive 
irrigation pumps. The original inventory estimated nitrogen 
oxide or NOX emissions, a precursor of PM, at 600 tons per day 
for all the pumps in the San Joaquin Valley. This would have 
been the highest emission category for NOX emissions in the 
valley, exceeding all the cars and trucks, which together only 
made about 300 tons per day.
    Driven by agricultural inquiries, a new study based on 
interviews with farmers determined that the NOX emissions for 
these pumps was only 32 tons per day--600 down to 32.
    We have only begun to address agriculture's concerns with 
PM<INF>10</INF> measurements, many of which are still 
unaddressed and uncorrected. Considering these discrepancies, 
it is unimaginable that we are now again faced with the same 
problems, only this time with a smaller particulate matter.
    In attempting to resolve some of these agriculture emission 
issues surrounding PM<INF>10</INF> and PM<INF>2.5</INF>, it 
became necessary to conduct a multi-year, multi-faceted air 
quality study, which is now underway in California. However, it 
will not be completed for roughly 5 years. S. 1084 would give 
agriculture the needed time to attain this important 
agriculture PM<INF>2.5</INF> emissions data.
    I want to emphasize that this study is the first 
comprehensive study that actually measures instead of 
estimating agriculture's PM<INF>2.5</INF> emissions. In order 
to avoid the mistakes made with PM<INF>10</INF>, the new PM 
standard should be delayed until this study and others like it 
are completed and before costly implementation activities 
begin.
    We fear that, despite guarantees, that implementation of 
this new standard may come quicker than what has been spelled 
out.
    In conclusion, I want to emphasize that the present 
approach of placing a new PM standard before having good 
scientific data for fine particulate sources may lead to false 
agriculture emission estimates again. Agriculture will also see 
a tremendous amount of indirect impacts from the new standards. 
Targeted industries such as utilities, fuel, transportation, 
chemicals, equipment, and many more will pass their costs on to 
their users. One of those is agriculture.
    In a study by AUS consultants to be released soon, the net 
cash income for all farmers is projected to fall by 10 percent, 
or $5 billion annually over the first 6 years of implementation 
of these new standards. Those are simply indirect impacts. 
Those are not even direct.
    The agriculture community enjoys breathing clean air as 
much as anybody. This committee must continue to demand that 
the concerns of America's farmers and ranchers are addressed by 
the EPA in order to ensure a continued safe, abundant, healthy, 
and affordable food supply.
    Thank you.
    Senator Inhofe. Thank you, Mr. Sharp.
    Senator Inhofe. Mr. Abbott.

   STATEMENT OF ANDE ABBOTT, ASSISTANT TO THE INTERNATIONAL 
PRESIDENT, THE INTERNATIONAL BROTHERHOOD OF BOILERMAKERS, IRON 
   SHIP BUILDERS, BLACKSMITHS, FORGERS, & HELPERS, FAIRFAX, 
                            VIRGINIA

    Mr. Abbott. Mr. Chairman, thank you very much. I have to 
apologize up front. I came down with a serious cold yesterday 
afternoon.
    With your permission, sir, I'd like to just enter my 
statement into the record and just make a very short verbal----
    Senator Inhofe. Yes. All your statement will be entered 
into the record in its entirety, and you can make any length of 
statement you'd like, Mr. Abbott.
    Mr. Abbott. Thank you very much, Senator.
    The International Brotherhood of Boilermakers, along with 
all the other building trades unions, as well as the Mine 
Workers Union and many of the other unions, had been very 
supportive of the Clean Air Act when it was up for 
consideration back years ago. We understood that there was 
going to be an initial cost, we understood that there were 
going to be industries that were going to be economically hurt, 
and we knew that there were going to be some jobs at stake. 
But, overall, providing clean air to the United States was very 
important to our agenda. We all felt that for our generation 
and all generations to come, that clean air was necessary.
    Mr. Chairman, we met with EPA earlier this year to discuss 
these new clean air standards, I guess I can tell you that the 
21 or 22 people that were involved from the labor unions were 
really quite stunned by what we discovered from EPA. Their 
inability to answer questions and how easily some of their 
assumptions were being successfully challenged--EPA initially 
used the 60,000 premature death figure, and I said, ``Wait a 
minute. If you're talking about asthma''--and, Mr. Chairman, 
I'm an asthmatic, myself-- ``I know that you could shut down 
every combustible, every manufactured source of pollution in 
the United States, and you would still have people with asthma 
and you would still have some people dying of asthma.'' Other 
people are even allergic to the sun, and I don't know what you 
can do about some of these.
    When you have a background from nature, I just don't know 
what EPA is going to do about controlling that. But when I 
asked EPA about, ``When you made these studies for the PM 
standard down to 2.5,'' I said, ``did you actually analyze the 
content of these materials?'' They said no, that they hadn't 
really analyzed them, they had no idea what it was. I said, 
``Well, would it be safe to say that most of it was from 
nature?'' and they said yes.
    I become very concerned about that, especially when we 
start looking at some of the coastal states, as an example, 
California, the Gulf coast, Oregon, Washington, where you have 
salt that is just naturally in the air, and all of this starts 
getting counted against the PM standards, and all of that is 
going to be registering on monitors. I mean, 2.5 microns is 
very, very small, and I don't know of any pollen in nature that 
is smaller than that. Almost everything is larger.
    As a result of that, it has been projected that there will 
be over 800 additional counties that will be in noncompliance.
    So we asked the question, ``Well, what happens if you have 
an area that is continually not in compliance?'' EPA said, 
``Well, we're going to shut down heavy construction projects, 
we're going to stop mowing the gas, we're going to end 
barbecues. We're going to keep people from burning stuff in 
their fireplaces.'' And then they volunteered, well, in some 
areas--you've got the airline industry in Los Angeles and San 
Francisco that's putting hundreds of millions of tons of 
pollution in the air every day on takeoff and landings of 
airplanes I said, ``Well, what are you going to do about 
that?'' They just shook their head. They've got no answer for 
it at all.
    Mr. Chairman, there were just so many things as we were 
going through this that they could not answer even a little bit 
of it, and I was, frankly, stunned. In dealing with EPA in the 
past, when we were dealing with the Clean Air Act and the 
amendments to the Clean Air Act in 1990, there was no 
hesitation. Things made sense. You would go through. There 
seemed to be substance to what they were saying, and when you 
began to challenge them with any amount of logic in the past 
they were able to answer it. With these standards, there is 
absolutely nothing that we found that we could support in these 
standards.
    We just feel that, with the effect that this is going to 
have on employment, and especially since they're talking about 
expanding NAFTA and everything else, that, among other things, 
this is just going to drive more businesses out of the United 
States.
    It's hard to estimate anything. I mean, you throw out the 
numbers of jobs lost. Some people have estimated it will be 
over 1.3 million jobs. Some have estimated higher. A few have 
estimated lower. But, in any case, I just don't think that we 
should be going forward with any standards unless they can meet 
somewhat of a logic test and meet somewhat of a scientific 
study, scientific scrutiny.
    In dealing with the EPA and the issues that they brought up 
and the answers that they gave, Senator, we were very, very 
disappointed.
    I thank you very much, sir.
    Senator Inhofe. Thank you, Mr. Abbott.
    Senator Inhofe. We've been joined by Senator Thomas from 
Wyoming. Senator Thomas, we've heard from Mr. Martin, who has a 
small bakery and is in the bakery industry; and, of course, Mr. 
Sharp with the Farm Bureau you've met before; and Mr. Abbott 
with Boilermakers.
    Do you have an opening statement you'd like to offer.

 OPENING STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM THE 
                        STATE OF WYOMING

    Senator Thomas. I would like to submit it for the record, 
but please proceed with this hearing.
    Senator Inhofe. All right.
    [The prepared statement of Senator Thomas follows:]

Prepared Statement of Hon. Craig Thomas, U.S. Senator from the State of 
                                Wyoming

    Thank you, Mr. Chairman, for holding this hearing today to 
discuss S. 1084, the ``Ozone and Particulate Matter Research 
Act of 1997.'' This is important legislation and I want to 
compliment you, and Senator Breaux, for the leadership you have 
taken in pursuing enactment of this initiative.
    As most are aware, great uncertainty surrounds the 
Environmental Protection Agency's (EPA) rule to tighten 
National Ambient Air Quality Standards (NAAQS) for particulate 
matter and ozone. Since the committee first held hearings on 
this issue, scientists--including those on the EPA's own Clean 
Air Scientific Advisory Committee (CASAC)--have testified that 
the court-ordered deadline did not allow enough time for them 
to adequately examine the rule. We also heard testimony that 
more time was needed to conduct additional research.
    However, these efforts were thwarted when President Clinton 
endorsed the standards on July 18, 1997. This was in spite of 
the fact that more than 250 members of Congress, 27 Governors, 
labor groups, the agncultural community and the National 
Conference of Mayors expressed opposition to the new 
regulations. Even several of President Clinton's agencies have 
expressed serious doubt.
    According to the U.S. Small Business Administration, the 
EPA's regulation ``is certainly one of the most expensive 
regulations, if not the most expensive regulation faced by 
small businesses in 10 or more years.'' The Department of 
Agriculture stated that ``farm groups have expressed concern 
that the proposed standards may impose significant costs on 
farmers and agribusiness.'' The Department of Energy encouraged 
the EPA to ``retain the current primary ozone standard,'' and 
the Department of the Treasury believes ``that many areas 
cannot achieve the new fine particle standard.''
    It's clear, Mr. Chairman, that the scientific evidence for 
these new standards is not complete. Under your proposal, an 
independent panel would be organized by the National Academy of 
Sciences to prioritize research needs on the health effects of 
particulate matter. It's my understanding that the EPA would be 
required to establish PM monitoring programs through state 
grants, and a Particulate Matter Interagency Committee would be 
established to coordinate the activities of federal agencies 
involved in fine particle research. With regard to ozone, S. 
1084 takes the necessary steps to further research programs 
looking at the adverse health effects of ground-level smog--
especially in urban areas. I'm also encouraged that the bill 
authorizes adequate funding levels to carry out these research 
needs for the next 5 fiscal years.
    This is good legislation; I am pleased to be a cosponsor, 
and willing to help Senator Inhofe and others pass S. 1084 this 
year. Let me say, however, that placing a 4-year moratorium on 
the EPA's regulations does not mean we are against a clean 
environment. We need to continue to look for ways to improve 
and protect public health, but this must be achieved in a 
balanced manner.
    Many uncertainties remain, including the fact that a large 
number of areas are having trouble meeting current Clean Air 
Act standards and may never reach attainment with the adoption 
of these new regulations. Furthermore, the costs will be 
extreme and we need to make sure this initiative will be worth 
the enormous price that businesses and individuals will have to 
bear. I do not believe we should be heading down a regulatory 
road before additional research is conducted so we truly know 
which pollutants are causing adverse health effects.
    We have a diverse panel before us today, Mr. Chairman, and 
I look forward to their testimony. Thanks again for your 
leadership and willingness to make the EPA come to the snubbing 
post and justify their actions.

    Senator Inhofe. All right. Mr. Grumet, you're recognized.

STATEMENT OF JASON GRUMET, EXECUTIVE DIRECTOR, NORTHEAST STATES 
    FOR COORDINATED AIR USE MANAGEMENT (NESCAUM) BOSTON, MA

    Mr. Grumet. Thank you very much.
    My name is Jason Grumet, and I'm the executive director of 
the Northeast States for Coordinated Air Use Management, or 
NESCAUM, which for the last 30 years has been representing the 
six New England States, New York, and New Jersey in their 
efforts to achieve air pollution standards.
    On behalf of my colleagues, who spend each and every day 
trying to implement the Federal air quality standards, I 
appreciate the opportunity to join you here today.
    I'm going to try to continue Mr. Abbott's thoughts about 
logic for a moment. We reach a different conclusion. The 
northeast States strongly support the new air quality standards 
because we believe they represent a more rational, logical, and 
accurate physical reality of the problems that we are trying to 
address. We think, moreover, these standards are long overdue, 
and therefore we are opposed to S. 1084 and any other effort, 
for that matter, which would shackle our programs to 20-year-
old science.
    What I'd like to do to help you understand this is really 
touch on three issues: one, Government's responsibility to 
provide the public with accurate information; second, cost--
something that we're all concerned about; and, third, equity, 
an issue of particular concern to the northeast.
    But, just to get started, I need to say a few things about 
the standards. The standards do many things. One of the most 
important things, from our point of view, that the standards do 
is they provide a blueprint, essentially a road map for how we 
can design our air quality programs.
    Anyone who has ever been on a country road on a dark night 
with a 20-year-old road map will have some sense of what we 
think these new standards do for us right now. They give us a 
general direction, but they don't get us from here to there in 
the quickest, most rational way possible, and I'd like to try 
to explain why.
    They're 20 years old. They're based on our scientific 
understanding of the ozone problem derived largely from the Los 
Angeles air basin in the 1970's. They tell us that air 
pollution is a local problem. Well, we now know it's a regional 
problem, stretching hundreds of miles across many States. They 
tell us that our concern should be for peak ozone levels and 
one-hour violations. We now know that air pollution is a multi-
day problem, and the health effects are chronic over several 
hours at a time.
    The old standard also focuses towards VOC controls, the 
kind of controls that Mr. Martin was complaining about being 
very expensive.
    Well, we now know, since the National Academy study about 5 
years ago, that the real problem is NOX pollution, which, 
fortunately, is much more cost-effective to control.
    So we have a situation in which we are being given a road 
map which does not, in fact, diagnose the problem.
    In 1970, when these standards were adopted, they were 
fairly called a ``partial diagnosis.'' Carrying the medical 
analogy forward, since we think we do public health work, the 
1970 standards right now, frankly, represent air pollution 
malpractice, and the suggestion that we should go back to those 
standards deprives us of tools that will help us achieve air 
quality in a cost-effective manner.
    I'd like to now turn quickly to public information. And I'm 
going to ask if you have it to take a peak at attachment A 
which I included in my testimony.
    We believe government has a fundamental responsibility to 
provide people with accurate information, and one of the most 
important things the standards do is just that.
    The map that I included is a map that shows the highest 
daily ozone levels every single day for five summers--from 1991 
to 1995. It's a depiction of chronic exposure to ozone.
    Many critics of the standards have told us there's no 
threshold beneath which people are safe. Well, what this map 
shows you is that there are dramatic health effects in States 
right now which are deemed attainment. Massachusetts, where I'm 
proud to live, is deemed a serious ozone non-attainment area, 
yet the chronic ozone exposure in Massachusetts is far less 
than the ozone exposure in Virginia, West Virginia, Ohio, 
Illinois--States that are now told that they are in attainment.
    I suggest to you that this is misleading tens of millions 
of Americans into believing that they, in fact, are not facing 
any risks from air pollution. And to go back to that standard I 
think would be a grave mistake.
    I want to focus for a moment on cost, because this is 
something that we all spend a great deal of time thinking 
about.
    We have heard and Senator Baucus indicated that the worst 
case dire projections, the fears of economic ruin that have 
accompanied every air quality regulation to date have not been 
realized. We posit the same will happen here. Simply put, the 
new standards focus us on nitrogen oxide and sulfur dioxide 
emissions. These are emissions which come from two main 
sources--heavy-duty diesel vehicles and utilities. These are 
some of the most cost-effective control options available 
today. We can achieve the utility controls we want without 
adding more than 1 or 2 percent to the residential electric 
bill, and, since heavy-duty vehicles have yet to be regulated, 
we also believe there are very cost-effective measures there, 
as well.
    The reason that costs are continuously overstated is really 
three-fold: we have worst-case projections, understandably, by 
concerned industries; we have a failure to take account for 
competition; and a failure to account for innovation.
    If you look at attachment C, which I won't go into, you'll 
see that in each and every instance utilities--gasoline, 
automobiles--the costs are dramatically overstated. There's 
only one dynamic that will stop this innovation from bringing 
these costs down in the future, and that dynamic is uncertainty 
and delay, and it's our fear that that would be the result if 
S. 1084 became law.
    Let me just end by talking about equity for a moment. 
Unsurprisingly, the areas with the highest chronic exposure to 
ozone also have the highest utility NOX emissions.
    If you look at attachment B, you will note that all the 
States listed have more NOX emissions from their utilities than 
all eight northeast States combined. One of the reasons for 
this is that the old standards have mislead these communities, 
these political leaders, and these residents to believe that 
they don't have a problem. They have had no self-interested 
incentive to reduce their pollution. And we have found that 
altruism, alone, has not gotten the job done.
    We believe that the new standards will provide people with 
good, accurate information, and with that information the 
political leaders and the residents of the midwest and the 
southeast will take the same self-interested rational actions 
we have to cost-effectively reduce our emissions.
    So, in conclusion, we think the new standards provide 
better information. We think they will provide more cost-
effective approaches and more-equitable approaches to air 
pollution problems, and for those reasons we support them.
    Senator Inhofe. Thank you, Mr. Grumet.
    Dr. Thurston, welcome back.

     STATEMENT OF GEORGE D. THURSTON, ASSOCIATE PROFESSOR, 
   DEPARTMENT OF ENVIRONMENTAL MEDICINE, NEW YORK UNIVERSITY 
             SCHOOL OF MEDICINE, NEW YORK, NEW YORK

    Mr. Thurston. Thank you. I am George Thurston, a tenured 
associate professor of environmental medicine at New York 
University School of Medicine. My scientific research involves 
investigations of the human health effects of air pollution.
    I'm also the director of the National Institute of 
Environmental Health Sciences' Community Outreach and Education 
program at NYU. A goal of this program is to provide an 
impartial scientific resource on environmental healthy issues 
to decision-makers, and that's my purpose in testifying to you 
here today.
    I must take issue with much of the intent of S. 1084 and 
with the findings upon which it is based.
    First, the new ozone standard will not disrupt or delay 
ozone reductions, as implied by finding four. Instead, it is S. 
1084 that would increase uncertainty in the marketplace and by 
regulators, thereby slowing air quality progress.
    Second, findings five and six fail to acknowledge that 
CASAC reached a consensus that a PM<INF>2.5</INF> standard is 
needed and that the ozone standard should be changed to an 
eight-hour basis, both of which the EPA promulgated on July 18, 
1997.
    I really would like to take issue with Senator Sessions' 
statement that there were lots of differences of opinion on the 
committee, on all these issues, and that their CASAC vote was 
split.
    I can show you the quote from the closure letter saying 
that there was a consensus by CASAC on these two points--the 
need for the PM<INF>2.5</INF> and the need for an eight-hour 
ozone standard, as the new standards reflect.
    The revocation of these new standards called for in bill S. 
1084 would be unwise and would be inconsistent with the intent 
of the Clean Air Act.
    Moreover, bill S. 1084 wrongly seeks to fundamentally 
rewrite the Clean Air Act by restructuring who decides whether 
new standards are needed. The existing Clean Air Act requires 
that EPA review the standards every 5 years and then leaves 
that standard-setting decision to the Administrator with advice 
from CASAC.
    Bill S. 1084, in contrast, seeks to shift that power to 
Congress by imposing a change back to the old ozone and PM 
standards. To my knowledge, this would be the first time that 
the Congress has intervened to interfere with air quality 
standards set by the EPA.
    The bill also says that the next science review of these 
standards may not occur any earlier than 4 years from now, but 
sets no requirement for the latest that these reviews may 
occur, which could possibly be interpreted as eliminating the 
Clean Air Act requirement for every-5-year reviews of these 
pollutants. These changes would represent a dramatic and 
unacceptable change in the Clean Air Act.
    The newly promulgated EPA air quality standards for ozone 
and particulate matter are based on sound science and need to 
be retained if the public's health is to be adequately 
protected. The adverse health consequences of breathing ozone 
or PM are serious and well-documented, even at levels below the 
US national ambient air quality standards that were in effect 
before July of 1997. This documentation includes impacts 
demonstrated by controlled chamber experiments and by 
observational epidemiology showing consistent associations 
between each of these pollutants and adverse impacts across a 
wide range of human health outcomes.
    These adverse impacts include: decreased lung function, a 
measure of our ability to breathe freely; more frequent 
respiratory symptoms; increased numbers of asthma attacks; more 
frequent emergency department visits; additional hospital 
admissions; and increased numbers of daily deaths.
    In previous Congressional hearings, much discussion has 
centered on New York City hospital admissions effects, but the 
adverse impacts on hospital admissions are only the tip of the 
iceberg of adverse effects associated with PM and ozone 
pollution.
    Indeed, in my testimony and in this table figure that's 
included in my testimony, I show that hospital admissions 
account for only approximately .01 percent of all ozone-induced 
adverse health impacts in New York City. Also, while there are 
about seven million persons in New York City, there are a total 
of some 122 million persons throughout the U.S. who now live in 
areas exceeding the ozone standard and will, therefore, also be 
benefitted by that new standard.
    Thus, the New York City hospital admissions effects are 
best viewed as an indicator of a much broader spectrum of 
potentially avoidable adverse health effects being experienced 
by the public today as a result of air pollution exposures.
    The scientific evidence that has been published since the 
PM and ozone criteria documents were written is consistent with 
a need for the immediate implementation of the more stringent 
standards that the EPA promulgated. Indeed, while the exact 
causal mechanism--i.e., the smoking gun of the PM mortality 
association--is not yet known, there are biologically plausible 
mechanisms that are now known--and these weren't available and 
weren't included in the criteria document--that could account 
for the associations. For example, recent animal experiments by 
Godleski and coworkers at Harvard University confirmed that 
exposures to elevated concentrations of ambient PM can result 
in cardiac-related deaths in animals.
    Epidemiological evidence has also accumulated over recent 
years, indicating a role by ozone in daily human mortality, a 
fact not fully considered by the EPA.
    I've attached a list of over 20 studies showing 
associations between ozone and mortality which were not 
considered.
    Thus, it is more clear than ever that important reductions 
in public health risk can be achieved by rapidly implementing 
the standards recently promulgated by the EPA.
    They for this opportunity to testify.
    Senator Inhofe. Thank you, Dr. Thurston.
    Mr. Smith.

  STATEMENT OF THOMAS SMITH, PRESIDENT, NATIONAL COALITION OF 
  PETROLEUM RETAILERS, GRIFFIN, GEORGIA; ACCOMPANIED BY: JIM 
   DASKEL, GENERAL COUNSEL, NATIONAL COALITION OF PETROLEUM 
                           RETAILERS

    Mr. Smith. Thank you, Mr. Chairman.
    I'm Tom Smith, president of NCPR, the chief advocate of the 
interests of America's 45,000 mom and pop gasoline retailers 
across America, and a Texaco dealer from Griffin, Georgia. And 
with me is our counsel, Jim Daskel.
    NCPR strongly supports Senate 1084, the Ozone and 
Particulate Matter Research Act, and we want to make three 
major points in our testimony today.
    First, a claim that there is no need for the legislation 
because the compliance deadlines are well off in the future is 
misleading. Without Senate 1084, compliance schedules would be 
dictated by citizen suits and sanction threats, because the 
Clean Air Act mandates that the states adopt a number of 
control technologies.
    Second, EPA's claims of a flexible implementation process 
are undercut by the statutory mandates and, more importantly, 
by EPA's actions with respect to vehicle IM and SBREFA.
    EPA hurts its credibility with statements such as telling 
the Agriculture Committee that the standards will lead to more 
ethanol fuel sales. EPA tried to rewrite the Clean Air Act to 
mandate ethanol before and got shot down by the court of 
appeals.
    Our third point is that we need Senate 1084 to ensure that 
we do not rob Peter to pay Paul. If you do not pass Senate bill 
1084, our members' limited resources would be diverted from 
compliance with the 1998 underground tank regulatory deadline, 
where they would most benefit human health and the environment, 
into ineffective redundancies like stage two vapor recovery.
    Let me first talk about the idea that there is no need for 
the legislation because the compliance deadlines are well off 
into the future.
    Once an area becomes a nonattainment area, the Clean Air 
Act forces the States and our members to implement control 
strategies such as stage two, enhanced IM, and the sale of 
reformulated gasolines. These mandatory control strategies can 
be enforced by citizen suits and other threats which will 
inevitably occur well before the date EPA is talking about.
    States will be forced to act now if the legislation is not 
passed. The threat is so severe that NCPR has had to file suit 
against EPA, alleging that the provisions of the Clean Air Act 
that mandate certain control strategies are unconstitutional 
under the 10th Amendment and a 1997 Supreme Court decision.
    Though EPA has promised to be flexible, this statute ties 
their hands. Based on our experience in the motor vehicle/IM 
debate, our members have deep-seeded reservations over EPA's 
flexibility promise. To quote Georgia State Representative Mike 
Evans, testifying under oath before the House Commerce 
Committee in the 104th Congress, he stated, ``EPA's assertion 
that they have been flexible is simply not so. We have not seen 
it in Georgia, nor do we believe that other States have seen 
it, either. The only thing that we have heard is sanctions, 
sanctions, and sanctions.
    We also question the flexibility claim in light of EPA's 
absurd position that changing the standard does not implicate 
SBREFA.
    The EPA says we will not hurt small businesses and farmers, 
such as those in my family. EPA has a funny definition of the 
word ``hurt.'' My family members and farm-based customers do 
not buy the EPA line and are concerned that higher fuel prices 
and regulatory costs will squeeze already thin farm margins.
    I also do not see how EPA can make the claim that the 
standards would mean more use of ethanol-blended gasolines with 
a straight face. Ethanol cannot be used in many nonattainment 
areas because it will hurt or worsen the ozone problems. Let me 
add that the ethanol subsidy is destructive to competition in 
the gasoline industry, and any version of a highway bill that 
extends the ethanol subsidy for another 7 years to us is just 
poisoned tea and would force us to oppose the entire bill, 
though we support CMAQ funding.
    As very small locally owned and operated businesses, 
gasoline dealers' limited resources must be used in a way so as 
to achieve the maximum environmental bang for their buck. Our 
members need to spend money on the underground tank upgrades 
required by 1998 in order to protect groundwater. Due to the 
requirements of the Petroleum Marketing Practices Act, many 
stations and their tanks will be sold to small dealers and have 
to be replaced in the next 15 months.
    Gasoline dealers have long been involved in the debate over 
the clean air, primarily because the dealer and his family, as 
well as our employees and their families, breathe the same air 
and drink the same water as our friends and neighbors do.
    We support the 1990 Clean Air Act as amended, even though 
they cost us at least 15 percent of the independent dealer 
stations.
    We cannot support the new standards and urge the passage of 
Senate 1084.
    Thank you.
    Senator Inhofe. Thank you very much, Mr. Smith.
    We'll have some 5-minute rounds up here, and we will adhere 
to our time schedule so that we can have as many rounds as 
possible within the time limit that we have, and we'll have 
some other Members that are coming here shortly.
    Mr. Martin, I'll start with you. In your testimony you 
offer two very profound examples on impact of the air standards 
on small, family-owned bakeries. First is the inability to 
secure loans to get their equipment, the control equipment; and 
then your own example, where you've literally decreased 
production so that you don't trigger the control levels.
    You know, neither example helps your businesses or the 
supply of bread--to me, at least. It doesn't seem efficient to 
force companies to cut production.
    If the regulations were to continue in effect, as 
promulgated by this association, what do you think would happen 
to your industry? What is the--can you give us idea of what a 
profit margin is of a small bakery.
    Mr. Martin. I think, within our own experience, it would 
probably range from--just looking at a 10- to 15-year period--
from probably a small percentage loss to a high of maybe 3 to 4 
percent.
    Senator Inhofe. Yes. How do you think these regulations 
would impact that.
    Mr. Martin. I guess it would depend. If you want to put it 
on a percentage, we know up front we're going to spend the 
500,000 at least to make building modifications and put the 
technology in which we have gone and looked on site and have 
promised with the way it would apply to our industry, and then 
for the extra cost of operation it would be another 100,000 a 
year, probably.
    Senator Inhofe. Mr. Grumet had said that the industry 
normally over-estimates the cost of compliance. In your 
testimony you stated the cost to bakers is $12,000 per ton of 
DOCs controlled, not the 1,400 per ton estimated by EPA. Who is 
right, you or the EPA.
    Mr. Martin. Well, I can understand where they came up with 
some of those numbers, although I was not particularly a part 
of it. I asked some of those questions, myself, and, simply, 
the $1,400 would be taken from the handful of a certain type of 
baking operation, the 12,000 would be looking at the overview 
of all bakeries of many different sizes and shapes and forms.
    Senator Inhofe. You know, it is a difficult thing--and I 
think that Senator Sessions touched on this--that the original 
estimate of the cost of compliance by the EPA was--in fact, the 
one they're still using--is $8 billion. The President's own 
Economic Council used $60 billion per year. And the Reason 
Foundation out in California--I think came out with theirs 
right before our last hearing--they estimated somewhere between 
$90 and $150 billion per year. So it's difficult to use these 
estimates in any logical sense.
    Mr. Sharp, I was particularly impressed with your testimony 
because I spent quite a bit of time talking to farm bureau 
groups last Monday night. I was their speaker at the banquet in 
Cherokee, Oklahoma. That was a regional group. Not long before 
that I was up in North Dakota at the North Dakota Farm Bureau.
    A very consistent thing comes out of these guys. They say 
that the biggest problem they have is over-regulation, and that 
they don't recall any time, including the BTU scare, that the 
over-regulation would be a greater problem to the small 
farmers. Do you agree with that? Is this what you hear out 
there.
    Mr. Sharp. Absolutely. Small- and average-sized farms 
obviously are the ones that would suffer the most under 
regulation as is and under new regulation. Even USDA came out 
in their comments with concerns for small- and average-sized 
farms under this standard and, of course, under other 
regulation.
    Senator Inhofe. I understand that there is a copy of the 
economic report on the impacts of these regulations on 
agriculture. I think it is just coming out today. The results 
of these are pretty dramatic. Have you had a chance to see 
that.
    Mr. Sharp. I mentioned in my testimony the numbers that 
we've seen. This is the first study that we have seen that has 
come out with any numbers on agriculture impacts from the new 
standard, and a 10 percent decrease or a $5 billion annual 
income loss to farmers is something that is going to knock you 
way below any small- or average-sized farm profitability 
margin. When you only deal with a few percent anyway, a drop of 
10 percent is quite dramatic for those folks in the average or 
small farm arena.
    Senator Inhofe. Yes. Mr. Abbott, I was interested in some 
of your comments as to the effect on jobs. I was one who was 
very much concerned back when NAFTA was first imposed what 
would happen. If you go industry-by-industry--I'm from 
Oklahoma. Of course, it's a big agriculture State. Also, we 
have a refinery industry. I was listening with some interest to 
Senator Dorgan, when he was talking about the loss of jobs that 
has come, the fight from across the border. And I'd kind of 
like to get your idea as to what you think that job loss would 
be. You mention an estimated 35,000 jobs, but is that just 
within your union or your particular--how would you broaden 
this to cover other jobs.
    Mr. Abbott. Yes, sir. Just within our small union--and the 
number, I think, that the building trades department of the 
AFL-CIO is using is 1.3 million amongst all the crafts and 
trades. That loss comes because of a lot of different factors. 
We not only construct, but we maintain a lot of the refineries, 
and the large power plants, as well as cement kilns.
    One of the things that happened with the Clean Air Act last 
time, there was a lot of the refinery business that moved into 
the Caribbean region, they actually moved off-shore. Very few 
refineries are actually left in the United States, which really 
is a problem. But, of course, if you had maybe 8,000 or 10,000 
people nationwide, like the boilermakers did, that was 
maintaining those refineries, those are just jobs lost. That's 
just man-years of work lost.
    Senator Inhofe. I'll cover that in just a minute.
    Senator Baucus.
    Senator Baucus. Thank you, Mr. Chairman.
    Mr. Grumet, I'm very interested in this chart of yours in 
your testimony that's labeled ``C.'' It's entitled, ``Actual 
Costs are Less than Original Estimates.''
    Mr. Grumet. Yes. What I tried to do----
    Senator Baucus. I can tell what you tried to do here, and I 
find it very interesting that you've taken five different areas 
and you've given the projected costs for each and the actual 
costs and you've given a source, and the source is essentially 
industry sources. Now, is that industry source the source for 
the projected cost? And does that source actually agree with 
the actual costs in each of those areas.
    Let's take number one, unleaded gasoline.
    Mr. Grumet. Unleaded gasoline, the suggestion at the time 
of enactment by API and others was it would be eight to ten 
cents per gallon. The actual cost, based on surveys by the 
Energy Information Association and others, has been one cent 
nationally and two cents in California.
    And I should just add that these aren't the costs that 
people are seeing. People are seeing no cost whatsoever. What 
we've tried to do here is be absolutely accurate and indicate 
the costs that the----
    Senator Baucus. But the point is here that the actual cost 
of unleaded gasoline is about one-eight or one-seventh of the 
projected cost.
    Mr. Grumet. That's correct.
    Senator Baucus. Let's take VOC controls for marine vessel 
boating. Why don't you explain that.
    Mr. Grumet. This was a nice example in that this was a very 
particular issue in New Jersey. We had the industry testify at 
a public hearing that the cost would be, at minimum, two cents 
per gallon, based on the controls.
    New Jersey's penalty structure is based on the notion of 
disgorging any undue economic benefit a company gets from 
noncompliance. So it turns out that one of these Company's 
failed to comply, and in the penalty phase they demonstrated 
conclusively to the State that the actual costs were, in fact, 
one-tenth of the costs they suggested 2 years earlier.
    Senator Baucus. One-tenth of the projected.
    Mr. Grumet. Yes.
    Senator Baucus. All right. Let's take power plant SO2 
controls.
    Mr. Grumet. Well, this is an example that I think many 
people refer to, the acid rain controls in the 1990 Clean Air 
Act. Again, I think we were somewhat conservative. There were 
many industry estimates that the cost for a tons of SO2 removed 
would be over $1,500 a ton. But, looking at really just kind of 
the basic industry projections--because what I think I want to 
stress here is that this isn't an effort, I think, on the part 
of industry to mislead anybody.
    Senator Baucus. Right.
    Mr. Grumet. I just think there are some natural dynamics--
--
    Senator Baucus. Right.
    Mr. Grumet. ----that inevitably inflate cost. The costs 
were projected to be $500 to $1,000, and recently the costs 
were $101. They're down actually to $75.
    Senator Baucus. And the same general phenomenon occurred 
with respect to power plant NOX controls.
    Mr. Grumet. Yes. Absolutely same with NOX controls.
    Senator Baucus. And the California low emission vehicle 
program.
    Mr. Grumet. That's correct.
    Senator Baucus. I just saw something on the news last 
night. I don't know if you saw it. It's a combination fuel cell 
gasoline, which looked pretty promising. I don't know if it's 
going to turn out to be as good as it sounds like it's 
projected to be, but, as I recall, I think it was on ABC news 
last night.
    Mr. Grumet. Daimler-Benz has committed to have 100,000 fuel 
cell operated vehicles on the road in the next 10 years. The 
Ballard Company in Canada is producing buses that run on fuel 
cells right now.
    What's unfortunate is that there is no one in the U.S. 
doing it.
    Senator Baucus. But I understand this car uses a 
combination of regular gasoline and fuel cells.
    Mr. Grumet. Correct.
    Senator Baucus. And it will be available in 5 or 6 years 
maybe, or maybe sooner than that; that it will cost no more to 
operate than current cars; it would have the same performance; 
and it will have virtually none of certain emissions. I suppose 
it would be----
    Mr. Grumet. The only emissions would be some CO2 and some 
water.
    Senator Baucus. CO2 and water. But no other emissions.
    Mr. Grumet. Correct.
    Senator Baucus. Now that would help with ozone, wouldn't 
it.
    Mr. Grumet. That would be a dramatic advantage. Yes.
    Senator Baucus. And so maybe these ozone standards might 
not turn out to be quite so bad to the degree that those 
technologies are developed, when there is no additional cost.
    Mr. Grumet. We have found time and time again that many of 
the gentlemen to my left and right and their industries are 
incredibly capable of achieving cost-effective reductions when, 
in fact, we set clear requirements and stick to those 
requirements.
    Senator Baucus. Yes. Well, are there other technologies 
that might develop.
    Mr. Grumet. There are a host of technologies. Just to touch 
on a couple that are pertinent to these new standards, as I 
mentioned, the main requirement would be to reduce nitrogen 
oxide emissions, which would come as some comfort to Mr. Martin 
because bakers really don't emit much NOX emissions, if any. In 
order to get NOX emissions down, there are two technologies 
that people are using.
    One is selective catalytic reduction. It's like taking the 
catalytic converter you have in a car and putting it on a big 
smokestack. For years we were told that it wasn't possible, 
even though it was happening in Europe. Well, now it has 
happened in two of my States, New Hampshire and New Jersey, and 
it has happened incredibly cost-effectively. We are able to 
achieve up to 90 percent controls of nitrogen oxide emissions 
for under $1,000 a ton, and that is, as Mr. Martin indicated, 
far and away more cost effective than the control strategies 
that the old standards were bringing forward.
    I don't know how many more you want me to touch on, but we 
have--Honda just announced the ultra-low-emission vehicle for 
the exact same cost as a regular vehicle. People said it 
couldn't even be done 4 years ago.
    Senator Baucus. And one of the reasons this happens, as you 
mentioned, is competition.
    Mr. Grumet. Absolutely.
    Senator Baucus. Different companies want to develop a 
better product--cheaper, more-efficient product. It's just 
competition.
    Mr. Grumet. That's the American way. And the ``New York 
Times'' last Friday had an article showing that, in fact, 
pollution control companies had stagnated their sales. Their 
sales have actually gone down since 1985, showing that, in 
fact, we're really not pushing our industrial base to improve 
our environmental quality.
    Senator Baucus. Thank you. I see I've got a red light here, 
Mr. Chairman.
    Senator Inhofe. Well, we'll have more rounds, Senator 
Baucus.
    Senator Thomas.
    Senator Thomas. Yes. As I listened to you, Mr. Grumet, if 
competition is driven by more efficiency, then why do we need 
regulation.
    Mr. Grumet. Well, pollution, in my micro-economics class--
and I wasn't very good--was the example that was used to 
describe market failure. When we have a situation----
    Senator Thomas. I don't think that's true. We're talking 
about efficiency and cost is mostly why these new things come 
about, not----
    Mr. Grumet. Well, Senator Thomas, I may not understand, but 
I think it's very possible for a company to have very low costs 
while creating a tremendous amount of pollution, which inposes 
high costs on other people, but----
    Senator Thomas. I won't pursue it any farther, but if 
you're talking about competition and efficiency driving these 
things, that's what drives it, and not the setting by EPA of 
standards.
    Senator Baucus. If I might say, Mr. Chairman, the point is 
to internalize the cost, and therefore the competition drives 
the technology. You have to have standards to internalize the 
cost.
    Senator Thomas. Senator Baucus, I was questioning them, but 
thank you very much. I certainly appreciate it. I'm talking 
about efficiency, and we get efficient----
    Senator Baucus. If they internalize it, they get some 
efficiencies.
    Senator Thomas. Absolutely, and it doesn't take regulation 
if you believe in the marketplace. That's an aside.
    Doctor, you sort of indicated that there was great 
scientific consensus. You're the first one I've heard say that.
    Mr. Thurston. Well, the points of consensus of CASAC have 
been under-represented in hearings here, I think, and I think 
especially George Wolfe, when he talks about what happened at 
CASAC, he tends to dwell on the points of lack of consensus. 
But I feel that more emphasis should be put on where there was 
a consensus, and I think that's where EPA acted.
    There was a consensus, and I can read you right out of 
George Wolfe's closure letter where they said that there was a 
consensus--let's see. Here's one. ``There was also a consensus 
that a new PM<INF>2.5</INF> NAAQS be established.'' It's right 
out of his closure letter. And, similarly, for ozone.
    Senator Thomas. Well, wait a minute. You may have this 
group consensus. I'm talking about science, in general.
    You know, one of the real problems for us--and you can 
understand this--is on all these things, ``Let's have a 
scientific basis.'' ``Let's do it on good science.'' We have 
ten scientists come, and all of them have a different view.
    Now, how many of this consensus group agreed on 15 
micrograms daily.
    Mr. Thurston. There was a consensus to have a standard. 
They didn't attempt to set the actual standard. That was left 
to the Administrator. They----
    Senator Thomas. Only two out of twenty-one agreed with the 
initial proposition.
    Mr. Thurston. I think that what happened, if you read the 
transcript of the day that they talked about this, as I have, 
George Wolff simply asked them where they would set it, and 
each person gave a number, and I think that had they perhaps 
gone around the table again you would have seen a little more 
consensus. But the fact of the matter is there was a large 
agreement--there was a consensus that they needed a 
PM<INF>2.5</INF> standard, and the way it reads is that EPA 
sets the standard. Their job wasn't to come to a specific 
number. As a matter of fact, I think George Wolff was the first 
chairman who has done such a poll asking for a number, because 
I don't think it is the job of CASAC to set a number. That's 
the Administrator's job, and that's exactly what the 
Administrator did.
    Senator Thomas. Exactly, and not many scientists agree with 
that. That's the problem. And I understand science isn't always 
going to come the same, but to suggest that there is consensus 
among science I think is a little misleading. That certainly 
hasn't been what we've heard from everyone who has come here.
    Also, you've talked about the costs will not be 
substantial, and I don't know what ``substantial'' means. Small 
Business Administration says, ``It is certainly one of the most 
expensive regulations, if not the most expensive, faced by 
small business in 10 years or more.''
    Mr. Thurston. I don't believe I said that----
    Senator Thomas. No, I'm talking to Mr. Grumet. I'm sorry.
    Mr. Grumet. Thanks.
    Senator Thomas. Small Business. This is the government 
agency.
    Mr. Grumet. Yes, I agree. Government is also not immune 
from overstating costs--EPA does it all the time--because all 
Government can do is use the best information that they are 
given by the same people who are providing you this 
information. I think, though, that you also know that there are 
very often times tensions in any large organization--the 
Administration being a very large one--and EPA is going to 
great ends to try to diminish the impacts on small businesses.
    We care very deeply about small businesses in the 
northeast. We are not apologists for EPA. We have many 
conflicts with them. We are of the belief that these standards, 
because they reflect the true science, will, in fact, bring 
forward--now, when I say ``science'' I'm not talking health 
science, because----
    Senator Thomas. True science.
    Mr. Grumet. Well, Senator, let me back up for a second. 
These standards are not perfect, but there's a choice before us 
that is presented by S. 1084, and that choice is between the 
old standards or the new standards. And if you ask yourself 
which standards better reflect the health costs and the health 
impacts, which standards better reflect the true reality of the 
problem, since that is the relative choice we have, I think 
there is little question that the new standards are a better 
reflection of the health issues.
    Senator Thomas. That's your view, and I understand that.
    Mr. Grumet. That's why I'm here to offer it.
    Senator Thomas. But that's not a consensus, obviously. Not 
everyone thinks that's--it seems like the northeast seems to 
have more problem with air quality. Is that valid.
    Mr. Grumet. It partially----
    Senator Thomas. I can almost tell where people came from as 
to what they're going to say.
    Mr. Grumet. I think the map I showed you--and I refer back 
to attachment ``A''--demonstrates that if you care about 
chronic exposure to ozone, the midwest actually has a greater 
health risk than the northeast. If you look at the highest one 
hour experienced each year, the northeast has a worse problem 
than the midwest.
    Senator Thomas. Is the northeast generally in compliance.
    Mr. Grumet. By and large, no, for two reasons--our own 
pollution and the pollution that wafts into our region from 
other regions.
    Senator Thomas. Why would you then ask for more stringent 
controls if you're not in compliance with what's in place.
    Mr. Grumet. That's an excellent question, and the answer is 
because the existing standards call forth irrational and 
ineffective controls, which is why implementing them doesn't 
fix the problem.
    Senator Thomas. The EPA director said that they're not 
putting in the control; that they're leaving that to somebody 
else. All they're doing is setting standards.
    Mr. Grumet. You have to apply standards in order to try to 
meet a certain end point. If that end point is trying to reduce 
peak ozone levels and your only opportunity is to try to place 
controls in the urban area where you have that kind of 
violation, you are left with doing things like regulating 
bakeries very stringently.
    Senator Thomas. But you haven't met the controls now.
    Mr. Grumet. We have implemented far more controls than 
other regions of the country, yet we still have----
    Senator Thomas. No. Let's talk about results. Let's talk 
about goals. Your goal is compliance with current, isn't it.
    Mr. Grumet. It is, absolutely. And if we are given an 
inappropriate set of tools which are ineffective in achieving 
those goals, it's hard for me to understand how we could be 
criticized for our failure.
    Senator Thomas. I don't understand that, but my light is--
--
    Mr. Thurston. Maybe I could help if I responded to this 
point.
    Senator Thomas. My time is up.
    Senator Inhofe. Well, I think it is kind of interesting. 
You talk about where you are out of attainment, and out there 
you are. I've often thought--I can remember when Secretary 
Browner talked about when she goes around the country, so yes, 
you have an attainment problem. It's not your fault. It's the 
guys west of you. This happened down in Louisiana when she was 
making a presentation down there. ``You mean we're going to 
have to actually implement all these changes?'' No, your 
problem comes from Texas. And I'm sure if she were in Texas 
she'd say it was from Arizona, and eventually get maybe to 
Wyoming. I don't know.
    I was pleased yesterday to hear from Secretary Pena on this 
zero emissions car, but I think we're losing site of something 
here because I'd like to remind my colleagues that Carol 
Browner had previously stated that no new requirements would be 
placed on mobile sources under these standards, anyway; that it 
would all be from utilities.
    And also I'd like to point out that I can remember some 20 
years ago when they said by the year 1998 we'd all be driving 
electric cars. Well, that's next year, and I don't see that 
coming up either.
    So I think in the best of circumstances the announcement 
yesterday--he said that this would be available in the show 
rooms in 10 years. Well, I wouldn't want to predicate our 
decisions today on what we think is going to happen in 10 
years.
    Back to you, Mr. Abbott. When you talked about the 
refineries, and I don't think you and I either one would blame 
the owner of a refinery for going south of the border in that 
very competitive industry, because they could be down there 
where they do not have the requirements--the EPA requirements 
and other requirements.
    I can remember during the debate on NAFTA one of my 
concerns was that in the transportation industry that we would 
allow--NAFTA would allow a Mexican trucking line to pick up a 
load in Brownsville, Texas, and take it to New York City and 
not comply with all the requirements. And, of course, that gave 
them a competitive advantage. And so I don't think either one 
of us would blame them for doing that. I just want to correct 
an environment that encourages that.
    Mr. Abbott. Absolutely. Yes, sir. One of the things that's 
important to point out, too, is that these cars that Senator 
Baucus talked about, all of these things have been going for 
quite a while under the old EPA Act. I mean, there has been a 
lot--there has been an evolving technology that has been going 
on for some time. That certainly did not come about because EPA 
decided to change the standards.
    We are on the cutting edge. The building trades unions do 
install a lot of the environmental controls, and therein is one 
of the problems, because a lot of these large utilities have 
gone to a tremendous expense, hundreds of millions of dollars, 
to install pollution control equipment, and then all of the 
sudden the goal post is moved and now some of the other 
businesses that were not in compliance perhaps under these 
standards have an additional 10 years to comply.
    It just seemed that the Clean Air Act was working, we were 
getting excellent results all the way through. The emissions 
were being reduced, the pollution was being reduced, the ozone 
level was going down, and the control equipment that was being 
put on or had been ordered in the last few years, some of that 
equipment, because these standards were being proposed, the 
owners held off installing clean air equipment. So there were a 
lot of jobs that were lost just from the fact that these 
standards were pending and not knowing what was going to 
happen.
    Senator Inhofe. Mr. Abbott, I think in all the seven 
hearings we've had I don't recall one person suggesting that 
the air isn't getting cleaner every day. It is. However, that 
doesn't seem to be factored in to all these considerations, 
what we're going to do from this point forward.
    I think the most--when you talk about moving the goal 
posts, Government doesn't understand what it costs to move goal 
posts. When an industry--I don't care if it's a baking industry 
or the family farmer or the power industry--invests millions of 
dollars, and then all the sudden finds, ``Well, we now have 
implemented new standards, so you have to do--'' there just is 
not an appreciation for the cost and who bears that ultimate 
cost, whether it's the cost of labor, the cost of 
manufacturing, the cost of production. It's going to be 
ultimately the consumer. That's the thing that concerns me.
    Mr. Grumet, I understand that the standards that are 
proposed by the EPA are really not enough for you, are not set 
high enough for you. I think you've been quoted many times 
saying you want a more stringent standard.
    Mr. Grumet. Are you speaking of the recently-set standards 
or the old standards.
    Senator Inhofe. The recently-set standards.
    Mr. Grumet. I'm not sure what you're referring to, but 
back, I guess, 6 months ago we did comment that the particulate 
standard, the daily particulate standard, should be set more 
strictly than the 65 micrograms per cubic meter, so we do think 
that standard is inadequately protective.
    But, again, we're not going to let the best become the 
enemy of the good.
    Senator Inhofe. I was really wondering whose side you're 
on. You're against our bill, but you also are against the----
    Mr. Grumet. No. I'm strongly supportive, as are the 
Northeast States, of the standards recently adopted by the 
Administrator.
    Senator Inhofe. But you said those standards do not go far 
enough.
    Mr. Grumet. I'm saying that I don't think they're perfect 
and I don't think any standards ever will be perfect. I think 
those standards are far better protective of public health and 
far better in terms of inspiring cost-effective results.
    Senator Inhofe. All right. I'm going to pursue this, and I 
don't have to leave but Senator Baucus does, so I'll yield to 
him.
    Senator Baucus. Thank you, Mr. Chairman.
    I'd just like to--first of all, I have a letter I want to 
insert in the record. This is from Administrator Browner. She 
has information that bears on this hearing and the fact that 
she asked to testify and she was refused the ability to come to 
testify at this hearing, so I'll put this letter in the record.
    [The information to be supplied follows:] 
                         Environmental Protection Agency,  
                               Office of the Administrator,
                                                  October 21, 1997.

The Honorable Max Baucus,
Committee on Environment and Public Works,
United States Senate,
Washington, DC 20510.

Dear Senator Baucus: I am writing in response to your letter of October 
15, 1997 requesting the Environmental Protection Agency's (EPA) views 
on S. 1084, a bill that would repeal EPA's recent update of the air 
quality standards for ozone and particulate matter.
    As you know, these new standards are a major step forward in public 
health protection. Each year, they will prevent approximately 15,000 
premature deaths, as well as hundreds of thousands of cases of 
significantly decreased lung function in children and hundreds of 
thousands of asthma attacks in children and adults.
    EPA strongly opposes S. 1084 because it would undermine these 
important public health protections. The bill would revoke the 
stronger, updated standards, reinstate the old standards, and prohibit 
EPA from revising or replacing these outdated standards for at least 4 
years. The decision to strengthen the air quality standards was based 
on compelling science indicating that the old standards were not 
adequately protective. Repeal or delay would only result in needless 
suffering for millions of Americans. In addition, delay would have 
other adverse health consequences and environmental effects such as 
reduced yields of agricultural crops, damage to commercial and non-
commercial forests, and continued visibility impairment.
    Furthermore, the public has a right to know whether the air in 
their communities is safe to breathe, as determined by the latest, best 
available science--and these standards are the means by which 
government makes this information available.
    As you know, the President has announced a flexible, common-sense 
implementation plan for the new standards. This implementation approach 
will continue current progress in achieving cleaner air. It will give 
states, local governments and business the flexibility to meet the new 
standards in a cost-effective way. EPA's strategy for regional 
emissions reductions, as proposed by EPA last week, will allow the vast 
majority of areas to meet the new ozone standard without additional 
local pollution controls. The President's implementation policy also 
ensures that at a new round of review of particulate matter science 
will be completed within 5 years, and that no areas will be designated 
as nonattainment for fine particles during this period.
    The Office of Management and Budget advises that there is no 
objection to the submission of this report from the standpoint of the 
President's program.
    I hope that these views are helpful. If I can provide any 
additional information, please do not hesitate to contact me.
            Sincerely,
                                          Carol M. Browner.

    Senator Baucus. Second, I'd just like to remind us all of 
the time line--I'll just take PM<INF>2.5</INF>--that something 
might happen.
    This year EPA issues its final PM<INF>2.5</INF> standard. 
This year EPA begins new scientific review of health effects of 
fine particulate matter. Next year, voluntary State discussions 
on regionally transported particle pollution. Between the year 
1998 and the year 2000, monitors are put in place nationwide. I 
might add that in Administrator Browner's letter she states 
that, with respect to PM<INF>2.5</INF>, that the President's 
implementation policy also ensures that the new round of review 
of particulate matter science will be completed within 5 years, 
and that no areas will be designated as nonattainment for fine 
particles during this period, so there is a whole 5-year study 
that will be in place before any decisions will be made on 
particulate matter.
    In the period 1998 to 2003, collect monitoring data; in the 
year 2002, EPA completes the 5-year scientific review of 
particulate matter standards, which I just mentioned and she 
states in her letter. Between the years 2002 and 2005, EPA 
designates areas. Between the years 2005 and 2008, the States 
submit their plans, their SIPs, outlining how they will meet 
the PM<INF>2.5</INF> standard, and the States needing 
reductions begin. That's in the period between 2005 and 2008.
    So, in summary, between the years 2012 and 2017, following 
designation, States may have up to--the point it, the States 
may have up to 12 years under the Clean Air Act to meet 
PM<INF>2.5</INF> standards.
    We're going to learn a lot in the next 12 years. We're 
going to learn the degree to which the standards selected by 
the Administrator make sense and the degree to which they don't 
make sense, reminding ourselves that the standards that she 
selected were for range proposed by CASAC, the scientific 
review panel. She didn't just pick these out of thin air. This 
is a range of standards presented to her by CASAC, which is 
required under current law, a 5-year review of every 5 years.
    So I understand some of the concerns that people have about 
these standards. I have concerns, myself. I come from a farm 
State. But I also think that this period of time gives us 
adequate time to adjust it, to change the standards that they 
should be changed, depending upon data that we get and studies 
that are conducted.
    All this makes much more sense to me to continue down this 
time line rather than to pass this bill, which says stop. In 
fact, it implies we don't do anything. It just says do nothing 
for 4 years. And, as has been pointed out, there's nothing in 
this bill that says we do anything after 4 years. It just says 
stop.
    And we do know that there are a lot--that these standards 
will avoid many premature deaths, certainly avoid a lot of 
unhealthy--some people that have unhealthy conditions that have 
caused them to be very unhealthy. And I trust, frankly, the 
American people. I trust the process. It's the only one we've 
got, folks. It's us, our country, our Government. We should 
work to make it work, not just say stop, do nothing with 
respect to PM<INF>2.5</INF> and ozone.
    Another point I'd like to make is with respect to 
PM<INF>2.5</INF>. It's my understanding that virtually none of 
the PM<INF>2.5</INF> would be directed at agriculture. One 
could dispute whether it's 1 percent or 2 percent or what not, 
but it's a very small amount. In fact, we all know the letter 
from Carol Browner to Secretary Glickman saying it's not 
targeted at agriculture, etc.
    I have some sympathy to what you're saying, Mr. Sharp. A 
lot of farmers and ranchers, it's a very small margin and 
they're out of business. There's no doubt about that. I know 
that's the case. But I also strongly suspect that when States 
implement implementation plans for areas that are in 
nonattainment, they're not going to sell it to agriculture. 
They just won't. At least they won't in my State. I can tell 
you that. I can't speak to other States, but I think that 
farmers should be slightly concerned about all of this, but I 
don't think they should be alarmed.
    Mr. Sharp. Could I reply to that.
    Senator Baucus. Sure.
    Mr. Sharp. Our concern is that EPA has no idea how much we 
emit of PM<INF>2.5</INF>. That's the biggest concern for us. We 
want to avoid regulation that California has already included 
for PM<INF>10</INF>. I'll read----
    Senator Baucus. We don't have time here. We don't want to 
talk about PM<INF>10</INF>, because we're not talking about 
PM<INF>10</INF>. We're talking about PM<INF>2.5</INF>.
    Mr. Sharp. Okay. PM<INF>2.5</INF> for agriculture fugitive 
dust from crops, three million tons is their estimate from 
agriculture; agricultural livestock, 181,000 tons. Those 
figures are what has been given to the States to use----
    Senator Baucus. That's 2.5.
    Mr. Sharp. That's 2.5
    Senator Baucus. And whose studies are those.
    Mr. Sharp. Those are all credited in STAPPA and ALAPCA, the 
State and Territorial Air Pollution Program Administrators, and 
ALAPCA, the Association of Local Air Pollution Control----
    Senator Baucus. I hear you and I understand that. But, 
again, just to remind ourselves, we have a 5-year period here 
under the law with which to study PM<INF>2.5</INF>. At the end 
of that 5-year period, we're going to know whether that study 
is valid or invalid or to what degree it's valid or invalid. 
We're going to know a lot more than we know now, and we can 
proceed from that point.
    Mr. Sharp. We're not sure if that time line is going to 
hold. As was mentioned earlier, I do believe, at the end of the 
table down here, civil suits have a big play in this, and this 
guarantees we don't----
    Senator Baucus. I understand the argument, but I just, with 
the deepest respect, think there's not much validity in that 
argument. That is, I don't think that anyone who sues now, 
files a civil lawsuit saying EPA doesn't have this authority, 
is going to get very far. And most attorneys I've talked to on 
this issue have the same conclusion.
    The light has been red for a long time. I don't want to 
take too much of the chairman's time.
    Senator Inhofe. Well, let me go ahead and resume the 
questioning.
    On my time, Mr. Sharp, why don't you go back to your 
documentation on California and PM<INF>10</INF>.
    Mr. Sharp. You mentioned regulation to begin with, and this 
is the exact type of regulation we want to not run into a 
problem with on PM<INF>2.5</INF>. We need the data first.
    This was included. This regulation or this control measure 
was included in California's State implementation plan that has 
now gone to EPA for final approval, and they have a list of 
them here, but my favorite one--and, being from a farm family, 
I didn't even know what tracking control was or what you would 
be doing by trying to gain or implement tracking control, so I 
had to look this one up. But included for PM<INF>10</INF>--and 
this is the exact same thing we're trying to avoid here--
tracking control, ``Prevent tracking soil on unpaved public 
roads when turning at the end of runs during tillage operations 
from August through October. Prevent tracking mud and dirt on 
paved public roads from farm roads when water is used to 
prevent dust during this period. The effectiveness of this 
measure would be dependent on the reduction of mud and dirts 
tracked onto the paved public roads and the amount of traffic 
traversing the affected paved public road.''
    They want us to control the dust that drops off the tractor 
tires or between the treads onto dirt roads before you drive it 
out, before you drive your tractor on the road or turn around 
on a road. Things like that, we don't know how you would 
implement.
    Also regulation that's impacting agriculture, the new 
regional haze proposal and a non-road diesel proposal, both 
have come out in the last couple months, both of which are 
under the guise of a new PM<INF>2.5</INF> plan. Both of those 
would control particulate matter, PM<INF>2.5</INF>, from 
agriculture or have an impact, either directly or indirectly, 
to agriculture. The non-road diesel is an obvious one through 
equipment, and the regional haze one has been spelled by the 
Park Service and the Forest Service, and targets agriculture 
PM<INF>2.5</INF> controls for burning and for agriculture 
tillage.
    Senator Inhofe. All right, sir. Thank you very much. I hope 
that I have not been misrepresenting what would happen with 
implementation--not the setting, but the implementation of 
these standards, when I talk to farm groups.
    A week ago Monday I was in western Oklahoma, seven 
different communities, ending up talking to the Farm Bureau in 
Cherokee. I commented to them that it would be more regulation 
by the Federal Government in terms of when you can plant a 
crop, when you can harvest a crop, when you can burn a field, 
when you can burn your diesel. And this is what really does 
concern. Am I misrepresenting this to these people.
    Mr. Sharp. No. That's accurate.
    Senator Inhofe. You're a family farm owner, as well as a 
professional.
    Mr. Sharp. Based on what has happened in California under 
PM<INF>10</INF> for those controls, and then based on a 
document put together by the Clean Air Act Advisory Committee--
they call it an opportunity matrix. It's a draft document. But 
in that document they list a couple different pages of controls 
for agriculture for PM<INF>2.5</INF>, including everything from 
banning burning, which is number one on the list to taking land 
out of agricultural production; planting trees and permanent 
grasses; dietary changes for cattle, for hogs, for poultry. The 
list goes on and on.
    Senator Inhofe. Yes.
    Mr. Sharp. So there are a number of these that have been 
spelled out very clearly. Yes.
    Senator Inhofe. I would say this: the family farmers that I 
talked to, at least in the State of Oklahoma, are very 
sensitive to this and are very well-informed on this, so 
someone has done a good job. I would like to also mention that 
it's not just the Farm Bureau. The Farmers Union has been 
active in this, as well as the Cattlemans Association and other 
groups, too.
    Mr. Sharp. There are over 30 agricultural organizations.
    Senator Inhofe. Mr. Grumet, going back to you, I was going 
to read a quote and see if you still stand. You're talking 
about such steps that could be taken, and now we're back 
referring to ozone.
    Mr. Grumet. Can you tell me where it's from, also.
    Senator Inhofe. Steps such as reducing car emissions, using 
manual lawn mowers, and filling gas tanks during evening hours 
will have a profound effect on reducing the levels of smog we 
all breathe.
    Mr. Grumet. Can you remind me where that was from.
    Senator Inhofe. Yes. Thursday, August 7, 1997, on 
``Business Wire.'' I have it right here.
    Mr. Grumet. Okay. I'm----
    Senator Inhofe. And the reason I bring this is up is that 
if there's anything that has bothered me more than anything 
else in the whole issue this last 11 months, it's when 
Administrator Browner, who is a very intelligent person, a very 
remarkable person, is always saying that nothing like this is 
going to have to happen. Nothing like this is going to have to 
happen and everything is going to be fine. In fact, she goes so 
far as to say to the petroleum marketers, ``Well, it's not 
going to affect you. You guys aren't going to be affected. It's 
going to be refineries.'' To the bakers, ``It's not going to 
affect you.'' To the mayors of our cities, ``It's won't affect 
you.'' Everybody is outside. And even geographically, as I 
mentioned a minute ago, it's always in some area other than 
where you are.
    Mr. Grumet. Two comments. I'm pretty sure what you're 
referring to was probably a quote from the ``Good Morning 
America'' show when the Northeast States were rolling out an 
ozone map which tried to depict--and your staff is nodding--
trying to depict the daily ozone levels, and I was discussing 
the benefits of giving people this information, because it 
would give them the ability to take voluntary steps, ``such 
as.''
    So, just to be absolutely clear, the suggestion that these 
new standards or any standards in the northeast would stop 
people from mowing lawns or restrict when you can fill up your 
gas tank would be incorrect.
    Senator Inhofe. Would be incorrect.
    Mr. Grumet. Yes.
    Senator Inhofe. So you don't agree with this statement.
    Mr. Grumet. I guess I didn't speak clearly.
    Senator Inhofe. I'm going to go ahead and put this document 
in the record at this point, because I see what I consider to 
be a contradiction.
    [The information to be supplied follows:]

               (Business Wire, Thursday, August 7, 1997)

Smog Map Technology is Launched; Public to Learn of Ground-Level Ozone 
                                Dangers

    Boston--Watching your television news broadcast can be good for 
your health. The U.S. Environmental Protection Agency, in conjunction 
with the Ozone Transport Commission (OTC), the Northeast States for 
Coordinated Air Use Management (NESCAUM) and the Mid-Atlantic Regional 
Air Management Association (MARAMA) today launched an animated smog map 
to broadcast during daily weather reports in many states that 
experience high levels of summertime ground-level ozone, commonly known 
as smog.
    Smog is a major air pollutant and respiratory irritant that can 
cause permanent lung damage and sends thousands of people to hospitals 
each year with respiratory ailments. As of June 1997, over 100 million 
people reside in areas of the country that do not meet National Ambient 
Air Quality Standards for ozone.
    ``The ozone map was developed to warn people about dangerous air 
quality,'' said Jason Grumet, executive director of NESCAUM. ``Although 
we can't see or smell smog, individuals have the right to know what 
they are breathing and what is making them ill. Just as important, the 
map will also serve as a way to educate individuals so that they take 
actions every day to reduce their own contribution to ground-level 
ozone. Steps such as reducing car emissions, using manual lawn mowers 
and filling gas tanks during evening hours will have a profound effect 
on reducing the levels of smog we all breathe.''
    The high-tech mapping system gathers air quality data from more 
than 200 state and local air monitoring stations from North Carolina to 
Maine and provides colonized maps several times daily to show the 
concentration and location of smog. The new smog map allows residents 
to reduce their exposure to unhealthful air and to take proactive 
measures to reduce the amount of pollution they contribute.
    ``Information is power. This information will give parents, 
athletes, seniors and others the power to protect themselves,'' said 
EPA's New England Administrator John P. DeVillars. ``Last month 
President Clinton took a strong stand in favor of better air quality by 
issuing a decision for stringent new standards for clean air. The Ozone 
Map takes these efforts a step further by making Americans aware of air 
quality in their own backyards.''
    Jeanne Fox, EPA Region-2 Administrator, said, ``The 14-state Ozone 
Mapping Project provides the public with critical data about a 
potential health hazard. We all benefit from the investment in new 
technology that brings air monitoring data to the TV screen in a way 
that is useful to the viewing public.''
    According to Dr. Alfred Munzer, past president of the American Lung 
Association, ``Ozone air pollution is a health risk for the millions of 
Americans who live in affected areas, but especially for children, the 
elderly and people with respiratory disease. A recent Lung Association 
study of 13 cities found that hospitalization among people with asthma 
and other lung disorders doubled during the summer ozone season. 
Providing air quality information directly to these vulnerable 
individuals gives them a valuable tool to limit their exposure and 
protect their health.''
    Jane Nishida, secretary of the Maryland Department of the 
Environment, stated, ``Maryland pioneered the ozone map technology 3 
years ago with the American Lung Association of Maryland. Maryland has 
aired the map locally for 3 years and is excited about the enhanced 
expansion of the ozone map throughout the Northeastern and Mid-Atlantic 
states.''
    Susan Wierman, executive director of the Mid-Atlantic Regional Air 
Management Association, added, ``In 1994, a group of key individuals 
believed that a map of ground-level ozone was possible and pursued the 
concept tenaciously. Building on their efforts, we can now offer this 
state-of-the- art technology to broadcasters, print, radio and Internet 
providers throughout our 14-state region.''
    Ozone pollution is not just a danger to susceptible populations; 
healthy individuals who work, exercise or play outdoors for even an 
hour or two can suffer respiratory difficulty in the form of coughing, 
chest pains and throat irritation. Experts estimate that between $50 
and $100 billion per year is spent treating medical ailments caused by 
air pollution. Further, the consequences of ozone pollution go beyond 
health and safety concerns, the U.S. Environmental Protection Agency 
reports that lowering ozone exposure will reduce the yield loss of 
major agricultural crops by almost $500 billion.
    Bruce Carhart, executive director of the Ozone Transport 
Commission, said, ``Seeing the new ground-level ozone map on TV will 
bring to light the true extent of our smog problem. The partnerships 
between states and media outlets to provide air quality information 
will add to the public's understanding of ground-level ozone's impact 
on their health.''
    Ground-level ozone is created through the interactions of man-made 
emissions of volatile organic compounds and nitrogen oxides in the 
presence of heat and sunlight. Cars and other gasoline-burning engines 
are large sources of volatile organic compounds. Other sources include 
oil-based paints, insecticides and cleaners. Nitrogen oxides, the other 
chemical precursor of ground-level ozone, are produced whenever fossil 
fuels are produced whenever fossil fuels are burned and are primarily 
produced by motor vehicles and power plants.
    Ozone mapping data is available at no charge to broadcasters and 
the public on the Internet at http://www.epa.gov/regionO1/eco/ozone/ 
The data will also be available at no charge to clients of Weather 
Service International, a leading weather service provider, as 
``SMOGcast''. Additional weather service providers will be sought to 
distribute the map.
    ``TV stations are very interested in using the map on their weather 
forecasts because demand by the public for health and safety 
information has never been greater,'' said Maria Pirone of Weather 
Services International. ``We are pleased to serve the public by 
providing this free information through our partner television 
stations.''
    For those wishing to learn more about ground-level ozone call the 
U.S. EPA at 1-800-821-1237 to receive your free Air Quality guide and 
informational brochure.
    Mr. Grumet. Senator, please let me try again, because I 
don't think I was contradicting myself. I was indicating that 
those are voluntary measures that people could choose to take 
if they were given this kind of ozone smog map information on 
their nightly news. I was not suggesting, nor am I, nor would I 
ever suggest those were prescriptive measures that the 
Government would impose upon anybody. So I would welcome you 
putting it into the record, as long as it is in the proper 
context.
    Senator Inhofe. How many volunteers are you going to get 
out there on using manual lawn mowers instead of automatic lawn 
mowers.
    Mr. Grumet. Senator, I think----
    Senator Inhofe. A groundswell of volunteers.
    Mr. Grumet. I guess, you know, it depends on what kind of 
yard you have. Where I live in Boston, people have yards 
somewhat smaller than the horseshoe right here.
    Senator Inhofe. And instead of watching the World Series at 
night, you think they want to go out and gas their cars.
    Mr. Grumet. I guess, Senator, the issue--and I think you're 
talking it out of context, which I object to. The point is that 
we're trying to give people information and we were trying to 
explain to the TV audience what kinds of actions individuals 
could take of their own volition if they, in fact, cared enough 
to try to reduce their pollution. And these proposed----
    Senator Inhofe. That's clear. I understand what you're 
saying, Mr. Grumet.
    Mr. Grumet. I have no idea how many people would choose to 
take those options. Probably few.
    Senator Inhofe. Yes. Dr. Thurston, you testified before--
and I really appreciate your coming back. One thing that has 
come from your testimony is that not only do scientists 
disagree occasionally, but so do doctors. And you might 
remember that--I think you were here at our first scientific 
hearing, which was in February. Later on in April, Dr. 
Christopher Grand, an emergency room doctor, talked about how 
much more cost-effective in saving actual lives it would be to 
invest a fraction of the ozone PM costs into trauma care. Since 
then we have statistics--and he sent us these statistics--the 
flu vaccine for all citizens would be approximately $140 per 
life saved; a mammogram for women over 50, $810 per life saved; 
pneumonia vaccine for elderly, $2,000 per life saved. And then, 
compared to the PM ozone, based on EPA's estimate, which is 
dramatically different than some of the others we have, it 
would be $533,000 per life saved. Based on the Reason 
Foundation out in California that I referred to earlier, it 
would be $10 million per life saved.
    Do you think this is a good use of their funds.
    Mr. Thurston. I'm glad you bring this up, because I think 
that that's a specious argument that has been made quite a bit 
up here in Washington.
    The fact is that if we were to say we don't want to clean 
up the air, we won't make utilities put scrubbers on, I don't 
think they would take that money and donate it to hospitals so 
they could set up units like that.
    The fact is that they're a separate thing, and I think 
that's a specious argument. In other words, it's not a trade-
off of one versus the other at all; the question is whether to 
go forward and clean up the air and get the benefits that those 
offer or not.
    Senator Inhofe. What I'm trying to get to--and it seems as 
if it's not just when we're talking about clean air, but the 
same is true with endangered species, superfund, wetlands, kind 
of a cost/benefit analysis is something that I think should be 
somewhere induced into this thing.
    It may be true that that money wouldn't be spent, but when 
Dr. Grant was asked that same question he responded that, as an 
emergency room doctor, he has a whole host of drugs that worked 
that he needs more funds for trauma centers. And I think we'd 
probably agree with that.
    Mr. Thurston. Well, there is a cost benefit. I mean, the 
RIA looks at the cost and it looks at the benefits, and 
obviously there are lots of benefits which are not monetized on 
that. EPA has had cases where it has over-estimated the cost. I 
think the one that was being mentioned before, the scrubbers, 
as I recall, EPA estimated much higher cost for the acid rain 
cleanup than the less than $100 that a ton of SO2 is trading 
for today. So that's a case where not only industry but EPA 
also, as I recall, over-estimated the cost. So there are these 
cost/benefit analyses that are done as part of the regulatory 
process.
    Senator Inhofe. Thank you, Dr. Thurston.
    Mr. Smith, you have your attorney with you. Mr. Daskel is 
it.
    Mr. Smith. Yes, sir.
    Mr. Daskel. Yes, sir.
    Senator Inhofe. Mr. Daskel, you may want to answer this 
question. You'd probably be a little bit more familiar with it 
than Mr. Smith would. I'm interested in your lawsuit under the 
10th Amendment. Am I correct? And would you explain what that 
is.
    Mr. Daskel. Yes, sir. The 10th Amendment fundamentally 
guarantees State sovereignty, and under the Supreme Court's 
decision back in July striking down the pre-notice--the 
background check provisions of the Brady bill, the Supreme 
Court found that the provisions were Constitutionally invalid 
because they effectively commandeered the regulatory apparatus 
of the States. States were forced to pass legislation, 
implement regulations, and enforce them, essentially dancing to 
the strings of a Federal puppeteer, as some of the language of 
the opinion.
    In the opinion they talked about Federal--the IM 
requirements, which are one of the mandatory strategies under 
the Clean Air Act, and the court noted that it was fortunate 
for EPA that the IM cases of the late 1970's did not reach the 
high court because they would have invalidated those control 
measures, as well.
    Now, it is our position that, because the Clean Air Act 
mandates that once an area reaches a given area of 
nonattainment, certain controls are triggered as a matter of 
law. There is no flexibility. For example, in our industry we 
have to sell reformulated gasoline, we have to install stage 
two vapor recovery, even though you're controlling the same 
emissions now through on-board vehicle canisters. We have to do 
enhanced IM. And that forces the States to do exactly the same 
thing. The States have no choice but to pass legislation, adopt 
regulations, and implement and enforce those regulations 
against noncomplying parties, all to the strings of EPA.
    And I think what--my issue with Senator Baucus' remarks was 
that he was talking primarily in the context of 
PM<INF>2.5</INF> versus ozone, and legally they are two 
entirely different things, although I could certainly conceive 
of a way down the road apiece where, if I see that a control 
measure is going to--it's reasonably foreseeable that a given 
control measure is going to be needed to control 
PM<INF>2.5</INF>, that I could bring a citizen suit and enforce 
it, and that's one of our concerns.
    We talked about the process. And, with ozone, in 
particular, what really concerns us is that you're talking 
about rewriting the entire classification scheme of the Clean 
Air Act. I mean, EPA has got to talk about areas of influence 
and areas of violation. And while we were up here, I brought my 
Montana folks in to see Senator Baucus, himself, on occasions 
on this issue.
    You had the bill out of this committee, S. 1630, that had a 
very different classification scheme than the three House 
bills, and then the House bill that was ultimately enacted.
    What concerns us about the process is this grab that EPA 
can rewrite a classification scheme that was bitterly fought 
over between the two houses of Congress. That's one of the--I 
mean, as my friend, Mr. Smith, wanted to say, we elected you 
folks to make these decisions, not to hand them off to EPA.
    Senator Inhofe. Since we're speaking to an attorney here, 
let me ask if you've given some thought to potential lawsuits 
that could be brought by adopting a standard today that would 
not be implemented for 6 years in the case of ozone or 9 years 
in the case of PM, that, in fact, it's a double standard. What 
would be the legal ramifications of that, or have you given any 
thought to that.
    Mr. Daskel. I really--in other words, that the agency has 
essentially violated a duty by adopting a standard but by 
putting the implementation off into the future.
    Senator Inhofe. Yes. That has been the concern of a lot of 
people, the unpredictability. I think Mr. Sharp would agree 
that the fact that you can't predict into the future--and Mr. 
Abbott, also, because this is something that you make 
preparations for, as you pointed out. You spend a lot of money 
to do that, and then you find that maybe a lawsuit could come 
along and say, ``Wait a minute. You say you're not going to 
lower those standards, whether you're talking about ozone or 
PM, for a period of 6 years, and yet you've already adopted the 
standards, therefore you don't know when these standards could 
come down on you and how to prepare for them.'' The same would 
go for you, Mr. Martin. That's a concern I have. Am I correct 
in the fact that it's the nonpredictability that is probably 
one of the greatest problems here.
    Mr. Grumet. Senator, could I comment for one moment.
    Senator Inhofe. Yes. Of course.
    Mr. Grumet. Whatever the lawyers or judges decide, there 
are just some absolute realities. You need time to set up the 
monitoring network. That's going to take about 2 years. You 
need time to monitor, since the Act requires 3 years of data. 
That's 3 years. My States have to develop the implementation 
plans. Those take public hearings and State legislation. No 
matter what the courts say, lawyers can't make us do the 
impossible.
    Senator Inhofe. We're almost out of time here. I just want 
to cover a couple of things. One is that Senator Baucus made a 
comment that Administrator Browner was not a part of this 
panel. I can assure you Administrator Browner has been in many, 
many panels before my committee, as well as others. She said, 
when she testified, she's testified over 20 times on this 
issue. In our seven hearings, one was devoted entirely to her, 
and the other devoted entirely to her assistant, Mary Nickles. 
And earlier this month Carol Browner testified in the House 
committee on the House companion bill, which is House bill 
1984. So certainly it was not an effort to exclude her from 
testifying. She's very gifted, and she also has a talent of 
consuming time.
    And I think that there is something that I would like to 
invite all of you to read. It's the current edition of ``Forbes 
Magazine.'' It's entitled, ``Watch out for this Woman.'' I 
won't go into it, but if you'd like to read that you might find 
it to be of some interest. And you also might--it might be more 
revealing and maybe answer the question that so many people 
have asked me, ``Why is it, if there is no scientific 
justification for imposing such hardships and overregulation on 
the American people, all the way from the farmer to the union 
member to the entrepreneurs, why would she want to do this?'' I 
think that answers the question.
    I would like to--I know we have to conclude this, because 
we have to give up the room, but I hope that everyone who is--
and if there are any responses to this, I'd be glad to hear 
from any member of the panel. But when we talk about the 
premature deaths, that is really a great disservice to the 
American people, implying that people are going to die.
    I remember when we had one of our hearings here, and I 
asked the definition of what constitutes a premature death, and 
I don't remember if any of you--I don't think any of you were 
on that particular panel. And when they described it, I told 
the story of my very dear mother-in-law, who on New Year's Day 
of this year died at age 95, and it was really a blessing that 
it came at a time that it was the appropriate time. However, 
she would have fit in the category of premature deaths as 
defined before this panel.
    And then, when you go from 60,000 premature deaths down to 
20, down to 15, down to 5, down to 1,000, it's a moving target. 
It's kind of like the amount of money. They said it's only 
going to cost $8 billion a year, and yet the President's own 
Economic Advisory Council said it's going to be $60 billion a 
year. And, as we have talked about, many of the foundations 
around say it is going to be somewhere between $90 and $150 
million a year. We've put that to an average family of four, 
Mr. Abbott, to be around $1,700 a family. I don't know how many 
of your union members want to incur that kind of a financial 
hardship.
    So I do appreciate very much having this panel. We do feel 
very enthusiastic about doing something with this bill. I 
disagree with your comments about the bill. It's not a matter 
of just doing nothing. As Senator Baucus said, we want to 
outline a system to put something in place so that we would be 
able to predict that there is going to be proper scientific 
input on not just this change that is being advocated by the 
EPA and the Administration, but also any future changes insofar 
as the clean air is concerned. And I think that's very 
reasonable.
    It is my intention, I can announce to you, that even though 
I don't think we do have the votes to pass Senate bill 1084 and 
they do have the votes to pass in the House the House bill 
1984, I doubt if we would have the votes to override a veto. It 
is my intention to go ahead and try to put this on as an 
amendment, for example, in the ISTEA bill that's before us 
right now. I'm not sure we're going to get to it, but I have an 
amendment already drafted that is this particular bill, because 
it is appropriate to be on the intermodal transportation 
reauthorization bill, as well as perhaps fast track, if that 
should come along.
    So I appreciate the input that we've received from all of 
you, and I appreciate the time that you have devoted to this, 
and we are now adjourned.
    [Whereupon, at 11:28 a.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [The introduced bill, S. 1084, and additional statements 
submitted for the record follow.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Prepared Statement of Hon. James M. Inhofe, U.S. Senator from the State 
                              of Oklahoma
    Today's hearing will examine the Breaux/Inhofe Bill, S. 1084 the 
``Ozone and Particulate Matter Research Act of 1997.'' This legislation 
was introduced as a result of the new clean air standards for ozone and 
particulate matter promulgated by the EPA on July 17. This bill is a 
companion bill to H.R. 1984 introduced by Congressmen Klink and Upton 
and supported by Commerce Chairman Bliley and ranking member John 
Dingell.
    Senator Breaux and I felt it necessary to introduce this 
legislation because the EPA ignored the tremendous opposition to these 
new standards. Those opposed to the standards include everyone from:
Governors
U.S. Conference of Mayors
National League of Cities
National Association County Officials
National Conference of State Legislators
Local government officials
Agriculture Community (including:)
    Farm Bureau
    Farmers Union
    Cattlemen
    American Corn Growers
Small Business Community (including:)
    NFIB
    U.S. Chamber of Commerce
    Black Chamber of Commerce
    Small Business Survival Committee
A Number of State Environmental Directors (including):
    Montana
    Michigan
    Louisiana
    Alabama
    Nebraska
    Mississippi
    Idaho
    Ohio
    Oklahoma
    Kentucky
    South Carolina
    Tennessee
    Virginia
    In total, there have been over 3,200 letters resolutions and 
comments expressing concern with these standards. While I don't want to 
take the time to read the names of all of the organizations who sent 
these letters, I will distribute copies of an index to these letters to 
the members of the Committee and enter the index into the record.
    In addition, a number of organizations have written in support of 
the legislation being considered today and they include:
    U. S. Chamber of Commerce
    Grocery Manufacturers Association
    Steel Manufacturers Association
    American Trucking Associations
    National Federation of Independent Business
    National Indian Business Association
    National Food Processors Association
    National Restaurant Association and the 1995 White House Conference 
    on Small Business Environmental Implementation Chairs
    I would also like to introduce these letters into the record 
showing more than 30 organizations supporting the Breaux/Inhofe Bill.
    The House version currently has 191 cosponsors and the Senate Bill 
has a bipartisan list of 9 cosponsors. The cosponsors are:
    Kempthorne
    Ford
    Hagel
    Byrd
    Hutchison
    Hollings
    Phil Gramm
    And I am pleased that yesterday we added an additional 12 
cosponsors to the bill:
    Landrieu
    Cochran
    Sessions
    Tim Hutchinson
    Murkowski
    Ashcroft
    DeWine
    Hatch
    Shelby
    Enzi
    Thomas
    Roberts
    Before we get to the testimony of today's panel, I would like to 
briefly outline the bill.
    The bill establishes an independent panel to be convened by the 
National Academy of Sciences to prioritize the research needs on the 
health effects of particulate matter. This step will help bring 
consensus to any new standards proposed by the EPA in the future. In 
coming out with the recent standards the EPA relied on epidemiological 
studies and research performed by former EPA employees. The National 
Academy of Sciences will help restore credibility to the process.
    Next, in order to ensure that the Federal dollars are spent on the 
research priorities of the independent panel, the legislation 
establishes a Particulate Matter Interagency Committee to coordinate 
the activities of the Federal agencies engaged in particulate matter 
research. This committee will be composed of 8 different Agencies and 
Departments.
    The EPA will use this research in addition to private research to 
review the air quality criteria through the Clean Air Science Advisory 
Committee (CASAC). This review must be completed no earlier than 4 
years after the enactment of this Act.
    In addition to the science research, the EPA is authorized to 
require State implementation plans in order to establish a particulate 
matter monitoring program.
    During this research and monitoring period, the original standards 
for ozone and particulate matter will be reinstated and shall not be 
revised until the scientific review is completed.
    The legislation also directs the National Institute of Health to 
begin a research program to study the health effects of allergens on 
asthmatics, particularly in regard to urban inner cities. One of the 
biggest holes in the EPA's proposal was identifying the true causes of 
respiratory problems in inner city children.
    Finally, the legislation authorizes $100,000,000 to carry out the 
provisions with $25,000,000 of that sum set aside for the ozone 
research provision.
    This plan follows the advice of three of the four past CASAC 
chairs, it concentrates on understanding the science. For the farmers, 
the small businessmen, the unions, and the mayors and Governors; it 
provides continuity. Today they are concerned about the EPA's 
implementation schedule. They realize it can be challenged and thrown 
out by the courts and they need stability while they try to implement 
the 1990 amendments.
    I would like to remind everyone what Mary Nichols, the former EPA 
Assistant Administrator for Air said at our last hearing. ``Under the 
President's implementation schedule, the new standards will not save 
any lives over the next 5 years.''
    Therefore, the Breaux/Inhofe bill will provide the necessary 
research, monitoring, and stability for the American people without 
endangering any lives.
                               __________

                               ATTACHMENT

  list of letters, resolutions, and comments expressing concern about 
                          changes to the naaqs
    State legislative resolutions
Alabama House Resolution (4/16/96)
  <bullet>  *Alabama Senate Joint Resolution (SJR 77) (3/13/97)
  <bullet>  *Arkansas House Resolution (HR 1011) (2/21/97)
  <bullet>  *Arkansas Senate Resolution (SR 7) (3/10/97)
  <bullet>  *Colorado Senate Joint Resolution (SJR 34) (no date)
  <bullet>  Delaware Senate Resolution--Delaware House concurs (5/9/96)
  <bullet>  *Delaware House Concurrent Resolution (HCR 5) (1/29/97)
  <bullet>  *Delaware House Concurrent Resolution (HCR 42) (1/30/97)
  <bullet>  Florida House Resolution (HB 1927) (no date)
  <bullet>  *Georgia House Resolution (HR 379) (3/13/97)
  <bullet>  *Georgia Senate Resolution (SR 278) (3/17/97)
  <bullet>  *Idaho House Joint Memorial (HJM 7) (3/18/97)
  <bullet>  Illinois House Resolution (5/2/96)
  <bullet>  Illinois Senate Resolution (5/2/96)
  <bullet>  *Indiana Senate Concurrent Resolution (SCR 30) (1997)
  <bullet>  *Iowa Senate Concurrent Resolution (SCR 12) (no date)
  <bullet>  *Iowa House Concurrent Resolution (HCR 8) (no date)
  <bullet>  *Kansas Senate Concurrent Resolution (SCR 1608)
  <bullet>  *Interim Joint Committee on Agriculture and Natural 
    Resources of the Commonwealth of Kentucky (no date)
  <bullet>  *Michigan House Concurrent Resolution (HCR 11) (3/12/97)
  <bullet>  *Michigan House Resolution (HR 13) (2/26/97)
  <bullet>  *Michigan Senate resolution (SR 22) (2/27/97)
  <bullet>  *Mississippi Senate resolution (SCR 577) (3/25/97)
  <bullet>  *Missouri House Concurrent Resolution (HCR 23) (3/6/97)
  <bullet>  *Missouri Senate Concurrent Resolution (SCR 12) (2/25/97)
  <bullet>  Ohio Resolution--passed both Houses of Legislature (11/14/
    96)
  <bullet>  *Ohio Senate Concurrent Resolution (SCR 2)
  <bullet>  *Ohio House Concurrent Resolution (HCR 8)
  <bullet>  *Ohio House Concurrent Resolution (HCR 9)
  <bullet>  *Ohio House Concurrent Resolution (HCR 10)
  <bullet>  *Oklahoma House Concurrent Resolution (HCR 1007)
  <bullet>  Rhode Island Senate Resolution (4/11/96)
  <bullet>  *Rhode Island Senate resolution (3/4/97)
  <bullet>  South Carolina Resolution--passed both the House and Senate 
    (4/18/96)
  <bullet>  *South Carolina Senate Resolution (SB 814) (4/22/97)
  <bullet>  *South Dakota Concurrent Resolution (SCR 4) (2/28/97)
  <bullet>  Tennessee House Resolution (4/3/96)
  <bullet>  *Utah Senate Joint Resolution (SJR 12)
  <bullet>  *West Virginia House Concurrent Resolution (HCR 7) (2/26/
    97)
                               __________
Letters from Governors
  <bullet>  *Arizona Governor Fife Symington to Carol Browner (3/12/97)
  <bullet>  *Arizona Governor Fife Symington to President Clinton (6/
    12/97)
  <bullet>  *Arkansas Governor Mike Huckabee to Carol Browner (3/3/97)
  <bullet>  *Arkansas Governor Mike Huckabee to President Clinton (5/
    16/97)
  <bullet>  Arkansas Governor Jim Guy Tucker to Carol Browner and OMB 
    (4/9/96)
  <bullet>  *Delaware Governor Thomas Carper to Mary Nichols (3/12/97)
  <bullet>  Florida Governor Lawton Chiles to Carol Browner (5/7/96)
  <bullet>  *Florida Governor Lawton Chiles to Carol Browner (1/8/97)
  <bullet>  Georgia Governor Zell Miller to President Clinton (9/19/96)
  <bullet>  Illinois Governor Jim Edgar to Carol Browner (5/2/96)
  <bullet>  Indiana Governor Evan Bayh to Carol Browner (7/16/96)
  <bullet>  *Indiana Governor Frank O'Bannon to Carol Browner (3/12/97)
  <bullet>  *Kansas Governor Bill Graves to Carol Browner (3/11/97)
  <bullet>  Kentucky Governor Paul Patton to Carol Browner (5/23/96)
  <bullet>  Kentucky Governor Paul Patton to President Clinton (6/12/
    96)
  <bullet>  Louisiana Governor Mike Foster to Carol Browner (5/23/96)
  <bullet>  *Louisiana Governor Mike Foster to Carol Browner (3/11/97)
  <bullet>  Michigan Governor John Engler to Carol Browner (6/12/96)
  <bullet>  *Michigan Governor Engler to his colleagues at the NGA 
    meeting (2/2/97)
  <bullet>  Mississippi Governor Kirk Fordice to Carol Browner (7/2/96)
  <bullet>  Missouri Governor Mel Carnahan to Carol Browner (9/24/96)
  <bullet>  *Montana Governor Marc Racicot (3/11/97)
  <bullet>  *North Carolina Governor James Hunt to Carol Browner (3/11/
    97)
  <bullet>  *North Dakota Governor Ed Schafer to Carol Browner (3/10/
    97)
  <bullet>  *North Dakota Governor Ed Schafer to U.S. Senator Kent 
    Conrad (D-ND) (9/12/97)
  <bullet>  *North Dakota Governor Ed Schafer to U.S. Representative 
    Earl Pomeroy (D-ND) (6/10/97)
  <bullet>  Ohio Governor George Voinovich to Carol Browner (5/3/96)
  <bullet>  Ohio Governor George Voinovich to Carol Browner (11/25/96)
  <bullet>  Ohio Governor George Voinovich to Carol Browner (no date)
  <bullet>  *Ohio Governor Voinovich to Carol Browner (3/10/97)
  <bullet>  *Joint letter from Ohio Governor Voinovich, the Speaker of 
    the Ohio House, and the President of the Ohio Senate to Senator 
    Chafee (1/7/97)
  <bullet>  *Ohio Governor Voinovich and Lieutenant Governor Hollister 
    to all Ohio mayors and county commissioners impacted by the 
    proposed NAAQS revisions (1/13/97)
  <bullet>  *Ohio Governor Voinovich to U.S. Representative Sherrod 
    Brown (D-OH) (7/23/97)
  <bullet>  *Pennsylvania Governor Tom Ridge to Carol Browner (3/12/97)
  <bullet>  South Carolina Governor David Beasley to Carol Browner (5/
    7/96)
  <bullet>  *South Carolina Governor David Beasley to Carol Browner (3/
    7/97)
  <bullet>  *Tennessee Governor Don Sundquist to Carol Browner (1/13/
    97)
  <bullet>  *Texas Governor George W. Bush to Carol Browner (3/11/97)
  <bullet>  Utah Governor Michael Leavitt to Carol Browner (7/12/96)
  <bullet>  Virginia Governor George Allen to Carol Browner (9/13/96)
  <bullet>  Wisconsin Governor Tommy Thompson to Carol Browner (5/23/
    96)
  <bullet>  *Wisconsin Governor Tommy Thompson to Carol Browner (3/12/
    97)
  <bullet>  *Wisconsin Governor Tommy G. Thompson to President Clinton 
    (5/22/97)
  <bullet>  *Wyoming Governor Jim Geringer to North Dakota Governor Ed 
    Schafer (12/19/96)
  <bullet>  *Wyoming Governor Jim Geringer to Carol Browner (3/6/97)
  <bullet>  Letter signed by New Jersey Governor Christine Whitman and 
    Nebraska Governor Benjamin Nelson (Chair and Vice Chair of the NGA 
    Committee on Natural Resources) to Carol Browner (8/27/96)
  <bullet>  *Western Governors' Association letter signed by four 
    Governors: Nelson (NE), Schafer (ND), Leavitt (UT), and Miller (NV) 
    (5/9/97)
                               __________
Letters from members of the Clinton Administration
  <bullet>  Jere Glover (U.S. Small Business Administration) to Carol 
    Browner (11/18/96)
  <bullet>  *White House Conference on Small Business to President 
    Clinton (no date)
  <bullet>  *Department of the Air Force, Wright-Patterson Air Force 
    Base Ohio (2/11/97)
  <bullet>  *U.S. Department of Defense comments (3/12/97)
  <bullet>  *U.S. Department of Agriculture to EPA (3/31/97)
  <bullet>  *U.S. Department of Agriculture Air Quality Task Force to 
    USDA Secretary Dan Glickman (3/10/97)
  <bullet>  *U.S. Department of Energy (3/97)
  <bullet>  U.S. Department of Transportation to Sally Katzen, OMB (11/
    20/96)
  <bullet>  *Memo from Alicia H. Munnell, Executive Office of the 
    President, Council of Economic Advisors to Sally Katzen, OMB (12/
    10/96)
  <bullet>  *Memo from Alicia Munnell to Art Fraas, OMB (12/13/96)
                               __________
Public policy group resolutions
  <bullet>  National Association of Counties (NACo) resolution (7/14/
    96) *National Association of Counties (NACo) resolution (3/2/97)
  <bullet>  Policy Statement (Resolution) adopted by the Energy Council 
    (the Energy Council is an organization of elected state legislators 
    from ten energy producing states and the province of Alberta. The 
    member states are AK, WY, CO, NM, TX, OK, AR, LA, MS, and AL.) (6/
    18/96)
  <bullet>  *Policy statement (resolution) adopted by the Energy 
    Council (3/2/97)
  <bullet>  ALEC Resolution (11/19/96)
  <bullet>  Western States Coalition Resolution (11/17/96)
  <bullet>  *Interstate Oil and Gas Compact Commission (IOGCC) 
    resolution (12/10/96)
  <bullet>  *Council of State Governments (CSG) resolution (12/96)
  <bullet>  *Midwestern Legislative Conference of the Council of State 
    Governments (7/13-16)
  <bullet>  *National League of Cities resolution (12/96)
  <bullet>  *National League of Cities resolution (7/11/97)
  <bullet>  *Western Governor's Association resolution (1/22/97)
  <bullet>  *National Governors' Association resolution (2/4/97)
  <bullet>  *National Conference of Black Mayors (NCBM) (4/25/97)
  <bullet>  *National Council of Elected County Executives (NCECE) (5/
    9/97)
  <bullet>  *Midwestern Governors' Conference (6/9/97)
  <bullet>  *U.S. Conference of Mayors (6/24/97)
                               __________
Letters from public policy groups
  <bullet>  *Representatives of several public policy groups (CSG, 
    International City/County Management Association, NACo, NCSL, NGA, 
    National League of Cities, United States Conference of Mayors) (12/
    19/96)
  <bullet>  Executive Director of the American Legislative Exchange 
    Council (ALEC) (5/17/96)
  <bullet>  *Western Governors' Association to U.S. Senators Inhofe (R-
    OK) and Graham (D-FL) (3/3/97)
  <bullet>  Energy Council (organization of legislators from ten 
    energy-producing states and a Canadian Province to U.S. Senator 
    James Inhofe (R-OK)
  <bullet>  Letter from the Republican Governors Association (went to 
    Browner and Nichols) (11/26/97)
  <bullet>  *Joint letter from the National Association of Counties 
    (NACo) and the National League of Cities (3/12/97)
  <bullet>  *Letter from the Executive Director of the National Council 
    of Elected County Executives to President Clinton (no date)
  <bullet>  *Letter and materials distributed by Paul Helmke, Mayor of 
    Fort Wayne, Indiana and President of the U.S. Conference of Mayors, 
    to mayors nationwide (Aug., 1997)
                               __________
Letters from members of the U.S. Congress
  <bullet>  *U.S. Representatives John Dingell (D-MI) and Ron Klink (D-
    PA) to Mayor Daley (Chicago), President of the U.S. Conference of 
    Mayors (6/20/97)
  <bullet>  *Joint letter from conservative Democrats (referred to as 
    Blue Dog Democrats) to President Clinton (4/30/97)
  <bullet>  *Joint letter from 42 House Democrats (previously referred 
    to as the ``Dingell letter'' to President Clinton (4/24/97)
  <bullet>  *Joint letter co-signed by 114 House members (the ``Boucher 
    letter'') to President Clinton (4/22/97)
  <bullet>  *Letter from members of the U.S. House Committee on 
    Agriculture to Carol Browner (5/9/97)
  <bullet>  *Letter co-signed by 35 members of the U.S. Senate (the 
    ``Inhofe letter'') to President Clinton (6/4/97)
  <bullet>  *Joint letter from 8 House members to Speaker Gingrich (R-
    GA) and Minority Leader Richard Gephardt (D-MO) (4/23/97)
  <bullet>  Eight U.S. Senators (James Inhofe (R-OK), Don Nickles (R-
    OK), Dirk Kempthorne (R-ID), John Warner (R-VA), Kit Bond (R-MO), 
    Larry Craig (R-ID), Robert Bennett (R-UT), Craig Thomas (R-WY)) to 
    Carol Browner (10/9/96)
  <bullet>  *Letter from members of the U.S. Senate Committee on 
    Agriculture, Nutrition, and Forestry to Carol Browner (6/9/97)
  <bullet>  *Five Democratic U.S. Senators (Robert Byrd (D-WV), John 
    Glenn (D-OH), Jay Rockefeller (D-WV), Wendell Ford (D-KY), Chuck 
    Robb (D-VA)) to Carol Browner (3/4/97)
  <bullet>  *U.S. Senator Kit Bond (R-MO) and Dale Bumpers (D-AR) to 
    Carol Browner (1/7/97)
  <bullet>  *U.S. Representatives John Dingell (D-MI) and Sherrod Brown 
    (D-OH) (2/25/97)
  <bullet>  Alabama Congressional Delegation to President Clinton (8/
    23/96)
  <bullet>  *Alabama Congressional Delegation to President Clinton (4/
    18/97)
  <bullet>  *Joint letter from U.S. Reps. Bud Cramer (D-AL), Spencer 
    Bachus (R-AL), and Sonny Callahan (R-AL) to Carol Browner and U.S. 
    Secretary of Transportation Rodney Slater (4/1/97)
  <bullet>  *Arkansas Congressional Delegation to President Clinton (5/
    13/97)
  <bullet>  *Opening statement of U.S. Senator Tim Hutchinson (R-AR) 
    before the Senate Env. and Public Works Subcommittee on Clean Air, 
    Wetlands, Private Property, and Nuclear Safety (3/3/97)
  <bullet>  *U.S. Representative Gary Condit (D-CA) to Carol Browner 
    (3/7/97)
  <bullet>  *U.S. Representative Jerry Lewis (R-CA) to Carol Browner 
    (2/11/97)
  <bullet>  U.S. Representative Michael Castle (R-DE) to Carol Browner 
    (6/20/96)
  <bullet>  *Florida Congressional Delegation to President Clinton (5/
    7/97)
  <bullet>  *U.S. Representative Ileana Ros-Lehtinen (R-FL) to Carol 
    Browner (1/10/97)
  <bullet>  *U.S. Representative Robert Wexler (D-FL) to Carol Browner 
    (5/2/97)
  <bullet>  *Georgia Congressional Delegation to Carol Browner (2/25/
    97)
  <bullet>  *Illinois Congressional Delegation to Carol Browner (4/11/
    97)
  <bullet>  U.S. Representative Lane Evans (D-IL) to Carol Browner (5/
    8/96)
  <bullet>  *Indiana Congressional Delegation to President Clinton (5/
    6/97)
  <bullet>  U.S. Representative Lee Hamilton (D-IN) to Carol Browner 
    (10/29/96)
  <bullet>  U.S. Representative Lee Hamilton (D-IN) to President 
    Clinton (11/18/96)
  <bullet>  U.S. Representative Lee Hamilton (D-IN) to Michael Kantor, 
    Secretary, U.S. Department of Commerce (11/26/96)
  <bullet>  U.S. Representative Lee Hamilton (D-IN) to Franklin Raines, 
    OMB (11/26/96)
  <bullet>  *U.S. Representative Lee Hamilton (D-IN) to Michael Kantor, 
    Secretary, U.S. Department of Commerce (1/8/97)
  <bullet>  *U.S. Representative Lee Hamilton (D-IN) William Daley, 
    Secretary, U.S. Department of Commerce (3/13/97)
  <bullet>  U.S. Representative John Hostettler (R-IN) to Carol Browner 
    (2/25/97)
  <bullet>  *U.S. Representative David McIntosh (R-IN) to Carol Browner 
    (1/24/97)
  <bullet>  *U.S. Representative Mark Souder (R-IN) to Carol Browner 
    (2/14/97)
  <bullet>  *Kentucky Congressional Delegation to Carol Browner (3/20/
    97)
  <bullet>  *U.S. Representative Richard Hugh Baker (R-LA) to Carol 
    Browner (2/13/97)
  <bullet>  Five U.S. Representatives from (MI) to Bill Clinton (11/26/
    96)
  <bullet>  *U.S. Representative John Dingell (D-MI) to Carol Browner 
    (12/13/96)
  <bullet>  *U.S. Representative John Dingell (D-MI) to his colleagues 
    (7/15/97)
  <bullet>  *U.S. Representative Vernon Ehlers (R-MI) to Carol Browner 
    (3/13/97)
  <bullet>  *U. S. Representative Carolyn C. Kilpatrick (D-MI) to 
    President Clinton (6/24/97)
  <bullet>  U.S. Representative Pat Danner (D-MO) to President Clinton 
    (10/23/96)
  <bullet>  *U.S. Representative Jo Ann Emerson (R-MO) to Carol Browner 
    (2/7/97)
  <bullet>  *Joint letter from U.S. Representatives Karen McCarthy (D-
    MO), Ike Skelton (D-MO), and U.S. Senator John Ashcroft (R-MO) to 
    Carol Browner (3/12/97)
  <bullet>  *U.S. Senator Pete Domenici (R-NM) to President Clinton (2/
    6/97)
  <bullet>  *U.S. Senator Pete Domenici (R-NM) to Carol Browner (2/6/
    97)
  <bullet>  *U.S. Representative James Walsh (R-NY) to President 
    Clinton (6/10/97)
  <bullet>  *North Carolina Congressional Delegation to Carol Browner 
    (5/15/97)
  <bullet>  *U.S. Representative Howard Coble (R-NC) to EPA (2/18/97)
  <bullet>  *U.S. Representative Sue Myrick (R-NC) to Lyons Gray, NC 
    Gen. Assembly (5/27/97)
  <bullet>  *U.S. Representative Mike McIntyre (D-NC) to Lyons Gray, NC 
    Gen. Assembly (5/29/97)
  <bullet>  *U.S. Senator Lauch Faircloth (R-NC) to NC state 
    representative Timothy Tallent (3/19/97)
  <bullet>  *U.S. Senator Lauch Faircloth (R-NC) to NC state 
    representative Frank Mitchell (3/19/97)
  <bullet>  *U.S. Senator Lauch Faircloth (R-NC) to NC state senator 
    R.L. Martin (3/13/97)
  <bullet>  *U.S. Senator Lauch Faircloth (R-NC) to NC state 
    Representative Lyons Gray (5/9/97)
  <bullet>  *U.S. Representative Bob Etheridge (D-NC) to NC state 
    Representative Lyons Gray (5/7/97)
  <bullet>  *U.S. Representative Bob Etheridge (D-NC) to NC Rep. 
    Richard Conder (5/5/97)
  <bullet>  *U.S. Representative Bob Etheridge (D-NC) to NC State 
    Representative Lyons Gray (6/12/97)
  <bullet>  *U.S. Representative Cass Ballenger (R-NC) to NC state 
    representative Frank Mitchell (3/20/97)
  <bullet>  *U.S. Representative Eva Clayton (D-NC) to NC state 
    representative Richard Conder (4/17/97)
  <bullet>  *U.S. Representative Eva Clayton (D-NC) to Carol Browner 
    (6/17/97)
  <bullet>  *U.S. Representative Bill Hefner (D-NC) to NC state Senator 
    Richard Condor, Majority Leader (4/30/97)
  <bullet>  *U.S. Representative Bill Hefner (D-NC) to NC Rep. Mia 
    Morris (5/14/97)
  <bullet>  *U.S. Representative Walter Jones (R-NC) to NC State 
    Representative Lyons Gray (6/6/97)
  <bullet>  *U.S. Representative David Price (D-NC) to NC state Senator 
    Richard Condor, Majority Leader (4/28/97)
  <bullet>  *U.S. Representative David Price (D-NC) to Lyons Gray, NC 
    Gen. Assembly (5/9/97)
  <bullet>  *Letter from 17 of 21 members of the OH Congressional 
    Delegation (including 5 democrats) to Carol Browner (2/26/97)
  <bullet>  *U.S Representative Paul Gillmor (R-OH) to Carol Browner 
    (1/16/97)
  <bullet>  *U.S. Representative Ted Strickland (D-OH) to Carol Browner 
    (2/26/97)
  <bullet>  *U.S. Representative Robert Ney (R-OH) to Carol Browner 
    (12/16/96)
  <bullet>  *U.S. Representative Bob Ney (R-OH) to Carol Browner (2/6/
    97)
  <bullet>  *U.S. Representative Bob Ney (R-OH) to Carol Browner (2/20/
    97)
  <bullet>  *U.S. Representative Bob Ney (R-OH) to Carol Browner (7/15/
    97)
  <bullet>  *U.S. Representative J.C. Watts, Jr. (R-OK) to Carol 
    Browner (2/13/97)
  <bullet>  U.S. Representative Mike Doyle (D-PA) to Carol Browner (11/
    22/96)
  <bullet>  *U.S. Senator Arlen Specter (R-PA) to Carol Browner (3/12/
    97)
  <bullet>  *U.S. Representative Joseph Pitts (R-PA) (2/25/97)
  <bullet>  *U.S. Representative Joseph Pitts (R-PA) to U.S. 
    Representative Thomas Bliley (R-VA) (2/25/97)
  <bullet>  *U.S. Senator John Chafee (R-RI) to Carol Browner (4/16/97)
  <bullet>  *South Carolina Congressional Delegation to Carol Browner 
    (6/6/97)
  <bullet>  U.S. Senator Strom Thurmond (R-SC) to Robert Hickmott (EPA) 
    (5/16/96)
  <bullet>  *U.S. Representative John Thune (R-SD) (3/11/97)
  <bullet>  *U.S. Representative John Thune (R-SD) to Sally Katzen, OMB 
    (5/8/97)
  <bullet>  *U.S. Representative John Thune (R-SD) to Kathleen McGinty, 
    Council on Environmental Quality (5/8/97)
  <bullet>  *U.S. Senator Tim Johnson (D-SD) (5/28/97)
  <bullet>  *U.S. Representative Ed Bryant (R-TN) to Carol Browner (2/
    25/97)
  <bullet>  *U.S. Representative John Duncan (R-TN) to Carol Browner 
    (12/16/97)
  <bullet>  *U.S. Representative John Duncan (R-TN) to Carol Browner 
    (1/24/97)
  <bullet>  *U.S. Representative John Duncan (R-TN) to Carol Browner 
    (2/14/97)
  <bullet>  *U.S. Representative Van Hilleary (R-TN) to Carol Browner 
    (1/20/97)
  <bullet>  *Texas Congressional Delegation to Carol Browner (4/17/97)
  <bullet>  *Joint letter from U.S. Representatives Kenneth Bentsen (D-
    TX) and Eddie Bernice Johnson (D-TX) to Carol Browner (4/17/97)
  <bullet>  *U.S. Representative Martin Frost (D-TX) to Carol Browner 
    (3/11/97)
  <bullet>  *U.S. Representative Kay Granger (R-TX) to President 
    Clinton (6/17/97)
  <bullet>  U.S. Senator Kay Bailey Hutchison (R-TX) to Carol Browner 
    (8/2/96)
  <bullet>  *U.S. Representative Max Sandlin (D-TX) to Carol Browner 
    (3/4/97)
  <bullet>  U.S. Representative Frank Tejeda (D-TX) to Carol Browner 
    (8/21/96)
  <bullet>  *U.S. Representative Tom Bliley (R-VA) to Carol Browner (2/
    26/97)
  <bullet>  *U.S. Representative Thomas Bliley (R-VA) to Carol Browner 
    (6/17/97)
  <bullet>  *U.S. Representative Tom Bliley (R-VA) to Carol Browner (2/
    3/97)
  <bullet>  U.S. Senator Robert Byrd (D-WV) to Lynne Ross (EPA) (6/14/
    96)
  <bullet>  U.S. Representative Alan Mollohan (D-WV) to Carol Browner 
    (6/13/96)
  <bullet>  *U.S. Representative Bob Wise (D-WV) to Carol Browner (3/
    12/97)
  <bullet>  *U.S. Representative Mark Neumann (R-WI) to Carol Browner 
    (6/20/97)
  <bullet>  Letters from state regulatory agencies
  <bullet>  *Letter from 13 environmental commissioners to U.S. Sens. 
    Trent Lott (R-MS), Tom Daschle (D-SD), and U.S. Reps. Newt Gingrich 
    (R-GA) and Richard Gephardt (D-MO) (7/21/97)
  <bullet>  *Alabama Department of Agriculture and Industries (3/11/97)
  <bullet>  *Alabama Department of Environmental Management (3/12/97)
  <bullet>  *Alaska Department of Natural Resources, Division of 
    Forestry to Carol Browner (3/12/97)
  <bullet>  *Arizona Department of Environmental Quality (3/11/97)
  <bullet>  *Arkansas Department of Pollution Control and Ecology (4/
    15/97)
  <bullet>  *Arkansas State Highway Commission (2/11/97)
  <bullet>  *Florida Department of Transportation (3/4/97)
  <bullet>  *Georgia Department of Natural Resources (3/11/97)
  <bullet>  *Idaho Department of Health and Welfare, Division of 
    Environmental Quality (3/10/97)
  <bullet>  *Illinois Environmental Protection Agency (3/10/97)
  <bullet>  *Illinois Department of Transportation (2/11/97)
  <bullet>  *Illinois Department of Transportation to President Clinton 
    (6/2/97)
  <bullet>  *Indiana Department of Environmental Management 
    Commissioner Michael O'Connor to Carol Browner (no date)
  <bullet>  *Indiana Department of Environmental Management to Carol 
    Browner (7/8/97)
  <bullet>  *Iowa Department of Economic Development (3/10/97)
  <bullet>  *Kansas Department of Health and Environment (3/10/97)
  <bullet>  *Kentucky Natural Resources and Environmental Protection 
    Cabinet (3/12/97)
  <bullet>  *Kentucky Natural Resources and Environmental Protection 
    Cabinet Secretary Bickford to Lynn Cutler, Office of 
    Intergovernmental Affairs (5/30/97)
  <bullet>  *Louisiana Department of Environmental Quality to EPA (3/
    11/97)
  <bullet>  *Michigan Department of Agriculture to EPA (1/15/97)
  <bullet>  *Michigan Department of Environmental Quality (3/10/97)
  <bullet>  *Michigan Department of Transportation (3/10/97)
  <bullet>  *Minnesota Department of Transportation (2/12/97)
  <bullet>  *Mississippi Department of Environmental Quality (3/7/97)
  <bullet>  *Nebraska Department of Environmental Quality to Patricia 
    Koman and David McKee, EPA (3/12/97)
  <bullet>  Letter from the Nevada Bureau of Air Quality Chief to the 
    Nevada Department of Conservation and Natural Resources 
    Administrator (11/13/96)
  <bullet>  *New Mexico Environment Department to Carol Browner (3/10/
    97)
  <bullet>  *Joint comments of the NC Secretary of Transportation, 
    Secretary of Env. Health and Nat. Resources and Secretary of the 
    Dept. of Commerce (3/12/97)
  <bullet>  *North Dakota Department of Labor Commissioner Craig Hagen 
    to President Clinton (6/6/97)
  <bullet>  *North Carolina Commissioner of Agriculture James A. Graham 
    to President Clinton (6/17/97)
  <bullet>  *Ohio Department of Development to Carol Browner (2/25/97)
  <bullet>  *Ohio Department of Health to Carol Browner (3/10/97)
  <bullet>  *Ohio Environmental Protection Agency--Don Schregardus (3/
    10/97)
  <bullet>  *Oklahoma Department of Environmental Quality (3/10/97)
  <bullet>  *Oklahoma Department of Transportation (3/12/97)
  <bullet>  *South Carolina Department of Health and Environmental 
    Control (3/10/97)
  <bullet>  *South Carolina Department of Health and Environmental 
    Control to U.S. Senator Ernest Hollings (D-SC) (7/31/97)
  <bullet>  *South Carolina Department of Transportation (2/19/97)
  <bullet>  *South Carolina Department of Commerce to U.S. Senator 
    Ernest Hollings (D-SC) (6/17/97)
  <bullet>  *South Dakota Department of Environment and Natural 
    Resources (3/11/97)
  <bullet>  Commissioner of the Tennessee Department of Environment and 
    Conservation to Mary Nichols (5/16/96)
  <bullet>  Commissioner of the Texas Natural Resource Conservation 
    Commission to Mary Nichols (7/19/96)
  <bullet>  *Texas Natural Resource Conservation Commission (3/10/97)
  <bullet>  *Commonwealth of Virginia Department of Environmental 
    Quality (3/7/97)
  <bullet>  *Commonwealth of Virginia Department of Transportation (2/
    6/97)
  <bullet>  *West Virginia Department of Transportation, Division of 
    Highways (3/14/97)
  <bullet>  *West Virginia Division of Environmental Protection (3/11/
    97)
                               __________
Letters/comments from state senators and representatives
  <bullet>  *Alabama Caucus of House Democrats Chair, Mike Box to 
    President Clinton (6/3/97)
  <bullet>  *Alabama State Senator Pat Lindsey to President. Clinton 
    (6/13/97)
  <bullet>  Alabama Speaker of the House James Clark (D-AL) (6/13/96)
  <bullet>  *Alabama State Representative James Clark (D-AL) to 
    President Clinton (6/5/97)
  <bullet>  *Alabama State Representative Bill Fuller to President 
    Clinton (6/11/97)
  <bullet>  *Alabama State Representative Blaine Galliher to President 
    Clinton (6/12/97)
  <bullet>  *Alabama State Representative Seth Hammett to President 
    Clinton (6/12/97)
  <bullet>  *Alabama State Representative Randy Hinshaw to President 
    Clinton (6/12/97)
  <bullet>  *Alabama State Representative Ronald G. Johnson to 
    President Clinton (6/12/97)
  <bullet>  *Alabama State Representative Neal Morrison to President 
    Clinton (6/12/97)
  <bullet>  *Alabama State Representative Jack Page to President 
    Clinton (6/3/97)
  <bullet>  *Arizona State Senator Scott Bundgaard to President Clinton 
    (6/3/97)
  <bullet>  *Arizona State Senator Brenda Burns to President Clinton 
    (6/18/97)
  <bullet>  *Arizona State Senator Edward Cirillo to President Clinton 
    (6/9/97)
  <bullet>  *Arizona State Senator Randall Gnant to President Clinton 
    (6/17/97)
  <bullet>  *Arizona State Senator Thomas Patterson to President 
    Clinton (6/3/97)
  <bullet>  *Arizona State Senator Marc Spitzer to President Clinton 
    (6/12/97)
  <bullet>  *Arizona State Senator Carol Springer to President Clinton 
    (6/11/97)
  <bullet>  *Arizona State Representative Don Aldridge to President 
    Clinton (6/9/97)
  <bullet>  *Arizona State Representative Carolyn Allen to President 
    Clinton (6/3/97)
  <bullet>  *Arizona State Representative Mark Anderson to President 
    Clinton (6/10/97)
  <bullet>  *Arizona State Representative Bob Burns to President 
    Clinton (6/18/97)
  <bullet>  *Arizona State Representative Mike Gardner to President 
    Clinton (6/24/97)
  <bullet>  *Arizona State Representative Jeff Groscost to President 
    Clinton (6/3//97)
  <bullet>  *Arizona State Representative Marilyn Jarrett to President. 
    Clinton (6/23/97)
  <bullet>  *Arizona State Representative Karen Johnson to President 
    Clinton (6/9/97)
  <bullet>  *Arizona State Representative Laura Knaperek to President 
    Clinton (6/10/97)
  <bullet>  *Arizona State Representative Wes Marsh to President 
    Clinton (6/19/97)
  <bullet>  *Arizona State Representative Jean Hough McGrath to 
    President Clinton (6/4/97)
  <bullet>  *Arizona State Representative Robin Shaw to President 
    Clinton (6/4/97)
  <bullet>  *Arizona State Representative Tom Smith to President 
    Clinton (6/4/97)
  <bullet>  *Arizona State Representative Roberta Voss to President 
    Clinton (6/10/97)
  <bullet>  *Arizona State Representative Barry Wong to President 
    Clinton (6/4/97)
  <bullet>  *Arkansas State Senator Mike Bearden to President Clinton 
    (6/17/97)
  <bullet>  *Arkansas State Senator Canada to President Clinton (no 
    date)
  <bullet>  *Arkansas State Senator Cliff Hoofman to President Clinton 
    (6/4/97)
  <bullet>  *Arkansas State Senator Roy Lewellen to President Clinton 
    (no date)
  <bullet>  Arkansas State Senator William Walker (D-AR) to President 
    Clinton (no date)
  <bullet>  *Arkansas State Representative M. Dee Bennett to President 
    Clinton (6/17/97)
  <bullet>  *Arkansas State Representative Pat Bond to President 
    Clinton (6/3/97)
  <bullet>  *Arkansas State Representative Michael Booker to President 
    Clinton (6/17/97)
  <bullet>  *Arkansas State Representative Irma Hunter Brown to 
    President Clinton (6/20/97)
  <bullet>  *Arkansas State Representative Scott Ferguson (D-AR) (2/20/
    97)
  <bullet>  *Arkansas State Representative Scott Ferguson (D-AR) to 
    President Clinton (6/3/97)
  <bullet>  *Arkansas State Representative Joe Harris to President 
    Clinton (6/18/97)
  <bullet>  *Arkansas State Representative Myra Jones to President 
    Clinton (6/11/97)
  <bullet>  *Arkansas State Representative Ben McGee to President 
    Clinton (6/18/97)
  <bullet>  *Arkansas State Representative Jacqueline J. Roberts to 
    President Clinton (6/19/97)
  <bullet>  *Arkansas State Representative Judy Smith to President 
    Clinton (6/18/97)
  <bullet>  *Arkansas State Representative Wilma Walker to President 
    Clinton (6/17/97)
  <bullet>  *California State Assemblyman Steve Baldwin to U.S. 
    Representative Brian Bilbray (R-CA) (no date)
  <bullet>  *California State Assemblyman Howard Kaloogian to U.S. 
    Representative Brian Bilbray (R-CA) (no date)
  <bullet>  *California State Assemblyman Bernie Richter to U.S. 
    Representative Vic Fazio (D-CA) (8/27/97)
  <bullet>  *Colorado State Senator Jim Congrove to President Clinton 
    (6/23/97)
  <bullet>  *Colorado State Representative Barry Arrington to President 
    Clinton (6/6/97)
  <bullet>  *Colorado State Representative Chuck Berry (R-CO) to 
    President Clinton (12/9/96)
  <bullet>  *Colorado State Representative Doug Dean to President 
    Clinton (6/11/97)
  <bullet>  *Colorado State Representative Carl Miller to President 
    Clinton (6/9/97)
  <bullet>  *Colorado State Representative Mark Paschall to President 
    Clinton (6/10/97)
  <bullet>  *Colorado (former) State Representative Eric Prionzler to 
    President Clinton (6/10/97)
  <bullet>  Colorado State Representative Paul Schauer (R-CO) to 
    President Clinton (11/26/96)
  <bullet>  *Delaware State Representative George Carey (R-DE) (1/30/
    97)
  <bullet>  *Joint letter from Delaware State Senator Harris McDowell 
    (D-DE --Majority Whip) and state Representative Joseph DiPinto (R-
    DE) (3/12/97)
  <bullet>  *Florida State Senator Charlie Bronson to President Clinton 
    (6/6/97)
  <bullet>  *Florida State Senator Mario Diaz-Balart to President 
    Clinton (6/10/97)
  <bullet>  *Florida State Senator John Grant to U.S. Representative 
    Jim Davis (D-FL) (9/23/97)
  <bullet>  *Florida State Senator John Grant to U.S. Representative 
    Karen Thurman (D-FL) (10/3/97)
  <bullet>  *Florida State Senator John Ostalkiewicz to President 
    Clinton (no date)
  <bullet>  *Florida Senate and House agriculture committees to Carol 
    Browner (3/11/97). Letter signed by Sen. Charlie Bronson and Rep. 
    ``Irlo'' Bud Bronson.
  <bullet>  *Florida State Representative George Albright to President 
    Clinton (6/6/97)
  <bullet>  *Florida State Representative Joseph Arnall to President 
    Clinton (6/11/97)
  <bullet>  *Florida State Representative Rudolph ``Rudy'' Bradley to 
    President Clinton (6/5/97)
  <bullet>  *Florida State Representative Bob Brooks to President 
    Clinton (6/9/97)
  <bullet>  *Florida State Representative Jerrold Burroughs to 
    President Clinton (6/13/97)
  <bullet>  *Florida State Representative James Bush III to President 
    Clinton (6/13/97)
  <bullet>  *Florida State Representative D. Lee Constantine to 
    President Clinton (6/4/97)
  <bullet>  *Florida State Representative George Crady to President 
    Clinton (6/11/97)
  <bullet>  *Florida State Representative Faye B. Culp to U.S. 
    Representative Jim Davis (D-FL) (9/23/97)
  <bullet>  *Florida State Representative Willye F. Dennis to President 
    Clinton (6/4/97)
  <bullet>  *Florida State Representative James Fuller to President 
    Clinton (6/10/97)
  <bullet>  *Florida State Representative Howard Futch to President 
    Clinton (6/9/97)
  <bullet>  *Florida State Representative Rodolfo ``Rudy'' Garcia to 
    President Clinton (6/4/97)
  <bullet>  *Florida State Representative Harry C. Goode, Jr. to 
    President Clinton (6/13/97)
  <bullet>  *Florida State Representative John Morroni to President 
    Clinton (6/6/97)
  <bullet>  *Florida State Representative Luis C. Morse to President 
    Clinton (6/24/97)
  <bullet>  *Florida State Representative Bill Posey to President 
    Clinton (6/9/97)
  <bullet>  *Florida State Representative Luis Rojas to President 
    Clinton (6/12/97)
  <bullet>  *Florida State Representative R.Z. Sandy Safley to 
    President Clinton (6/6/97)
  <bullet>  *Florida State Representative Jeff Stabins to U.S. 
    Representative Cliff Stearns (R-FL) (10/10/97)
  <bullet>  *Florida State Representative Jeff Stabins to U.S. 
    Representative Karen Thurman (D-FL) (10/10/97)
  <bullet>  *Florida State Representative Allen Trovillion to President 
    Clinton (6/6/97)
  <bullet>  *Florida State Representative Earl Ziebarth to U.S. 
    Representative Clifford Stearns (R-FL) (9/27/97)
  <bullet>  *Georgia State Senator Robert Brown to U.S. Senator Max 
    Cleland (D-GA) (9/3/97)
  <bullet>  *Georgia State Senator Robert Brown to President Clinton 
    (6/12/97)
  <bullet>  *Georgia State Senator Casey Cagle to U.S. Senator Max 
    Cleland (D-GA) (8/29/97)
  <bullet>  *Georgia State Senator Casey Cagle to President Clinton (6/
    17/97)
  <bullet>  *Georgia State Senator Hugh M. Gillis, Sr. to U.S. Senator 
    Max Cleland (D-GA) (8/27/97)
  <bullet>  *Georgia State Senator Pam Glanton to U. S. Senator Max 
    Cleland (D-GA) (8/27/97)
  <bullet>  *Georgia State Senator Pam Glanton to President Clinton (6/
    19/97)
  <bullet>  *Georgia State Senator Floyd Griffin, Jr., to President. 
    Clinton (6/17/97)
  <bullet>  *Georgia State Senator Floyd L. Griffin, Jr. to U.S. 
    Senator Max Cleland (D-GA) (8/27/97)
  <bullet>  *Georgia State Senator Steve Henson to President Clinton 
    (6/9/97)
  <bullet>  *Georgia State Senator Donzella J. James to President 
    Clinton (6/16/97)
  <bullet>  *Georgia State Senator Connie Stokes to U.S. Senator Max 
    Cleland (D-GA) (8/29/97)
  <bullet>  *Georgia State Senator Connie Stokes to President Clinton 
    (6/9/97)
  <bullet>  *Georgia State Senator Nadine Thomas to U.S. Senator Max 
    Cleland (D-GA) (8/28/97)
  <bullet>  *Georgia State Senator Nadine Thomas to President Clinton 
    (6/10/97)
  <bullet>  *Georgia State Senator Steve Thompson to President Clinton 
    (6/2/97)
  <bullet>  *Georgia State Representative Alberta Anderson to President 
    Clinton (6/20/97)
  <bullet>  *Georgia State Representative Terry Barnard to U.S. Senator 
    Max Cleland (D-GA) (8/27/97)
  <bullet>  *Georgia State Representative Terry Barnard to President 
    Clinton (6/10/97)
  <bullet>  *Georgia State Representative Sharon Beasley-Teague to U.S. 
    Senator Max Cleland (D-GA) (8/28/97)
  <bullet>  *Georgia State Representative Sharon Beasley-Teague to 
    President Clinton (6/9/97)
  <bullet>  *Georgia State Representative Jeffrey W. Brown to U. S. 
    Senator Max Cleland (D-GA) (8/29/97)
  <bullet>  *Georgia State Representative Jeffrey W. Brown to President 
    Clinton (6/17/97)
  <bullet>  *Georgia State Representative Mark Burkhalter to President 
    Clinton (6/5/97)
  <bullet>  *Georgia State Representative Mark Burkhalter to U. S. 
    Senator Max Cleland (D-GA) (8/29/97)
  <bullet>  *Georgia State Representative Tom Campbell to President 
    Clinton (6/11/97)
  <bullet>  *Georgia State Representative Henrietta Canty to President 
    Clinton (6/4/97)
  <bullet>  *Georgia State Representative Henrietta M. Canty to U.S. 
    Senator Max Cleland (D-GA) (8/29/97)
  <bullet>  *Georgia State Representative Grace W. Davis to U.S. 
    Senator Max Cleland (D-GA) (8/29/97)
  <bullet>  *Georgia State Representative Grace W. Davis to President 
    Clinton (6/12/97)
  <bullet>  *Georgia State Representative Dorothy Felton to U. S. 
    Senator Max Cleland (D-GA) (8/29/97)
  <bullet>  *Georgia State Representative David Lucas, Sr. to President 
    Clinton (6/18/97)
  <bullet>  *Georgia State Representative June Hegstrom to President 
    Clinton (6/10/97)
  <bullet>  *Georgia State Representative Henry Howard to U.S. Senator 
    Max Cleland (D-GA) (8/27/97)
  <bullet>  *Georgia State Representative Henry Howard to President 
    Clinton (6/18/97)
  <bullet>  *Georgia State Representative Newt Hudson to President 
    Clinton (6/16/97)
  <bullet>  *Georgia State Representative Robert A. Irvin to U.S. 
    Senator Max Cleland (D-GA) (8/29/97)
  <bullet>  *Georgia State Representative Vermon Jones to President 
    Clinton (6/2/97)
  <bullet>  *Georgia State Representative Vernon Jones to U.S. Senator 
    Max Cleland (D-GA) (8/29/97)
  <bullet>  *Georgia State Representative George Maddox to U.S. Senator 
    Max Cleland (D-GA) (8/28/97)
  <bullet>  *Georgia State Representative George Maddox to President 
    Clinton (6/9/97)
  <bullet>  *Georgia State Representative Billy McKinney to President 
    Clinton (6/6/97)
  <bullet>  *Georgia State Representative Barbara J. Mobley to 
    President Clinton (6/4/97)
  <bullet>  *Georgia State Representative Lawrence Roberts to U.S. 
    Senator Max Cleland (D-GA) (8/27/97)
  <bullet>  *Georgia State Representative Lawrence Roberts to President 
    Clinton (6/19/97)
  <bullet>  *Georgia State Representative Calvin Smyre to President 
    Clinton (6/11/97)
  <bullet>  *Georgia State Representative LaNett Stanley to President 
    Clinton (6/17/97)
  <bullet>  *Georgia State Representative Pamela A. Stanley to U.S. 
    Senator Max Cleland (D-GA) (8/29/97)
  <bullet>  *Georgia State Representative Henrietta Turnquest to 
    President Clinton (6/6/97)
  <bullet>  *Georgia State Representative Henrietta E. Turnquest to 
    U.S. Senator Max Cleland (D-GA) (8/28/97)
  <bullet>  *Georgia State Representative Carl Von Epps to U.S. Senator 
    Max Cleland (D-GA) (8/28/97)
  <bullet>  *Georgia State Representative Carl Von Epps to President 
    Clinton (6/17/97)
  <bullet>  *Illinois State Senator J. Bradley Burzynski to President 
    Clinton (6/11/97)
  <bullet>  *Illinois State Senator Earlean Collins to President 
    Clinton (no date)
  <bullet>  *Illinois State Senator James DeLeo to President Clinton 
    (6/6/97)
  <bullet>  *Illinois State Senator James DeLeo to U.S. Senator Carol 
    Moseley-Braun (D-IL) (9/26/97)
  <bullet>  *Illinois State Senator James DeLeo to U.S. Senator Richard 
    Durbin (D-IL) (9/26/97)
  <bullet>  *Illinois State Senator Kirk W. Dillard to President 
    Clinton (6/10/97)
  <bullet>  *Illinois State Senator Bruce Farley to President Clinton 
    (5/30/97)
  <bullet>  *Illinois State Senator Beverly Fawell to President Clinton 
    (6/12/97)
  <bullet>  *Illinois State Senator Jesus G. Garcia to President 
    Clinton (5/31/97)
  <bullet>  *Illinois State Senator Denny Jacobs to U.S. Senator Carol 
    Moseley-Braun (D-IL) (9/18/97)
  <bullet>  *Illinois State Senator Doris C. Karpiel to President 
    Clinton (6/13/97)
  <bullet>  *Illinois State Senator Christopher Lauzen (R-IL) (1/13/97)
  <bullet>  *Illinois State Senator David Luechtefeld to President 
    Clinton (6/11/97)
  <bullet>  *Illinois State Senator David Luechtefeld to U.S. Senator 
    Richard Durbin (D-IL) (9/8/97). Letter also sent to U.S. Senator 
    Carol Moseley-Braun (D-IL).
  <bullet>  *Illinois State Senator Terry Link to U.S. Senator Carol 
    Moseley-Braun (D-IL) (8/18/97)
  <bullet>  *Illinois State Senator Terry Link to U.S. Senator Richard 
    Durbin (D-IL) (8/18/97)
  <bullet>  *Illinois State Senator Terry Link to U.S. Representative 
    John Edward Porter (R-IL) (9/4/97)
  <bullet>  *Illinois State Senator Terry Link to President Clinton (6/
    5/97)
  <bullet>  *Illinois State Senator William F. Mahar to President 
    Clinton (6/12/97)
  <bullet>  *Illinois State Senator John W. Maitland, Jr. to President 
    Clinton (6/13/97)
  <bullet>  *Illinois State Senator John W. Maitland, Jr. to U.S. 
    Senator Richard J. Durbin (D-IL) (9/9/97)
  <bullet>  *Illinois State Senator John W. Maitland to U.S. Senator 
    Carol Moseley-Braun (D-IL) (9/9/97)
  <bullet>  *Illinois State Senator Robert Molaro to President Clinton 
    (6/16/97)
  <bullet>  *Illinois State Senator Barack Obama to President Clinton 
    (5/28/97)
  <bullet>  *Illinois State Senator William L. O'Daniel to U.S. Senator 
    Carol Moseley-Braun (D-IL) (9/10/97)
  <bullet>  *Illinois State Senator William L. O'Daniel to U.S. Senator 
    Richard J. Durbin (D-IL) (9/10/97)
  <bullet>  *Illinois State Senator Kathleen K. Parker to President 
    Clinton (6/12/97)
  <bullet>  *Illinois State Senator Kathleen Parker to U.S. Senator 
    Richard Durbin (D-IL) (8/27/97)
  <bullet>  *Illinois State Senator Kathleen K. Parker to U.S. Senator 
    Carol Moseley-Braun (D-IL) (8/27/97)
  <bullet>  *Illinois State Senator Kathleen K. Parker to U.S. 
    Representative John Edward Porter (R-IL) (8/19/97)
  <bullet>  *Illinois State Senator Steven Rauschenberger to President 
    Clinton (6/18/97)
  <bullet>  *Illinois State Senator Steven Rauschenberger to U.S. 
    Senator Carol Moseley-Braun (D-IL) (9/12/97)
  <bullet>  *Illinois State Senator Steven Rauschenberger to U.S. 
    Senator Richard Durbin (D-IL) (9/12/97)
  <bullet>  *Illinois State Senator Jim Rea to President Clinton (6/13/
    97)
  <bullet>  *Illinois State Senator Penny Severns to U.S. Senator Carol 
    Moseley-Braun (D-IL) (9/30/97)
  <bullet>  *Illinois State Senator Penny Severns to U.S. Senator 
    Richard Durbin ( D-IL) (9/30/97)
  <bullet>  *Illinois State Senator William Shaw to President Clinton 
    (6/10/97)
  <bullet>  *Illinois State Senator Dave Syverson to President. Clinton 
    (6/11/97)
  <bullet>  *Illinois State Senator Louis S. Viverito to U.S. Senator 
    Richard Durbin (D-IL) (8/22/97)
  <bullet>  *Illinois State Senator Louis S. Viverito to U.S. Senator 
    Carol Moseley-Braun (D-IL) (8/22/97)
  <bullet>  *Illinois State Senator Louis S. Viverito to President 
    Clinton (6/15/97)
  <bullet>  *Illinois State Senator Frank Watson (R-IL) to Carol 
    Browner (1/28/97)
  <bullet>  *Illinois State Representative Mike Boland to President 
    Clinton (6/12/97)
  <bullet>  *Illinois State Representative Glenn E. Bradford to 
    President Clinton (6/12/97)
  <bullet>  *Illinois State Representative Glenn E. Bradford to U.S. 
    Senator Carol Moseley-Braun (D-IL) (9/8/97)
  <bullet>  *Illinois State Representative Glenn E. Bradford to U.S. 
    Senator Richard J. Durbin (D-IL) (9/8/97)
  <bullet>  *Illinois State Representative Richard T. Bradley to 
    President Clinton (6/6/97)
  <bullet>  *Illinois State Representative Richard T. Bradley to U.S. 
    Senator Carol Moseley-Braun (D-IL)
  <bullet>  *Illinois State Representative Richard T. Bradley to U.S. 
    Senator Richard J. Durbin (D-IL) (no date)
  <bullet>  *Illinois State Representative Richard T. Bradley to U.S. 
    Representative Rod Blagojevich (D-IL) (no date)
  <bullet>  *Illinois State Representative James D. Brosnahan to 
    President Clinton (6/13/97)
  <bullet>  *Illinois State Representative Robert J. Bugielski to 
    President Clinton (6/6/97)
  <bullet>  *Illinois State Representative Robert J. Bugielski to U.S. 
    Representative Rod Blagojevich (D-IL) (8/19/97)
  <bullet>  *Illinois State Representative Robert J. Bugielski to U.S. 
    Senator Richard Durbin (D-IL) (8/19/97)
  <bullet>  *Illinois State Representative Robert J. Bugielski to U.S. 
    Senator Carol Moseley-Braun (D-IL) (8/19/97)
  <bullet>  *Illinois State Representative Daniel Burke to President 
    Clinton (6/5/97)
  <bullet>  *Illinois State Representative Daniel J. Burke to U.S. 
    Senator Carol Moseley Braun (D-IL) (9/5/97)
  <bullet>  *Illinois State Representative Daniel J. Burke to U.S. 
    Senator Richard Durbin (D-IL) (9/5/97)
  <bullet>  *Illinois State Representative Ralph Capparelli to 
    President. Clinton (6/17/97)
  <bullet>  *Illinois State Representative Ralph C. Capparelli to U. S. 
    Senator Carol Moseley Braun (D-IL) (9/3/97)
  <bullet>  *Illinois State Representative Ralph C. Capparelli to U.S. 
    Senator Richard J. Durbin (D-IL) (9/3/97)
  <bullet>  *Illinois State Representative Ralph C. Capparelli to U.S. 
    Representative Rod R. Blagojevich (D-IL) (9/3/97)
  <bullet>  *Illinois State Representative Elizabeth Coulson to 
    President Clinton (5/31/97)
  <bullet>  *Illinois State Representative Elizabeth Coulson to U. S. 
    Senator Richard J. Durbin (D-IL) (9/10/97)
  <bullet>  *Illinois State Representative Elizabeth Coulson to U.S. 
    Senator Carol Moseley Braun (D-IL) (9/10/97)
  <bullet>  *Illinois State Representative Elizabeth Coulson to U.S. 
    Representative John Edward Porter (R-IL) (9/10/97)
  <bullet>  *Illinois State Representative M. Maggie Crotty to 
    President Clinton (6/12/97)
  <bullet>  *Illinois State Representative Julie Curry to President 
    Clinton (6/12/97)
  <bullet>  *Illinois State Representative Julie A. Curry to U.S. 
    Senator Carol Moseley Braun (D-IL) (9/8/97)
  <bullet>  *Illinois State Representative Julie A. Curry to U.S. 
    Senator Richard J. Durbin (D-IL) (9/8/97)
  <bullet>  *Illinois State Representative Thomas Dart to President 
    Clinton (6/4/97)
  <bullet>  *Illinois State Representative Steve Davis to President 
    Clinton (6/13/97)
  <bullet>  *Illinois State Representative Steve Davis to U.S. Senator 
    Carol Moseley Braun (D-IL) (8/20/97)
  <bullet>  *Illinois State Representative Steve Davis to U.S. Senator 
    Richard J. Durbin (D-IL) (8/20/97)
  <bullet>  *Illinois State Representative Terry Deering to President 
    Clinton (6/9/97)
  <bullet>  *Illinois State Representative James B. Durkin to President 
    Clinton (no date)
  <bullet>  *Illinois State Representative Arline Fantin to President 
    Clinton (5/31/97)
  <bullet>  *Illinois State Representative Arline M. Fantin to U.S. 
    Senator Carol Moseley Braun (D-IL) (9/2/97)
  <bullet>  *Illinois State Representative Arline M. Fantin to U.S. 
    Senator Richard J. Durbin (D-IL) (9/2/97)
  <bullet>  *Illinois State Representative Sara Feigenholtz to 
    President Clinton (5/29/97)
  <bullet>  *Illinois State Representative Mary Flowers to President 
    Clinton (6/20/97)
  <bullet>  *Illinois State Representative John Fritchey to President 
    Clinton (6/11/97)
  <bullet>  *Illinois State Representative Michael Giglio to President 
    Clinton (5/30/97)
  <bullet>  *Illinois State Representative Calvin L. Giles to President 
    Clinton (6/18/97)
  <bullet>  *Illinois State Representative Calvin Giles to U.S. Senator 
    Carol Moseley-Braun (D-IL) (9/12/97)
  <bullet>  *Illinois State Representative Calvin Giles to U.S. Senator 
    Richard Durbin (D-IL) (9/12/97)
  <bullet>  *Illinois State Representative Kurt Granberg to President 
    Clinton (6/16/97)
  <bullet>  *Illinois State Representative Kurt Granberg to U.S. 
    Senator Carol Moseley Braun (D-IL) (9/2/97)
  <bullet>  *Illinois State Representative Kurt Granberg to U.S. 
    Senator Richard J. Durbin (D-IL) (9/2/97)
  <bullet>  *Illinois State Representative Kurt Granberg to U.S. 
    Representative Rod R. Blagojevich (D-IL) (9/3/97)
  <bullet>  *Illinois State Representative Gary Hannig to President 
    Clinton (no date)
  <bullet>  Illinois State Representative Charles A. Hartke (D-IL) to 
    Carol Browner (10/23/96)
  <bullet>  *Illinois State Representative Charles A. Hartke to Lynn 
    Cutler, Office of Intergovernmental Affairs (5/30/97)
  <bullet>  *Illinois State Representative Charles A. Hartke to U.S. 
    Senator Carol Moseley Braun (D-IL) (9/9/97)
  <bullet>  *Illinois State Representative Charles A. Hartke to U.S. 
    Senator Richard J. Durbin (D-IL) (9/9/97)
  <bullet>  *Illinois State Representative Brent Hassert to President 
    Clinton (no date)
  <bullet>  *Illinois State Representative Thomas Holbrook to President 
    Clinton (6/3/97)
  <bullet>  *Illinois State Representative Tom Holbrook to U.S. Senator 
    Carol Moseley Braun (D-IL) (8/20/97)
  <bullet>  *Illinois State Representative Tom Holbrook to U.S. Senator 
    Richard J. Durbin (D-IL) (9/9/97)
  <bullet>  *Illinois State Representative Constance A. Howard to 
    President Clinton (6/12/97)
  <bullet>  *Illinois State Representative Constance A. Howard to U.S. 
    Carol Senator Moseley Braun (D-IL) (9/2/97)
  <bullet>  *Illinois State Representative Constance A. Howard to U.S. 
    Senator Richard J.Durbin (D-IL) (9/2/97)
  <bullet>  *Illinois State Representative Lou Jones to President 
    Clinton (6/9/97)
  <bullet>  *Illinois State Representative Shirley M. Jones to 
    President Clinton (6/11/97)
  <bullet>  *Illinois State Representative Howard Kenner to U.S. 
    Senator Carol Moseley Braun (D-IL) (9/15/97)
  <bullet>  *Illinois State Representative Howard Kenner to U.S. 
    Senator Richard J. Durbin (D-IL) (9/15/97)
  <bullet>  *Illinois State Representative I. Ronald Lawfer to 
    President Clinton (6/12/97)
  <bullet>  *Illinois State Representative Joseph Lyons to President 
    Clinton (6/3/97)
  <bullet>  *Illinois State Representative Joseph Lyons to U.S. Senator 
    Richard Durbin (D-IL) (9/18/97)
  <bullet>  *Illinois State Representative Frank J. Mautino to 
    President Clinton (6/11/97)
  <bullet>  *Illinois State Representative Frank J. Mautino to U.S. 
    Senator Carol Moseley-Braun (D-IL) (9/8/97)
  <bullet>  *Illinois State Representative Frank J. Mautino to U.S. 
    Senator Richard J. Durbin (D-IL) (9/8/97)
  <bullet>  *Illinois State Representative Kevin McCarthy to President 
    Clinton (5/31/97)
  <bullet>  *Illinois State Representative John C. McGuire to President 
    Clinton (6/9/97)
  <bullet>  *Illinois State Representative John C. McGuire to U.S. 
    Senator Carol Moseley-Braun (D-IL) (9/10/97)
  <bullet>  *Illinois State Representative John C. McGuire to U.S. 
    Senator Richard J. Durbin (D-IL) (9/10/97)
  <bullet>  *Illinois State Representative Larry McKeon to President 
    Clinton (6/9/97)
  <bullet>  *Illinois State Representative Larry McKeon to U.S. Senator 
    Carol Moseley-Braun (D-IL) (no date)
  <bullet>  *Illinois State Representative Larry McKeon to U.S. Senator 
    Richard J. Durbin (D-IL) (no date)
  <bullet>  *Illinois State Representative Jerry Mitchell to President 
    Clinton (6/13/97)
  <bullet>  *Illinois State Representative Jerry Mitchell to U.S. 
    Senator Carol Moseley-Braun (D-IL) (9/9/97)
  <bullet>  *Illinois State Representative Jerry Mitchell to U.S. 
    Senator Richard J. Durbin (D-IL) (9/9/97)
  <bullet>  *Illinois State Representative Jerry Mitchell to U.S. 
    Representative Lane Evans (D-IL) (9/9/97)
  <bullet>  *Illinois State Representative Eugene Moore to President 
    Clinton (6/6/97)
  <bullet>  *Illinois State Representative Charles G. Morrow III to 
    President Clinton (6/16/97)
  <bullet>  *Illinois State Representative Harold Murphy to President 
    Clinton (6/3/97)
  <bullet>  *Illinois State Representative Richard P. Myers to 
    President Clinton (6/12/97)
  <bullet>  *Illinois State Representative Richard Myers to U.S. 
    Senator Richard Durbin (D-IL) (9/15/97)
  <bullet>  *Illinois State Representative John Philip Novak to 
    President Clinton (6/9/97)
  <bullet>  *Illinois State Representative John Phillip Novak to U.S. 
    Senator Carol Moseley-Braun (D-IL) (8/28/97)
  <bullet>  *Illinois State Representative John Phillip Novak to U.S. 
    Senator Richard J. Durbin (D-IL) (8/28/97)
  <bullet>  *Illinois State Representative Mary O'Brien to President 
    Clinton (5/31/97)
  <bullet>  *Illinois State Representative Mary O'Brien to U.S. Senator 
    Carol Moseley-Braun (D-IL) (9/2/97)
  <bullet>  *Illinois State Representative Mary O'Brien to U.S. Senator 
    Richard Durbin (D-IL) (9/2/97)
  <bullet>  *Illinois State Representative Carole Pankau to President 
    Clinton (6/11/97)
  <bullet>  *Illinois State Representative David Phelps to President 
    Clinton (6/6/97)
  <bullet>  *Illinois State Representative David Phelps to U.S. Senator 
    Carol Moseley-Braun (D-IL) (8/18/97)
  <bullet>  *Illinois State Representative David Phelps to U.S. Senator 
    Richard Durbin (D-IL) (8/19/97)
  <bullet>  *Illinois State Representative Coy Pugh to President 
    Clinton (6/18/97)
  <bullet>  *Illinois State Representative Coy Pugh to U.S. Senator 
    Carol Moseley-Braun (D-IL) (9/30/97)
  <bullet>  *Illinois State Representative Coy Pugh to U.S. Senator 
    Richard Durbin (D-IL) (9/30/97)
  <bullet>  *Illinois State Representative Dan Reitz to U.S. Senator 
    Carol Moseley-Braun (D-IL) (9/11/97)
  <bullet>  *Illinois State Representative Dan Reitz to U.S. Senator 
    Richard Durbin (D-IL) (9/11/97)
  <bullet>  *Illinois State Representative Angelo Saviano to U.S. 
    Senator Richard J. Durbin (D-IL) (9/4/97)
  <bullet>  *Illinois State Representative Angelo Saviano to U.S. 
    Senator Carol Moseley-Braun (D-IL) (9/4/97)
  <bullet>  *Illinois State Representative Angelo Saviano to U.S. 
    Representative Rod R. Blagojevich (D-IL) (9/4/97)
  <bullet>  *Illinois State Representative Jeffrey M. Schoenberg to 
    President Clinton (6/10/97)
  <bullet>  *Illinois State Representative Jeffrey M. Schoenberg to 
    U.S. Senator Carol Moseley-Braun (D-IL) (9/3/97)
  <bullet>  *Illinois State Representative Jeffrey M. Schoenberg to 
    U.S. Senator Richard J. Durbin (D-IL) (9/3/97)
  <bullet>  *Illinois State Representative Jeffrey M. Schoenberg to 
    U.S. Representative John Edward Porter (R-IL) (9/3/97)
  <bullet>  *Illinois State Representative Doug Scott to President 
    Clinton (6/3/97)
  <bullet>  *Illinois State Representative Doug Scott to U.S. Senator 
    Carol Moseley-Braun (D-IL) (8/12/97). This letter was also sent to 
    U.S. Senator Richard Durbin (D-IL).
  <bullet>  *Illinois State Representative Michael Smith to President 
    Clinton (6/10/97)
  <bullet>  *Illinois State Representative Arthur L. Turner to 
    President Clinton (6/12/97)
  <bullet>  *Illinois State Representative Arthur Turner to U.S. 
    Senator Carol Moseley-Braun (D-IL) (10/1/97)
  <bullet>  *Illinois State Representative Arthur Turner to U.S. 
    Senator Richard Durbin ( D-IL) (10/1/97)
  <bullet>  *Illinois State Representative Ronald A. Wait to President 
    Clinton (6/11/97)
  <bullet>  *Illinois State Representative David Winters to President 
    Clinton (6/10/97)
  <bullet>  *Illinois State Representative Corrine Wood to President 
    Clinton (6/13/97)
  <bullet>  *Illinois State Representative Larry D. Woolard to 
    President Clinton (6/10/97)
  <bullet>  *Illinois State Representative Larry D. Woolard to U.S. 
    Senator Richard J. Durbin (D-IL) (8/29/97)
  <bullet>  *Illinois State Representative Larry D. Woolard to U.S. 
    Senator Carol Moseley-Braun (D-IL) (8/29/97)
  <bullet>  *Illinois State Representative Wyvetter H. Younge to 
    President Clinton (6/10/97)
  <bullet>  *Illinois State Representative Wyvetter H. Younge to U.S. 
    Senator Richard J. Durbin (D-IL) (9/11/97)
  <bullet>  *Illinois State Representative Wyvetter H. Younge to U.S. 
    Senator Carol Moseley-Braun (D-IL) (9/11/97)
  <bullet>  Indiana State Representative Ralph Foley (R-IN) (5/8/96)
  <bullet>  *Indiana State Representative Beverly J. Gard (IN) to Lynn 
    Cutler, Office of Intergovernmental Affairs (6/3/97)
  <bullet>  *Iowa State Senator Merlin Bartz to President Clinton (6/
    13/97)
  <bullet>  *Iowa State Senate Majority Leader Stewart Iverson, Jr. to 
    President Clinton (6/13/97)
  <bullet>  *Iowa State Representative Michael Cataldo to President 
    Clinton (6/10/97)
  <bullet>  *Iowa State Representative Dennis May to President Clinton 
    (no date)
  <bullet>  *Iowa State Representative Christopher Rants to President 
    Clinton (6/13/97)
  <bullet>  *Kansas State Senator Dick Bond to President Clinton (6/18/
    97)
  <bullet>  *Kansas State Senator Chris Steineger to President Clinton 
    (6/10/97)
  <bullet>  *Kansas State Representative David Adkins to President. 
    Clinton (6/18/97)
  <bullet>  *Kansas State Representative Richard Alldrift to President 
    Clinton (6/16/97)
  <bullet>  *Kansas State Representative Annie Kuether to President 
    Clinton (6/16/97)
  <bullet>  *Kansas State Representative Bruce Larkin to President 
    Clinton (6/16/97)
  <bullet>  *Kansas State Representative Laura McClure to President 
    Clinton (6/14/97)
  <bullet>  *Kansas State Representative Tony Powell to President 
    Clinton (6/16/97)
  <bullet>  *Kansas State Representative Doug Spangler to President 
    Clinton (no date)
  <bullet>  *Kansas State Representative Galen Weiland to President 
    Clinton (6/16/97)
  <bullet>  *Louisiana State Senator Paulette Riley Irons to President 
    Clinton (6/4/97)
  <bullet>  *Louisiana State Senator Paulette Irons to U.S. 
    Representative Bill Jefferson (D-LA) (8/11/97)
  <bullet>  *Louisiana State Representative Arthur A. Morrell to 
    President Clinton (6/4/97)
  <bullet>  *Louisiana State Representative Arthur A. Morrell to U.S. 
    Senator Breaux (D-LA) (6/6/97)
  <bullet>  *Louisiana State Representative Arthur A. Morrell to U.S. 
    Senator Landrieu (D-LA) (6/6/97)
  <bullet>  *Maine State Senator Jane Amero to President Clinton (6/4/
    97)
  <bullet>  *Maine State Senator Richard A. Bennett to President 
    Clinton (6/4/97)
  <bullet>  *Maine State Senator Jeffrey H. Butland to President 
    Clinton (6/4/97)
  <bullet>  *Maine State Senator R. Leo Kleffer to President Clinton 
    (6/7/97)
  <bullet>  *Maine State Senator Norman K. Ferguson, Jr. to President 
    Clinton (6/6/97)
  <bullet>  *Maine State Senator Betty Lou Mitchell to President 
    Clinton (6/6/97)
  <bullet>  *Maine State Representative Douglas Ahearne to President 
    Clinton (6/2/97)
  <bullet>  *Maine State Representative Alvin Barth to President 
    Clinton (6/7/97)
  <bullet>  *Maine State Representative Donald Berry, Sr., to President 
    Clinton (6/5/97)
  <bullet>  *Maine State Representative Gerald N. Bouffard to President 
    Clinton (6/2/97)
  <bullet>  *Maine State Representative Joseph Brooks to President 
    Clinton (6/3/97)
  <bullet>  *Maine State Representative Randall L. Bumps to President 
    Clinton (6/10/97)
  <bullet>  *Michigan State Representative Pat Gagliardi to President 
    Clinton (6/6/97)
  <bullet>  *Maine State Representative Rosita Gagne to President 
    Clinton (6/3/97)
  <bullet>  *Maine State Representative Gevorge Kerr to President 
    Clinton (6/3/97)
  <bullet>  *Maine State Representative William Lemke to President 
    Clinton (6/4/97)
  <bullet>  *Maine State Representative Thomas E. Poulin to President 
    Clinton (6/3/97)
  <bullet>  *Maine State Representative Edward J. Povich to President 
    Clinton (6/12/97)
  <bullet>  *Maine State Representative John H. Underwood to President 
    Clinton (6/5/97)
  <bullet>  *Maine State Representative Lois A. Snowe-Mello to 
    President Clinton (6/5/97)
  <bullet>  *Maine State Representative Marc. J. Vigue to President 
    Clinton (6/3/97)
  <bullet>  *Maine State Representative G. Paul Waterhouse to President 
    Clinton (6/5/97)
  <bullet>  *Maine State Representative Robert Winglass to President 
    Clinton (6/5/97)
  <bullet>  *Maine State Representative Julie Winn to President Clinton 
    (6/11/97)
  <bullet>  *Maine State Representative Tom Winsor to President Clinton 
    (6/4/97)
  <bullet>  *Joint letter from MD Speaker of the House Casper Taylor 
    (D) and Senate President Mike Miller (D) (3/12/97)
  <bullet>  *Joint letter from 48 Maryland state legislators to Michael 
    McCabe, U.S. EPA Region III Administrator (2/18/97). The 
    signatories are: Del. Martha Klima (R), Sen. Norman Stone (D), Del. 
    Donald Murphy (R), Sen. Philip Jimeno (D), Del. James Malone (D), 
    Sen. Edward Middlebrooks (R), Del. Wheeler Baker (D), Sen. Thomas 
    Bromwell (D), Del. Mary Roe Walkup (R), Sen. Timothy Ferguson (R), 
    Del. James Kelly (R), Sen. Larry Haines (R), Del. James Rzepkowski 
    (R), Sen. Lowell Stoltzfus (R), Del. John Leopold (R), Sen. Roy 
    Dyson (D), Del. Nancy Stocksdale (R), Sen. Richard Colburn (R), 
    Del. John Arnick (D), Del. James Ports (R), Del. Janet Greenup (R), 
    Del. Diane DeCarlo (D), Del. Robert Baldwin (R), Del. Kenneth Holt 
    (R), Del. Raymond Beck (R), Del. Louise Snodgrass (R), Del. Michael 
    Burns (R), Del. Anita Stup (R), Del. Victoria Schade (R), Del. Joan 
    Cadden (D), Del. Joseph Getty (R), Del. Thomas Dewberry (D), Del. 
    Alfred Redmer (R), Del. Kenneth Schisler (R), Del. Wade Kach (R), 
    Del. Rose Bonsack (D), Del. Barrie Ciliberti (R), Del. David 
    Brinkley (R), Del. Donald Fry (D), Del. John Donoghue (D), Del. 
    Nancy Jacobs (R), Del. Robert McKee (R), Del. Donald Elliott (R), 
    Del. Joseph Minnick (D), Del. Jake Mohorovic (D), Del. Anthony 
    O'Donnell (R), Del. Robert Kittleman (R), Del. Robert Flanagan (R)
  <bullet>  *Maryland State Senator Walter Baker to Michael McCabe, EPA 
    Region 3 Administrator (1/26/97)
  <bullet>  *Maryland State Senator Perry Sfikas to President Clinton 
    (6/20/97)
  <bullet>  *Maryland State Senator Norman Stone (D-MD) (cover letter 
    to 48 legislator letter) (3/7/97)
  <bullet>  *Maryland Delegate Donald Murphy to Michael McCabe, EPA 
    Region 3 Administrator (2/12/97)
  <bullet>  *Joint letter from Maryland Delegate D. Bruce Poole and 
    Maryland State Senator Donald Munson to Michael McCabe, EPA Region 
    3 Administrator (1/30/97)
  <bullet>  *Letter from several MI state senators to Carol Browner (2/
    12/97). The signatories are: Sen. Loren Bennett (R), Sen. Dick 
    Posthumus (R),Sen. Bill Bullard (R), Sen.Doug Carl (R), Sen. Dan 
    DeGrow (R), Sen. Chris Dingell (D), Sen. Mat Dunaskiss (R), Sen. 
    Joanne Emmons (R), Sen. Harry Gast (R), Sen. Robert Geake (R), Sen. 
    Joel Gougeon (R), Sen. Philip Hoffman (R), Sen. George McManus (R), 
    Sen. Walter North (R), Sen. Mike Rogers (R), Sen. Bill Schuette 
    (R), Sen. John Schwartz (R), Sen. Dale Shugars (R), Sen. Glenn 
    Steil (R), Sen. Leon Stille (R), Sen. Wm. Van Regenmorter (R).
  <bullet>  *Michigan State Representative Tom Alley to President 
    Clinton (3/8/97)
  <bullet>  *Michigan State Representative Tom Alley to President 
    Clinton (3/18/97)
  <bullet>  *Michigan State Representative Paul Baade to President 
    Clinton (6/5/97)
  <bullet>  *Michigan State Representative Beverly A Bodem to President 
    Clinton (6/4/97)
  <bullet>  *Michigan State Representative Beverly A. Bodem to U.S. 
    Representative Bart Stupak (D-MI) (8/21/97)
  <bullet>  *Michigan State Representative Beverly A. Bodem to U.S. 
    Senator Carl Levin (D-MI) (8/21/97)
  <bullet>  *Michigan State Representative Rose Bogardus to President 
    Clinton (6/2/97)
  <bullet>  *Michigan State Representative Robert Brackenridge to 
    President Clinton (6/5/97)
  <bullet>  *Michigan State Representative Lingg Brewer to President 
    Clinton (6/2/97)
  <bullet>  *Michigan State Representative Bob Brown to President 
    Clinton (6/5/97)
  <bullet>  *Michigan State Representative Deborah Cherry to President 
    Clinton (6/2/97)
  <bullet>  *Michigan State Representative Bob Emerson to President 
    Clinton (6/3/97)
  <bullet>  *Michigan State Representative Bob Emerson to U.S. 
    Representative Debbie Stabenow (D-MI) (8/28/97)
  <bullet>  *Michigan State Representative Bob Emerson to U.S. Senator 
    Carl Levin (D-MI) (8/28/97)
  <bullet>  *Michigan State Representative A.T. Frank to President 
    Clinton (5/30/97)
  <bullet>  *Michigan State Representative Pat Gagliardi to President 
    Clinton (6/6/97)
  <bullet>  *Michigan State Representative Michael J. Goschka to 
    President Clinton (6/11/97)
  <bullet>  *Michigan State Representative David Gubow to President 
    Clinton (6/11/97)
  <bullet>  *Michigan State Representative Michael J. Hanley to 
    President Clinton (5/30/97)
  <bullet>  *Michigan State Representative Clark Harder to President 
    Clinton (6/4/97)
  <bullet>  *Michigan State Representative Clark Harder to U.S. 
    Representative Debbie Stabenow (D-MI) (8/27/97)
  <bullet>  *Michigan State Representative Clark Harder to U. S. 
    Senator Carl Levin (D-MI) (8/27/97)
  <bullet>  *Michigan State Speaker of the House Curtis Hertel to 
    President. Clinton (6/13/97)
  <bullet>  *Michigan State Representative Kwame M. Kilpatrick to 
    President Clinton (5/29/97)
  <bullet>  *Michigan State Representative Gerald H. Law to President 
    Clinton (6/5/97)
  <bullet>  *Michigan State Representative Terry London to President 
    Clinton (6/19/97)
  <bullet>  *Michigan State Representative Thomas Middleton to 
    President Clinton (6/5/97)
  <bullet>  *Michigan State Representative Raymond M. Murphy to 
    President Clinton (5/28/97)
  <bullet>  *Michigan State Representative Dennis Olshove to President 
    Clinton (6/2/97)
  <bullet>  *Michigan State Representative Lynn Owen to President 
    Clinton (6/5/97)
  <bullet>  *Michigan State Representative Glenn Oxender to President 
    Clinton (6/4/97)
  <bullet>  *Michigan State Representative Michael Prusi to President 
    Clinton (6/2/97)
  <bullet>  *Michigan State Representative Vera R. Rison to President 
    Clinton (5/30/97)
  <bullet>  *Michigan State Representative Vera B. Rison to U.S. 
    Representative Debbie Stabenow (D-MI) (8/29/97)
  <bullet>  *Michigan State Representative Vera B. Rison to U.S. 
    Senator Carl Levin (D-MI) (8/29/97)
  <bullet>  *Michigan State Representative Mark H. Schauer to President 
    Clinton (6/5/97)
  <bullet>  *Michigan State Representative Martha G. Scott to President 
    Clinton (6/5/97)
  <bullet>  *Michigan State Representative Paul Tesanovich to President 
    Clinton (6/4/97)
  <bullet>  *Michigan State Representative Paul Tesanovich to U.S. 
    Representative Bart Stupak (D-MI) (8/20/97)
  <bullet>  *Michigan State Representative Paul Tesanovich to U.S. 
    Senator Carl Levin (D-MI) (8/20/97)
  <bullet>  *Michigan State Representative Ilona Varga to President 
    Clinton (6/4/97)
  <bullet>  *Michigan State Representative Ted Wallace to President 
    Clinton (6/2/97)
  <bullet>  *Michigan State Representative Howard Wetters to President 
    Clinton (6/3/97)
  <bullet>  *Minnesota State Senator Steve Dille to U.S. Representative 
    David Minge (D-MN) (9/8/97)
  <bullet>  *Minnesota State Senator Bob Lessard to President Clinton 
    (6/17/97)
  <bullet>  *Minnesota State Senator Jim Vickerman to U.S. 
    Representative David Minge (D-MN) (9/22/97)
  <bullet>  *Minnesota State Senator Deanna L. Wiener to U.S. 
    Representative Bill Luther (D-MN) (9/11/97)
  <bullet>  *Minnesota State Representative Tim Commers to 
    Representative Jim Ramstad (R-MN) (9/4/97)
  <bullet>  *Minnesota State Representative Erik Paulsen to 
    Representative Jim Ramstad (R-NM) (9/6/97)
  <bullet>  *Minnesota State Representative Ken Wolf to U.S. 
    Representative Jim Ramstad (R-MN) (8/28/97)
  <bullet>  *Mississippi House of Representatives to Carol Browner (4/
    6/97) Legible signatures include: Tommy Woods (R), Herb Frierson 
    (D), J. P. Compretta (D), Alvin C. Endt (R), Mark Formby (R), Jim 
    Ellington (R), Boby Shows (D), Carmel Wells-Smith (R), Terry Brown 
    (R), Tom Camerson (R), Thomas E. Johnson (R), Tom King (R), Charlie 
    Williams (R), Valeria Robertson (R), Bill Miles (D), John L. Moore 
    (R), James C. Simpson, Jr. (R), Frank Hamilton (D), Bobby Moody 
    (D), James D. Green (R), Clinton Rotenberry (R), Joe Elizey (D), 
    Ted Foster (R), Tom Weathersby (R), George Flagg (D), Keith 
    Montgomery (R), Bobby Howell (D), Lee J. Davis (R), Ken Stribling 
    (R), John Read (D), Charles Smith (D), Earl Banks (D), David L. 
    Green (D), Mary H. Coleman (D), Gene Saucier (D), Eric Robinson 
    (R),Andrew Ketchings (R), Eloise H. Scott (R), Charles W. Capps, 
    Jr. (D), Bill Denny (R), Billy Bowles (D), David Gibbs (D), 
    Leornard Morris (D), Omeria Scott (D), Reta Holden (D), Joe Mitch 
    McElwain (D), Rita Martinson (R), Robert Vince (D), V.C. Manning 
    (D), Percy Maples (R), Joe Warren (D), Joey Hudson (D), Mary Anne 
    Stevens (D), Ray Rogers (R), Harvey Moss (D), Johnny Stringer (D)
  <bullet>  *Missouri State Senator Steven Ehlmann (Minority Floor 
    Leader) to President Clinton (5/27/97)
  <bullet>  *Missouri State Senator Franc Flotron to President Clinton 
    (5/15/97)
  <bullet>  *Missouri State Senator Sidney Johnson (Assistant Majority 
    Floor Leader) to President Clinton (6/4/97)
  <bullet>  *Missouri State Senator Bill Kenney to President Clinton 
    (6/6/97)
  <bullet>  *Missouri State Senator Peter Kinder to President Clinton 
    (6/2/97)
  <bullet>  *Missouri State Senator William McKenna to President 
    Clinton (6/4/97)
  <bullet>  *Missouri State Senator Edward Quick (Majority Floor 
    Leader) to President Clinton (6/11/97)
  <bullet>  *Missouri State Representative Connie J. Cierpiot to 
    President Clinton (6/11/97)
  <bullet>  *Missouri State Representative Bonnie Sue Cooper to 
    President Clinton (6/6/97)
  <bullet>  *Missouri State Representative Bonnie Sue Cooper to U.S. 
    Representative Karen McCarthy (D-MO) (8/25/97)
  <bullet>  *Missouri State Representative Rita Days (Majority Whip) to 
    President Clinton (6/13/97)
  <bullet>  *Missouri State Representative Chuck Gross (R-MO) to Carol 
    Browner (2/24/97) *Missouri State Representative Jim Kreider 
    (Speaker Pro Tem) to President Clinton (5/9/97)
  <bullet>  *Missouri State Representative David Levin (R-MO) (2/19/97)
  <bullet>  *Missouri State Representative Fred Pouche to President 
    Clinton (6/10/97)
  <bullet>  *Missouri State Representative Carson Ross to President 
    Clinton (6/5/97)
  <bullet>  *Missouri State Representative Delbert Scott (Minority 
    Floor Leader) to President Clinton (6/20/97)
  <bullet>  *Nevada State Senator Ernie Adler to President Clinton (5/
    30/97)
  <bullet>  *Nevada State Senator Ernie Adler to U.S. Representative 
    Jim Gibbons (R-NV) (8/21/97)
  <bullet>  *Nevada State Senator Bernice Matthews to President Clinton 
    (no date)
  <bullet>  *Nevada State Senator Bernice Matthews to U.S. 
    Representative Jim Gibbons (R-NV) (no date)
  <bullet>  *Nevada State Senator Joe Neal to President Clinton (6/24/
    97)
  <bullet>  *Nevada State Senator Jack Regan to President Clinton (6/
    23/97)
  <bullet>  *Nevada State Senator Dean A. Rhoads to U.S. Representative 
    Jim Gibbons (R-NV) (8/20/97)
  <bullet>  *Nevada State Senator Mike Schneider to President Clinton 
    (6/24/97)
  <bullet>  *Nevada State Senator Ray Shaffer to U.S. Representative 
    Jim Gibbons (R-NV) (8/18/97)
  <bullet>  *Nevada State Senator Ray Shaffer to President. Clinton (6/
    23/97)
  <bullet>  *Nevada State Senator Valerie Wiener to President Clinton 
    (6/2/97)
  <bullet>  *Nevada State Assemblyman Mark Amodei to U.S. 
    Representative Jim Gibbons (R-NV) (8/22/97)
  <bullet>  *Nevada State Assemblyman Mark Amodei to President Clinton 
    (6/26/97)
  <bullet>  *Nevada State Assemblyman Bernie Anderson to President 
    Clinton (6/9/97)
  <bullet>  *Nevada State Assemblywoman Bernie Anderson to U.S. 
    Representative Jim Gibbons (R-NV) (8/22/97)
  <bullet>  *Nevada State Assemblyman Morse Arberry, Jr. to President 
    Clinton (6/19/97)
  <bullet>  *Nevada State Assemblyman Doug Bache to President Clinton 
    (6/23/97)
  <bullet>  *Nevada State Assemblywoman Barbara Buckley to President 
    Clinton (6/2/97)
  <bullet>  *Nevada State Assemblyman Vonne Chowning to President 
    Clinton (6/3/97)
  <bullet>  *Nevada State Assemblywoman Vonne Chowning to U.S. 
    Representative Jim Gibbons (R-NV) (8/19/97)
  <bullet>  *Nevada State Assemblyman Tom Collins to President Clinton 
    (6/5/97)
  <bullet>  *Nevada State Assemblyman Tom Collins to U.S. 
    Representative Jim Gibbons (R-NV) (8/21/97)
  <bullet>  *Nevada State Assemblywoman Marcia de Braga to U.S. 
    Representative Jim Gibbons (R-NV) (8/19/97)
  <bullet>  *Nevada State Assemblywomen Marcia de Braga to President 
    Clinton (6/22/97)
  <bullet>  *Nevada State Assemblywoman Vivian Freeman to U.S. 
    Representative Jim Gibbons (R-NV) (8/19/97)
  <bullet>  *Nevada State Representative Vivian Freeman to President 
    Clinton (6/26/97)
  <bullet>  *Nevada State Assemblyman David Goldwater to President 
    Clinton (no date)
  <bullet>  *Nevada State Assemblyman Don Gustavson to U.S. 
    Representative Jim Gibbons (R-NV) (8/22/97)
  <bullet>  *Nevada State Assemblyman Don Gustavson to President 
    Clinton (6/25/97)
  <bullet>  *Nevada State Assemblyman Dario Herrera to President 
    Clinton (no date)
  <bullet>  *Nevada State Assemblywoman Lynn Hettrick to U.S. 
    Representative Jim Gibbons (R-NV) (8/20/97)
  <bullet>  *Nevada State Assemblyman Lynn Hettrick to President 
    Clinton (6/23/97)
  <bullet>  *Nevada State Assemblywoman Ellen Koivisto to President 
    Clinton (no date)
  <bullet>  *Nevada State Assemblywoman Saundra Krenzer to President 
    Clinton (6/6/97)
  <bullet>  *Nevada State Assemblyman John Lee to President Clinton (6/
    18/97)
  <bullet>  *Nevada State Assemblyman Mark Manendo to President Clinton 
    (6/5/97)
  <bullet>  *Nevada State Assemblyman John Marvel to U.S. 
    Representative Jim Gibbons (R-NV) (8/18/97)
  <bullet>  *Nevada State Assemblyman John Marvel to President Clinton 
    (6/24/97)
  <bullet>  *Nevada State Assemblyman Harry Mortenson to President 
    Clinton (6/4/97)
  <bullet>  *Nevada State Assemblywoman Genie Ohrenschall to President 
    Clinton (no date)
  <bullet>  *Nevada State Assemblyman David Parks to President Clinton 
    (no date)
  <bullet>  *Nevada State Assemblyman Wendell Williams to President 
    Clinton (6/4/97)
  <bullet>  *New Jersey Speaker Pro Tem. Nicholas Felice (R-NJ) to Mary 
    Nichols (3/12/97)
  <bullet>  *New Jersey Assemblyman Guy Gregg (R-NJ) to Mary Nichols 
    (3/6/97)
  <bullet>  *New Mexico State Representative Donald L. Whitaker to 
    President Clinton (6/11/97)
  <bullet>  *New York State Senator Joseph Bruno (R-NY) (2/7/97)
  <bullet>  *New York State Senator Owen Johnson (R-NY) (2/11/97)
  <bullet>  *New York State Senator Owen Johnson (R-NY) to Carol 
    Browner (3/12/97)
  <bullet>  New York State Senator George Maziarz (R-NY) (5/21/96)
  <bullet>  *New York State Senator George Maziarz (R-NY) (2/4/97)
  <bullet>  *New York State Assemblyman Thomas Reynolds (R-NY) (1/30/
    97)
  <bullet>  *North Carolina State Senator Frank Ballance to President 
    Clinton (6/12/97)
  <bullet>  *North Carolina State Senator Patrick J. Ballantine to 
    President Clinton (5/29/97)
  <bullet>  *North Carolina Senate Maj. Leader Richard Conder (D-NC) to 
    U.S. Rep. Eva Clayton (D-NC) (4/17/97)
  <bullet>  *North Carolina Senate Maj. Leader Richard Conder (D-NC) to 
    U.S. Rep. Melvin Watt (D-NC) (4/17/97)
  <bullet>  *North Carolina Senate Maj. Leader Richard Conder (D-NC) to 
    U.S. Rep. Bill Hefner (D-NC) (4/17/97)
  <bullet>  *North Carolina Senate Maj. Leader Richard Conder (D-NC) to 
    U.S. Rep. Bob Etheridge (D-NC) (4/17/97)
  <bullet>  *North Carolina Senate Maj. Leader Richard Conder (D-NC) to 
    U.S. Rep. Mike McIntyre (D-NC) (4/17/97)
  <bullet>  *North Carolina Senate Maj. Leader Richard Conder (D-NC) to 
    U.S. Rep. David Price (D-NC) (4/17/97)
  <bullet>  *North Carolina State Senator Charlie Dannelly to President 
    Clinton (6/11/97)
  <bullet>  *North Carolina State Senator Luther Jordan to President 
    Clinton (6/11/97)
  <bullet>  *North Carolina State Senator Howard Lee to President 
    Clinton (6/11/97)
  <bullet>  *North Carolina State Senator Bob Martin (D-NC) (2/25/97)
  <bullet>  North Carolina State Senator Fountain Odom (D-NC) (5/10/96)
  <bullet>  *North Carolina State Senator Eric Reeves to President 
    Clinton (6/11/97)
  <bullet>  *North Carolina State Senator Hugh Webster to President 
    Clinton (5/28/97)
  <bullet>  *North Carolina State Senator Allen H. Wellons to President 
    Clinton (6/16/97)
  <bullet>  *North Carolina State Representative Alma Adams (D-NC) to 
    President Clinton (5/29/97)
  <bullet>  *North Carolina State Representative Phil Baddour, Jr., to 
    President Clinton (6/13/97)
  <bullet>  *North Carolina State Representative Bobby H. Barbee, Sr. 
    to President Clinton (5/29/97)
  <bullet>  *North Carolina State Representative Daniel Blue to 
    President Clinton (6/6/97)
  <bullet>  *North Carolina State Representative Flossie Boyd-McIntyre 
    to President Clinton (6/3/97)
  <bullet>  *North Carolina State Representative Robert Brawley to 
    President Clinton (5/29/97)
  <bullet>  North Carolina Speaker of the House Harold Brubaker (R-NC) 
    (5/13/96)
  <bullet>  *North Carolina Speaker of the House Harold Brubaker to 
    President Clinton (5/30/97)
  <bullet>  *North Carolina State Representative Beverly Burke to 
    President Clinton (6/10/97)
  <bullet>  *North Carolina State Representative James Crawford to U.S. 
    Representative Eva Clayton (D-NC) (10/8/97)
  <bullet>  *North Carolina State Representative Billy Creech (R-NC) 
    (3/11/97)
  <bullet>  *North Carolina House Maj. Leader Leo Daughtry to President 
    Clinton (5/28/97)
  <bullet>  *North Carolina House Maj. Leader Leo Daughtry (R-NC) to 
    U.S. Rep. Richard Burr (R-NC) (5/1/97)
  <bullet>  *North Carolina State Representative Rick Eddins to 
    President Clinton (5/29/97)
  <bullet>  *North Carolina State Representative Sam Ellis to President 
    Clinton (5/29/97)
  <bullet>  *North Carolina State Representative Milton Fitch to 
    President Clinton (6/11/97)
  <bullet>  *North Carolina House Finance Com. Chair Lyons Gray (R-NC) 
    to U.S. Rep. Richard Burr (R-NC) (4/30/97)
  <bullet>  *North Carolina State Representative Thomas Hardaway to 
    President Clinton (6/10/97)
  <bullet>  *North Carolina State Representative Howard Hunter, Jr. to 
    President Clinton (6/10/97)
  <bullet>  *North Carolina State Representative Larry Justus to 
    President Clinton (6/10/97)
  <bullet>  *North Carolina State Representative Theodore Kinney to 
    President Clinton (6/10/97)
  <bullet>  North Carolina State Representative L.W. Locke (D-NC) (5/2/
    96)
  <bullet>  *North Carolina State Representative Mary McAllister to 
    President Clinton (6/10/97)
  <bullet>  *North Carolina State Representative H. M. Michaels, Jr. to 
    President Clinton (6/10/97)
  <bullet>  *North Carolina State Representative H. M. Michaux to 
    President Clinton (6/10/97)
  <bullet>  *North Carolina State Representative George Miller (D-NC) 
    (3/12/97)
  <bullet>  *North Carolina State Representative Frank Mitchell (R-NC) 
    (3/11/97)
  <bullet>  *North Carolina State Representative Amelia Morris (R-NC) 
    (3/12/97)
  <bullet>  *North Carolina State Representative Charles Neely, Jr. (R-
    NC) (3/6/97)
  <bullet>  *North Carolina State Representative John Nichols (R-NC) 
    (2/6/97)
  <bullet>  *North Carolina State Representative Warren Oldham to 
    President Clinton (6/10/97)
  <bullet>  *North Carolina State Representative David Redwine to 
    President Clinton (/27/97)
  <bullet>  *North Carolina State Representative Timothy Tallent (R-NC) 
    (3/12/97)
  <bullet>  *North Carolina State Representative John Weatherly (R-NC) 
    (3/12/97)
  <bullet>  *North Carolina State Representative William Weinwright to 
    President Clinton (6/9/97)
  <bullet>  *North Carolina State Representative Larry Womble to 
    President Clinton (6/5/97)
  <bullet>  *North Carolina State Representative Stephen Wray Wood to 
    President Clinton (6/11/97)
  <bullet>  *North Carolina State Representative Thomas Wright to 
    President Clinton (6/11/97)
  <bullet>  *Joint letter from the members of the NC General Assembly 
    who represent the Charlotte-Mecklenburg, Gaston County and Lincoln 
    County areas (Sen. Fountain Odom (D), Sen. Robert Rucho (R), Sen. 
    Charlie Dannelly (R), Rep. Martha Alexander (R), Rep. Jim Black 
    (R), Rep. Pete Cunningham (R), Rep. W.W. Dickson (R), Rep. Beverly 
    Earle (R), Rep. Ruth Easterling (R), Rep. Jim Gulley (R), Rep. Ed 
    McMahan (R), Rep. John Rayfield (R), Rep. Drew Saunders (R), Rep. 
    Connie Wilson (R)) (3/17/97)
  <bullet>  *North Dakota State Senator Randel Christmann to President 
    Clinton (no date)
  <bullet>  *North Dakota State Senator Randel Christmann to U.S. 
    Representative Earl Pomeroy (D-ND) (no date)
  <bullet>  *North Dakota State Senator Randel Christmann to U.S. 
    Senator Kent Conrad (D-ND) (no date)
  <bullet>  *North Dakota State Senator Marv Mutzenberger to U.S. 
    Representative Earl Pomeroy (D-ND) (9/10/97)
  <bullet>  *North Dakota State Senator Marv Mutzenberger to U.S. 
    Senator Kent Conrad (D-ND) (9/10/97)
  <bullet>  *North Dakota State Senator Pete Naadon to U.S. 
    Representative Earl Pomeroy (D-ND) (9/3/97)
  <bullet>  *North Dakota State Senator Pete Naadon to U.S. Senator 
    Kent Conrad (D-ND) (9/3/97)
  <bullet>  *North Dakota State Senator Donna Nalewaja to President 
    Clinton (6/9/97)
  <bullet>  *North Dakota State Senator Donna Nalewaja to U.S. 
    Representative Earl Pomeroy (D-ND) (8/19/97)
  <bullet>  *North Dakota State Senator Donna Nalewaja to U.S. Senator 
    Kent Conrad (D-ND) (8/19/97)
  <bullet>  *North Dakota State Senator David O'Connell to U.S. Senator 
    Kent Conrad (D-ND) (8/29/97)
  <bullet>  *North Dakota State Senator David O'Connell to U.S. 
    Representative Earl Pomeroy (D-ND) (8/29/97)
  <bullet>  *North Dakota State Representative Merle Boucher to U.S. 
    Senator Kent Conrad (D-ND) (8/28/97)
  <bullet>  *North Dakota State Representative Merle Boucher to U.S. 
    Representative Earl Pomeroy (D-ND) (8/28/97)
  <bullet>  *North Dakota State Representative Thomas T. Brusegaard to 
    President Clinton (6/12/97)
  <bullet>  *North Dakota State Representative John Dorso to President 
    Clinton (6/9/97)
  <bullet>  *North Dakota State Representative Pete Nasden to President 
    Clinton (6/9/97)
  <bullet>  Joint letter from Ohio Senate President (R-OH) and Speaker 
    of the House (R-OH) (7/23/96)
  <bullet>  *Ohio State Senator Robert Gardner (R-OH) (2/13/97)
  <bullet>  *Ohio State Senator Robert Gardner (R-OH) to U.S. 
    Representative Steven LaTourette (R-OH) (2/7/97)
  <bullet>  *Ohio State Senator Merle Grace Kearns (R-OH) and state 
    Representative Marilyn J. Reid (R-OH) to U.S. Representative Dave 
    Hobson (R-OH) (1/7/97)
  <bullet>  *Ohio State Senator Scott Oelslager (R-OH) (12/2/96)
  <bullet>  *Ohio State Senator Scott Oelslager (R-OH) (no date)
  <bullet>  *Ohio State Senator Scott Oelslager (R-OH) to Newt Gingrich 
    and Trent Lott (12/12/96)
  <bullet>  *Ohio State Representative Randall Gardner, Majority Leader 
    (R-OH) (2/3/97)
  <bullet>  *Ohio State Representative Joseph Sulzer (D-OH) to U.S. 
    Senator John Glenn (D-OH) (4/17/97)
  <bullet>  *Ohio State Representative Joe Sulzer to U.S. 
    Representative Tony Hall (D-OH) (8/8/97)
  <bullet>  *Ohio State Senator Gary Suhadolnik to President Clinton 
    (2/28/97)
  <bullet>  *Ohio State Representative Lynn Watchmann to U.S. Senator 
    Mike DeWine (R-OH) (8/8/97)
  <bullet>  *Oregon State Senator Gary George (R-OR) (3/5/97)
  <bullet>  *Pennsylvania State Senator Roy Afflerbach to Carol Browner 
    (3/10/97)
  <bullet>  *Pennsylvania State Senator Melissa Hart to President 
    Clinton (6/20/97)
  <bullet>  *Pennsylvania State Senator Vincent Hughes to President 
    Clinton (6/19/97)
  <bullet>  *Pennsylvania State Senator Allen Kukovich to U.S. Senator 
    Rick Santorum (R-PA) (6/26/97)
  <bullet>  *Pennsylvania State Senator Mary Jo White (R-PA) (1/23/97)
  <bullet>  *Pennsylvania State Senator Hardy Williams to President 
    Clinton (6/19/97)
  <bullet>  *Pennsylvania State Representative Ellen Bard to President 
    Clinton (6/24/97)
  <bullet>  *Pennsylvania State Representative Howard Fargo to Carol 
    Browner (2/13/97)
  <bullet>  *Pennsylvania State Representative Robert Godshall to 
    Michael McCabe, EPA Region 3 Administrator (2/3/97)
  <bullet>  *Pennsylvania State Representative Michael Horsey to 
    President Clinton (6/16/97)
  <bullet>  *Pennsylvania State Representative George T. Kenney, Jr. to 
    President Clinton (6/2/97)
  <bullet>  *Pennsylvania State Representative John Myers President 
    Clinton (6/15/97)
  <bullet>  *Pennsylvania State Representative John M. Perzel to 
    President Clinton (6/19/97)
  <bullet>  *Pennsylvania State Representative W. Curtis Thomas to 
    President Clinton (6/17/97)
  <bullet>  *Pennsylvania State Representative Anthony H. Williams to 
    President Clinton (6/16/97)
  <bullet>  *Pennsylvania State Representative Rosita C. Youngblood to 
    President Clinton (6/19/97)
  <bullet>  *Rhode Island State Senator William Walaska (D-RI) (1/9/97)
  <bullet>  *South Carolina State Senator Ralph Anderson to President 
    Clinton (6/4/97)
  <bullet>  *South Carolina State Senator Robert Ford (D-SC) to 
    President Clinton (6/5/97)
  <bullet>  *South Carolina State Senator Darrell Jackson to Vice 
    President Gore (6/4/97)
  <bullet>  *South Carolina State Senator Darrell Jackson to President 
    Clinton (6/5/97)
  <bullet>  *South Carolina State Senator Darrell Jackson to U.S. 
    Senator Ernest F. Hollings (D-SC) (9/2/97)
  <bullet>  *South Carolina State Senator John C. Land, III to 
    President Clinton (6/5/97)
  <bullet>  *South Carolina State Senator James A. Lander to U.S. 
    Senator Ernest F. Hollings (D-SC) (8/29/97)
  <bullet>  *South Carolina State Senator James Lander to President 
    Clinton (6/23/97)
  <bullet>  *South Carolina State Senator Phil Leventis to President 
    Clinton (6/16/97)
  <bullet>  *South Carolina State Senator Phil Leventis to U.S. Senator 
    Ernest Hollings (D-SC) (8/29/97)
  <bullet>  *South Carolina State Senator Maggie Wallace Glover to Vice 
    President Gore (6/4/97)
  <bullet>  *South Carolina State Senator Maggie Wallace Glover to 
    President Clinton (6/4/97)
  <bullet>  *South Carolina State Senator Dewitt Williams to President 
    Clinton (6/5/97)
  <bullet>  *South Carolina State Senator Dewitt Williams to Vice 
    President Gore (6/4/97)
  <bullet>  *South Carolina State Representative John Graham Altman, 
    III to U.S. Representative Mark Sanford (R-SC) (9/5/97)
  <bullet>  *South Carolina State Representative George H. Bailey to 
    Vice President Al Gore, Jr. (6/19/97)
  <bullet>  *South Carolina State Representative George H. Bailey to 
    U.S. Senator Ernest Hollings (D-SC) (9/29/97)
  <bullet>  *South Carolina State Representative Liston D. Barfield to 
    U.S. Representative Mark Sanford (R-SC) (8/21/97)
  <bullet>  *South Carolina State Representative Floyd Breeland (D-SC) 
    to President Clinton (6/5/97)
  <bullet>  *South Carolina State Representative Floyd Breeland (D-SC) 
    to Vice President Gore (6/5/97)
  <bullet>  *South Carolina State Representative Theodore Brown to 
    President Clinton (6/5/97)
  <bullet>  *South Carolina State Representative Theodore Brown to Vice 
    President Gore (6/5/97)
  <bullet>  *South Carolina State Representative Alma Byrd to President 
    Clinton (6/4/97)
  <bullet>  *South Carolina State Representative Alma Byrd to Vice 
    President Gore (6/4/97)
  <bullet>  *South Carolina State Representative Marion Carnell to U.S. 
    Senator Ernest Hollings (D-SC) (9/29/97)
  <bullet>  *South Carolina State Representative Wilbur Cave to 
    President Clinton (6/5/97)
  <bullet>  *South Carolina State Representative Wilbur Cave to U.S. 
    Senator Ernest Hollings (D-SC) (10/2/97)
  <bullet>  *South Carolina State Representative Amos L. Gourdine to 
    President Clinton (6/5/97)
  <bullet>  *South Carolina State Representative Amos L. Gourdine to 
    Vice President Gore (6/5/97)
  <bullet>  *South Carolina State Representative Jerry Govan to 
    President Clinton (6/5/97)
  <bullet>  *South Carolina State Representative Jerry Govan to Vice 
    President Gore (6/5/97)
  <bullet>  *South Carolina State Representative Jesse Hines (D-SC) to 
    President Clinton (6/5/97)
  <bullet>  *South Carolina State Representative Mack Hines to 
    President Clinton (6/5/97)
  <bullet>  *South Carolina State Representative Shirley R. Hinson to 
    U.S. Representative Mark Sanford (R-SC) (9/10/97)
  <bullet>  *South Carolina State Representative Leon Howard to 
    President Clinton (6/5/97)
  <bullet>  *South Carolina State Representative Leon Howard to U.S. 
    Senator Ernest Hollings (D-SC) (9/30/97)
  <bullet>  *South Carolina State Representative Doug Jennings to 
    President Bill Clinton (6/5/97)
  <bullet>  *South Carolina State Representative Kenneth Kennedy to 
    President Clinton (6/4/97)
  <bullet>  *South Carolina State Representative Kenneth Kennedy to 
    Vice President Gore (6/4/97)
  <bullet>  *South Carolina State Representative Brenda Lee to 
    President Clinton (6/5/97)
  <bullet>  *South Carolina State Representative Brenda Lee to U.S. 
    Senator Ernest Hollings (D-SC) (9/30/97)
  <bullet>  *South Carolina State Representative Walter Lloyd (D-SC) to 
    President Clinton (6/5/97)
  <bullet>  *South Carolina State Representative Walter Lloyd (D-SC) to 
    Vice President Gore (6/5/97)
  <bullet>  *South Carolina State Representative Walter Lloyd to U.S. 
    Senator Ernest Hollings (D-SC) (9/30/97)
  <bullet>  *South Carolina State Representative David Mack III to 
    President Clinton (6/5/97)
  <bullet>  *South Carolina State Representative Yancey McGill to 
    President Clinton (6/5/97)
  <bullet>  *South Carolina State Representative Willie McMahand to 
    President Clinton (6/5/97)
  <bullet>  *South Carolina State Representative Willie McMahand to 
    Vice President Gore (6/5/97)
  <bullet>  *South Carolina State Representative Bessie Moody-Lawrence 
    to President Clinton (6/4/97)
  <bullet>  *South Carolina State Representative Bessie Moody-Lawrence 
    to Vice President Gore (6/4/97)
  <bullet>  *South Carolina State Representative Anne Parks to 
    President Clinton (6/4/97)
  <bullet>  *South Carolina State Representative Anne Parks to Vice 
    President Gore (6/4/97)
  <bullet>  *South Carolina State Representative Elsie Rast Stuart to 
    President Clinton (1/21/97)
  <bullet>  *South Carolina State Representative Thomas Rhoad to U.S. 
    Senator Ernest Hollings (D-SC) (9/29/97)
  <bullet>  *South Carolina State Representative Mickey Whatley to U.S. 
    Representative Mark Sanford (R-SC) (9/10/97)
  <bullet>  *South Dakota State Senator Kenneth Albers to President 
    Clinton (no date)
  <bullet>  *South Dakota State Senator Jim Dunn to U.S. Senator Tim 
    Johnson (D-SD) (9/12/97)
  <bullet>  *South Dakota State Senator Jim Dunn to U.S. Senator Tom 
    Daschle (D-SD) (9/12/97)
  <bullet>  *South Dakota State Senator Jerry Shoener to President 
    Clinton (6/20/97)
  <bullet>  *South Dakota State Senator Fred Whiting to President 
    Clinton (6/10/97)
  <bullet>  *South Dakota State Senator Fred Whiting to U. S. Senator 
    Tom Daschle (D-SD) (9/16/97)
  <bullet>  *South Dakota State Senator Fred Whiting to U.S. Senator 
    Tim Johnson (D-SD) (9/16/97)
  <bullet>  *South Dakota State Representative Michael Broderick, Jr. 
    to U.S. Senator Tim Johnson (D-SD) (8/26/97)
  <bullet>  *South Dakota State Representative Michael Broderick, Jr. 
    to U.S. Senator Tom Daschle (D-SD) (8/26/97)
  <bullet>  *South Dakota State Representative Mike Broderick, Jr. to 
    President Clinton (6/24/97)
  <bullet>  *South Dakota State Representative Roger Brooks and State 
    Senator Jim Dunn to President Clinton (6/9/97)
  <bullet>  *South Dakota State Representative Roger Brooks to 
    President Clinton (no date)
  <bullet>  *South Dakota State Representative Roger Brooks to U. S. 
    Senator Tim Johnson (D-SD) (9/8/97)
  <bullet>  *South Dakota State Representative Roger Brooks to U.S. 
    Senator Tom Daschle (D-SD) (9/18/97)
  <bullet>  *South Dakota State Representative Roland Chicoine to U.S. 
    Senator Tom Daschle (D-SD)
  <bullet>  *South Dakota State Representative Roland Chicoine to U.S. 
    Senator Tim Johnson (D-SD)
  <bullet>  *South Dakota State Representative Roland Chicoine to 
    President Clinton (6/24/97)
  <bullet>  *South Dakota State Representative Steve Cutler to 
    President Clinton (6/12/97)
  <bullet>  *South Dakota State Representative J.P. Duniphan to 
    President Clinton (6/11/97)
  <bullet>  *South Dakota State Representative J.P. Duniphan to U.S. 
    Senator Tim Johnson (D-SD) (9/15/97)
  <bullet>  *South Dakota State Representative J.P. Duniphan to U.S. 
    Senator Tom Daschle (D-SD) (9/15/97)
  <bullet>  *South Dakota State Representative Deb Fischer-Clemens to 
    President Clinton (6/25/97)
  <bullet>  *South Dakota State Representative Gil Koetzle to U.S. 
    Senator Tim Johnson (D-SD) (no date)
  <bullet>  *South Dakota State Representative Gil Koetzle to U.S. 
    Senator Tom Daschle (D-SD) (no date)
  <bullet>  *South Dakota State Representative Gil Koetzle to President 
    Clinton (no date)
  <bullet>  *South Dakota State Representative Bill Napoli to President 
    Clinton (6/13/97)
  <bullet>  *South Dakota State Representative Bill Napoli to U.S. 
    Senator Tom Daschle (D-SD) (9/18/97)
  <bullet>  *South Dakota State Representative Bill Napoli to U.S. Tim 
    Johnson (D-SD) (9/18/97)
  <bullet>  *South Dakota State Representative Craig Schaunaman to U.S. 
    Senator Tom Daschle (D-SD) (8/28/97)
  <bullet>  *South Dakota State Representative Craig Schaunaman to U.S. 
    Senator Tim Johnson (D-SD) (8/25/97)
  <bullet>  *South Dakota State Representative Craig Schaunaman to 
    President Clinton (6/24/97)
  <bullet>  *Tennessee Lt. Governor/Speaker of the Senate John Wilder 
    (D-TN) (2/6/97)
  <bullet>  *Tennessee State Senator Curtis Person to President Clinton 
    (6/2/97)
  <bullet>  *Tennessee State Senator JoAnn Graves to President Clinton 
    (5/26/97)
  <bullet>  *Tennessee State Representative Steve Godsey to President 
    Clinton (5/29/97)
  <bullet>  *Tennessee State Representative Matthew Kisber to President 
    Clinton (6/6/97)
  <bullet>  *Tennessee State Representative Mike Williams (D-TN) to 
    Lynn Cutler, Office of Intergovernmental Affairs (6/2/97)
  <bullet>  *Texas State Senator Royce West to President Clinton (6/13/
    97)
  <bullet>  *Texas State Representative Terri Hodge to President 
    Clinton (6/20/97)
  <bullet>  *Virginia State Senator Joseph Benedetti to President 
    Clinton (6/12/97)
  <bullet>  *Virginia State Senator L. Louise Lucas to President 
    Clinton (6/5/97)
  <bullet>  *Virginia State Senator Kenneth Stolle to President Clinton 
    (6/5/97)
  <bullet>  *Virginia State Senator Martin Williams to President 
    Clinton (6/3/97)
  <bullet>  *Virginia Delegate Watkins M. Abbitt, Jr. to President 
    Clinton (5/27/97)
  <bullet>  *Virginia Delegate David Albo to President Clinton (6/10/
    97)
  <bullet>  *Virginia Delegate Eric Cantor to President Clinton (6/10/
    97)
  <bullet>  *Virginia Delegate Raymond Guest, Jr. to President Clinton 
    (6/4/97)
  <bullet>  *Virginia Delegate Frank Hargrove, Sr. to President Clinton 
    (6/3/97)
  <bullet>  *Virginia Delegate Robert McDonnell to President Clinton 
    (6/7/97)
  <bullet>  *Virginia Delegate Jay O'Brien to President Clinton (6/10/
    97)
  <bullet>  *Virginia Delegate John S. Reid to President Clinton (6/10/
    97)
  <bullet>  *Virginia Delegate Frank Ruff to President Clinton (6/2/97)
  <bullet>  *Virginia Delegate S. Vance Wilkins, Jr. to President 
    Clinton (6/6/97)
  <bullet>  *Virginia Delegate John C. Watkins to President (6/10/97)
  <bullet>  *Washington State Senator Bill Finkbeiner to U.S. 
    Representative Rick White (R-WA) (8/26/97)
  <bullet>  *Washington State Representative Bill Grant to President 
    Clinton (6/20/97)
  <bullet>  *Washington State Representative Brian Hatfield to 
    President Clinton (6/23/97)
  <bullet>  *Washington State Senator Michael Heavey to President 
    Clinton (6/23/97)
  <bullet>  *Washington State Representative Lynn Kessler to President 
    Clinton (6/19/97)
  <bullet>  *Washington State Representative Erik Poulsen to President 
    Clinton (6/23/97)
  <bullet>  *Washington State Representative Dave Quall to President 
    Clinton (6/20/97)
  <bullet>  *West Virginia State Senator Leonard W. Anderson to 
    President Clinton (6/17/97)
  <bullet>  *West Virginia State Senator Edwin J. Bowman to President 
    Clinton (6/10/97)
  <bullet>  *West Virginia State Senator Robert L. Dittmar to President 
    Clinton (6/10/97)
  <bullet>  *West Virginia State Senator Walter Helmick to President 
    Clinton (6/10/97)
  <bullet>  *West Virginia State Senator Sarah Minear to President 
    Clinton (6/11/97)
  <bullet>  *West Virginia State Senator Michael Oliverio, II to 
    President Clinton (6/16/97)
  <bullet>  *West Virginia State Senator Roman Prezioso, Jr. to 
    President Clinton (6/6/97)
  <bullet>  *West Virginia State Senator Mike Ross to President Clinton 
    (6/9/97)
  <bullet>  *West Virginia State Senator (President Pro Tem) William 
    Sharpe, Jr. to President Clinton (6/9/97)
  <bullet>  *West Virginia State Senator Vic Sprouse to President 
    Clinton (6/24/97)
  <bullet>  *West Virginia State Senator Martha Y. Walker to President 
    Clinton (10/97)
  <bullet>  *West Virginia Delegate Tom Azinger to President Clinton 
    (no date)
  <bullet>  *West Virginia Delegate Robert C. Beach to President 
    Clinton (6/11/97)
  <bullet>  *West Virginia Delegate Michael Caputo to President Clinton 
    (6/10/97)
  <bullet>  *West Virginia Delegate David Collins (D-WV) (2/3/97)
  <bullet>  *West Virginia Delegate Jeff Davis to President Clinton (6/
    10/97)
  <bullet>  *West Virginia Delegate Richard H. Everson to President 
    Clinton (6/18/97)
  <bullet>  *West Virginia Delegate Joe Farris to President Clinton (6/
    12/97)
  <bullet>  *West Virginia Delegate Steve Harrison to President Clinton 
    (6/18/97)
  <bullet>  *West Virginia Delegate Larry Heck to President Clinton (6/
    23/97)
  <bullet>  *West Virginia Delegate Dick Henderson to President Clinton 
    (no date)
  <bullet>  *West Virginia Delegate Evan Jenkins to President Clinton 
    (6/10/97)
  <bullet>  *West Virginia Delegate Margaret Miller to President 
    Clinton (6/10/97)
  <bullet>  *West Virginia Delegate Jody G. Smirl to President Clinton 
    (6/18/97)
  <bullet>  *West Virginia Delegate Ron Thompson to President Clinton 
    (6/9/97)
  <bullet>  *West Virginia Delegate Scott G. Varner to President 
    Clinton (6/17/97)
  <bullet>  *West Virginia Delegate Barbara Warner to President Clinton 
    (6/10/97)
  <bullet>  *West Virginia Delegate Larry Williams to President Clinton 
    (6/10/97)
  <bullet>  *Joint letter signed by 8 members of the West Virginia 
    Legislature to Carol Browner (3/11/97). Signatories are: Sen. Ed 
    Bowman (D), Sen. Andrew McKenzie (R), Del. Tamara Pettit (D), Del. 
    Jeff Davis (D), Del. Tim Ennis (D), Del. Roy Givens (D), Del. Tal 
    Hutchins (D), Del. Gil White (R).
  <bullet>  *Wisconsin State Representative John Dobyns to President 
    Clinton (6/19/97)
  <bullet>  *Wisconsin State Representative Stephen Freese to President 
    Clinton (6/12/97)
  <bullet>  *Wisconsin State Representative John Gard to President 
    Clinton (6/18/97)
  <bullet>  *Wisconsin State Representative Mark Green to President 
    Clinton (6/12/97)
  <bullet>  *Wisconsin State Representative Scott Gunderson to 
    President Clinton (6/12/97)
  <bullet>  *Wisconsin State Representative Dave Hutchison (R-WI) to 
    U.S. Senator Herb Kohl (D-WI) (1/13/97)
  <bullet>  *Wisconsin State Representative Scott Jensen to President 
    Clinton (6/25/97)
  <bullet>  *Wisconsin State Representative Neal J. Kedzie to President 
    Clinton (6/23/97)
  <bullet>  *Wisconsin State Representative Alan Lasee (R-WI) (2/18/97)
  <bullet>  *Wisconsin State Representative Frank Lasee to President 
    Clinton (6/12/97)
  <bullet>  *Wisconsin State Representative Terry Musser to President 
    Clinton (6/12/97)
  <bullet>  *Wisconsin State Representative Stephen L. Nass to 
    President Clinton (6/19/97)
  <bullet>  *Wisconsin State Representative Luther Olsen to President 
    Clinton (6/12/97)
  <bullet>  *Wisconsin State Representative Al Ott (R-WI) (3/7/97)
  <bullet>  *Wisconsin State Representative Clifford Otte to President 
    Clinton (6/12/97)
  <bullet>  *Wisconsin State Representative Chuck Schafer to President 
    Clinton (6/12/97)
  <bullet>  *Wisconsin State Representative Daniel P. Vrakas to 
    President Clinton (6/12/97)
  <bullet>  *Wisconsin State Representative Scott Walker to President 
    Clinton (6/12/97)
  <bullet>  *Wisconsin State Senator Robert Welch to U.S. 
    Representative Mark Neumann (R-WI) (8/21/97). Copy of this letter 
    also went to all other members of the Wisconsin Congressional 
    Delegation.
  <bullet>  *Wisconsin State Representative Robert Ziegelbauer to 
    President Clinton (6/18/97)
  <bullet>  *Wisconsin State Representative Robert K. Zukowski to 
    President Clinton (6/24/97)
  <bullet>  *Joint letter from 40 members of the Wisconsin State 
    Assembly to Carol Browner (3/12/97). Letter signed by: Rep. Frank 
    Lasee (R), Speaker Ben Brancel (R), Rep. Glenn Grothman (R), Rep. 
    Frank Urban (R), Rep. Scott Jensen (R), Rep. Gregg Underheim (R), 
    Speaker Pro Tempore Steve Freese (R), Rep. Luther Olsen (R), Rep. 
    David Brandemuehl (R), Maj. Leader Steve Foti (R), Rep. Carol Kelso 
    (R), Rep. Robert Goetsch (R), Rep. Mark Green (R), Rep. Tim Hoven 
    (R), Rep. Scott Gunderson (R), Rep. John Dobyns (R), Rep. John Gard 
    (R), Rep. Cloyd Porter (R), Asst. Maj. Leader Bonnie Ladwig (R), 
    Rep. Mary Lazich (R), Rep. Robert Zakowski (R), Rep. Dan Vrakas 
    (R), Rep. Bill Lorge (R), Rep. Cliff Otte (R), Rep. Neal Kedzie 
    (R), Rep. Steve Nass (R), Rep. Michael Lehman (D), Rep. Terry 
    Musser (R), Rep. Chuck Schafer (R), Rep. Eugene Hahn (R), Rep. 
    Lorraine Seratti (R), Sen. Gary Dizewiecki (R), Rep. Scott Walker 
    (R), Sen. Alan Lasee (R), Rep. DuWayne Johnsrud (R), Sen. Margaret 
    Farrow (R), Rep. Jim Kreuser (D), Sen. Carol Buettner (R), Rep. 
    Robert Ziegelbauer (D), Sen. Robert Welch (R)
  <bullet>  *Joint Letter from Wisconsin State Legislators to President 
    Clinton (6/6/97). The following people signed the letter: Senator 
    Gwendelynne Moore, Senator Kim Plache, Rep. James Kreuser, Senator 
    Richard Grobschmidt, Senator Robert Wirch, Senator Gary George, and 
    Representative James Kreuser.
                               __________
Letters/comments from mayors/county commissioners
  <bullet>  *Mayor Athens (AL) to President Clinton (6/2/97)
  <bullet>  *Mayor of Brent (no party-AL) to President Clinton (6/4/97)
  <bullet>  *Mayor of Chickasaw (AL) to President Clinton (5/14/97)
  <bullet>  *Mayor of Clanton (AL) to President Clinton (4/22/97)
  <bullet>  *Mayor of Clanton (AL) to U.S. Representative Bud Cramer 
    (D-AL) (4/22/97)
  <bullet>  *Mayor of Dothan (AL) to President Clinton (6/24/97)
  <bullet>  *Mayor of Florence (no party-AL) to President Clinton (6/3/
    97)
  <bullet>  *Mayor of Hanceville (AL) to Lynn Cutler, Office of 
    Intergovernmental Affairs (6/4/97)
  <bullet>  *Mayor of Rainbow City (AL) to President Clinton (6/3/97)
  <bullet>  *Mayor of Rainbow City (AL) to Lynn Cutler, Office of 
    Intergovernmental Affairs (6/3/97)
  <bullet>  *Mayor of Rainbow City (AL) to Sally Katzen, OMB (6/3/97)
  <bullet>  *Mayor of Rainbow City (AL) to Kathleen McGinty, Council on 
    Environmental Quality (6/3/97)
  <bullet>  *Mayor of Rainbow City (AL) to U.S. Senator Jeff Sessions 
    (R-AL) (6/4/97)
  <bullet>  *Mayor of Rainbow City (AL) to U.S. Senator Richard Shelby 
    (R-AL) (6/4/97)
  <bullet>  *Mayor of Rainbow City (AL) to U.S. Representative Robert 
    Aderholt (R-AL) (6/4/97)
  <bullet>  *Mayor of Rainbow City (AL) to U.S. Representative Robert 
    Cramer (D-AL) (6/4/97)
  <bullet>  *Mayor of Rainbow City (AL) to U.S. Representative Spencer 
    Bachus (R-AL) (6/4/97)
  <bullet>  *Mayor of Rainbow City (AL) to U.S. Representative Earl 
    Hillard (D-AL) (6/4/97)
  <bullet>  *Mayor of Rainbow City (AL) to U.S. Representative Sonny 
    Callahan (R-AL) (6/4/97)
  <bullet>  *Mayor of Rainbow City (AL) to U.S. Representative Terry 
    Everett (R-AL) (6/4/97)
  <bullet>  *Mayor of Rainbow City (AL) to U.S. Representative Bob 
    Riley (R-AL) (6/4/97)
  <bullet>  *Mayor of Stevenson (AL) to AL Governor Fob James (5/15/97)
  <bullet>  *Jefferson County, AL Commissioner Chris McNair to 
    President Clinton (5/97)
  <bullet>  *Arkansas Commissioner of Roads and Transportation, Gary 
    White to President Clinton (5/22/97)
  <bullet>  *President, Birmingham, Alabama City Council to President 
    Clinton (4/21/97)
  <bullet>  *President, Birmingham, Alabama City Council to U.S. 
    Representative Bud Cramer (D-AL) (4/21/97)
  <bullet>  *Mayor of Fredonia (AZ) to President Clinton (6/18/97)
  <bullet>  *Mayor of Williams (AZ) to President Clinton (6/5/97)
  <bullet>  *Mayor of Winslow (AZ) to President Clinton (6/13/97)
  <bullet>  *Vice Mayor of Phoenix to President Clinton (6/9/97)
  <bullet>  *Arizona Corporation Commission (AZ) Commissioner Jim Irvin 
    to President Clinton (6/5/97)
  <bullet>  *Navajo County Board of Supervisors (AZ) (2/10/97)
  <bullet>  *Maricopa County (AZ) Board of Supervisors Vice Chair, 
    Betsey Bayless to President Clinton (6/4/97)
  <bullet>  *Maricopa County (AZ) Supervisor Janice K. Brewer to 
    President Clinton (6/19/97)
  <bullet>  *Maricopa County (AZ) Supervisor Fulton Brock to President 
    Clinton (6/4/97)
  <bullet>  *Maricopa County (AZ) Board of Supervisors Chairman, Don 
    Stapley to President Clinton (6/4/97)
  <bullet>  *Mohave County (AZ) Supervisor Carol S. Anderson to 
    President Clinton (6/24/97)
  <bullet>  *Mohave County (AZ) Supervisor Jim Zatorsky to President 
    Clinton (6/12/97)
  <bullet>  *Mayor of Alexander (AR) to U.S. Representative Vic Snyder 
    (D-AR) (10/1/97)
  <bullet>  *Mayor of Alexander (AR) to U.S. Senator Dale Bumpers (D-
    AR) (10/1/97)
  <bullet>  *Mayor of Alexander (AR) to President Clinton (6/18/97)
  <bullet>  *Mayor of Austin (AR) to President Clinton (6/17/97)
  <bullet>  *Mayor of Beebe (AR) to President Clinton (6/27/97)
  <bullet>  *Mayor of Benton (AR) to U.S. Representative Vic Snyder (D-
    AR) (8/26/97)
  <bullet>  *Mayor of Benton (AR) to President Clinton (6/18/97)
  <bullet>  *Mayor of Bentonville (AR) to Presidents Clinton (6/26/97)
  <bullet>  *Mayor of Bradley (AR) to President Clinton (6/27/97)
  <bullet>  *Mayor of Bull Shoals (AR) to President Clinton (6/25/97)
  <bullet>  *Mayor of Cabot (AR) to President Clinton (6/20/97)
  <bullet>  *Mayor of Damascus (AR) to President Clinton (no date)
  <bullet>  *Mayor of Damascus (AR) to U.S. Representative Vic Snyder 
    (D-AR) (9/23/97)
  <bullet>  *Mayor of Damascus (AR) to U.S. Senator Dale Bumpers (D-AR) 
    (9/23/97)
  <bullet>  *Mayor of Des Arc (AR) to President Clinton (6/30/97)
  <bullet>  *Mayor of DeWitt (AR) to President Clinton (6/16/97)
  <bullet>  *Mayor of Earle (AR) to President Clinton (6/17/97)
  <bullet>  *Mayor of Earle (AR) to U.S. Senator Bumpers (D-AR) (6/17/
    97)
  <bullet>  *Mayor of Earle (AR) to U.S. Senator Hutchinson (R-AR) (6/
    17/97)
  <bullet>  *Mayor of Earle (AR) to White House Personnel Director Bob 
    Nash (6/17/97)
  <bullet>  *Mayor of Evening Shade (AR) to President Clinton (6/26/97)
  <bullet>  *Mayor of Forrest City (AR) to President Clinton (6/30/97)
  <bullet>  *Mayor of Fouke (AR) to President Clinton (6/27/97)
  <bullet>  *Mayor of Gillett (AR) to President Clinton (6/18/97)
  <bullet>  *Mayor of Gosnell (AR) to President Clinton (6/30/97)
  <bullet>  *Mayor Green Forest (AR) to President Clinton (6/30/97)
  <bullet>  *Mayor of Hamburg (AR) to President Clinton (6/17/97)
  <bullet>  *Mayor of Hope (AR) to U.S. Senator Dale Bumpers (D-AR) 
    (10/9/97)
  <bullet>  *Vice Mayor of Hope (AR) to U.S. Senator Dale Bumpers (D-
    AR) (10/9/97)
  <bullet>  *Mayor of Horseshoe Bend (AR) to President Clinton (6/30/
    97)
  <bullet>  *Mayor of Horseshoe Lake (AR) to President Clinton (6/18/
    97)
  <bullet>  *Mayor of Jacksonville (AR) to President Clinton (6/23/97)
  <bullet>  *Mayor of Jericho (AR) to President Clinton (6/25/97)
  <bullet>  *Mayor of Keo (AR) to President Clinton (6/17/97)
  <bullet>  *Mayor Little Rock (AR) to President Clinton (6/3/97)
  <bullet>  *Mayor of Lonoke (AR) to President Clinton (6/25/97)
  <bullet>  *Mayor of Portland (AR) to President Clinton (6/18/97)
  <bullet>  *Mayor of Sherwood (AR) to President Clinton (6/11/97)
  <bullet>  *Mayor of Stuttgart (AR) to President Clinton (6/18/97)
  <bullet>  *Mayor of Turrel (AR) to President Clinton (6/18/97)
  <bullet>  *Mayor of Ward (AR) to President Clinton (6/23/97)
  <bullet>  *Mayor of the West Memphis (no party-AR) (2/20/97)
  <bullet>  *Mayor of West Memphis (no party-AR) to Lynn Cutler, Office 
    of Intergovernmental Affairs (6/4/97)
  <bullet>  *Mayor of Wrightsville (AR) to President Clinton (4/28/97)
  <bullet>  *Mayor of Alhambra (CA) to President Clinton (6/13/97)
  <bullet>  *Mayor of Anaheim (CA) to President Clinton (6/12/97)
  <bullet>  *Mayor of Apple Valley (CA) to President Clinton (6/20/97)
  <bullet>  *Mayor of Bakersfield (CA) to President Clinton (6/24/97)
  <bullet>  *Mayor of Bell (CA) to President Clinton (6/10/97)
  <bullet>  *Mayor of Cathedral City (CA) to President Clinton (6/9/97)
  <bullet>  *Mayor of Ceres (CA) to President Clinton (6/13/97)
  <bullet>  *Vice Mayor of Citrus Heights (CA) to President Clinton (6/
    23/97)
  <bullet>  *Former Mayor of Costa Mesa (CA) to President Clinton (6/2/
    97)
  <bullet>  *Vice Mayor of Desert Hot Springs (CA) to President Clinton 
    (6/17/97)
  <bullet>  *Mayor of Desert Hot Springs (CA) to President Clinton (6/
    17/97)
  <bullet>  *Mayor of Dorris (CA) to President Clinton (6/12/97)
  <bullet>  *Mayor of El Monte (CA) to President Clinton (6/12/97)
  <bullet>  *Mayor of El Paso de Robles (CA) to President Clinton (6/
    17/97)
  <bullet>  *Mayor of Fortuna (CA) to President Clinton (6/12/97)
  <bullet>  *Mayor of Gardena (CA) to President Clinton (6/3/97)
  <bullet>  *Mayor Pro Tem of Garden Grove (CA) to President Clinton 
    (6/6/97)
  <bullet>  *Mayor of Glendale (CA) to President Clinton (6/23/97)
  <bullet>  *Mayor of Grover Beach (CA) to President Clinton (6/11/97)
  <bullet>  *Mayor of Highland (CA) to President Clinton (6/11/97)
  <bullet>  *Mayor of Huntington Park (CA) to President Clinton (6/6/
    97)
  <bullet>  *Mayor of Huntington Park (CA) to President Clinton (6/12/
    97)
  <bullet>  *Mayor of Imperial Beach (CA) to Carol Browner (2/5/97)
  <bullet>  *Mayor of Indian Wells (CA) to President Clinton (6/12/97)
  <bullet>  *Mayor of Irvine (CA) to President Clinton (6/11/97)
  <bullet>  *Mayor of Irwindale (CA) to President Clinton (6/17/97)
  <bullet>  *Mayor of La Canada (CA) to U.S. Representative James Rogan 
    (R-CA) (9/2/97)
  <bullet>  *Mayor of Laguna Beach (CA) to President Clinton (6/13/97)
  <bullet>  *Mayor of Lancaster (CA) to President Clinton (6/9/97)
  <bullet>  *Mayor of Lancaster (CA) to U.S. Senator Dianne Feinstein 
    (D-CA) (6/9/97)
  <bullet>  *Mayor Pro Tem of Loma Linda (CA) to President Clinton (6/
    14/97)
  <bullet>  *Mayor of Lomita (CA) to President Clinton (5/23/97)
  <bullet>  *Mayor Pro Tem of Lompoc (CA) to President Clinton (6/18/
    97)
  <bullet>  *Mayor of Lynwood (CA) to President Clinton (6/12/97)
  <bullet>  *Mayor of Merced (CA) to President Clinton (6/19/97)
  <bullet>  *Mayor Pro Tem of Mission Viejo (CA) to President Clinton 
    (6/13/97)
  <bullet>  *Mayor of Mission Viejo (CA) to President Clinton (6/23/97)
  <bullet>  *Vice Mayor of Modesto City (CA) to President Clinton (6/
    17/97)
  <bullet>  *Mayor of Modesto (CA) to President Clinton (5/28/97)
  <bullet>  *Mayor of Monrovia (CA) to President Clinton (6/12/97)
  <bullet>  *Mayor of Norwalk (CA) to President Clinton (6/24/97)
  <bullet>  *Mayor of Norwalk (CA) to U.S. Senator Dianne Feinstein (D-
    CA) (6/24/97)
  <bullet>  *Mayor of Oceanside (CA) to President Clinton (6/17/97)
  <bullet>  *Mayor of Pasadena (CA) to President Clinton (6/19/97)
  <bullet>  *Mayor of Pico Rivera (CA) to President Clinton (6/12/97)
  <bullet>  *Mayor of Placentia (CA) to President Clinton (6/19/97)
  <bullet>  *Mayor of Redondo Beach (CA) to President Clinton (6/10/97)
  <bullet>  *Mayor of Rosemead (CA) to President Clinton (5/21/97)
  <bullet>  *Deputy Mayor of San Diego (CA) to President Clinton (6/20/
    97)
  <bullet>  *Mayor of San Juan Capistrano (CA) to President Clinton (6/
    4/97)
  <bullet>  *Vice Mayor of Saratoga (CA) to President Clinton (6/10/97)
  <bullet>  *Vice Mayor of Saratoga (CA) to U.S. Representative Tom 
    Campbell (R-CA) (8/26/97)
  <bullet>  *Mayor of South Gate (CA) to President Clinton (6/12/97)
  <bullet>  *Mayor Pro Tem of Stanton (CA) to President Clinton (6/12/
    97)
  <bullet>  *Mayor of Stanton (CA) to President Clinton (6/20/97)
  <bullet>  *Mayor of Stockton (no party-CA) to the Region 9 EPA 
    Administrator (2/12/97)
  <bullet>  *Mayor of Taft (CA) to President Clinton (6/9/97)
  <bullet>  *Mayor of Vacaville (CA) to U.S. Representative Vic Fazio 
    (D-CA) (8/27/97)
  <bullet>  *Mayor of Vacaville (CA) to U.S. Senator Dianne Feinstein 
    (D-CA) (6/23/97)
  <bullet>  *Mayor of Vacaville (CA) to President Clinton (6/23/97)
  <bullet>  *Mayor of Vernon (CA) to President Clinton (6/12/97)
  <bullet>  *Mayor of Westminster (CA) to President Clinton (6/11/97)
  <bullet>  *Mayor of Westminster (CA) to U.S. Senator Dianne Feinstein 
    (D-CA) (6/11/97)
  <bullet>  *Mayor of West Sacramento (CA) to President Clinton (6/9/
    97)
  <bullet>  *Mayor of Yuba City (CA) to President Clinton (6/13/97)
  <bullet>  *Mayor Pro Tem Carolyn Ratto of (unidentified city) (CA) to 
    President Clinton (6/10/97)
  <bullet>  *Butte County (CA) Supervisor Curt Josiassen to President 
    Clinton (6/10/97)
  <bullet>  *Butte County (CA) Supervisor Curt Josiassen to U.S. 
    Representative Vic Fazio (D-CA) (8/27/97)
  <bullet>  *El Dorado County (CA) Supervisor Ray Nutting to President 
    Clinton (6/17/97)
  <bullet>  *Glenn County (CA) Supervisor Keith Hansen to President 
    Clinton (5/22/97)
  <bullet>  *Glenn County (CA) Board of Supervisors to President 
    Clinton (6/23/97)
  <bullet>  *Imperial County (CA) Board of Supervisors to EPA (2/11/97)
  <bullet>  *Imperial County (CA) Supervisor Bill Cole to U.S. EPA (2/
    11/97)
  <bullet>  *Imperial County (CA) Supervisor Dean Shores to President 
    Clinton (6/24/97)
  <bullet>  *Imperial County (CA) Supervisor Dean Shores to U.S. 
    Senator Dianne Feinstein (D-CA) (6/24/97)
  <bullet>  *Imperial County (CA) Supervisor Dean Shores to U.S. 
    Senator Barbara Boxer (D-CA) (6/24/97)
  <bullet>  *Imperial County (CA) Supervisor Dean Shores to U.S. 
    Representative Duncan Hunter (R-CA) (6/24/97)
  <bullet>  *Irvine (CA) Transportation Commission Chair Alan Snodgrass 
    to President Clinton (6/11/97)
  <bullet>  *Los Angeles County (CA) Supervisor Michael D. Antonovich 
    to U.S. Representative James Rogan (R-CA) (9/3/97)
  <bullet>  *Los Angeles (CA) Supervisor Michael D. Antonovich to 
    President Clinton (6/17/97)
  <bullet>  *Long Beach (CA) Commissioner Carmen Perez (Vice President) 
    to President Clinton (6/13/97)
  <bullet>  *Mariposa County (CA) Supervisor Doug Balmain to President 
    Clinton (5/28/97)
  <bullet>  *Madoc County (CA) Supervisor Ben Zandstra to Carol Browner 
    (2/18/97)
  <bullet>  *Madoc County (CA) Supervisor Ben Zandstra to President 
    Clinton (6/10/97)
  <bullet>  *Merced County (CA) Supervisor, Gloria Cortez Keene to 
    President Clinton (6/10/97)
  <bullet>  *Mono County (CA) Supervisor Edward J. Inwood to President 
    Clinton (6/24/97)
  <bullet>  *Nevada County (CA) Board of Supervisors to President 
    Clinton (6/2/97)
  <bullet>  *Nevada County (CA) Board of Supervisors to Felicia Marcus, 
    U.S. EPA Region 9 Administrator (6/2/97)
  <bullet>  *Orange County (CA) Supervisor Charles Smith to President 
    Clinton (6/5/97)
  <bullet>  *Orange County (CA) Supervisor Todd Spitzer to President 
    Clinton (6/9/97)
  <bullet>  *Orange County (CA) Supervisor Thomas Wilson to President 
    Clinton (6/19/97)
  <bullet>  *Placer County (CA) Supervisor Robert Weygandt to President 
    Clinton (6/12/97)
  <bullet>  *Placer County (CA) Supervisor James T. Williams to 
    President Clinton (6/16/97)
  <bullet>  *Plumas County (CA) Board of Supervisors to U.S. Senator 
    Dianne Feinstein (D-CA) (6/16/97)
  <bullet>  *Plumas County (CA) Board of Supervisors to U.S. Senator 
    Barbara Boxer (D-CA) (6/16/97)
  <bullet>  *Plumas County (CA) Supervisor William Coates to President 
    Clinton (6/18/97)
  <bullet>  *Plumas County (CA) Supervisor William N. Dennison to 
    President Clinton (6/13/97)
  <bullet>  *Sacramento County (CA) Supervisor David Cox to President 
    Clinton (6/10/97)
  <bullet>  *Sacramento County (CA) Supervisor Muriel P. Johnson to 
    President Clinton (6/19/97)
  <bullet>  *San Diego County (CA) Board of Supervisors to U.S. 
    Representative Tom Bliley (R-VA) (4/15/97)
  <bullet>  *San Diego County (CA) Supervisor Greg Cox to President 
    Clinton (6/20/97)
  <bullet>  *San Diego County (CA) Board of Supervisors Chairman Bill 
    Horn to U.S. Representative Brian Bilbray (R-CA) (8/21/97)
  <bullet>  *San Diego (CA) County Supervisor Dianne Jacob to U.S. 
    Representative Brian Bilbray (R-CA) (8/26/97)
  <bullet>  *San Diego County (CA) Supervisor Ron Roberts to President 
    Clinton (6/12/97)
  <bullet>  *San Luis Obispo County (CA) Supervisor Harry L. Ovitt to 
    President Clinton (6/12/97)
  <bullet>  *San Luis Obispo (CA) County Supervisor Michael P. Mike 
    Ryan President (6/13/97)
  <bullet>  *Santa Clara (CA) Supervisor Pete Mchugh to U.S. 
    Representative Tom Campbell (R-CA) (9/1/97)
  <bullet>  *Santa Cruz County (CA) Supervisor Ray Belgard to President 
    Clinton (6/11/97)
  <bullet>  *Shasta County (CA) Board of Supervisors to President 
    Clinton (6/23/97)
  <bullet>  *Shasta County (CA) Supervisor Patricia A. Clarke to 
    President Clinton (6/24/97)
  <bullet>  *Sutter County (CA) Board of Supervisors (2/18/97)
  <bullet>  *Sutter County (CA) Board of Supervisors to U.S. 
    Representative Vic Fazio (D-CA) (8/29/97)
  <bullet>  *Sutter County (CA) Supervisor Dick Akin to President 
    Clinton (6/17/97)
  <bullet>  Mayor of Denver (D-CO) (no date)
  <bullet>  *Archuleta County (CO) Commissioners (1/22/97)
  <bullet>  *Douglas County (CO) Commissioner Robert Christensen to 
    Governor Roy Romer (D) (6/16/97)
  <bullet>  *Mayor of New Haven (CT) to Carol Browner (3/12/97)
  <bullet>  *Mayor of Dover (no party-DE) (3/11/97)
  <bullet>  *Mayor of Boca Raton (no party-FL) to Carol Browner (1/23/
    97)
  <bullet>  *Mayor of Flordia City (FL) to President Clinton (6/16/97)
  <bullet>  *Mayor of Opa-Locka (FL) to President Clinton (6/13/97)
  <bullet>  *Vice Mayor Opa-Locka (FL) to President Clinton (6/13/97)
  <bullet>  *Vice Mayor of Orange Park (FL) to President Clinton (6/10/
    97)
  <bullet>  *Mayor of Orlando (no party-FL) to President Clinton/Lynn 
    Cutler (6/10/97)
  <bullet>  *Mayor of South Bay (D-FL) (second VP, National League of 
    Cities) to Vice President Gore (6/3/97)
  <bullet>  *Bradford County (FL) Commissioner Herman Johnson to 
    President Clinton (6/6/97)
  <bullet>  *Broward County (FL) Commissioner Sylvia Poitier to 
    President Clinton (6/16/97)
  <bullet>  *Dade County (FL) Commissioner James C. Burke to President 
    Clinton (6/13/97)
  <bullet>  *Dade County (FL) Commissioner Barbara Carey to President 
    Clinton (6/11/97)
  <bullet>  *Dade County (FL) Commissioner Natacha Seijas Millan to 
    President Clinton (6/13/97)
  <bullet>  *Dade County (FL) Commissioner Dennis C. Moss to President 
    Clinton (6/13/97)
  <bullet>  *Jackson County (FL) Board of Commissioners to President 
    Clinton (6/10/97)
  <bullet>  *Opa-Locka County (FL) Commissioner Mary E. Allen to 
    President Clinton (6/13/97)
  <bullet>  *Opa-Locka (FL) Commissioner Timothy Holmes to President 
    Clinton (6/13/97)
  <bullet>  *Opa-Locka County (FL) Commissioner Myra Taylor to 
    President Clinton (6/13/97)
  <bullet>  *Orange County (FL) Commissioner Mable Butler to President 
    Clinton (6/10/97)
  <bullet>  *Orange County (FL) Commissioner Bob Freeman to President 
    Clinton (6/11/97)
  <bullet>  *Orange County (FL) Commissioner Clarence M. Hoenstine to 
    President Clinton (6/11/97)
  <bullet>  *Pinellas County (FL) Commissioner Calvin D. Harris to 
    President Clinton (6/16/97)
  <bullet>  *Santa Rosa County (FL) Board of Commissioners to President 
    Clinton (5/23/97)
  <bullet>  *Mayor of Augusta (no party-GA) (3/11/97)
  <bullet>  *Mayor of Decatur (GA) to President Clinton (6/19/97)
  <bullet>  *Mayor of Doerun (no party-GA) to President Clinton (6/3/
    97)
  <bullet>  *Mayor of Lafayette (R-GA) (3/10/97)
  <bullet>  *Albany (GA) Commissioner, Arthur Williams (3/10/97)
  <bullet>  *Albany (GA) Commissioner J.B. Howard to President Clinton 
    (6/7/97)
  <bullet>  *Former Albany (GA) Commissioner Kenderson Hill to 
    President Clinton (6/6/97). Also owner of W.H. & Sons Cleaners.
  <bullet>  *Catoosa County (GA) Board of Commissioners to members of 
    the Georgia Congressional Delegation (5/15/97)
  <bullet>  *Cobb County (GA) Board of Commissioners (1/13/97)
  <bullet>  *Dekalb County (GA) Commissioner William Brown to President 
    Clinton (6/9/97)
  <bullet>  *DeKalb County (GA) Commissioner Porter Sanford III to 
    President Clinton (6/12/97)
  <bullet>  *Dougherty County (GA) Commissioner George Brown to 
    President Clinton (no date)
  <bullet>  *Fulton County (GA) Board of Commissioners (2/12/97)
  <bullet>  *Fulton County (GA) former Commissioner Milton Farris to 
    President Clinton (6/4/97)
  <bullet>  *Fulton County (GA) Commissioner Bob Fulton to President 
    Clinton (6/12/97)
  <bullet>  *Fulton County (GA) Commissioner Mitch Skandalakis to 
    President Clinton (6/5/97)
  <bullet>  *Fulton County (GA) Commissioner Michael Hightower to 
    President Clinton (6/6/97)
  <bullet>  *Fulton County (GA) Commissioner Michael Hightower to U.S. 
    Senator Max Cleland (D-GA) (8/28/97)
  <bullet>  *Fulton County (GA) Commissioner Tom Lowe to President 
    Clinton (6/11/97)
  <bullet>  *Fulton County (GA) Commissioner Tom Lowe to U.S. Senator 
    Max Cleland (D-GA) (9/2/97)
  <bullet>  *Paulding County (GA) Board of Commissioners (3/7/97)
  <bullet>  *Mayor of Coeur D'Alene (no party-ID) to EPA (3/12/97)
  <bullet>  *Mayor of the City of Salmon (R-ID) to U.S. Senators Larry 
    Craig (R-ID), Dirk Kenpthorne (R-ID), and U.S. Representative Mike 
    Crapo (R-ID) (1/17/97)
  <bullet>  *Mayor of Nampa (ID) and city civil engineer Case Houson to 
    President Clinton (5/21/97)
  <bullet>  *Clark County Board of County Commissioners (ID) (1/13/97)
  <bullet>  *City of Chicago (IL) comments (no date)
  <bullet>  *Mayor of Belvidere (IL) to President Clinton (6/16/97)
  <bullet>  *Mayor of Chicago (IL) to President Clinton (5/28/97)
  <bullet>  *Mayor of Dolton (IL) to U.S. Senator Richard J. Durbin (D-
    IL) (9/9/97)
  <bullet>  *Mayor of Dolton (IL) to U.S. Senator Carol Moseley-Braun 
    (D-IL) (9/9/97)
  <bullet>  *Mayor of Granite City (D-IL) to Carol Browner (1/13/97)
  <bullet>  *Mayor of Peoria (IL) to President Clinton (6/16/97)
  <bullet>  *Mayor of Taylorville (IL) to President Clinton (no date)
  <bullet>  *Belvidere Township (IL) Supervisor Robert L. Turner to 
    President Clinton (6/16/97)
  <bullet>  *Cook County (IL) Commissioner John Stroger, Jr. to 
    President Clinton (6/6/97)
  <bullet>  *Cook County (IL) Commissioner Roberto Maldonado to 
    President Clinton (6/18/97)
  <bullet>  *Cook County (IL) Commissioner Darlena Williams-Burnett to 
    President Clinton (6/18/97)
  <bullet>  *Hidalgo County (IL) Commissioner Sylvia Handy to President 
    Clinton (6/20/97)
  <bullet>  *Peoria County (IL) Commissioner Gary Stella to President 
    Clinton (6/10/97)
  <bullet>  *Peoria County (IL) Commissioner Gary Stella to Carol 
    Browner (6/10/97)
  <bullet>  Mayor of Evansville (D-IN) to EPA (no date)
  <bullet>  *Mayor of Goshen (D-IN) to President Clinton (12/12/96)
  <bullet>  Mayor of Indianapolis (R-IN) to Carol Browner (5/14/96)
  <bullet>  Mayor of Indianapolis (R-IN) to Sally Katzen, OMB (5/14/96)
  <bullet>  Mayor of Indianapolis (R-IN) to Laura D'Andrea Tyson, 
    Assistant to the President for Economic Policy (5/14/96)
  <bullet>  *Mayor of Indianapolis (R-IN) (3/11/97)
  <bullet>  *Mayor of Indianapolis (R-IN) to Lynn Cutler, Office of 
    Intergovernmental Affairs (6/2/97)
  <bullet>  Mayor of Mt. Vernon (D-IN) to Sally Katzen, OMB (4/19/96)
  <bullet>  *Mayor of New Albany (IN) to President Clinton (6/16/97)
  <bullet>  Mayor of South Bend (D-IN) to Carol Browner (4/22/96)
  <bullet>  Mayor of South Bend (D-IN) to Sally Katzen, OMB (4/22/96)
  <bullet>  Mayor of South Bend (D-IN) to Laura D'Andrea Tyson, 
    Assistant to the President for Economic Policy (4/22/96)
  <bullet>  *Mayor of South Bend, (D-IN) to Lynn Cutler, Office of 
    Intergovernmental Affairs (6/3/97)
  <bullet>  *Mayor of Fort Wayne (R-IN) (3/7/97)
  <bullet>  *Mayor of Jeffersonville (D-IN) to Lynn Cutler, Office of 
    Intergovernmental Affairs (6/3/97)
  <bullet>  Mayor of Rensselaer (R-IN) to the Indiana Association of 
    Cities and Towns (4/18/96)
  <bullet>  *Mayor of Rensselaer (R-IN) (3/10/97)
  <bullet>  *Mayor of Rensselaer (R-IN) to U.S. Representative Steve 
    Buyer (R-IN) (3/10/97)
  <bullet>  *Mayor of Terre Haute (D-IN) to Lynn Cutler, Office of 
    Intergovernmental Affairs (6/2/97)
  <bullet>  *Mayor of Hobart (IN) to U.S. Representative Peter 
    Visclosky (D-IN) (8/25/97)
  <bullet>  *Mayor of Charlestown (IN) to U.S. Representative Lee 
    Hamilton (D-IN) (8/12/97)
  <bullet>  *Mayor of Hammond (IN) to U.S. Representative Peter 
    Visclosky (D-IN) (8/25/97)
  <bullet>  *Mayor of Lake Station (IN) to U.S. Representative Peter 
    Visclosky (D-IN) (8/18/97)
  <bullet>  *Mayor of Valparaiso (IN) to U.S. Representative Peter 
    Visclosky (D-IN) (8/20/97)
  <bullet>  *Mayor of Whiting (IN) to U.S. Representative Peter 
    Visclosky (D-IN) (9/2/97)
  <bullet>  Indiana Association of Cities and Towns to the Mayor of 
    Lebanon, Indiana (4/15/96)
  <bullet>  *14 Indiana Mayors signed testimony of Indiana Association 
    of Cities and Towns for Chicago Jan. 15 NAAQS hearing--Mayors of 
    Anderson (D), Auburn (R), Bluffton (D), Elkhart (D), Evansville 
    (D), Goshen (D), Greenfield (R), Greenwood (R), Huntington (D), 
    Martinsville (R), Mishawaka (R), Mt. Vernon (D), Noblesville (R), 
    Rensselaer (R)
  <bullet>  *Letter to Lynn Cutler, Office of Intergovernmental 
    Affairs, signed by 14 Indiana mayors (5/29/97). Signatories are: 
    Mayors of Anderson (D), Auburn (R), Bluffton (D), Elkhart (D), 
    Evansville (D), Goshen (D), Greenfield (R), Greenwood (R), 
    Huntington (D), Martinsville (R), Mishawaka (R), Mt. Vernon (D), 
    Noblesville (R), Rensselaer (R)
  <bullet>  *Letter to Sally Katzen, Office of Management and Budget, 
    signed by 14 Indiana mayors (5/29/97). Signatories are: Mayors of 
    Anderson (D), Auburn (R), Bluffton (D), Elkhart (D), Evansville 
    (D), Goshen (D), Greenfield (R), Greenwood (R), Huntington (D), 
    Martinsville (R), Mishawaka (R), Mt. Vernon (D), Noblesville (R), 
    Rensselaer (R) Martinsville (R), Mishawaka (R), Mt. Vernon (D), 
    Noblesville (R), Rensselaer (R).
  <bullet>  *Hendricks County (IN) Board of Commissioners to President 
    Clinton (6/3/97)
  <bullet>  *Boone County (IN) Board of Commissioners to President 
    Clinton (6/10/97)
  <bullet>  *LaPorte County (IN) Board of Commissioners to President 
    Clinton (6/12/97)
  <bullet>  *Mayor of Iowa Falls (IA) to President Clinton (6/13/97)
  <bullet>  *Mayor of Dallas Center (IA) to President Clinton (6/13/97)
  <bullet>  *Mayor of Manchester (IA) to President Clinton (6/13/97)
  <bullet>  *Mayor of Mt. Pleasant (IA) to U.S. Senator Tom Harkin (D-
    IA) (8/26/97)
  <bullet>  *Mayor of Mt. Pleasant (IA) to President Clinton (6/12/97)
  <bullet>  *Mayor of Waterloo (IA) John R. Rooff to President Clinton 
    (6/11/97)
  <bullet>  *Cerro Gordo County (IA) Board of Supervisors to President 
    Clinton (6/6/97)
  <bullet>  *Cerro Gordo County (IA) Board of Supervisors to President 
    Clinton (6/26/97)
  <bullet>  *Hamilton County (IA) Board of Supervisors to President 
    Clinton (6/10/97)
  <bullet>  *Sac County (IA) Supervisor Rebecca Hillmer to Carol 
    Browner (3/12/97)
  <bullet>  *Iowa League of Cities to Mayor of Muscatine, IA, Dick 
    O'Brien. Same letter went to 29 other Iowa mayors (8/12/97).
  <bullet>  *Mayor of Prairie Village (KS) to President Clinton (6/12/
    97)
  <bullet>  *Mayor of Wichita (R-KS) to EPA (3/4/97)
  <bullet>  *Mayor of Florence (D-KY) (1/13/97)
  <bullet>  Mayor of Louisa (R-KY) to Carol Browner (5/3/96)
  <bullet>  Mayor of Louisa (R-KY) to Sally Katzen, OMB (5/3/96)
  <bullet>  Mayor of Louisa (R-KY) to Laura D'Andrea Tyson, Assistant 
    to the President for Economic Policy (5/3/96)
  <bullet>  *Mayor of Russell (D-KY) to Carol Browner (3/10/97)
  <bullet>  *Jefferson Parish (LA) President Tim Coulon to U.S. EPA (2/
    3/97)
  <bullet>  *Mayor of Lake Charles (D-LA) (2/18/97)
  <bullet>  *Mayor of New Orleans (LA) to President Clinton (6/25/97)
  <bullet>  *Mayor of New Orleans (LA) to U.S. Senator Breaux (D-LA) 
    (6/25/96)
  <bullet>  *Mayor of New Orleans (LA) to U.S. Senator Landrieu (D-LA) 
    (6/25/96)
  <bullet>  *Mayor of Portland (ME) to President Clinton (6/9/97)
  <bullet>  *Oxford County (ME) Commissioner Steven Merrill to 
    President Clinton (6/10/97)
  <bullet>  *Cecil County (MD) Board of Commissioners to President 
    Clinton (6/20/97)
  <bullet>  *Mayor of Allen Park (MI) to President Clinton (6/4/97)
  <bullet>  *Mayor of Bay City (MI) to President Clinton (6/5/97)
  <bullet>  *Mayor of Burton (MI) to President Clinton (6/3/97)
  <bullet>  *Mayor of Dearborn Heights, D-MI to Carol Browner (3/7/97)
  <bullet>  Mayor of Detroit (D-MI) (11/7/96)
  <bullet>  *Mayor of Detroit (D-MI) to U.S. Senator Spencer Abraham 
    (R-MI) (5/2/97)
  <bullet>  *Mayor of Detroit (D-MI) to U.S. Representative Maxine 
    Waters (D-CA), Chair of the Congressional Black Caucus (6/6/97)
  <bullet>  *Mayor of Detroit (D-MI) to Erskine Bowles, White House 
    Chief of Staff (6/6/97)
  <bullet>  *Mayor of Detroit (D-MI) to Gene Sperling, Assistant to the 
    President and Director of the National Economic Council (6/6/97)
  <bullet>  *Mayor of Fenton (MI) to President Clinton (6/26/97)
  <bullet>  *Mayor of Grand Rapids (MI) to President Clinton (6/18/97)
  <bullet>  *Mayor of Linden (MI) to U.S. Senator Carl Levin (D-MI) (9/
    4/97)
  <bullet>  *Mayor of Rochester Hills (MI) to President Clinton (6/4/
    97)
  <bullet>  *Mayor of Rochester Hills (MI) to U.S. Senator Carl Levin 
    (D-MI) (6/4/97)
  <bullet>  *Mayor of Rochester Hills (MI) to U.S. Senator Spencer 
    Abraham (R-MI) (6/4/97)
  <bullet>  *Mayor of Rochester Hills (MI) to U.S. Representative Dale 
    Kildee (D-MI)
  <bullet>  *Argentine Township (MI) Supervisor Robert W. Cole to U.S. 
    Senator Carl Levin (D-MI) (8/22/97)
  <bullet>  *Argentine Township (MI) Supervisor Robert W. Cole to U.S. 
    Representative Debbie Stabenow (D-MI) (8/22/97)
  <bullet>  *Argentine Township (MI) Supervisor Robert W. Cole to 
    President Clinton (6/16/97)
  <bullet>  *Benzie County (MI) Board of Commissioners to President 
    Clinton (6/11/97)
  <bullet>  *Berrien County (MI) Commissioner R.J. Burkholz to 
    President Clinton (6/25/97)
  <bullet>  *Calumet Township (MI) Supervisor Paul A. Lehto to U. S. 
    Senator Carl Levin (D-MI) (9/5/97)
  <bullet>  *Calumet Township (MI) Supervisor Paul A. Lehto to U.S. 
    Representative Bart Stupak (D-MI) (9/5/97)
  <bullet>  *Clay Township (MI) Supervisor Jon E. Manos to EPA (3/4/97)
  <bullet>  *Fenton Township (MI) Supervisor Carl Gabrielson to U.S. 
    Representative Debbie Stabenow (D-MI) (8/28/97)
  <bullet>  *Fenton Township (MI) Supervisor Carl Gabrielson to U.S. 
    Senator Carl Levin (D-MI) (8/28/97)
  <bullet>  *Flint Township (MI) Supervisor Sally Shaheen Joseph, J.D. 
    to U.S. Senator Carl Levin (D-MI) (8/25/97)
  <bullet>  *Flint Township (MI) Supervisor Sally Shaheen Joseph, J.D. 
    to U.S. Representative Debbie Stabenow (D-MI) (8/25/97)
  <bullet>  *Flint Township (MI) Supervisor Sally Shaheen Joseph to 
    President Clinton (6/13/97)
  <bullet>  *Genesee County (MI) Commissioner Floyd Clack to President 
    Clinton (6/9/97)
  <bullet>  *Genesee County (MI) Commissioner Raynetta Speed to 
    President Clinton (6/9/97)
  <bullet>  *Genesee County (MI) Commissioner John J. Gleason to 
    President Clinton (6/6/97)
  <bullet>  *Genesee County (MI) Commissioner John J. Gleason to U.S. 
    Representative Debbie Stabenow (D-MI) (8/22/97)
  <bullet>  *Genesee County (MI) Commissioner John J. Gleason to U.S. 
    Senator Carl Levin (D-MI) (8/22/97)
  <bullet>  *Genesee County (MI) Commissioner Ken Hardin to U.S. 
    Senator Carl Levin (D-MI) (8/25/97)
  <bullet>  *Genesee County (MI) Commissioner Ken Hardin to President 
    Clinton (6/9/97)
  <bullet>  *Genesee County (MI) Drain Commissioner Anthony Ragnone to 
    President Clinton (6/2/97)
  <bullet>  *Kalamazoo County (MI) Commissioner Judy Todd Johnson to 
    President Clinton (6/3/97)
  <bullet>  *Kalamazoo County (MI) Commissioner Charlotte Sumney to 
    U.S. Representative Peter Hoekstra (R-MI) (7/3/97)
  <bullet>  *Kalamazoo County (MI) Commissioner Raymond Wilson to 
    President Clinton (6/2/97)
  <bullet>  *Macomb County (MI) Commissioner Diana Kolakowski to U.S. 
    Representative David Bonior (D-MI) (8/28/97)
  <bullet>  *Macomb County (MI) Commissioner Diana Kolakowski to U.S. 
    Senator Carl Levin (D-MI) (8/28/97)
  <bullet>  *Macomb County (MI) Commissioner Michael Sessa to Carol 
    Browner (1/27/97)
  <bullet>  *Macomb Township (MI) Supervisor John D. Brennan to 
    Representative David Bonior (D-MI) (9/5/97)
  <bullet>  *Macomb Township (MI) Supervisor John D. Brennan to U.S. 
    Senator Carl Levin (D-MI) (9/5/97)
  <bullet>  *Mundy Township (MI) Supervisor Donald G. Halka to U.S. 
    Representative Debbie Stabenow (D-MI) (8/27/97)
  <bullet>  *Mundy Township (MI) Supervisor Donald G. Halka to U.S. 
    Senator Carl Levin (D-MI) (8/27/97)
  <bullet>  *Muskegon County (MI) Board of Commissioners to President 
    Clinton (3/7/97)
  <bullet>  *Ottawa County (MI) Commissioner Robert J. Rinck to 
    President Clinton (6/6/97)
  <bullet>  *Ottawa County (MI) Commissioner Roger Rycenga to President 
    Clinton (6/3/97)
  <bullet>  *Wayne County (MI) Commissioner George Cushingberry to 
    President Clinton (6/5/97)
  <bullet>  *Wayne County (MI) Commissioner Ricardo A. Solomon to 
    President Clinton (no date)
  <bullet>  *Mayor of St. Paul (R-MN) to U.S. Representative David 
    Minge (D-MN) (6/12/97)
  <bullet>  *Hennepin County (MN) Commissioner Mark J. Stenglein to 
    U.S. Representative Jim Ramstad (R-MN) (9/3/97)
  <bullet>  Mayor of Kansas City (D-MO) (9/18/96)
  <bullet>  *Mayor of Kansas City (D-MO) to President Clinton (6/1/97)
  <bullet>  *Mayor of Kansas City (D-MO) to President Clinton (6/3/97)
  <bullet>  *Mayor of Saint Charles (no party-MO) to Carol Browner (2/
    11/97)
  <bullet>  *Mayor of St. Joseph (D-MO) (2/4/97)
  <bullet>  *Mayor of St. Joseph (MO) to Lynn Cutler, Office of 
    Intergovernmental Affairs (6/9/97)
  <bullet>  Mayor of St. Louis (D-MO) (10/16/96)
  <bullet>  *Mayor of St. Louis (MO) to President Clinton (6/11/97)
  <bullet>  *Clinton County (MO) Board of Commissioners to President 
    Clinton (6/19/97)
  <bullet>  *Lincoln County (MT) Board of Commissioners to President 
    Clinton (5/28/97)
  <bullet>  *Lincoln County (MT) Board of Commissioners, Lincoln County 
    Health Officer, Lincoln County Environmental Health Department to 
    Carol Browner (2/5/97)
  <bullet>  *Lincoln County (MT) Board of Commissioners to U.S. Senator 
    Max Baucus (D-MT) (6/18/97)
  <bullet>  *Fergus County Board of Commissioners (MT) (no date)
  <bullet>  *Mayor of Columbus (D-NE) (5/30/97)
  <bullet>  *Mayor of Gering (NE) to U.S. Senator Bob Kerrey (D-NE) (9/
    8/97)
  <bullet>  *Mayor of Grand Island (D-NE) (5/30/97)
  <bullet>  *Mayor of Hastings (D-NE) to President Clinton (6/3/97)
  <bullet>  *Mayor of Imperial (NE) to U.S. Senator Bob Kerrey (D-NE) 
    (9/8/97)
  <bullet>  *Mayor of Kimball (NE) to U.S. Senator Bob Kerrey (D-NE) 
    (9/8/97)
  <bullet>  *Mayor of Lincoln (R-NE) to President Clinton (6/11/97)
  <bullet>  *Mayor of Nebraska City (NE) to U.S. Senator Bob Kerrey (D-
    NE) (9/3/97)
  <bullet>  *Mayor of Omaha (R-NE) to President Clinton (5/22/97)
  <bullet>  *Mayor of Ponca (NE) to U. S. Senator Bob Kerrey (D-NE) (9/
    2/97)
  <bullet>  *Dawson County (NE) Board of Commissioners to Carol Browner 
    (3/2/97)
  <bullet>  *Dawson County (NE) Commissioner Rodney Aden to President 
    Clinton (6/16/97)
  <bullet>  *Mayor of Boulder City (NV) to President Clinton (6/20/97)
  <bullet>  *Mayor of Henderson (NV) to President Clinton (6/9/97)
  <bullet>  *Mayor of North Las Vegas (NV) to President Clinton (6/17/
    97)
  <bullet>  *Clark County (NV) Commissioner Erin Kenny to President 
    Clinton (no date)
  <bullet>  *Mayor of Holland (NJ) to President Clinton (5/27/97)
  <bullet>  *Clark County (NV) Commissioner Myrna Williams to President 
    Clinton (6/25/97)
  <bullet>  *Hobbs (NM) City Commissioner Joseph Calderon to President 
    Clinton (6/12/97)
  <bullet>  *Hobbs (NM) County Commissioner Patricia Jones to President 
    Clinton (6/17/97)
  <bullet>  *Hobbs (NM) City Commissioner Jim Murphy to President 
    Clinton (6/11/97)
  <bullet>  *Hobbs (NM) Commissioner Jimmy Woodfin to President Clinton 
    (6/13/97)
  <bullet>  *Lea County (NM) Commissioner Zeak Williams, Jr. to 
    President Clinton (6/12/97)
  <bullet>  *Santa Fe (NM) Commissioner Jerome D. Block to President 
    Clinton (6/11/97) *Socorro County (NM) Commissioner Benny Barreras 
    to President Clinton (6/2/97)
  <bullet>  *Valencia County (NM) Commissioner Salomon Montano to 
    President Clinton (6/8/97)
  <bullet>  *New York State Conference of Mayors and Municipal 
    Officials to New York State mayors in projected nonattainment 
    counties.
  <bullet>  *Mayor of Kaser (NY) to President Clinton (5/31/97)
  <bullet>  *Mayor of Lake Grove (NY) to President Clinton (6/24/97)
  <bullet>  *Haverstraw (NY) Supervisor Phillip Rotella to President 
    Clinton (6/27/97)
  <bullet>  *Joint letter from the mayors of the five largest cities in 
    North Carolina to U.S. Representative Richard Burr (R-NC) (North 
    Carolina League of Municipalities' letter). Letter signed by mayors 
    of Charlotte (R), Durham (D), Greensboro (D), Raleigh (R), and 
    Winston-Salem (D) (4/30/97)
  <bullet>  *North Carolina League of Municipalities to NC state 
    Representative Lyons Gray (5/7/97)
  <bullet>  *Mayor of Alexander Hills (NC) to President Clinton (6/12/
    97)
  <bullet>  *Mayor of Apex (R-NC) (3/10/97)
  <bullet>  *Mayor of Bolton (D-NC) to EPA (3/10/97)
  <bullet>  *Mayor of Cary (NC) to President Clinton (6/10/97)
  <bullet>  *Mayor of Cary (NC) U.S. Representative David Price (D-NC) 
    (9/4/97)
  <bullet>  *Mayor Pro Tem of Clayton (NC) Jody McCleod to U.S. 
    Representative Bob Etheridge (D-NC) (no date)
  <bullet>  *Mayor of Clayton (NC) to U.S. Representative Bob Etheridge 
    (D-NC) (8/2/97)
  <bullet>  *Mayor of Garner (D-NC) to EPA (3/10/97)
  <bullet>  *Mayor of Greensboro (D-NC) to Lynn Cutler, Office of 
    Intergovernmental Affairs (6/17/97)
  <bullet>  *Mayor of Henderson (D-NC) (3/10/97)
  <bullet>  *Mayor Pro Temp of Hickory (R-NC) (3/10/97)
  <bullet>  *Mayor of Holly Springs (D-NC) (3/10/97)
  <bullet>  *Mayor of Roxboro (D-NC) (3/10/97)
  <bullet>  *Mayor of Smithfield (NC) to U.S. Representative Bobby 
    Etheridge (D-NC) (9/4/97)
  <bullet>  *Mayor of Wilmington (NC) to U.S. Representative Eva 
    Clayton (D-NC) (8/26/97)
  <bullet>  *North Carolina Association of County Commissioners to NC 
    Governor Jim Hunt (6/9/97)
  <bullet>  *Almance County (NC) Commissioner W. B. Teague, Jr. to 
    President Clinton (6/17/97)
  <bullet>  *Caldwell (NC) Board of Commissioners to U.S. Senator Jesse 
    Helms (R-NC) (6/16/97)
  <bullet>  *Caldwell (NC) Board of Commissioners to U.S. 
    Representative T. Cass Ballenger (R-NC) (6/16/97)
  <bullet>  *Caldwell (NC) County Commissioners to U.S. Representative 
    Richard Burr (R-NC) (6/16/97)
  <bullet>  *Caldwell (NC) County Commissioners to U.S. Senator Lauch 
    Faircloth (R-NC) (6/16/97)
  <bullet>  *Camden County (NC) Board of Commissioners to President 
    Clinton (6/2/97)
  <bullet>  *Chatham County (NC) Commissioner to President Clinton (6/
    13/97)
  <bullet>  *Guilford County (NC) Commissioner Warren Dorsell to 
    President Clinton (5/28/97)
  <bullet>  *Holly Springs (NC) Commissioner George Kimble (3/10/97)
  <bullet>  *Holly Springs (NC) Commissioner Kenneth Martin (3/10/97)
  <bullet>  *Holly Springs (NC) Commissioner Edison Perkins (3/10/97)
  <bullet>  *Holly Springs (NC) Commissioner Parrish Womble to EPA (3/
    10/97)
  <bullet>  *Martin County (NC) County Commissioner W. David Cannon to 
    U.S. Representative Eva Clayton (D-NC) (9/16/97)
  <bullet>  *Mecklenburg County (NC) Board of Commissioners to Carol 
    Browner (2/3/97)
  <bullet>  *Wake County (NC) Commissioner Leslie Merrit to U.S. 
    Representative David Price (D-NC) (9/29/97)
  <bullet>  *Wake County (NC) Commissioner Betty Lou Ward (also First 
    Vice President of the National Assoc. of County Officials) to 
    President Clinton (6/18/97)
  <bullet>  *North Dakota Public Service Commissioner Bruce Hagen to 
    President Clinton (6/13/97)
  <bullet>  *Mayor of Brook Park (D-OH) (6/2/97)
  <bullet>  *Mayor of Canton (R-OH) to President Clinton (5/26/97)
  <bullet>  *Mayor of Fairview Park (OH) to President Clinton (6/24/97)
  <bullet>  *Mayor of Chillicothe (OH) to U.S. Representative Tony Hall 
    (D-OH) (8/11/97)
  <bullet>  *Mayor of Fremont (OH) to President Clinton (6/24/97)
  <bullet>  *Mayor of Gibsonburg (OH) to EPA (3/12/97)
  <bullet>  *Mayor of Lima (D-OH) to President Clinton (6/7/97)
  <bullet>  *Mayor of Lima (OH) to President Clinton (6/9/97)
  <bullet>  *Mayor of Lorain (D-OH) to President Clinton (5/28/97)
  <bullet>  *Mayor of Mansfield (D-OH) (5/29/97)
  <bullet>  *Mayor of Maumee (D-OH) (1/2/97)
  <bullet>  *Mayor of Northwood (no party-OH) (12/30/96)
  <bullet>  *Mayor of the Village of Perry (no party-OH) (2/24/97)
  <bullet>  *Mayor of Shelby (D-OH) (2/4/97)
  <bullet>  *Mayor City of Solon (OH) to President Clinton (6/18/97)
  <bullet>  *Mayor of Toledo (D-OH) (12/27/96)
  <bullet>  *Mayor of Toledo (D-OH) to Vice President Gore (12/20/96)
  <bullet>  *Mayor of Willowick (D-OH) (2/26/97)
  <bullet>  *County Commissioners Association of Ohio to Carol Browner 
    (3/10/97)
  <bullet>  *Guernsey County Commissioners (OH) (2/3/97)
  <bullet>  *Mahoning County, OH Commissioner David Engler to President 
    Clinton (6/17/97)
  <bullet>  *Office of Commissioners of Miami County (OH) to U.S. 
    Senator Michael DeWine (R-OH) (3/6/97). This letter went to other 
    members of the Ohio Congressional Delegation as well.
  <bullet>  *Miami County (OH) Commissioners Richard Adams, Arthur 
    Haddad, and Ann Baird to President Clinton (5/29/97)
  <bullet>  *Montgomery County (OH) Commissioner Don Lucas to Carol 
    Browner (1/8/97)
  <bullet>  *Montgomery County (OH) Commissioner Don Lucas to U.S. 
    Representative John Boehner (R-OH) (1/7/97)
  <bullet>  *Sandusky County Board of Commissioners (OH) (3/6/97)
  <bullet>  *Sandusky County Board of Commissioners (OH) to Ohio State 
    Senator Karen Gillmor (3/6/97)
  <bullet>  *Sandusky County Board of Commissioners (OH) to Ohio State 
    Representative Rex Damschroder (3/6/97)
  <bullet>  *Sandusky County Board of Commissioners (OH) to U.S. 
    Senator Michael DeWine (R-OH) (3/6/97)
  <bullet>  *Sandusky County Board of Commissioners (OH) to U.S. 
    Senator John Glenn (D-OH) (3/6/97)
  <bullet>  *Stark County Commissioners, OH to Ohio EPA (1/7/97)
  <bullet>  *Wood County (OH) Board of Commissioners to Carol Browner 
    (12/31/96)
  <bullet>  *Trumbull County (OH) Board of Commissioners to President 
    Clinton (6/16/97)
  <bullet>  *Mayor of Ada (OK) to EPA (3/10/97)
  <bullet>  *Mayor of Lawton (D-OK) to Carol Browner (2/17/97)
  <bullet>  *Mayor of Oklahoma City (R-OK) to Carol Browner (2/12/97)
  <bullet>  *Mayor of Tulsa (OK) to Carol Browner (1/6/97)
  <bullet>  *Curry County Board of Commissioners (OR) (1/21/97)
  <bullet>  *Deschutes County (OR) Board of Commissioners to Carol 
    Browner (2/10/97)
  <bullet>  *Mayor of the Borough of Glassport (D-PA) to Carol Browner 
    (1/29/97)
  <bullet>  *Mayor of Media (PA) to President Clinton (6/3/97)
  <bullet>  *Mayor of Murrysville (PA) to President Clinton (6/9/97)
  <bullet>  Mayor of Philadelphia (D-PA) (10/16/96)
  <bullet>  *Allegheny County (PA) Commissioners Bob Cranmer, Larry 
    Dunn, and Mike Dawida to EPA (3/10/97)
  <bullet>  *Butler County (PA) Board of Commissioners Chari (1/13/97)
  <bullet>  *Butler County (PA) Board of Commissioners, James Kennedy, 
    Chairman to U.S. Senator Rick Santorum (R-PA) (5/30/97)
  <bullet>  *Lawrence County (PA) Commissioner Thomas J. Fee to 
    President Clinton (6/16/97)
  <bullet>  *Westmoreland County (PA) Commissioner Tom Balya to 
    President Clinton (6/11/97)
  <bullet>  *Mayor of Cranston (RI) Michael A. Traficant to U.S. 
    Senator John H. Chafee (R-RI) (9/12/97)
  <bullet>  RI League of Cities and Towns (5/16/96)
  <bullet>  *Mayor of Bishopville (SC) to U.S. Senator Ernest F. 
    Hollings (D-SC) (no date)
  <bullet>  *Mayor of Bishopville (SC) to Vice President Gore (6/20/97)
  <bullet>  *Mayor of Cayce (SC) to U. S. Senator Ernest F. Hollings 
    (D-SC) (8/27/97)
  <bullet>  *Mayor of Columbia (D-SC) (3/10/97)
  <bullet>  *Mayor of Columbia (D-SC) to President Clinton (6/18/97)
  <bullet>  *Mayor of Columbia (D-SC) to Kathleen McGinty, Council on 
    Environmental Quality (6/6/97)
  <bullet>  *Mayor of Columbia (D-SC) to U. S. Senator Ernest F. 
    Hollings (D-SC) (8/21/97)
  <bullet>  *Mayor of Darlington (SC) to U.S. Senator Ernest F. 
    Hollings (D-SC) (8/20/97)
  <bullet>  *Mayor of Darlington (SC) to Kathleen McGinty (6/17/97)
  <bullet>  *Mayor of Lancaster (SC) to Vice President Gore (6/17/97)
  <bullet>  *Mayor of Marion (SC) to Vice President Gore (6/12/97)
  <bullet>  *Mayor of Rock Hill (D-SC) (3/6/97)
  <bullet>  *Mayor of Spartanburg (no party-SC) (3/7/97)
  <bullet>  *Mayor of Spartanburg (SC) to Vice President Al Gore (6/12/
    97)
  <bullet>  *Mayor of Winnsboro (SC) to U.S. Senator Ernest F. Hollings 
    (D-SC) (8/18/97)
  <bullet>  *Mayor of Winnsboro (SC) to Vice President Gore (6/12/97)
  <bullet>  *Joint letter from 5 South Carolina mayors (Municipal 
    Association of South Carolina) to U.S. Senator Ernest Hollings (D-
    SC). The mayors of Columbia (D), Rock Hill (D), Florence (D) 
    Spartanburg (No party), and Greenville (R) signed the letter (5/15/
    97).
  <bullet>  *Mayor of Canton (SD) to U.S. Senator Tim Johnson (D-SD) 
    (8/26/97)
  <bullet>  *Mayor of Canton (SD) to U.S. Senator Tom Daschle (D-SD) 
    (8/26/97)
  <bullet>  *Mayor of Canton (SD) to President Clinton (6/26/97)
  <bullet>  *Mayor of Fort Mill (SC) to U.S. Senator Ernest Hollings 
    (D-SC) (10/3/97)
  <bullet>  *Mayor of Hartford (SD) to President Clinton (no date)
  <bullet>  *Mayor of Lennox (SD) to President Clinton (6/9/97)
  <bullet>  *Mayor of Lennox (SD) to U.S. Senator Tim Johnson (D-SD) 
    (8/27/97)
  <bullet>  *Mayor of Lennox (SD) to U.S. Senator Tom Daschle (D-SD) 
    (8/27/97)
  <bullet>  *Mayor's Office City of Mitchell (SD) to President Clinton 
    (no date)
  <bullet>  *Mayor of North Sioux City (SD) to President Clinton (no 
    date)
  <bullet>  *Mayor of Rapid City (R-SD) (2/3/97)
  <bullet>  *South Dakota Association of Counties (3/11/97)
  <bullet>  *South Dakota Commissioner of School & Public Lands, Curt 
    Johnson to President Clinton (6/25/97)
  <bullet>  *South Dakota Association of County Commissioners to U.S. 
    Senator Tom Daschle (D-SD) (8/21/97)
  <bullet>  *South Dakota Association of County Commissioner to U.S. 
    Senator Tim Johnson (D-SD) (8/21/97)
  <bullet>  *Canton (SD) Commissioner Marie Beitzel to U.S. Senator Tom 
    Daschle (D-SD) (8/26/97)
  <bullet>  *Canton (SD) Commissioner Marie Beitzel to U.S. Senator Tim 
    Johnson (D-SD) (8/26/97)
  <bullet>  *Canton (SD) Commissioner Marie Beitzel to President 
    Clinton (no date)
  <bullet>  *Canton (SD) Commissioner Robert Bogue to U.S. Senator Tim 
    Johnson (D-SD) (8/26/97)
  <bullet>  *Canton (SD) Commissioner Robert Bogue to U.S. Senator Tom 
    Daschle (D-SD) (8/26/97)
  <bullet>  *Canton (SD) City Commissioner Robert Bogue to President 
    Clinton (6/26/97)
  <bullet>  *Clay County (SD) Commissioner to U.S. Senator Tim Johnson 
    (D-SD) (no date)
  <bullet>  *Clay County (SD) Commissioner to U.S. Senator Tom Daschle 
    (D-SD) (no date)
  <bullet>  *Clay County (SD) Commissioner to President Clinton (no 
    date)
  <bullet>  *Clay County (SD) Commissioner Todd Christensen to U.S. 
    Representative Tim Johnson (D-SD) (no date)
  <bullet>  *Clay County (SD) Commissioner Todd Christensen to U.S. 
    Senator Tom Daschle (D-SD) (no date)
  <bullet>  *Clay County (SD) Commissioner Todd Christensen to 
    President Clinton (no date)
  <bullet>  *Minnehaha County (SD) Commissioner to President Clinton 
    (no date)
  <bullet>  *Pennington County (SD) Commissioner Delores Coffing to 
    U.S. Senator Tim Johnson (D-SD) (8/20/97)
  <bullet>  *Pennington County (SD) Commissioner Delores Coffing to 
    U.S. Senator Tom Daschle (D-SD) (8/20/97)
  <bullet>  *Pennington County (SD) Commissioner Delores Coffing to 
    President Clinton (no date)
  <bullet>  *Pennington County (SD) Commissioner Gale Holbrook to 
    President Clinton (6/19/97)
  <bullet>  *Pennington County (SD) Commissioner Mark Kirkeby to U.S. 
    Senator Tim Johnson (D-SD) (8/20/97)
  <bullet>  *Pennington County (SD) Commissioner Mark Kirkeby to U. S. 
    Senator Tom Daschle (D-SD) (8/20/97)
  <bullet>  *Pennington County (SD) Commissioner Mark Kirkeby to 
    President Clinton (6/19/97)
  <bullet>  *Pierre (SD) Commissioner of School and Public Lands Curt 
    Johnson to U.S. Senator Tom Daschle (D-SD) (6/25/97)
  <bullet>  *Pierre (SD) Commissioner of School and Public Lands Curt 
    Johnson to U.S. Senator Tim Johnson (D-SD) (6/25/97)
  <bullet>  *Tennessee Municipal League (signed by the President and 
    Mayor of Knoxville (R-TN)) to Carol Browner (2/17/97)
  <bullet>  *Mayor of Germantown (no party-TN) to Carol Browner (2/7/
    97)
  <bullet>  *Mayor of Germantown (TN) to President Clinton (6/24/97)
  <bullet>  *Mayor of Knoxville (R-TN) to Carol Browner (12/3/96)
  <bullet>  *Mayor of Memphis (TN) to President Clinton (6/16/97)
  <bullet>  *Vice Mayor of Nashville (TN) to Carol Browner (2/4/97)
  <bullet>  *Shelby County, TN Commissioner Buckner Wellford (1/13/97)
  <bullet>  *Mayor of Alamo (TX) to President Clinton (6/4/97)
  <bullet>  *Mayor of Alamo (TX) to U.S. Representative Ruben Hinojosa 
    (D-TX) (8/25/97)
  <bullet>  *Mayor of Beaumont (TX) David W. Moore to President Clinton 
    (6/13/97)
  <bullet>  *Mayor of Carrizo Springs (TX) to U.S. Representative Ruben 
    Hinojosa (D-TX) (8/24/97)
  <bullet>  *Mayor of Carrizo Springs (TX) to President Clinton (no 
    date)
  <bullet>  *Mayor of Copperas Cove (TX) to President Clinton (6/4/97)
  <bullet>  *Mayor of Copperas Cove (TX) to Vice President Gore (6/4/
    97)
  <bullet>  *Mayor of Copperas Cove (TX) to U.S. Representative Chet 
    Edwards (D-TX) (6/4/97)
  <bullet>  *Mayor of Cotulla City (TX) to President Clinton (6/20/97)
  <bullet>  *Mayor of Dallas (no party-TX) to President Clinton (6/5/
    97)
  <bullet>  *Mayor Pro Tem of Denton (TX) to President Clinton (6/18/
    97)
  <bullet>  *Mayor of Denton (TX) to President Clinton (6/18/97)
  <bullet>  *Mayor of Eagle Pass (TX) to U.S. Representative Ruben 
    Hinojosa (D-TX) (8/26/97)
  <bullet>  *Mayor of Eagle Pass (TX) to President Clinton (no date)
  <bullet>  *Mayor of Edinburg (TX) to President Clinton (6/17/97)
  <bullet>  *Mayor of Floresville (TX) to President Clinton (6/16/97)
  <bullet>  *Mayor of Fort Worth (TX) to President Clinton (6/12/97)
  <bullet>  *Mayor of Gainesville (TX) to President Clinton (6/17/97)
  <bullet>  *Mayor Pro Tem of Gainesville (TX) to President Clinton (6/
    17/97)
  <bullet>  *Mayor of Groves (TX) to President Clinton (no date)
  <bullet>  *Mayor of La Joya (TX) to President Clinton (6/17/97)
  <bullet>  *Mayor of La Villa (TX) to President Clinton (6/5/97)
  <bullet>  *Mayor of Longview (no party-TX) to Sane Saginaw, EPA 
    Region VI Administrator (1/30/97)
  <bullet>  *Mayor of Marshall (TX) to President Clinton (6/20/97)
  <bullet>  *Mayor of McAllen (TX) to President Clinton (6/5/97)
  <bullet>  *Mayor of McGregor (TX) to President Clinton (6/3/97)
  <bullet>  *Mayor of McGregor (TX) to Vice President Gore (6/3/97)
  <bullet>  *Mayor of Mercedes (TX) to President Clinton (6/6/97)
  <bullet>  *Mayor of Missouri City (TX) to President Clinton (6/2/97)
  <bullet>  *Mayor of Mountain City (TX) to President Clinton (6/19/97)
  <bullet>  *Mayor of Oglesby (TX) to President Clinton (6/5/97)
  <bullet>  *Mayor of Oglesby (TX) to Vice President Gore (6/5/97)
  <bullet>  *Mayor of Oglesby (TX) to U.S. Representative Chet Edwards 
    (D-TX) (no date)
  <bullet>  *Mayor of Pearsall (TX) to U.S. Representative Ciro 
    Rodriguez (D-TX) (8/26/97)
  <bullet>  *Mayor of Pearsall (TX) to President Clinton (no date)
  <bullet>  *Mayor Pro Tem of Pearsall (TX) Rudy Rodriguez to President 
    Clinton (6/6/97)
  <bullet>  *Mayor of Plano (R-TX) (3/3/97)
  <bullet>  *Mayor of Port Arthur (TX) to President Clinton (6/17/97)
  <bullet>  *Mayor of San Antonio (no party-TX) (3/10/97)
  <bullet>  *Mayor of Sanger (TX) to President Clinton (6/17/97)
  <bullet>  *Mayor Pro Tem of Sanger (TX) to President Clinton (6/17/
    97)
  <bullet>  *Mayor of San Juan (TX) Roberto F. Loredo to President 
    Clinton (6/6/97)
  <bullet>  *Mayor of Texas City (D-TX) (2/17/97)
  <bullet>  *Mayor of Tyler (TX) to President Clinton (6/11/97)
  <bullet>  *Bexar County Commissioners Court (TX) (2/6/97)
  <bullet>  *Comal County (TX) Commissioner Moe Schwab to President 
    Clinton (5/27/97)
  <bullet>  *Comal County (TX) Commissioner Cristina Zamora to 
    President Clinton (6/20/97)
  <bullet>  *Cooke County (TX) Commissioner Virgil J. Hess to President 
    Clinton (6/17/97)
  <bullet>  *Dallas County (TX) Commissioner John Wiley Price to 
    President Clinton (6/12/97)
  <bullet>  *Dimmit County (TX) Commissioner Oscar Alvardo to President 
    Clinton (6/17/97)
  <bullet>  *Gregg County (TX) Commissioner Charles Davis to President 
    Clinton (no date)
  <bullet>  *Harrison County (TX) Commissioner Charles. Bennett to 
    President Clinton (no date)
  <bullet>  *Jefferson County (TX) Commissioner Mark L. Domingue to 
    President Clinton (6/12/97)
  <bullet>  *Jefferson County (TX) Commissioner Waymon D. Hallmark to 
    President Clinton (6/12/97)
  <bullet>  *Lampasas (TX) Commissioner Tommy Harkey to President 
    Clinton (no date)
  <bullet>  *La Salle County (TX) Commissioner Roberto Aldaco to 
    President Clinton (6/17/97)
  <bullet>  *Marshall (TX) Commissioner Martha Robb to President 
    Clinton (6/20/97)
  <bullet>  *Marshall (TX) Commissioner A. Williams to President 
    Clinton (6/23/97)
  <bullet>  *Nueces (TX) County Commissioner Oscar Ortiz to President 
    Clinton (6/9/97)
  <bullet>  *Pecos County (TX) Commissioner to President Clinton (6/6/
    97)
  <bullet>  *Pharr (TX) Commissioner Lalo Arcaute to President Clinton 
    (6/6/97)
  <bullet>  *Pleasure Island (TX) Commissioner Phil Hallmark to 
    President Clinton (6/13/97)
  <bullet>  *Pleasure Island (TX) Commissioner Wade Walters to 
    President Clinton (6/17/97)
  <bullet>  *San Patricio (TX) County Commissioner Gordon Porter to 
    President Clinton (6/2/97)
  <bullet>  *Willacy County (TX) Commissioner Israel Tamez to U.S. 
    Representative Solomon Ortiz (D-TX) (9/2/97)
  <bullet>  *Mayor of West Jordan (UT) to EPA (2/18/97)
  <bullet>  *Vermont League of Cities and Towns to the EPA Region I 
    Administrator (1/20/97)
  <bullet>  *Virginia Association of Counties (3/6/97)
  <bullet>  *Mayor of Appomattox (VA) to President Clinton (6/5/97)
  <bullet>  *Mayor of Fredericksburg (VA) to President Clinton (6/7/97)
  <bullet>  *Mayor of Norfolk (no party-VA) (2/7/97)
  <bullet>  *Mayor of Virginia Beach (VA) to President Clinton 6/5/97)
  <bullet>  *Chesterfield County (VA) Midlothian District Supervisor 
    Edward Barber to President Clinton (6/4/97)
  <bullet>  *Chesterfield County (VA) Supervisor Edward B. Barber to 
    President Clinton (6/4/97)
  <bullet>  *Mayor of Lacey (D-WA) (2/24/97)
  <bullet>  *Mayor of Snohomish (WA) to President Clinton (6/20/97)
  <bullet>  *Mayor of Spokane (no party-WA) (2/12/97)
  <bullet>  *Mayor of Warden (WA) to President Clinton (6/12/97)
  <bullet>  *Adams County (WA) Commissioner William ``Bill'' Schlagel 
    to U.S. Representative Rick White (R-WA) (9/3/97)
  <bullet>  *Adams County (WA) Commissioner Bill Wills to President 
    Clinton (6/9/97)
  <bullet>  *Franklin County (WA) Board of Commissioners to U.S. 
    Representative Rick White (R-WA) (8/27/97). (Copies also sent to 
    U.S. Senator Slade Gorton (R-WA), U.S. Senator Patty Murray (D-WA), 
    U.S. Representative Doc Hastings (R-WA), National Association of 
    Counties (NACO) and Environmental Protection Agency (EPA))
  <bullet>  *Franklin County (WA) Board of Commissioners to President 
    Clinton (6/11/97)
  <bullet>  *Grant County (WA) Board of Commissioners to President 
    Clinton (6/10/97)
  <bullet>  *Kittitas County (WA) Board of Commissioners to President 
    Clinton (6/23/97)
  <bullet>  *Skagit County Board of Commissioners (WA) (1/22/97)
  <bullet>  *Southwest Suburban Sewer District (WA) Commissioner John 
    Jovanovich to President Clinton (6/20/97)
  <bullet>  *Mayor of Bluefield (no party-WV) (3/6/97)
  <bullet>  *Mayor of Huntington (R-WV) (3/6/97)
  <bullet>  *Mayor of Welch (R-WV) to Carol Browner (3/6/97)
  <bullet>  *Mayor of DePere (no party-WI) to Carol Browner (1/21/97)
  <bullet>  *Mayor of New Berlin (WI) to President Clinton (6/25/97)
  <bullet>  *Mayor of Racine (WI) to President Clinton (6/19/97)
  <bullet>  *Wisconsin Alliance of Cities (signed by the Mayor of 
    Manitowoc (no party-WI)) to President Clinton (5/2/97)
  <bullet>  *Dane County (WI) Supervisor Andrew Janssen to President 
    Clinton (6/10/97)
  <bullet>  *Oconto County Board of Supervisors, Legislative Committee 
    (WI) (2/10/97)
  <bullet>  *Racine County (WI) Supervisor Raymond DeHahn to President 
    Clinton (6/12/97)
  <bullet>  *Walworth County (WI) Board of Supervisors Chairman Allen 
    L. Morrison to President Clinton (6/19/97)
  <bullet>  *Waukesha County (WI) Supervisor Carolyn Evenson to 
    President Clinton (5/22/97)
  <bullet>  *Waukesha County (WI) Supervisor Jim Strand to President 
    Clinton (6/16/97)
  <bullet>  *Campbell County Commissioners (WY) (3/6/97)
  <bullet>  *Converse County, WY Board of Commissioners (3/6/97)
  <bullet>  *Fremont County (WY) Commissioners Alma Nicol, Thomas 
    Satterfield, Jane Adamson, William Runner and T. Crosby Allen to 
    President Clinton (6/3/97)
                               __________
Letters/comments from other state and local officials
  <bullet>  *National Association of Regional Councils (3/12/97)
  <bullet>  *Alabama Democratic Party Vice Chair Amy Burks to President 
    Clinton (6/4/97)
  <bullet>  *Gadsden (AL) Judge of Probate Court Bobby Junkins to 
    President Clinton (6/9/97)
  <bullet>  *Anchorage (AK) Metropolitan Area Transportation Study, 
    Municipality of Anchorage (2/13/97)
  <bullet>  *Arizona Secretary of State Jane Dee Hull to President 
    Clinton (6/18/97)
  <bullet>  *Pima County (AZ) Department of Environmental Quality (3/
    12/97)
  <bullet>  *Arizona State Mine Inspector Douglas K. Martin to 
    President Clinton (6/6/97)
  <bullet>  *Flagstaff (AZ) City Councilman Rick Lopez to President 
    Clinton (6/25/97)
  <bullet>  *Arizona Corporation Commission Chairman Carl J. Kunasek to 
    President Clinton (6/4/97)
  <bullet>  *Phoenix (AZ) Councilman Sal DiCiccio to President Clinton 
    (6/19/97)
  <bullet>  *Phoenix (AZ) Councilman Doug Lingner to President Clinton 
    (6/12/97)
  <bullet>  *Alexander (AR) Councilmember Dorothy Smith to President 
    Clinton (6/18/97)
  <bullet>  *Alexander (AR) Councilmember Doug Sullens to President 
    Clinton (6/18/97)
  <bullet>  *Wrightsville (AR) Alderman Millie Brooks to President 
    Clinton (no date)
  <bullet>  *Wrightsville (AR) Alderman Gilbert Harris to President 
    Clinton (no date)
  <bullet>  *Wrightsville (AR) Alderwoman Dorothy Jackson to President 
    Clinton (no date)
  <bullet>  *Wrightsville (AR) Alderman Dameter Riley to President 
    Clinton (no date)
  <bullet>  *Metroplan (AR--a council of local governments) (2/28/97)
  <bullet>  *Arkansas County (AR) Judge Glenn Cox to President Clinton 
    (6/17/97)
  <bullet>  *Faulkner County (AR) Judge John Wayne Carter to President 
    Clinton (no date)
  <bullet>  *Hempstead County (AR) Judge Wallace Martin to U.S. Senator 
    Dale Bumpers (D-AR) (10/9/97)
  <bullet>  *Lake Village (AR) County Judge to Lynn Cutler, Office of 
    Intergovernmental Affairs (6/12/97)
  <bullet>  *Pulaski County (AR) Judge/Chief Executive Officer to 
    President Clinton (6/2/97)
  <bullet>  *Saline County (AR) Judge Terry M. Parsons to President 
    Clinton (6/97)
  <bullet>  *Pulaski County (AR) Justice of the Peace John Lewellen to 
    President Clinton (no date)
  <bullet>  *Pulaski County (AR) Justice of the Peace Mary Louise 
    Williams to President Clinton (6/18/97)
  <bullet>  *Hempstead County (AR) Treasurer Margie Vickers to U.S. 
    Senator Dale Bumpers (D-AR) (10/9/97)
  <bullet>  *Wrightsville (AR) Treasurer Carolyn King to President 
    Clinton (no date)
  <bullet>  *Hempstead County (AR) Clerk Velora Haltom to U.S. Senator 
    Dale Bumpers (D-AR) (10/9/97)
  <bullet>  *Hempstead County (AR) Circuit Clerk Carolyn Neel to U.S. 
    Senator Dale Bumpers (D-AR) (10/9/97)
  <bullet>  *Hempstead County (AR) Tax Assessor Darlene Sinyard to U.S. 
    Senator Dale Bumpers (D-AR) (10/9/97)
  <bullet>  *Anaheim (CA) Councilman, Bob Zemel to President Clinton 
    (5/29/97)
  <bullet>  *Anderson (CA) City Councilmember Rodney Jones to President 
    Clinton (no date)
  <bullet>  *Campbell (CA) City Councilmember Robert Dougherty to U.S. 
    Representative Tom Campbell (R-CA) (9/29/7)
  <bullet>  *Cathedral City (CA) Councilmember Gary Amy to President 
    Clinton (6/6/97)
  <bullet>  *Cathedral City (CA) Councilmember Sarah DiGrandi to 
    President Clinton (6/11/97)
  <bullet>  *Ceres (CA) City Councilmember Leo Havener, Jr. to 
    President Clinton (6/13/97)
  <bullet>  *Ceres (CA) City Councilmember Stan Risen to President 
    Clinton (6/13/97)
  <bullet>  *Commerce (CA) Councilmember Ray Cisneros to President 
    Clinton (6/12/97)
  <bullet>  *Commerce (CA) Councilmember Rosalina Lopez to President 
    Clinton (6/12/97)
  <bullet>  *Del Mar (CA) City Councilmember Andy Schooler to President 
    Clinton (6/3/97)
  <bullet>  *Desert Hot Springs (CA) Councilmember Gary Bosworth to 
    President Clinton (6/9/97)
  <bullet>  *Dixon (CA) Councilmember Chris Manson to U.S. Dianne 
    Feinstein (D-CA) (6/10/97)
  <bullet>  *El Cajon (CA) Councilman W.E. McClellan to President 
    Clinton (6/10/97)
  <bullet>  *Fairfield (CA) Councilmember George E. Pettygrove to U.S. 
    Representative Vic Fazio (D-CA) (8/26/97)
  <bullet>  *Garden Grove (CA) Councilman Ken Maddox to President 
    Clinton (6/3/97)
  <bullet>  *Garden Grove (CA) Councilman Mark Leyes to President 
    Clinton (6/10/97)
  <bullet>  *Huntington Beach (CA) Councilmember David Garofalo to 
    President Clinton (no date)
  <bullet>  *City of Irvine (CA) Councilmember Barry Hammond to 
    President Clinton (6/18/97)
  <bullet>  *Laguna Niguel (CA) Councilmember to President Clinton (6/
    12/97)
  <bullet>  *Laguna Niguel (CA) Councilmember Mark Goodman to President 
    Clinton (6/18/97)
  <bullet>  *Lake Forest (CA) Councilmember to President Clinton (6/11/
    97)
  <bullet>  *La Mesa (CA) Councilmember Barry Jantz to President 
    Clinton (6/3/97)
  <bullet>  *Loma Linda (CA) City Councilmember Glenn Elssmann to 
    President Clinton (6/14/97)
  <bullet>  *Los Angeles (CA) City Councilman Rudy Svorinich to 
    President Clinton (6/10/97)
  <bullet>  *Los Gatos (CA) Councilmember Steven Blanton to U.S. 
    Representative Tom Campbell (R-CA) (8/28/97)
  <bullet>  *Los Gatos (CA) Councilmember Steven Blanton to President 
    Clinton (6/13/97)
  <bullet>  *Mission Viejo (CA) Councilmember Sherri M. Butterfield to 
    U.S. Senator Feinstein (D-CA) (6/15/97)
  <bullet>  *Mission Viejo (CA) Councilmember Thomas Potocki to 
    President Clinton (6/6/97)
  <bullet>  *Modesto (CA) City Councilmember David Cogdill, Sr. to 
    President Clinton (6/16/97)
  <bullet>  *Modesto (CA) City Councilmember Stan Dobbs to President 
    Clinton (6/17/97)
  <bullet>  *Modesto City (CA) Councilmember Mike Serpa to President 
    Clinton (6/17/97)
  <bullet>  *Monterey Park (CA) Councilmember Rita Valenzuela to 
    President Clinton (6/12/97)
  <bullet>  *Mountain View (CA) Councilmember Mario Ambra to President 
    Clinton (6/12/97)
  <bullet>  *Orange (CA) Councilman Mark Murphy to President Clinton 
    (6/12/97)
  <bullet>  *Pismo Beach (CA) Councilman Bill Rabenalde to President 
    Clinton (6/11/97)
  <bullet>  *Powy (CA) City Councilmember Mickey Cafagna to President 
    Clinton (6/23/97)
  <bullet>  *Redwood City (CA) Councilman Matt Leipzig to President 
    Clinton (6/17/97)
  <bullet>  *Rocklin (CA) Councilmember Peter Hill to President Clinton 
    (6/12/97)
  <bullet>  *Sacramento (CA) Councilman Robert Kerth to President 
    Clinton (6/16/97)
  <bullet>  *Sacramento (CA) Councilmember Robbie Waters to President 
    Clinton (6/10/97)
  <bullet>  *San Bernardino (CA) Councilmember Edward Negrete to 
    President Clinton (6/11/97)
  <bullet>  *San Diego (CA) City Councilmember Judy McCarty to 
    President Clinton (6/19/97)
  <bullet>  *San Diego (CA) City Councilmember Byron Wear to President 
    Clinton (5/30/97)
  <bullet>  *San Diego (CA) City Councilmember Byron Wear to U.S. 
    Representative Bilbray (R-CA) (8/25/97)
  <bullet>  *San Jose (CA) Councilmember David Pandori to President 
    Clinton (6/17/97)
  <bullet>  *Santee (CA) Councilman Randy Voepel to President Clinton 
    (no date)
  <bullet>  *Shasta County (CA) Supervisor Patricia Clarke to President 
    Clinton (6/24/97)
  <bullet>  *South El Monte (CA) Councilman Arthur Olmos to President 
    Clinton (6/17/97)
  <bullet>  *Torrance (CA) Councilman Dan Walker to President Clinton 
    (no date)
  <bullet>  *Turlock (CA) City Councilmember John Lazar to President 
    Clinton (6/9/97)
  <bullet>  *Monrovia (CA) City Manager Donald Hopper to President 
    Clinton (6/12/97)
  <bullet>  *Spring Valley County (CA) official Susan Price to 
    President Clinton (6/10/97)
  <bullet>  *Feather River Air Quality Management District (CA) to EPA 
    (2/13/97)
  <bullet>  *North Coast Unified Air Quality Management District (CA) 
    (3/6/97)
  <bullet>  *San Diego County Air Pollution Control District (CA) (1/
    13/97)
  <bullet>  *San Diego County (CA) Chairman of the Air Pollution 
    Control Board Bill Horn to President Clinton (6/13/97)
  <bullet>  *San Joaquin Valley Unified Air Pollution Control District 
    (CA) (1/2/97)
  <bullet>  *Santa Barbara County (CA) Air Pollution Control District 
    to EPA (2/25/97)
  <bullet>  *Santa Maria (CA) Public Airport District Director Muril 
    Clift to President Clinton (6/17/97)
  <bullet>  *Los Rios (CA) Community College Trustee Terry Cochran to 
    President Clinton (6/11/97)
  <bullet>  *Saddleback Community College District (CA) Board of 
    Trustees Vice President John S. Williams to President Clinton (6/
    14/97)
  <bullet>  *San Diego (CA) Community College District Ken Moser to 
    President Clinton (no date)
  <bullet>  *West Valley-Mission Community College District Trusee 
    Karin Dowdy to U.S. Representative Tom Campbell (R-CA) (8/27/97)
  <bullet>  *West Valley-Mission Community College District (CA) 
    Trustee Brian K. Sloan to U.S. Representative Tom Campbell (R-CA) 
    (no date)
  <bullet>  *Sacramento (CA) Municipal Utility District, member, Board 
    of Directors, Anthony Pescetti to President Clinton (6/13/97)
  <bullet>  *Foothill Municipal Water District (CA) to U.S. 
    Representative James Rogan (R-CA) (9/11/97)
  <bullet>  *Helix Water District (CA) board member Barbara Barber to 
    President Clinton (no date)
  <bullet>  *Irvine Ranch (CA) Water District Board President Darryl 
    Miller to President Clinton (6/18/97)
  <bullet>  *Irvine Rancho Water District board member John Withers to 
    President Clinton (6/6/97)
  <bullet>  *Los Alisos (CA) Water District Vice President James Reed 
    to President Clinton (6/16/97)
  <bullet>  *Olivenhain (CA) Municipal Water District General Manager 
    David McCollom to President Clinton (6/16/97)
  <bullet>  *Olivehain (CA) Municipal Water District General Manager 
    David C. McCollom to U.S. Senator Feinstein (D-CA) (6/16/97)
  <bullet>  *Orange County (CA) Municipal Water District Director 
    Phillip Anthony to President Clinton (6/2/97)
  <bullet>  *Orange County (CA) Municipal Water District official--also 
    President of Bannister & Associates Insurance to President Clinton 
    (6/4/97)
  <bullet>  *Orange County (CA) Municipal Water District official Wes 
    Bannister to President Clinton (6/4/97)
  <bullet>  *Orange County (CA) Municipal Water District board member 
    Wayne Clark to President Clinton (6/4/97)
  <bullet>  *Orange County (CA) Municipal Water District official 
    Kenneth Witt to President Clinton (6/17/97)
  <bullet>  *Padre Dam (CA) Municipal Water Board member, Lex Boswell 
    to President Clinton (6/17/97)
  <bullet>  *Santa Clara Valley (CA) Water District, Robert W. Gross 
    Ph.D to President Clinton (6/12/97)
  <bullet>  *Santa Clara Valley (CA) Water District board member 
    Gregory Zlotnick to President Clinton (6/14/97)
  <bullet>  *Santa Margarita (CA) Water District Board member Roger 
    Faubel to President Clinton (5/29/97)
  <bullet>  *Santa Margarita (CA) Water District Board member Saundra 
    Jacobs to President Clinton (6/6/97)
  <bullet>  *Yucaipa Valley (CA) Water District President Steve Copelan 
    and Director Conrad Nelson to President Clinton (6/11/97)
  <bullet>  *Bonita (CA) School Board member to President Clinton (6/
    16/97)
  <bullet>  *Bonsall (CA) Unified School District representative Arlene 
    Ruiz to President Clinton (6/19/97)
  <bullet>  *Elverta (CA) Joint Elementary School District Trustee 
    Sandra Felley to President Clinton (6/19/97)
  <bullet>  *Fallbrook (CA) School Board Member Lynn Colburn to 
    President Clinton (no date)
  <bullet>  *Cajon Valley (CA) School Board Member Nancye M. Splintor 
    to President Clinton (no date)
  <bullet>  *Garden Grove (CA) Unified School District board member 
    Terry Cantrell to President Clinton (6/18/96)
  <bullet>  *Inglewood (CA) School Board Member Thomasina Reed to 
    President Clinton (6/13/97)
  <bullet>  *Lynwood (CA) Vice President Board of Education Cynthia 
    Green-Geter to President Clinton (no date)
  <bullet>  *Marysville (CA) Joint United School District Trustee 
    Sherrill Webb to President Clinton (6/23/97)
  <bullet>  *Montebello (CA) Unified School District President Thomas 
    M. Caldron to President Clinton (6/13/97)
  <bullet>  *Newport-Mesa (CA) Unified School District Trustee Judy 
    Franco to President Clinton (6/11/97)
  <bullet>  *Newport-Mesa (CA) Unified School District Trustee Wendy 
    Leece to President Clinton (6/16/97)
  <bullet>  *Newport-Mesa (CA) Unified School District Trustee Serena 
    R. Stokes to President Clinton (6/28/97)
  <bullet>  *Orange County (CA) School Board member Maureen Aschoff to 
    President Clinton (6/19/97)
  <bullet>  *Orange (CA) Unified School District Trustee Martin 
    Jacobson to President Clinton (6/19/97)
  <bullet>  *Orange County (CA) School Board Member Bill Lewis to 
    President Clinton (6/19/96)
  <bullet>  *Orange County (CA) Board of Education Trustee Dr. Ken 
    Williams to President Clinton (6/18/97)
  <bullet>  *Orange County (CA) School Board Member Eric Woolery to 
    President Clinton (6/13/97)
  <bullet>  *Saddleback Valley (CA) Unified School District Trustee 
    Marcia Birch to President Clinton (6/11/97)
  <bullet>  *Saddleback Valley (CA) Unified School District Trustee 
    Dore Gilbert to President Clinton (6/11/97)
  <bullet>  *San Diego County (CA) Board of Education member Thomas P. 
    Davies, Ph.D to President Clinton (6/18/97)
  <bullet>  *San Diego County (CA) School Board member John Witt to 
    President Clinton (no date)
  <bullet>  *Santa Ana (CA) School Board Member Rosie Avila to 
    President Clinton (6/15/97)
  <bullet>  *West Covina (CA) School Board President Mike Spence to 
    President Clinton (6/11/97)
  <bullet>  *Vallecitos (CA) School Board member Craig Olson to 
    President Clinton (no date)
  <bullet>  *School Board official (CA) Harald G. Martin to President 
    Clinton (6/4/97)
  <bullet>  *Monterey Park (CA) Clerk David M. Barron to President 
    Clinton (6/16/97)
  <bullet>  *City of Del Mar (CA) Andy Schooler, to President Clinton 
    (6/3/97)
  <bullet>  *Kern County, CA Planning Department, Resource Management 
    Agency to EPA (3/12/97)
  <bullet>  *Orange County, Transportation Corridor Agencies, William 
    Woollett, Jr., Chief Executive Officer (CA) (3/10/97)
  <bullet>  *Orange County (CA) Council of Governments (2/3/97)
  <bullet>  *Calaveras County (CA) Agriculture and Environmental 
    Management Agency, Air Pollution Control District to Carol Browner 
    (3/10/97)
  <bullet>  *San Luis Obispo Council of Governments, Regional 
    Transportation Planning Agency (3/12/97)
  <bullet>  *County Sanitation Districts of Orange County, CA (3/10/97)
  <bullet>  *Southern California Association of Governments (2/14/97)
  <bullet>  *Shasta County (CA) Department of Resource Management (3/3/
    97)
  <bullet>  *Palomar Pomerado (CA) Health System Trustee Karen Kirchoff 
    to President Clinton (6/12/97)
  <bullet>  *Palomar Pomerado Health System (CA) Trustee Nancy Scofield 
    to President Clinton (6/13/97)
  <bullet>  *Nipomo (CA) President, Board of Directors, Nipoma 
    Community Services District Kathleen A. Fairbanks to President 
    Clinton (6/12/97)
  <bullet>  *East County (CA) Fire Chief Darrell Jobes to President 
    Clinton (6/13/97)
  <bullet>  *West Valley Mission (CA) Community College Trustee Brian 
    K. Sloan to President Clinton (6/13/97)
  <bullet>  *Lewes (DE) Board of Public Works to David McKee, U.S. EPA 
    (3/7/97)
  <bullet>  *Seaford (DE) City Manager to David McKee, U.S. EPA (3/7/
    97)
  <bullet>  *Association of Metropolitan Sewerage Agencies (DC) (3/12/
    97)
  <bullet>  *Hialeah (FL) Council President Herman Echevarria to 
    President Clinton (6/12/97)
  <bullet>  *Hialeah (FL) City Councilman Guy Sanchez to President 
    Clinton (6/6/97)
  <bullet>  *Hialeah (FL) Councilmember Jose Yedra to President Clinton 
    (6/11/97)
  <bullet>  *Jacksonville Beach (FL) Councilman Mitch Kinsey to 
    President Clinton (no date)
  <bullet>  *Metro-Dade (FL) Community Councilmember Arnaldo ``Arnie'' 
    Llerena to President Clinton (6/10/97)
  <bullet>  *Metro-Dade County (FL) Senator Gwen Margolis to President 
    Clinton (6/13/97)
  <bullet>  *Metro-Dade County (FL) Councilwoman Jacqueline V. Pepper 
    to President Clinton (6/10/97)
  <bullet>  *Metro-Dade (FL) Community Councilman Melford Pinder to 
    President Clinton (6/10/97)
  <bullet>  *St. Petersburg (FL) City Council Chairman Ernest Fillyau, 
    Sr. to President Clinton (6/16/97)
  <bullet>  *St. Petersburg (FL) City Councilmember Frank Peterman, Jr. 
    to President Clinton (6/16/97)
  <bullet>  *Sweetwater (FL) City Council Vice President Prisca Barreto 
    to President Clinton (6/12/97)
  <bullet>  *Sweetwater (FL) Council President Jose L. Diaz to 
    President Clinton (6/12/97)
  <bullet>  *Sweetwater (FL) City Councilmember Manuel Duasso to 
    President Clinton (6/12/97)
  <bullet>  *Sweetwater (FL) Councilmember Manolo Fernandez to 
    President Clinton (6/12/97)
  <bullet>  *Sweetwater (FL) Councilmember Jesus Mesa to President 
    Clinton (6/12/97)
  <bullet>  *Sweetwater (FL) City Councilmember Luis M. Rodriguez to 
    President Clinton (6/12/97)
  <bullet>  *Tampa (FL) City Councilmember to U.S. Representative Jim 
    Davis (D-FL) (9/23/97)
  <bullet>  *Volusia County (FL) Councilmember Freddye C. Moore to 
    President Clinton (6/27/97)
  <bullet>  *Pinellas County (FL) Department of Environmental 
    Management (3/12/97)
  <bullet>  *Supervisor of Elections (FL) Barbara Kirkman, to President 
    Clinton (6/10/97)
  <bullet>  *Seminole County (FL) Tax Collector Ray Valdes to President 
    Clinton (6/5/97)
  <bullet>  *Florida Association of Counties to U.S. Senator Bob Graham 
    (D-FL) (5/7/97)
  <bullet>  *Dade County (FL) School Board member Betsy Kaplan to 
    President Clinton (6/13/97)
  <bullet>  *Dade County (FL) School Board Chair Solomon Stinson to 
    President Clinton (6/13/97)
  <bullet>  *Dade County (FL) School Board member Frederick Wilson to 
    President Clinton
  <bullet>  *Pinellas County (FL) Urban League President James O. 
    Simmons to President Clinton (6/4/97)
  <bullet>  *Atlanta (GA) Councilmember Pamela Alexander President 
    Clinton (6/16/97)
  <bullet>  *Atlanta (GA) City Councilmember Michael Julian Bond to 
    President Clinton (6/6/97)
  <bullet>  *Atlanta (GA) City Councilmember Sheila Martin Brown to 
    President Clinton (6/18/97)
  <bullet>  *Eatonton (GA) City Councilman John Reid to U. S. Senator 
    Max Cleland (D-GA) (8/29/97)
  <bullet>  *Eatonton (GA) City Councilman John Reid to President 
    Clinton (6/17/97)
  <bullet>  *DeKalb County (GA) Chief Executive Officer, Liane Levetan 
    to President Clinton (2/10/97)
  <bullet>  *Illinois/Iowa Bi-State Regional Commission (2/12/97)
  <bullet>  *Caldwell (ID) City Engineer to Carol Browner (1/21/97)
  <bullet>  *Caldwell (ID) City Engineer to President Clinton (6/9/97)
  <bullet>  *Central Advisory Council (IL) Artensa Randolph, Chairman 
    to Lynn Cutler, Office of Intergovernmental Affairs (6/5/97)
  <bullet>  *IL State Central Committeeman Cora McGrudger to President 
    Clinton (6/12/97)
  <bullet>  *Wheeling Township (IL) Committeeman Pat Botterman to 
    President Clinton (no date)
  <bullet>  *Chicago (IL) Alderman Thomas R. Allen to President Clinton 
    (6/13/97)
  <bullet>  *Chicago (IL) Alderperson Carrie M. Austin to President 
    Clinton (6/19/97)
  <bullet>  *Chicago (IL) Alderman John Buchanan to President Clinton 
    (6/5/97)
  <bullet>  *Chicago (IL) Alderman Walter Burnett to President Clinton 
    (6/15/97)
  <bullet>  *Chicago (IL) Alderman Sam Burrell to President Clinton (6/
    12/97)
  <bullet>  *Chicago (IL) Alderman Vilma Colom to President Clinton (no 
    date)
  <bullet>  *Chicago (IL) Alderman Percy Z. Giles to President Clinton 
    (6/13/97)
  <bullet>  *Chicago (IL) Alderman Bernard Hansen to President Clinton 
    (6/13/97)
  <bullet>  *Chicago (IL) Alderman Patrick M. Huels to President 
    Clinton (6/19/97)
  <bullet>  *Chicago (IL) Alderman Virgil Jones to President Clinton 
    (6/12/97)
  <bullet>  *Chicago (IL) Alderman Patrick Levar to President Clinton 
    (6/19/97)
  <bullet>  *Chicago (IL) Alderman Patrick J. Levar to U.S. Senator 
    Carol Moseley-Braun (D-IL) (9/10/97)
  <bullet>  *Chicago (IL) Alderman Patrick J. Levar to U.S. Senator 
    Richard J. Durbin (D-IL) (9/10/97)
  <bullet>  *Chicago (IL) Alderman Patrick J. Levar to U.S. 
    Representative Rod R. Blagojevich (D-IL) (9/10/97)
  <bullet>  *Chicago (IL) Alderman Patrick O'Connor to President 
    Clinton (6/19/97)
  <bullet>  *Chicago (IL) Alderman Gene Schulter to President Clinton 
    (6/19/97)
  <bullet>  *Chicago (IL) Alderman Dan Sohns to President Clinton (6/
    17/97)
  <bullet>  *Chicago (IL) Alderman Michael A. Wojcik to President 
    Clinton (6/6/97)
  <bullet>  *Chicago (IL) Alderman Michael R. Zalewski to President 
    Clinton (no date)
  <bullet>  *Chicago (IL) Alderman Michael R. Zalewski to U.S. Senator 
    Carol Moseley-Braun (D-IL) (no date)
  <bullet>  *Chicago (IL) Alderman Michael R. Zalewski to U.S. Senator 
    Richard J. Durbin (D-IL) (no date)
  <bullet>  *Chicago (IL) City Clerk James Laski to President Clinton 
    (6/9/97)
  <bullet>  *Pekin City (IL) City Manager Dick Hierstein to President 
    Clinton (6/3/97)
  <bullet>  *Hanover Township (IL) Trustee Brian McGuire to U.S. 
    Senator Richard Durbin (D-IL) (9/12/97)
  <bullet>  *Hanover Township (IL) Trustee Brian McGuire to U.S. 
    Senator Carol Moseley-Braun (D-IL) (9/12/97)
  <bullet>  *Rock Island (IL) Sheriff Michael Grchan to U.S. 
    Representative Lane Evans (D-IL) (no date)
  <bullet>  *Pekin (IL) Director of Public Property Gregory J. Ranney 
    to President Clinton (6/3/97)
  <bullet>  *Indianapolis (IN) Councilmember Beulah Coughenour to 
    President Clinton (6/12/97)
  <bullet>  *Indianapolis (IN) Councilman Jeffrey Golc to President 
    Clinton (6/12/97)
  <bullet>  *Indianapolis (IN) Councilmember William G. Schneider to 
    President Clinton (no date)
  <bullet>  *Mt. Pleasant (IA) Councilmembers, Steve Brimhall, Beryl 
    Shahan, Art Hamm, Wally Ray, J. Beams and Stan Curtis to U.S. 
    Senator Tom Harkin (D-IA) (8/18/97)
  <bullet>  *Sellersburg (IN) Councilmembers, David Broady, Kenneth 
    Alexander, William Voylos, Gary Fenner, and Aulton Eddings to U.S. 
    Representative Lee Hamilton (D-IN) (8/19/97)
  <bullet>  *Marion County (IN) Assessor Bernard J. Gohmann, Jr. to 
    President Clinton (6/10/97)
  <bullet>  *Davenport (IA) Aldermen Robert Lank, Joe Seng, Bob 
    Tappendorf, George Nickolas, Dan Vance, James Stolley, Jim Hayek, 
    Tom Carroll, Barney Barnhill and Ruth Reynolds to U.S. 
    Representative Jim Leach (R-IA) (8/28/97). This letter was also 
    sent to U.S. Senator Harkin (D-IA).
  <bullet>  *De Soto (IA) Assistant City Manager Bill Lindley to 
    President Clinton (6/13/97)
  <bullet>  *Marion (IA) Acting City Manager Riley F. Simpson to 
    President Clinton (6/13/97)
  <bullet>  *Davenport (IA) City Administrator James Pierce to 
    President Clinton (no date)
  <bullet>  *Mason City (IA) City Administrator Charles B. Hammen to 
    President Clinton (6/13/97)
  <bullet>  *Muscatine (IA) City Administrator Kevin Whittaker to 
    President Clinton (6/12/97)
  <bullet>  *Marion County (IN) Assessor Bernard J. Gohmann, Jr. to 
    President Clinton (6/10/97)
  <bullet>  *Webster City (IA) Assistant City Manager Michael D. Quinn 
    to President Clinton (6/12/97)
  <bullet>  *Forest City (IA) City Clerk Paul Boock to President 
    Clinton (6/12/97)
  <bullet>  *Fort Dodge (IA) City Clerk/Finance Director, Dennis 
    Milefchik to President Clinton (6/12/97)
  <bullet>  *Wyandotte County (KS) Health Department, Department of Air 
    Quality (3/11/97)
  <bullet>  Bullitt County (KY) Judge (5/3/96)
  <bullet>  Campbell County (KY) Judge (5/9/96)
  <bullet>  Kenton County (KY) Judge (4/29/96)
  <bullet>  *Clay County (KY) Judge Executive, James Garrison to Carol 
    Browner (3/4/97)
  <bullet>  *Lafayette Consolidated Government (LA) Parish President 
    Walter Comeaux, Jr. to Carol Browner (2/14/97)
  <bullet>  *Jefferson Parish (LA) Council Chairman Aaron Broussard to 
    President Clinton (6/6/97)
  <bullet>  *New Orleans (LA) Assessor Patricia A. Johnson to President 
    Clinton (5/29/97)
  <bullet>  *New Orleans (LA) Assessor Patricia A. Johnson to U.S. 
    Representative Bill Jefferson (D-LA) (8/12/97)
  <bullet>  *New Orleans (LA) Assessor Patricia A. Johnson to U.S. 
    Senator Breaux (D-LA) (5/29/97)
  <bullet>  *New Orleans (LA) Assessor Patricia A. Johnson to U.S. 
    Senator Landrieu (D-LA) (5/29/97)
  <bullet>  *New Orleans (LA) Assessor Erroll G. Williams to President 
    Clinton (6/6/97)
  <bullet>  *New Orleans (LA) Assessor Erroll G. Williams to U.S. 
    Representative Bill Jefferson (D-LA) (8/12/97)
  <bullet>  *New Orleans (LA) Assessor Erroll G. Williams to U.S. 
    Senator Breaux (D-LA) (6/6/97)
  <bullet>  *New Orleans (LA) Assessor Erroll G. Williams to U.S. 
    Senator Landrieu (D-LA) (6/6/97)
  <bullet>  *Jefferson Parish (LA) Councilmember Aaron Broussard to 
    Carol Browner (7/16/97)
  <bullet>  *Jefferson Parish (LA) Councilmember Aaron Broussard to 
    Vice President Gore (7/16/97)
  <bullet>  *New Orleans (LA) City Councilmember Troy A. Carter to 
    President Clinton (6/5/97)
  <bullet>  *New Orleans (LA) City Councilmember Troy A. Carter to U.S. 
    Representative Bill Jefferson (D-LA) (8/21/97)
  <bullet>  *New Orleans (LA) City Councilmember Troy A. Carter to U.S. 
    Senator Breaux (D-LA) (6/9/97)
  <bullet>  *New Orleans (LA) City Councilmember Troy A. Carter to U.S. 
    Senator Landrieu (D-LA) (6/9/97)
  <bullet>  *New Orleans (LA) City Councilmember Roy E. Glapion, Jr. to 
    President Clinton (6/12/97)
  <bullet>  *New Orleans (LA) City Councilmember Roy E. Glapion, Jr. to 
    U.S. Representative Bill Jefferson (D-LA) (8/12/97)
  <bullet>  *New Orleans (LA) City Councilmember Roy E. Glapion to U.S. 
    Senator Mary Landrieu (D-LA) (6/12/97)
  <bullet>  *New Orleans (LA) City Councilmember Roy E. Glapion to U.S. 
    Senator John Breaux (D-LA) (6/12/97)
  <bullet>  *New Orleans (LA) City Councilmember Suzanne Haik Terrell 
    to President Clinton (6/9/97)
  <bullet>  *New Orleans (LA) City Councilmember Suzanne Haik Terrell 
    to U.S. Senator Breaux (D-LA) (6/9/97)
  <bullet>  *New Orleans (LA) City Councilmember Suzanne Haik Terrell 
    to U.S. Senator Landrieu (D-LA) (6/9/97)
  <bullet>  *New Orleans (LA) City Councilmember Ellen Hazeur-Distance 
    to President Clinton (6/6/97)
  <bullet>  *New Orleans (LA) City Councilmember Ellen Hazeur Distance 
    to U.S. Representative Bill Jefferson (D-LA) (8/12/97)
  <bullet>  *New Orleans (LA) City Councilmember Ellen Hazeur-Distance 
    to U.S. Senator Breaux (D-LA) (6/6/97)
  <bullet>  *New Orleans (LA) City Councilmember Ellen Hazeur-Distance 
    to U.S. Senator Landrieu (D-LA) (6/6/97)
  <bullet>  *New Orleans (LA) City Councilmember R.E. ``Gus'' Payne to 
    President Clinton (6/2/97)
  <bullet>  *New Orleans (LA) City Councilmember R.E. ``Gus'' Payne to 
    U.S. Senator Breaux (D-LA) (6/2/97)
  <bullet>  *New Orleans (LA) City Councilmember R.E. ``Gus'' Payne to 
    U.S. Senator Landrieu (D-LA) (6/2/97)
  <bullet>  *New Orleans (LA) City Councilmember Jim Singleton to 
    President Clinton (6/9/97)
  <bullet>  *New Orleans (LA) City Councilmember Jim Singleton to U.S. 
    Representative Bill Jefferson (D-LA) (8/12/97)
  <bullet>  *New Orleans (LA) City Councilman-at-Large Jim Singleton to 
    U.S. Senator Breaux (D-LA) (6/9/97)
  <bullet>  *New Orleans (LA) City Councilman-at-Large Jim Singleton to 
    U.S. Senator Landrieu (D-LA) (6/9/97)
  <bullet>  *New Orleans (LA) City Councilmember Oliver Thomas to 
    President Clinton (6/5/97)
  <bullet>  *New Orleans (LA) City Councilmember Peggy Wilson to 
    President Clinton (no date)
  <bullet>  *New Orleans (LA) City Councilmember Peggy Wilson to U.S. 
    Representative Bill Jefferson (D-LA) (8/20/97)
  <bullet>  *New Orleans (LA) City Councilwoman Peggy Wilson to U.S. 
    Senator Breaux (D-LA) (no date)
  <bullet>  *New Orleans (LA) City Councilwoman Peggy Wilson to U.S. 
    Senator Landrieu (D-LA) (no date)
  <bullet>  *Shreveport (LA) City Councilmember Keith Hightower to 
    President Clinton (6/11/97)
  <bullet>  *Shreveport (LA) City Councilmember Keith Hightower to U.S. 
    Senator John Breaux (D-LA) (6/11/97)
  <bullet>  *St. James Parish (LA) Councilmember Timothy Roussel to 
    President Clinton (6/10/97)
  <bullet>  *Abita Springs (LA) Justice of the Peace Mario Ventura to 
    U.S. Senator John Breaux (D-LA) (no date)
  <bullet>  *Abita Springs (LA) Justice of the Peace Mario Ventura to 
    U.S. Senator Mary Landrieu (D-LA) (no date)
  <bullet>  *Abita Springs (LA) Justice of the Peace Mario Ventura to 
    President Clinton (no date)
  <bullet>  *Jefferson Parish (LA) Justice of the Peace Steve J. 
    Mortillaro to U.S. Senator Mary Landrieu (D-LA) (6/9/97)
  <bullet>  *Jefferson Parish (LA) Justice of the Peace Steve 
    Mortillaro to U.S. Senator John Breaux (D-LA) (6/9/97)
  <bullet>  *Jefferson Parish (LA) Justice of the Peace Steve J. 
    Mortillaro to President Clinton (6/9/97)
  <bullet>  *Orleans Parish (LA) School Board member Bill Bowers to 
    President Clinton (6/6/97)
  <bullet>  *Orleans Parish (LA) School Board Member Bill Bowers to 
    U.S. Senator Breaux (D-LA) (6/6/97)
  <bullet>  *Orleans Parish (LA) School Board Member Bill Bowers to 
    U.S. Senator Landrieu (D-LA) (6/6/97)
  <bullet>  *Orleans Parish (LA) School Board President J. Berengher 
    Brechtel to President Clinton (6/11/97)
  <bullet>  *Orleans Parish (LA) School Board President J. Berengher 
    Brechtel to U.S. Representative Bill Jefferson (D-LA) (8/13/97)
  <bullet>  *Orleans (LA) Parish School Board President J. Berenger 
    Brechtel to U.S. Senator Mary Landrieu (D-LA) (6/11/97)
  <bullet>  *Orleans Parish (LA) School Board member Maudelle Cade to 
    President Clinton (5/28/97). Also Executive Director of Covenant 
    House New Orleans.
  <bullet>  *Orleans Parish (LA) School Board Member Maudelle Cade to 
    U.S. Senator Breaux (D-LA) (5/28/97)
  <bullet>  *Orleans Parish (LA) School Board Member Maudelle Cade to 
    U.S. Senator Landrieu (D-LA) (5/28/97)
  <bullet>  *Orleans Parish (LA) School Board Member Cheryl Cramer to 
    President Clinton (6/9/97)
  <bullet>  *Orleans Parish (LA) School Board Member Cheryl Q. Cramer 
    to U.S. Senator Breaux (D-LA) (6/9/97)
  <bullet>  *Orleans Parish (LA) School Board Member Cheryl Q. Cramer 
    to U.S. Senator Landrieu (D-LA) (6/9/97)
  <bullet>  *Orleans Parish (LA) School Board Member Carolyn Ford to 
    U.S. Senator Breaux (D-LA) (6/6/97)
  <bullet>  *Orleans Parish (LA) School Board Member Carolyn Ford to 
    U.S. Senator Landrieu (D-LA) (6/6/97)
  <bullet>  *Orleans Parish (LA) School Board Member Carolyn Ford to 
    President Clinton (6/6/97)
  <bullet>  *Orleans Parish (LA) School Board Vice President Gail M. 
    Glapion to President Clinton (5/29/97)
  <bullet>  *Orleans Parish (LA) School Board Vice President Gail M. 
    Glapion to U.S. Representative Bill Jefferson (D-LA) (8/15/97)
  <bullet>  *Orleans Parish (LA) School Board Vice President Gail M. 
    Glapion to U.S. Senator Breaux (D-LA) (5/29/97)
  <bullet>  *Orleans Parish (LA) School Board Vice President Gail M. 
    Glapion to U.S. Senator Landrieu (D-LA) (5/29/97)
  <bullet>  *Jefferson Parish (LA) Clerk Terrie Rodrigue to the 
    Louisiana Department of Environmental Quality (5/23/97)
  <bullet>  *Jefferson Parish (LA) Clerk Terrie Rodrigue to U.S. EPA 
    (5/23/97)
  <bullet>  *Jefferson Parish (LA) Constable Salvador Liberto to 
    President Clinton (no date)
  <bullet>  *Jefferson Parish (LA) Constable Salvador Liberto to U.S. 
    Senator Breaux (D-LA) (6/5/97)
  <bullet>  *Jefferson Parish (LA) Constable Salvador Liberto to U.S. 
    Senator Landrieu (D-LA) (6/5/97)
  <bullet>  *Jefferson Parish (LA) Constable Salvador Liberto to 
    President Clinton (no date)
  <bullet>  *Jefferson Parish (LA) Sheriff Harry Lee to President 
    Clinton (6/25/97)
  <bullet>  *Jefferson Parish (LA) Sheriff Harry Lee to U.S. Senator 
    Mary Landrieu (D-LA) (6/25/97)
  <bullet>  *Jefferson Parish (LA) Sheriff Harry Lee to U.S. Senator 
    John Breaux (D-LA) (6/25/97)
  <bullet>  *St. Tammany Parish (LA) Police Jury Floyd Glass to 
    President Clinton (no date)
  <bullet>  *St. Tammany Parish (LA) Police Jury Floyd Glass to U.S. 
    Senator Breaux (D-LA) (no date)
  <bullet>  *St. Tammany Parish (LA) Police Jury Floyd Glass to U.S. 
    Senator Landrieu (D-LA) (no date)
  <bullet>  *St. Tammany Parish (LA) District Attorney Walter P. Reed 
    to President Clinton (no date)
  <bullet>  *St. Tammany Parish (LA) District Attorney Walter P. Reed 
    to U.S. Senator John Breaux (D-LA) (no date)
  <bullet>  *St. Tammany Parish (LA) District Attorney Walter P. Reed 
    to U.S. Senator Mary Landrieu (D-LA) (no date)
  <bullet>  *Orleans Parish (LA) Executive Committeeman Joseph Lama to 
    U.S. Senator Mary Landrieu (D-LA) (no date)
  <bullet>  *Orleans Parish (LA) Executive Committeemen Joseph Lama to 
    U.S. Senator John Breaux (D-LA) (no date)
  <bullet>  *Orleans Parish (LA) Executive Committeeman Jim Nugent to 
    President Clinton (6/9/97)
  <bullet>  *Orleans Parish (LA) Executive Committeeman Jim Nugent to 
    U.S. Senator John Breaux (D-LA)(6/9/97)
  <bullet>  *Orleans Parish (LA) Executive Committeeman Jim Nugent to 
    U.S. Senator Mary Landrieu (D-LA) (6/9/97)
  <bullet>  *Orleans Parish (LA) Executive Committeeman John Treen to 
    U.S. Senator Mary Landrieu (D-LA) (6/11/97)
  <bullet>  *Louisiana State Executive Committee of the Republican 
    Party member V.J. Bruno to U.S. Senator Breaux (D-LA) (no date)
  <bullet>  *Louisiana State Executive Committee of the Republican 
    Party member V.J. Bruno to U.S. Senator Landrieu (D-LA) (no date)
  <bullet>  *Louisiana State Central Committee of the Republican Party 
    official Francis Berger to U.S. John Breaux (D-LA) (no date)
  <bullet>  *Louisiana State Central Committee of the Republican Party 
    official Francis Berger to U.S. Senator Mary Landrieu (D-LA) (no 
    date)
  <bullet>  *Baltimore (MD) City Councilman Nicholas C. D'Adamo, Jr. to 
    President Clinton (6/16/97)
  <bullet>  *City of Detroit (MI) Department of Environmental Affairs 
    (3/12/97)
  <bullet>  *Southeast Michigan Council of Governments (SEMCOG) to EPA 
    (2/28/97)
  <bullet>  *West Michigan Shoreline Regional Development Commission to 
    EPA, MI DEQ, MI DOT, and Muskegon area local units of government 
    (3/6/97)
  <bullet>  *Detroit (MI) City Councilmember Gil Hill to President 
    Clinton (no date)
  <bullet>  *Detroit (MI) City Councilmember Alberta Tinsley-Williams 
    to President Clinton (6/4/97)
  <bullet>  *Grand Blanc (MI) City Councilmember Jeffrey C. Pardee to 
    U.S. Representative Debbie Stabenow (D-MI) (8/28/97)
  <bullet>  *Grand Blanc (MI) City Councilmember Jeffrey C. Pardee to 
    U.S. Senator Carl Levin (D-MI) (8/28/97)
  <bullet>  *Scottville (MI) City Manager (3/4/97)
  <bullet>  *Pere Marquette Charter Township Board (MI) (2/12/97)
  <bullet>  *Board of Trustees, Canton, Wayne County, Michigan to EPA 
    (3/12/97)
  <bullet>  *Boston Township (MI) Clerk Carolyn K. Longwell to U.S. 
    Representative Vernon Ehlers (R-MI) (9/3/97)
  <bullet>  *Boston Township (MI) Clerk Carolyn K. Longwell to U.S. 
    Senator Carl Levin (D-MI) (9/3/97)
  <bullet>  *Genesee County (MI) Clerk Michael J. Carr to President 
    Clinton (6/4/97)
  <bullet>  *Genesee County (MI) Clerk Michael J. Carr to U.S. Senator 
    Carl Levin (D-MI) (8/20/97)
  <bullet>  *Genesee County (MI) Clerk Michael J. Carr to U.S. 
    Representative Debbie Stabenow (D-MI) (8/20/97)
  <bullet>  *Ionia County (MI) Clerk Barbara A. Trierweiler to U.S. 
    Senator Carl Levin (D-MI) (8/25/97)
  <bullet>  *Ionia County (MI) Clerk Barbara A. Trierweiler to U.S. 
    Representative Vernon J. Ehlers (R-MI) (8/25/97)
  <bullet>  *Macomb Township (MI) Clerk Norman J. Snay to U.S. 
    Representative David Bonior (D-MI) (9/5/97)
  <bullet>  *Macomb Township (MI) Clerk Norman J. Snay to U.S. Carl 
    Levin (D-MI) (9/5/97)
  <bullet>  *Oscoda County (MI) Clerk Patsy J. Peters to President 
    Clinton (6/12/97)
  <bullet>  *Sebewa Township (MI) Clerk Grayden D. Slowins to U.S. 
    Representative Vernon Ehlers (R-MI) (9/3/97)
  <bullet>  *Sebewa Township (MI) Clerk Grayden D. Slowins to U.S. 
    Senator Carl Levin (D-MI) (9/3/97)
  <bullet>  *Ada Township (MI) Treasurer Carolyn Soderberg to U.S. 
    Senator Carl Levin (D-MI) (8/29/97)
  <bullet>  *Ada Township (MI) Treasurer Carolyn Soderberg to U.S. 
    Representative Vernon Ehlers (R-MI) (8/29/97)
  <bullet>  *Barry County (MI) Treasurer Susan VandeCar to U.S. 
    Representative Vernon Ehlers (R-MI) (9/22/97)
  <bullet>  *Berrien County (MI) Treasurer William A. Wolf to President 
    Clinton (6/25/97)
  <bullet>  *Crawford County (MI) Treasurer to U.S. Representative Bart 
    Stupak (D-MI) (9/11/97)
  <bullet>  *Genesee County (MI) Treasurer Daniel T. Kildee to 
    President Clinton (6/5/97)
  <bullet>  *Genesee County (MI) Treasurer Daniel T. Kildee to U.S. 
    Representative Debbie Stabenow (D-MI) (8/26/97)
  <bullet>  *Genesee County (MI) Treasurer Daniel T. Kildee to U. S. 
    Senator Carl Levin (D-MI) (8/26/97)
  <bullet>  *Grand Blanc Township (MI) Treasurer Jeffrey Cyphert to 
    U.S. Senator Carl Levin (D-MI) (8/28/97)
  <bullet>  *Fenton Township (MI) Trustee Denise Ketchmark to U.S. 
    Senator Carl Levin (D-MI) (8/27/97)
  <bullet>  *Fenton Township (MI) Trustee Denise Ketchmark to U.S. 
    Representative Debbie Stabenow (D-MI) (8/27/97)
  <bullet>  *Flint Township (MI) Treasurer Sandra S. Wright to U.S. 
    Representative Debbie Stabenow (D-MI) (8/28/97)
  <bullet>  *Flint Township (MI) Treasurer Sandra S. Wright to U.S. 
    Senator Carl Levin (D-MI) (8/28/97)
  <bullet>  *Macomb Township (MI) Treasurer Marie E. Malburg to U.S. 
    Representative David Bonior (D-MI) (9/5/97)
  <bullet>  *Macomb Township (MI) Treasurer Marie E. Malburg to U.S. 
    Senator Carl Levin (D-MI) (9/5/97)
  <bullet>  *Breitung Township (MI) Trustee Barbara J. Oliver to 
    President Clinton (6/13/97)
  <bullet>  *Flint Township (MI) Trustee George Menoutes to U.S. 
    Representative Debbie Stabenow (D-MI) (8/29/97)
  <bullet>  *Flint Township (MI) Trustee George Menoutes to U. S. 
    Senator Carl Levin (D-MI) (8/29/97)
  <bullet>  *Thetford Township (MI) Trustee E.H. Benning to President 
    Clinton (6/11/97)
  <bullet>  *Thetford Township (MI) Trustee Edgar Benning to U.S. 
    Senator Carl Levin (D-MI) (4/24/97)
  <bullet>  *Genesee County (MI) Prosecutor Arthur A. Busch to U.S. 
    Representative Debbie Stabenow (D-MI) (8/27/97)
  <bullet>  *Genesee County (MI) Prosecutor Arthur A. Busch to U. S. 
    Senator Carl Levin (D-MI) (8/27/97)
  <bullet>  *Macomb County (MI) Prosecuting Attorney Carl Marlinga to 
    U.S. Representative David Bonior (D-MI) (8/22/97)
  <bullet>  *Macomb County (MI) Prosecuting Attorney Carl Marlinga to 
    U.S. Senator Carl Levin (D-MI) (8/22/97)
  <bullet>  *Wayne County (MI) Executive Edward McNamara to President 
    Clinton (6/97)
  <bullet>  *Bloomington (MN) City Councilmember Peggy Ramthun to U.S. 
    Representative Jim Ramstad (R-MN) (no date)
  <bullet>  Office of the County Executive, St. Charles County, 
    Missouri (8/19/96)
  <bullet>  *Office of the County Executive, St. Charles County, 
    Missouri (1/13/97)
  <bullet>  *Office of the County Executive, St. Charles County, 
    Missouri to President Clinton (6/9/97)
  <bullet>  *Missouri Municipal League to Sally Katzen, OMB (5/27/97)
  <bullet>  *Jackson County (MO) Legislator (Chairman of Land Use 
    Committee) Fred Arbanas to U.S. Representative Karen McCarthy (D-
    MO) (8/25/97)
  <bullet>  *Jackson County (MO) Legislator John Burnett to President 
    Clinton (6/5/97)
  <bullet>  *Jackson County (MO) Legislator Carl Bussey to President 
    Clinton (5/27/97)
  <bullet>  *Jackson County (MO) Legislator Carl Bussey to President 
    Clinton (5/27/97)
  <bullet>  *Jackson County (MO) Legislator (Chairman of the 
    Legislature) Victor Callahan to U.S. Representative Karen McCarthy 
    (D-MO) (8/25/97)
  <bullet>  *Jackson County (MO) Legislator Dixie Flynn to President 
    Clinton (6/5/97)
  <bullet>  *Jackson County (MO) Legislator Victor Callahan to 
    President Clinton (5/23/97)
  <bullet>  *Jackson County (MO) Legislator Dan Tarwater to President 
    Clinton (6/9/97)
  <bullet>  *Jackson County (MO) Legislator Dan Tarwater to U.S. 
    Representative Karen McCarthy (D-MO) (8/19/97)
  <bullet>  *Jackson County (MO) Legislator Fred Arbanas to President 
    Clinton (5/23/97)
  <bullet>  *Jackson County (MO) Legislator John Graham to President 
    Clinton (5/27/97)
  <bullet>  *Jackson County (MO) Legislator Dennis Waits to President 
    Clinton (5/23/97)
  <bullet>  *Glendale (MO) Alderman Richard Magee to President Clinton 
    (6/2/97)
  <bullet>  *Lincoln County, Department of Environmental Health (MT) 
    (3/6/97)
  <bullet>  *Lincoln County (MT) Department of Environmental Health to 
    Erskine Bowles, White House Chief of Staff (6/19/97)
  <bullet>  *Omaha (NE) City Councilmember Lormong Lo to U.S. Senator 
    Bob Kerry (D-NE) (9/5/97)
  <bullet>  *Metropolitan Area Planning Agency (MAPA) (NE--a council of 
    governments) (3/11/97)
  <bullet>  *Joseph Salitros, City Administrator, Wayne, NE to EPA (2/
    28/97)
  <bullet>  *Auburn (NE) Board of Public Works to EPA (2/17/97)
  <bullet>  *Sidney (NE) official Marlan V. Ferguson to U.S. Senator 
    Bob Kerry (D-NE) (9/3/97)
  <bullet>  *Boulder City (NV) Councilwoman Iris Bletsch to President 
    Clinton (6/20/97)
  <bullet>  *Las Vegas (NV) Councilman Matthew Callister to President 
    Clinton (6/19/97)
  <bullet>  *Las Vegas (NV) Councilman Gary Reese to President Clinton 
    (no date)
  <bullet>  *North Las Vegas (NV) Councilman Theron H. Goynes to 
    President Clinton (6/19/97)
  <bullet>  *North Las Vegas (NV) Councilman William Robinson to 
    President Clinton (6/4/97)
  <bullet>  *North Las Vegas (NV) Councilman John Rhodes to President 
    Clinton (6/6/97)
  <bullet>  *Boulder City (NV) Councilman Byran Nix to President 
    Clinton (6/6/97)
  <bullet>  *Bolder City (NV) Councilman Bryan Nix to U.S. 
    Representative Jim Gibbons (R-NV) (8/15/97)
  <bullet>  *Henderson (NV) Councilman David Wood to U.S. 
    Representative Jim Gibbons (R-NV) (no date)
  <bullet>  *Santa Fe (NM) City Councilor Amy Manning to President 
    Clinton (6/11/97)
  <bullet>  *Socorro (NM) Councilman Danny Armijo to President Clinton 
    (6/5/97)
  <bullet>  *Espanola City (NM) Acting City Manager Alice D. Lucero to 
    President Clinton (6/25/97)
  <bullet>  *Socorro County (NM) Treasurer Isabel M. Montoya to 
    President Clinton (6/4/97)
  <bullet>  *Lea County (NM) Sheriff Bill Lane to President Clinton (6/
    12/97)
  <bullet>  *Santa Fe County (NM) Sheriff Benjamin Montano to President 
    Clinton (6/25/97)
  <bullet>  *Les County (NM) Presiding Magistrate Judge Jack D. Bailey 
    to President Clinton (6/17/97)
  <bullet>  *Socorro County (NM) Judge to President Clinton (6/4/97)
  <bullet>  *Lea County (NM) Assessor Melba Hamby to President Clinton 
    (6/12/97)
  <bullet>  *Santa Fe County (NM) Assessor Benito J. Martinez, Jr. to 
    President Clinton (6/13/97)
  <bullet>  *Socorro (NM) state official Jean Fraissinet to President 
    Clinton (no date)
  <bullet>  *Espanola (NM) Chief Deputy Clerk Dorothy Borrego to 
    President Clinton (6/25/97)
  <bullet>  *Socorro County (NM) Clerk Carmen Gallegos to President 
    Clinton (6/3/97)
  <bullet>  *Association of Towns of the State of New York to U.S. 
    Representative Michael McNulty (D-NY) (5/14/97) Same letter mailed 
    to entire NY Congressional Delegation.
  <bullet>  *Orange County (NY) Legislator Rich Baum to President 
    Clinton (6/5/97)
  <bullet>  *Orange County (NY) Legislators Richard L. Hansen, Sr. and 
    Roberta K Murphy to President Clinton (6/9/97)
  <bullet>  *Orange County (NY) Legislators Roberta Murphy and Richard 
    Hansen, Jr. to President Clinton (6/9/97)
  <bullet>  *Spring Valley (NY) Planning Board member Ryan Karben to 
    President Clinton (6/3/97)
  <bullet>  *Suffolk County (NY) Legislator David Bishop to President 
    Clinton (6/25/97)
  <bullet>  *Haverstraw (NY) Village Trustee Ricky Sanchez to President 
    Clinton (6/18/97)
  <bullet>  *Camden County (NC) Board of Commissioners to President 
    Clinton (6/2/97)
  <bullet>  *Clayton (NC) Councilmember Roy Green to U.S. 
    Representative Bobby Etheridge (D-NC) (no date)
  <bullet>  *Clayton (NC) Councilmember Sue Johnson to U.S. 
    Representative Bob Etheridge (D-NC) (8/2/97)
  <bullet>  *Durham (NC) City Councilman Tyrone Cox to President 
    Clinton (6/3/97)
  <bullet>  *Goldsboro (NC) Councilman Tim Bartlett to U.S. 
    Representative Eva Clayton (D-NC) (8/29/97)
  <bullet>  *Greensboro (NC) City Councilwoman Claudette Burroughs-
    White to President Clinton (5/28/97)
  <bullet>  *Greensboro (NC) City Councilwoman Yvonne Johnson to 
    President Clinton (6/3/97)
  <bullet>  *Greensboro (NC) City Councilman Earl Jones to President 
    Clinton (6/4/97)
  <bullet>  *Hickory (NC) City Councilman Robert Southerland to EPA (3/
    10/97)
  <bullet>  *Wilmington (NC) City Councilman (3/10/97)
  <bullet>  *Apex (NC) Assistant Town Manager J. Michael Wilson to EPA 
    (3/10/97)
  <bullet>  *Bessemer City (NC) City Manager Ralph Messera to EPA (3/
    10/97)
  <bullet>  *Henderson (NC) City Manager Eric Williams to EPA (3/10/97)
  <bullet>  *Hickory (NC) City Manager B. McGee to EPA (3/10/97)
  <bullet>  *Hickory (NC) Assistant City Manager (3/10/97)
  <bullet>  *Lexington (NC) City Manager R. Duke Whisenant to President 
    Clinton (6/6/97)
  <bullet>  *Wilmington (NC) City Manager (3/10/97)
  <bullet>  *Hickory (NC) Alderman (3/10/97)
  <bullet>  *Durham, Chapel Hill, Carrboro (NC) Metropolitan Planning 
    Organization to Carol Browner (3/12/97)
  <bullet>  *North Dakota Secretary of State to President Clinton (6/
    10/97)
  <bullet>  *North Dakota State Labor Commissioner Craig Hagen to 
    President Clinton (6/6/97)
  <bullet>  *Mid-Ohio Regional Planning Commission (3/10/97)
  <bullet>  *City of Ashtubula, Board of Health (OH) (1/29/97)
  <bullet>  *Ashtabula County (OH) Health Department (2/19/97)
  <bullet>  *Cuyahoga County (OH) Board of Health, Health Commissioner 
    Timothy Horgan to Donald Schregardus, Ohio EPA (1/30/97)
  <bullet>  *Monroe Township Board of Trustees, Ashtabula County, OH 
    (2/28/97)
  <bullet>  *Akron Metropolitan Area Transportation Study (OH) (2/27/
    97)
  <bullet>  *Brook Park City Council, Michael Gammella, Council 
    President (OH) (3/5/97)
  <bullet>  *Lima, OH City Sanitary Engineer (3/12/97)
  <bullet>  *Miami Valley Regional Planning Commission (OH) (1/22/97)
  <bullet>  *Miami Valley Regional Planning Commission (OH) to selected 
    Ohio state Senators and Representatives (1/22/97)
  <bullet>  *Miami Valley Regional Planning Commission (OH) to selected 
    Ohio state Senators and Representatives (different letter than 
    above) (1/22/97)
  <bullet>  *Medina County Health Department (OH) (1/13/97)
  <bullet>  *Village of Ottawa Hills, OH Village Manager (2/12/97)
  <bullet>  *Summit County, OH County Engineer Gene Esser, P.E. (2/6/
    97)
  <bullet>  *Tim Davis, County Executive, Summit County (OH) to 
    President Clinton (5/15/97)
  <bullet>  *St. Marys (OH) Department of Public Works and Safety (3/
    11/97)
  <bullet>  *St. Mary's (OH) Industrial/Community Development 
    Department to Carol Browner (2/10/97)
  <bullet>  *Ross County Sheriff (OH) to U.S. Senator John Glenn (D-OH) 
    (4/19/97)
  <bullet>  *Ross County (OH) Sheriff Ronald L. Nichols to U.S. 
    Representative Tony Hall (D-OH) (8/7/97)
  <bullet>  *Ross County (OH) Auditor Stephen A. Neal to U.S. 
    Representative Tony Hall (D-OH) (8/5/97)
  <bullet>  *Ross County (OH) Treasurer to U.S. Representative Sherrod 
    Brown (D-OH) (4/19/97)
  <bullet>  *Ross County (OH) Treasurer Felix Melaragno to U.S. 
    Representative Tony Hall (D-OH) (8/11/97)
  <bullet>  *Toledo Metropolitan Area Council of Governments, OH 
    (TMACOG) (12/23/96)
  <bullet>  Toledo Metropolitan Area Council of Governments, OH 
    (TMACOG) (11/25/96)
  <bullet>  *Toledo (OH) Councilwoman, Edna Brown (3/5/97)
  <bullet>  *Toledo-Lucas County (OH) Port Authority to Carol Browner 
    (3/4/97)
  <bullet>  *Toledo/Lucas County (OH) Convention & Visitors Bureau to 
    Carol Browner (2/25/97)
  <bullet>  *Caroll County (OH) Economic Development Council to Carol 
    Browner (1/28/97)
  <bullet>  *Allen County (OH) Department of Public Health, David 
    Rosebrock, Health Commissioner to EPA (3/7/97)
  <bullet>  *Saybrook Township Trustees to U.S. Representative Steven 
    LaTourette (R-OH) (3/5/97)
  <bullet>  *Williamsburg Township (OH) Board of Trustees to Hamilton 
    County Environmental Services (1/13/97)
  <bullet>  *Barbara Young, Councilmember-At-Large, Ada, OK to EPA (3/
    10/97)
  <bullet>  *Village of Whitehouse (OH) Administrator Randy Bukas to 
    Carol Browner (2/5/97)
  <bullet>  *Association of Central Oklahoma Governments to Carol 
    Browner (3/3/97)
  <bullet>  *Klamath County (OR) Department of Human Services, Public 
    Health Division (3/12/97)
  <bullet>  *Erie (PA) Councilman Robert L. Okicki to President Clinton 
    (6/11/97)
  <bullet>  *Erie (PA) Councilwoman Joy Greco to President Clinton (6/
    10/97)
  <bullet>  *Philadelphia (PA) City Councilman David Cohen to President 
    Clinton (6/24/97)
  <bullet>  *Philadelphia (PA) City Councilmember Happy Fernandez to 
    President Clinton (6/12/97)
  <bullet>  *Philadelphia (PA) City Councilmember James Kenney to 
    President Clinton (6/13/97)
  <bullet>  *Philadelphia (PA) City Councilwoman Donna Reed Miller to 
    President Clinton (6/17/97)
  <bullet>  *Philadelphia (PA) City Councilmember Michael A. Nutter to 
    President Clinton (6/12/97)
  <bullet>  *Philadelphia (PA) City Councilmember Michael A. Nutter to 
    U.S. Representative Robert A. Borksi (D-PA) (9/9/97)
  <bullet>  *Philadelphia (PA) City Councilmember Michael A. Nutter to 
    U.S. Representative Paul McHale (D-PA) (9/9/97)
  <bullet>  *Philadelphia (PA) City Councilmember Michael A. Nutter to 
    U.S. Representative Chaka Fattah (D-PA) (9/9/97)
  <bullet>  *Philadelphia (PA) City Councilmember John F. Street to 
    President Bill Clinton (6/12/97)
  <bullet>  *Borough of Chambersburg (PA) Electric Department 
    Superintendent to David McKee, U.S. EPA (3/6/97)
  <bullet>  *Lebanon County (PA) Conservation District to Michael 
    McCabe, EPA Region III Administrator (2/14/97)
  <bullet>  *Borough of Churchill (PA) Police Department to EPA (3/7/
    97)
  <bullet>  *Borough of West Chester (PA) Manager Ernie McNeely to 
    President Clinton (6/6/97)
  <bullet>  *Cranston (RI) Director of Administration to U.S. Senator 
    John H. Chafee (R-RI) (9/12/97)
  <bullet>  *Barnwell County (SC) Councilmember Harold Buckmon to U.S. 
    Senator Ernest F. Hollings (D-SC) (8/29/97)
  <bullet>  *Barnwell County (SC) Councilman Harold Buckmon to Vice 
    President Gore (no date)
  <bullet>  *Barnwell County (SC) Treasurer Pickens Williams, Jr. to 
    Kathleen McGinty (6/24/97)
  <bullet>  *Charleston (SC) City Councilmember Larry D. Shirley to 
    U.S. Representative Mark Sanford (R-SC) (8/25/97)
  <bullet>  *Columbia (SC) City Councilmember Jim Papadea to U.S. 
    Senator Ernest F. Hollings (D-SC) (9/2/97)
  <bullet>  *Columbia (SC) Councilman Jim Papadea to Kathleen McGinty 
    (6/16/97)
  <bullet>  *Florence (SC) City Councilman Billy D. Williams to U.S. 
    Senator Ernest F. Hollings (D-SC) (8/20/97)
  <bullet>  *Florence City (SC) Councilman Billy D. Williams to Vice 
    President Gore (6/20/97)
  <bullet>  *Florence County (SC) Councilmember Joe W. King to U.S. 
    Senator Ernest F. Hollings (D-SC) (8/21/97)
  <bullet>  *Florence County (SC) Councilmember Joe King to President 
    Clinton (6/16/97)
  <bullet>  *Richland County (SC) Councilmember Harriet Gardin Fields 
    to U.S. Senator Ernest F. Hollings (D-SC) (8/18/97)
  <bullet>  *Richland County (SC) Councilmember Harriet Fields to Vice 
    President Gore (6/5/97)
  <bullet>  *Richland County (SC) Councilmember Paul Livingston to Vice 
    President Al Gore (6/20/97)
  <bullet>  *Ridgeville (SC) Councilmember R. Wesley Snipes to U.S. 
    Senator Ernest F. Hollings (D-SC) (9/2/97)
  <bullet>  *Ridgeville (SC) Councilmember R. Wesley Snipes to U.S. 
    Representative Mark Sanford (R-SC) (9/2/97)
  <bullet>  *Barnwell County (SC) Treasurer to U.S. Senator Ernest F. 
    Hollings (D-SC) (8/28/97)
  <bullet>  *Newberry County (SC) Auditor Nancy Owen to Vice President 
    Gore (6/20/97)
  <bullet>  *South Carolina State Comptroller General Earle Morris, Jr. 
    to Kathleen McGinty(6/9/97)
  <bullet>  *Pennington County Air Quality Office, South Dakota (2/10/
    97)
  <bullet>  *Custer City (SD) Councilmember Behlings to President 
    Clinton (6/10/97)
  <bullet>  *Custer City (SD) Councilmember Ron Bradeen (6/11/97)
  <bullet>  *Hartford (SD) Councilmember Barney Smith to President 
    Clinton (6/10/97)
  <bullet>  *Hartford (SD) City Councilman Barney Smith to U.S. Senator 
    Daschle (D-SD) (8/28/97)
  <bullet>  *Hartford (SD) City Councilman Barney Smith to U.S. Senator 
    Tim Johnson (D-SD) (8/28/97)
  <bullet>  *Lennox (SD) Alderwoman Marlene Harms to President Clinton 
    (6/9/97)
  <bullet>  *Lennox (SD) Alderwoman Marlene Harms to U.S. Senator Tim 
    Johnson (D-SD) (8/27/97)
  <bullet>  *Lennox (SD) Alderwoman Marlene Harms to U.S. Senator Tom 
    Daschle (D-SD) (8/27/97)
  <bullet>  *Mitchell (SD) City Councilman Edward Anderson to President 
    Clinton (6/22/97)
  <bullet>  *Mitchell (SD) City Councilmember Pete Bruce to U.S. 
    Senator Tim Johnson (D-SD) (no date)
  <bullet>  *Mitchell (SD) City Councilmember Pete Bruce to U.S. 
    Senator Tom Daschle (D-SD) (no date)
  <bullet>  *Mitchell (SD) City Councilman Peter Bruce to President 
    Clinton (6/25/97)
  <bullet>  *Mitchell (SD) City Councilmember Stephen Peschong to 
    President Clinton (no date)
  <bullet>  *Mitchell (SD) City Councilmember Bill Rubendall to U.S. 
    Senator Tim Johnson (D-SD) (no date)
  <bullet>  *Mitchell (SD) City Councilmember Bill Rubendall to U.S. 
    Senator Tom Daschle (D-SD) (no date)
  <bullet>  *Mitchell (SD) City Councilmember Bill Rubendall to 
    President Clinton (no date) (6/13/97)
  <bullet>  *Mitchell (SD) City Councilmember Don Verhey to U.S. 
    Senator Tim Johnson (D-SD) (no date)
  <bullet>  *Mitchell (SD) City Councilmember Don Verhey to U.S. 
    Senator Tom Daschle (D-SD) (no date)
  <bullet>  *Mitchell (SD) City Councilmember Don Verhey to President 
    Clinton (no date)
  <bullet>  *Rapid City (SD) Councilmember Karen Bulman to President 
    Clinton (no date)
  <bullet>  *Rapid City (SD) Councilmember Karen Bulman to U.S. Senator 
    Tim Johnson (D-SD) (no date)
  <bullet>  *Rapid City (SD) Councilmember Karen Bulman to U.S Senator 
    Tom Daschle (D-SD) (no date)
  <bullet>  *Rapid City (SD) Alderman C.C. Knapp to President Clinton 
    (no date)
  <bullet>  *Rapid City (SD) Alderman C.C. ``Buzz'' Knapp to U. S. 
    Senator Tim Johnson (D-SD) (9/16/97)
  <bullet>  *Rapid City (SD) Alderman C.C. ``Buzz'' Knapp to U.S. 
    Senator Tom Daschle (D-SD) (9/16/97)
  <bullet>  *Rapid City (SD) Council President Stan Petrik to President 
    Clinton (6/13/97)
  <bullet>  *Rapid City (SD) Council President Stan Petrik to U.S. 
    Senator Tim Johnson (D-SD) (9/18/97)
  <bullet>  *Rapid City (SD) Council President Stan Petrik to U.S. 
    Senator Tom Daschle (D-SD) (9/18/97)
  <bullet>  *Vermillion City (SD) Councilman LeRoy Backhaus to U.S. 
    Senator Tim Johnson (D-SD) (no date)
  <bullet>  *Vermillion City (SD) Councilman LeRoy Backhaus to U.S. 
    Senator Tom Daschle (D-SD) (no date)
  <bullet>  *South Dakota School Board Member Vicki Clarke to U.S. 
    Senator Tim Johnson (D-SD) (no date)
  <bullet>  *South Dakota School Board Member Vicki Clarke to U.S. 
    Senator Tom Daschle (D-SD) (no date)
  <bullet>  *Mitchell (SD) School Board Member Vicki Clarke to 
    President Clinton (no date)
  <bullet>  *Mitchell (SD) School Board Member Linda Margheim to 
    President Clinton (no date)
  <bullet>  *Mitchell (SD) School Board President Steven M. Rice to 
    President Clinton (no date)
  <bullet>  *Mitchell (SD) Board of Education President Steven Rice to 
    U.S. Senator Tim Johnson (D-SD) (no date)
  <bullet>  *Mitchell (SD) Board of Education President Steven Rice to 
    U.S. Senator Tom Daschle (D-SD) (no date)
  <bullet>  *Vermillion (SD) School Board Member Darrel Ludeman to U.S. 
    Senator Tim Johnson (D-SD) (no date)
  <bullet>  *Vermillion (SD) School Board Member Darrel Ludeman to U.S. 
    Senator Tom Daschle (D-SD) (no date)
  <bullet>  *Vermillion (SD) School Board Member Nick Merringer to U.S. 
    Senator Tom Daschle (D-SD) (no date)
  <bullet>  *Vermillion (SD) School Board Member Nick Merringer to U.S. 
    Senator Tim Johnson (D-SD) (no date)
  <bullet>  *Vermillion (SD) School Board Member to President Clinton 
    (no date)
  <bullet>  *Clay County (SD) Auditor Boneva R. Albers to U.S. Senator 
    Tim Johnson (D-SD) (no date)
  <bullet>  *Clay County (SD) Auditor Boneva R. Albers to U.S. Senator 
    Tom Daschle (D-SD) (no date)
  <bullet>  *Clay County (SD) Auditor Boneva R. Albers to President 
    Clinton (no date)
  <bullet>  *Clay County (SD) Sheriff Raymond Passick to U.S. Senator 
    Tim Johnson (D-SD) (8/26/97)
  <bullet>  *Montgomery County (TN) Commissioner Norman Young to 
    President Clinton (6/17/97)
  <bullet>  *Justin Wilson, Deputy to Governor (TN) for Policy to EPA 
    (3/10/97)
  <bullet>  *Knoxville (TN) Urban Area Planning Organization (3/11/97)
  <bullet>  *Hendersonville (TN) Executive Assistant Connie Billbrey to 
    President Clinton (7/1/97)
  <bullet>  *Montgomery County (TN) Executive Robert Thompson to 
    President Clinton (6/19/97)
  <bullet>  *Cook County (TX) official Jerry Lewis to President Clinton 
    (6/17/97)
  <bullet>  *Abilene (TX) Councilwoman Carol Martinez to President 
    Clinton (6/20/97)
  <bullet>  *Arlington (TX) City Councilmember Joe Ewen to U.S. 
    Representative Martin Frost (D-TX) (8/29/97)
  <bullet>  *Beaumont (TX) City Councilmember John Davis to President 
    Clinton (6/12/97)
  <bullet>  *Beaumont (TX) City Councilmember Guy N. Goodson to 
    President Clinton (6/11/97)
  <bullet>  *Beaumont (TX) City Councilmember Bobbie Patterson to 
    President Clinton (6/12/97)
  <bullet>  *Dallas (TX) City Councilman Larry Duncan to President 
    Clinton (6/18/97)
  <bullet>  *Dallas (TX) Councilmember Al Lipscomb to President Clinton 
    (6/13/97)
  <bullet>  *Dallas (TX) Councilwoman Charlotte Maves to President 
    Clinton (6/13/97)
  <bullet>  *Del Rio (TX) Councilman Roy Musquiz to President Clinton 
    (6/17/97)
  <bullet>  *Denton (TX) City Councilmember Jerry Cott to President 
    Clinton (6/18/97)
  <bullet>  *Denton City (TX) Councilman Carl Young to President 
    Clinton (6/18/97)
  <bullet>  *Gainesville (TX) City Councilman L. Bishop to President 
    Clinton (6/17/97)
  <bullet>  *Gainesville (TX) Councilmember Jim King to President 
    Clinton (6/17/97)
  <bullet>  *Gainsville (TX) Councilman John Schmitz to President 
    Clinton (6/17/97)
  <bullet>  *Gainesville (TX) City Councilman Rev. Clarence Tucker to 
    President Clinton (6/17/97)
  <bullet>  *Gatesville (TX) City Councilmember Robert Powell to U.S. 
    Representative Chet Edwards (D-TX) (no date)
  <bullet>  Gatesville (TX) City Councilmember Robert Powell to 
    President Clinton (no date)
  <bullet>  *Gatesville (TX) City Councilmember Robert Powell to Vice 
    President Gore (no date)
  <bullet>  *Mercedes (TX) City Councilmember Roy de Leon to President 
    Clinton (6/6/97)
  <bullet>  *Pearsall (TX) City Councilmember Ramiro Verastique to U.S. 
    Representative Ciro D. Rodriguez (D-TX) (8/27/97)
  <bullet>  *Pearsall (TX) City Councilmember Ramiro Verastique to 
    President Clinton (no date)
  <bullet>  *Pleasanton (TX) City Councilman Abraham Saenz, Jr. to 
    President Clinton (6/18/97)
  <bullet>  *Sanger (TX) Alderperson Joe Bell to President Clinton (6/
    1/6/97)
  <bullet>  *Sanger (TX) Alderman Glenn Erwin to President Clinton (6/
    17/97)
  <bullet>  *Sanger (TX) Alderperson Jerry Jenkins to President Clinton 
    (6/16/97)
  <bullet>  *Sanger (TX) Alderman Jack Richardson to President Clinton 
    (6/17/97)
  <bullet>  *Allen (TX) City Manager Jon McCarty to President Clinton 
    (6/24/97)
  <bullet>  *Cedar Hill (TX) City Manager Greg Vick to President 
    Clinton (6/13/97)
  <bullet>  *Corpus Christi (TX) City Manager Bill Hennings (2/10/97)
  <bullet>  *Hereford (TX) City Manager Chester Nolen to President 
    Clinton (6/11/97)
  <bullet>  *Hondo (TX) City Manager Scott Wall to President Clinton 
    (6/13/97)
  <bullet>  *Jacksonville (TX) City Manager Jim Anderson to President 
    Clinton (6/13/97)
  <bullet>  *Kilgore (TX) City Manager to David McKee, EPA (1/20/97)
  <bullet>  *Kilgore (TX) City Manager Ronald Stephens to President 
    Clinton (6/24/97)
  <bullet>  *Lampasas (TX) City Manager Michael Talbot to President 
    Clinton (6/17/97)
  <bullet>  *Liberty (TX) City Manager Norman Dykes to President 
    Clinton (6/6/97)
  <bullet>  *Longview (TX) City Manager Ted Willis to President Clinton 
    (6/13/97)
  <bullet>  *Marshall (TX) City Manager Tony Williams to President 
    Clinton (6/20/97)
  <bullet>  *McGregor (TX) City Manager Bill Dake to President Clinton 
    (6/3/97)
  <bullet>  *Nacogdoches (TX) City Manager Gordon Pierce to President 
    Clinton (6/12/97)
  <bullet>  *North Richland Hills (TX) Assistant City Manager Larry J. 
    Cunningham to President Clinton (6/13/97)
  <bullet>  *Plainview (TX) City Manager Jim Jeffers to President 
    Clinton (6/15/97)
  <bullet>  *Schertz (TX) City Manager Kerry Sweatt to President 
    Clinton (6/13/97)
  <bullet>  *Sperman (TX) City Manager Kelvin Knauf to President 
    Clinton (6/13/97)
  <bullet>  *Tyler (TX) Assistant City Manager Paul Parker to President 
    Clinton (6/13/97)
  <bullet>  *Weatherford (TX) City Manager to President Clinton (6/13/
    97)
  <bullet>  *Coryell County (TX) Judge John Hull to President Clinton 
    (6/5/97)
  <bullet>  *Coryell County (TX) Judge John Hull to Vice President Gore 
    (6/6/97)
  <bullet>  *Dallas County (TX) Judge Thomas Jones to President Clinton 
    (6/12/97)
  <bullet>  *Dallas County (TX) Judge Cleophas R. Steele Jr., to 
    President Clinton (6/16/97)
  <bullet>  *Dimmit County (TX) Judge Charles Johnson to U.S. 
    Representative Ruben Hinojosa (D-TX) (8/24/97)
  <bullet>  *Dimmit County (TX) Judge Charles Johnson to President 
    Clinton (no date)
  <bullet>  *Frio County (TX) Judge Carlos Garcia to U.S. 
    Representative Ciro D. Rodriguez (D-TX) (8/25/97)
  <bullet>  *Frio County (TX) Judge Carlos A. Garcia to President 
    Clinton (6/11/97)
  <bullet>  *Fort Bend County (TX) Judge (2/4/97)
  <bullet>  *Harrison County (TX) Judge J. Rodney Gilstrap to President 
    Clinton (no date)
  <bullet>  *Hidalgo County (TX) Judge Renato Cuellar to President 
    Clinton (6/6/97)
  <bullet>  *Harris County, TX Judge Robert Eckels to President Clinton 
    (5/29/97)
  <bullet>  *Jefferson County (TX) Judge Carl R. Griffith, Jr. to 
    President Clinton (6/12/97)
  <bullet>  *Lampasas County (TX) Former County Judge Norris Monroe to 
    U.S. Representative Chet Edwards (D-TX) (no date)
  <bullet>  *Lampasas County (TX) Judge Tom Honeycutt to Vice President 
    Al Gore (6/16/97)
  <bullet>  *LaSalle County (TX) Judge Jimmy P. Patterson to President 
    Clinton (6/18/97)
  <bullet>  *Willacy County (TX) Judge Simon Salinas to President 
    Clinton (6/4/97)
  <bullet>  *Wood County (TX) Judge Lee Williams to President Clinton 
    (6/23/97)
  <bullet>  *Zavala County (TX) Judge Pablo Avila to U.S. 
    Representative Ruben Hinojosa (D-TX) (8/26/97)
  <bullet>  *Zavala County (TX) Judge Pablo Avila to Vice President Al 
    Gore (no date)
  <bullet>  *Cooke County (TX) Justice of the Peace Bill Freeman to 
    President Clinton (6/17/97)
  <bullet>  *Cooke County (TX) Justice of the Peace Royce Dale Martin 
    to President Clinton (6/17/97)
  <bullet>  *Coryell County (TX) Justice of the Peace Larry McDonald to 
    President Clinton (6/6/97)
  <bullet>  *Coryell County (TX) Justice of the Peace Larry McDonald to 
    Vice President Gore (6/6/97)
  <bullet>  *Coryell County (TX) Justice of the Peace Jimmy Wood to 
    President Clinton (no date)
  <bullet>  *Coryell County (TX) Justice of the Peace Jimmy Wood to 
    U.S. Representative Chet Edwards (D-TX) (no date)
  <bullet>  *Coryell County (TX) Justice of the Peace Jimmy Wood to 
    Vice President Gore ( no date)
  <bullet>  *Dallas County (TX) Justice of the Peace Charles R. Rose to 
    President Clinton (6/16/97)
  <bullet>  *Hidalgo County (TX) Justice of the Peace Jesus E. Morales 
    to President Clinton (6/9/97)
  <bullet>  *Jefferson County (TX) Justice of the Peace Thurman Bill 
    Bartie to President Clinton (6/13/97)
  <bullet>  *Jefferson County (TX) Justice of the Peace Ray S. Chesson 
    to President Clinton (6/12/97)
  <bullet>  *Mercedes (TX) Justice of the Peace Gilberto Saenz to 
    President Clinton (6/10/97)
  <bullet>  *Zavala County (TX) Justice of the Peace Eddie Trevino to 
    President Clinton (6/10/97)
  <bullet>  *Zavala County (TX) Justice of the Peace Eddie Trevino to 
    Vice President Gore (6/12/97)
  <bullet>  *Cooke County (TX) Treasurer Janet Johnson to President 
    Clinton (6/17/97)
  <bullet>  *Jefferson County (TX) Treasurer Linda Robinson to 
    President Clinton (6/12/97)
  <bullet>  *LaSalle County (TX) Treasurer Joel Rodriguez, Jr. to U.S. 
    Representative Ciro D. Rodriguez (D-TX) (8/28/97)
  <bullet>  *LaSalle County (TX) Treasurer Joel Rodriguez, Jr. to 
    President Clinton (no date)
  <bullet>  *Cooke County (TX) Clerk Evelyn Walterscheid to President 
    Clinton (6/17/97)
  <bullet>  *Jefferson County (TX) Clerk Sandy Wilson to President 
    Clinton (6/11/97)
  <bullet>  *Lampasas County (TX) Land Surveyor Jerry M. Goodson to 
    U.S. Representative Chet Edwards (D-TX) (no date)
  <bullet>  *Dallas County (TX) Constable Joe Bagby to President 
    Clinton (6/16//97)
  <bullet>  *Dallas County (TX) Constable Burl Jerigan to President 
    Clinton (6/11/97)
  <bullet>  *Jefferson County (TX) Constable Brandon Crowder to 
    President Clinton (6/12/97)
  <bullet>  *Jefferson County (TX) Constable Jeff Greenway to President 
    Clinton (6/11/97)
  <bullet>  *Jefferson County (TX) Constable Joe Stevenson to President 
    Clinton (6/13/97)
  <bullet>  *Jefferson County (TX) Sheriff G. Mitch Woods to President 
    Clinton (6/13/97)
  <bullet>  *Cooke County (TX) Assessor-Collector Billie Knight to 
    President Clinton (6/17/97)
  <bullet>  *Jefferson County (TX) Tax Assessor-Collector Miriam 
    Johnson to President Clinton (6/12/97)
  <bullet>  *Cooke County (TX) Auditor Gloria Parrish to President 
    Clinton (6/17/97)
  <bullet>  *East Texas Council of Governments Executive Committee (3/
    6/97)
  <bullet>  *North Central Texas Council of Governments (1/29/97)
  <bullet>  *North East Texas Air Care (NETAC) Policy Committee 
    comments (1/15/97)
  <bullet>  *South East Texas Regional Planning Commission (TX) to U.S. 
    Senator Phil Gramm (R-TX) (1/14/97)
  <bullet>  *South East Texas Regional Planning Commission to David 
    McKee, EPA (3/7/97)
  <bullet>  *Coryell County (TX) Attorney Edwin Powell Jr. to President 
    Clinton (6/5/97)
  <bullet>  *Coryell County (TX) Attorney Edwin Powell to Vice 
    President Gore (6/5/97)
  <bullet>  *Gainesville (TX) City Attorney Nancy Williams to President 
    Clinton (6/17/97)
  <bullet>  *Lampasas County (TX) District Attorney Larry W. Allison to 
    President Clinton (6/16/97)
  <bullet>  *Sanger (TX) Attorney Ron Neiman to President Clinton (6/
    16/97)
  <bullet>  *Harker Heights (TX) Operations Manager Jerry Atkinson to 
    President Clinton (6/9/97)
  <bullet>  *Nederland (TX) City Secretary LaDonna Floyd to President 
    Clinton (6/17/97)
  <bullet>  *San Antonio/Alamo Area Air Quality Task Force (TX) (3/10/
    97)
  <bullet>  *City of Houston, Mary Ellen Whitworth, Director, 
    Environmental Policy (2/18/97)
  <bullet>  *Martinsville (VA) Councilmember Bruce Dallas to President 
    Clinton (6/3/97)
  <bullet>  *Northumberland (VA) Commonwealth Attorney Michael McKenney 
    to President Clinton (6/10/97)
  <bullet>  *Pearisburg (VA) Councilmember Barbara Stafford to 
    President Clinton (6/10/97)
  <bullet>  *Augusta County (VA) Clerk John B. Davis to President 
    Clinton (6/13/97)
  <bullet>  *Richmond (VA) Clerk of Court Bevil Dean to President 
    Clinton (6/3/97)
  <bullet>  *Staunton (VA) Court Clerk Thomas E. Roberts to President 
    Clinton (6/13/97)
  <bullet>  *Crater Planning District Commission (VA) (2/26/97)
  <bullet>  *Hampton Roads, VA Planning District Commission to EPA (1/
    14/97)
  <bullet>  *Letter from the Richmond Area Metropolitan Planning 
    Organization (VA) (2/13/97)
  <bullet>  *County of Henrico, VA County Manager (3/6/97)
  <bullet>  *Richmond, VA City Manager (3/11/97)
  <bullet>  *York, VA County Administrator (2/13/97)
  <bullet>  *Ed Maroney, City Manager, Newport News, VA to Carol 
    Browner (2/5/97)
  <bullet>  *Dinwiddie (VA) County Administrator Charles Burgess, Jr. 
    to EPA (2/14/97)
  <bullet>  *Clark County (WA) Auditor Elizabeth A. Luce to President 
    Clinton (6/24/97)
  <bullet>  *Confederated Tribes of the Colville Reservation (WA) (2/
    13/97)
  <bullet>  *West Virginia Senate Clerk Darrell Holmes to President 
    Clinton (6/10/97)
  <bullet>  *West Virginia Municipal League to President Clinton (6/10/
    97)
  <bullet>  *Lincoln County, WI Administrative Coordinator (2/10/97)
  <bullet>  *Janesville (WI) City Manager Steven E. Sheiffer to 
    President Clinton (5/23/97)
  <bullet>  *Oshkosh (WI) City Manager Richard Wollangk to President 
    Clinton (6/2/97)
  <bullet>  Local government resolutions
  <bullet>  *American Association of State Highway and Transportation 
    Officials (AASHTO) (4/28/97)
  <bullet>  *Arkansas County Judges Association (6/13/97)
  <bullet>  *City of North Little Rock, Arkansas resolution (2/24/97)
  <bullet>  *City of West Memphis (AR) (3/6/97)
  <bullet>  *San Diego (CA) County Board of Supervisors (2/11/97)
  <bullet>  *Imperial County (CA) Air Pollution Control District Board 
    of Directors (6/24/97)
  <bullet>  *County of Peoria, IL (6/9/97)
  <bullet>  *Tazwell County (IL) Board (6/25/97)
  <bullet>  *Jefferson Parish (LA) Council (2/26/97)
  <bullet>  *Southeast Michigan Council of Governments (SEMCOG) (1/31/
    97)
  <bullet>  *Southwestern Michigan Commission (1/28/97)
  <bullet>  *Berrien County (MI) Personnel and Human Services Committee 
    (1/23/97)
  <bullet>  *Lincoln Charter Township, MI (2/11/97)
  <bullet>  *Livingston County, MI Board of Commissioners (6/9/97)
  <bullet>  *Port Huron, MI (3/10/97)
  <bullet>  *Wayne County (MI) Commission (6/5/97)
  <bullet>  *Twin Cities Area Transportation Study (MN) (1/27/97)
  <bullet>  *Mayor and City Council of Holdrege, NE (9/4/97)
  <bullet>  *Monclova Township (OH) (2/3/97)
  <bullet>  *Willoughby, OH (6/11/97)
  <bullet>  *City Council of Maumee, OH (2/3/97)
  <bullet>  Toledo Metropolitan Area Council of Governments, OH 
    (TMACOG) (11/20/96)
  <bullet>  *County of Ashtabula (OH) (2/25/97)
  <bullet>  *Mid-Ohio Regional Planning Commission (no date)
  <bullet>  *Oregon, OH City Council (3/10/97)
  <bullet>  *Board of Commissioners of Miami County, OH (3/6/97)
  <bullet>  *Sylvania Township Trustees, OH (2/6/97)
  <bullet>  *Akron Metropolitan Area Transportation Study (OH) (2/27/
    97)
  <bullet>  *Village of Holland Council, OH (2/4/97)
  <bullet>  *Board of Trustees of Jerusalem Township, Lucas County, OH 
    (2/12/97)
  <bullet>  *Village of Luckey, OH (2/5/97)
  <bullet>  *Montgomery County Board of Commissioners (OH) (1/28/97)
  <bullet>  *Montgomery Township Trustees (OH) (2/3/97)
  <bullet>  *Stark County Regional Planning Commission, Stark County 
    Area Transportation Study (OH) (1/27/97)
  <bullet>  *City Council of Toledo, OH (2/19/97)
  <bullet>  *Toledo Metropolitan Area Council of Governments (TMACOG) 
    (1/30/97)
  <bullet>  *City of Youngstown, OH (5/22/97)
  <bullet>  *City of Willowick, OH (3/4/97)
  <bullet>  *Clark County--Springfield, OH Transportation Coordinating 
    Committee (2/14/97)
  <bullet>  *Oklahoma County, OK Board of Commissioners (2/24/97)
  <bullet>  *City Council, Oklahoma City, OK (2/97)
  <bullet>  *Aiken County (SC) Council (1/17/97)
  <bullet>  *Cleveland, TN (3/10/97)
  <bullet>  *Milan, TN (4/8/97)
  <bullet>  *New Johnsonville, TN (3/3/97)
  <bullet>  *East Texas Council of Governments (3/6/97)
  <bullet>  *North East Texas Air Care (NETAC) (1/7/97)
  <bullet>  *South East Texas Regional Planning Commission (5/21/97)
  <bullet>  *Beaumont (TX) City Council (6/17/97)
  <bullet>  *Bexar County Commissioners Court (TX) (2/4/97)
  <bullet>  Gregg County (TX) Commissioners' Court (8/29/96)
  <bullet>  *Jefferson County (TX) Commissioners' Court (5/5/97)
  <bullet>  *City Council of Longview, TX (1/23/97)
  <bullet>  Nederland (TX) (no date)
  <bullet>  *Port Arthur (TX) City Council--97-119 (6/17/97)
  <bullet>  *Port Arthur (TX) City Council--97-120 (6/17/97)
  <bullet>  *Crater Planning District Commission (VA) (2/24/97)
  <bullet>  *Danville (VA) Development Council (2/27/97)
  <bullet>  *Board of Supervisors for Hanover County, Virginia (2/12/
    97)
  <bullet>  *County of Henrico, VA Board of Supervisors (2/26/97)
  <bullet>  *Richmond, VA (3/10/97)
  <bullet>  *Stafford County, VA (3/4/97)
  <bullet>  *Franklin County (WA) Board of Commissioners (5/7/97)
  <bullet>  *Waukesha County Board of Supervisors (WI) (3/25/97)
  <bullet>  Letters/comments from chambers of commerce
  <bullet>  *United States Hispanic Chamber of Commerce (1/8/97)
  <bullet>  *Central Delaware Chamber of Commerce (DE) (1/13/97)
  <bullet>  *New Castle County Chamber of Commerce (DE) (1/13/97)
  <bullet>  *Greater Washington (DC) Board of Trade (DC metro area 
    Chamber of Commerce) (1/7/97)
  <bullet>  FL Chamber of Commerce (11/7/96)
  <bullet>  *Florida Chamber of Commerce to U.S. Senator Bob Graham (D-
    FL) (2/7/97)
  <bullet>  Georgia Chamber of Commerce to Georgia Governor Zell Miller 
    (5/1/96)
  <bullet>  Georgia Chamber of Commerce 1997 legislative agenda 
    recommendations regarding ozone and PM NAAQS (no date, but before 
    rule proposal)
  <bullet>  *Georgia Chamber of Commerce (3/13/97)
  <bullet>  South Georgia Chamber of Commerce (no date)
  <bullet>  *Camilla (GA) Chamber of Commerce (3/10/97)
  <bullet>  *Columbus (GA) Chamber of Commerce (1/24/97)
  <bullet>  *Dalton Whitfield (GA) Chamber of Commerce (3/4/97)
  <bullet>  *Douglas County (GA) Chamber of Commerce (2/27/97)
  <bullet>  *Lee County (GA) Chamber of Commerce (2/27/97)
  <bullet>  *Pierce County (GA) Chamber of Commerce & Industrial 
    Development Authority (3/3/97)
  <bullet>  *Chicagoland Chamber of Commerce (IL) (12/23/96)
  <bullet>  *Indiana Chamber of Commerce (3/5/97)
  <bullet>  *Indiana Chamber of Commerce (3/10/97)
  <bullet>  *Indiana Chamber of Commerce to U.S. Representative Tim 
    Roemer (D-IN)
  <bullet>  Berne Chamber of Commerce (IN) (5/15/96)
  <bullet>  Bluffton Chamber of Commerce (IN) (5/7/96)
  <bullet>  Boone County Chamber of Commerce (IN) (5/9/96)
  <bullet>  Carmel Clay Chamber of Commerce (IN) (5/15/96)
  <bullet>  Greater Fort Wayne Chamber of Commerce (IN) (5/10/96)
  <bullet>  Greater Kansas City Chamber of Commerce (KS) (10/96)
  <bullet>  *Paduca Area (KY) Chamber of Commerce (2/17/97)
  <bullet>  Northern Kentucky Chamber of Commerce (no date)
  <bullet>  *Greater Lexington (KY) Chamber of Commerce (3/17/97)
  <bullet>  *Greater Lexington (KY) Chamber of Commerce Policy Position 
    (3/17/97)
  <bullet>  Maine Chamber and Business Alliance to Maine Governor Angus 
    King (4/29/96)
  <bullet>  *Maine Chamber and Business Alliance (2/13/97)
  <bullet>  *Maryland Chamber of Commerce (3/11/97)
  <bullet>  *Hagerstown-Washington County (MD) Chamber of Commerce (3/
    8/97)
  <bullet>  *Cecil County (MD) Chamber of Commerce (3/4/97)
  <bullet>  *Baltimore County (MD) Chamber of Commerce (3/6/97)
  <bullet>  *Southern Anne Arundel Chamber of Commerce (MD) (3/12/97)
  <bullet>  *Michigan Chamber of Commerce to the Michigan Congressional 
    Delegation (1/24/97)
  <bullet>  *Minnesota Chamber of Commerce to U.S. Senator Paul 
    Wellstone (D-MN) (9/2/97). This letter also went to Sen. Grams (R-
    MN) and all 8 MN House members.
  <bullet>  *Minnesota Chamber of Commerce (3/4/97)
  <bullet>  Missouri Chamber of Commerce to Missouri Governor Mel 
    Carnahan (4/23/96)
  <bullet>  *St. Joseph Area Chamber of Commerce (MO) (2/5/97)
  <bullet>  *Greater Kansas City Chamber of Commerce (MO) (no date)
  <bullet>  *Greater Rochester Metro Chamber of Commerce (NY) to U.S. 
    Senators Daniel Patrick Moynihan (D-NY) and Alfonse D'Amato (R-NY)
  <bullet>  *North Carolina Citizens for Business and Industry to U.S 
    Senator Jesse Helms (R-NC) (2/10/97)
  <bullet>  *North Carolina Citizens for Business and Industry (3/6/97)
  <bullet>  *North Carolina Citizens for Business and Industry 
    (President and Chairman of the Board) to Erskine Bowles, White 
    House Chief of Staff (6/17/97)
  <bullet>  *Greater Durham (NC) Chamber of Commerce (3/12/97)
  <bullet>  *Greater Durham Chamber of Commerce to President Clinton 
    (6/10/97)
  <bullet>  *Greensboro Area Chamber of Commerce (NC) (2/17/97)
  <bullet>  *Winston-Salem (NC) Chamber of Commerce (2/13/97)
  <bullet>  *Winston-Salem (NC) Chamber of Commerce to U.S. 
    Representatives Melvin Watt (D-NC), Cass Ballenger (R-NC), and 
    Richard Burr (R-NC), and U.S. Senators Jesse Helms (R-NC) and Lauch 
    Faircloth (R-NC) (2/13/97)
  <bullet>  *Winston-Salem Chamber of Commerce to NC Governor Jim Hunt 
    (2/13/97)
  <bullet>  *Eastern North Carolina Chamber of Commerce to the Eastern 
    NC Congressional Delegation (resolution attached) (4/24/97)
  <bullet>  *High Point Chamber of Commerce (NC) to U.S. Representative 
    Mike McIntyre (D-NC) (resolution attached) (5/6/97)
  <bullet>  North Dakota Chamber of Commerce to North Dakota Governor 
    Edward Schafer and the ND Congressional Delegation (11/11/96)
  <bullet>  *Bismarck Chamber of Commerce to the North Dakota 
    Congressional Delegation (12/18/96)
  <bullet>  *Greater Cincinnati (OH) Chamber of Commerce (1/31/97)
  <bullet>  *Morgan County (OH) Chamber of Commerce (2/3/97)
  <bullet>  *Morgan County (OH) Chamber of Commerce to U.S. 
    Representatives John Kasich (R-OH) and Robert Ney (R-OH), and U.S. 
    Senators John Glenn (D-OH) and Michael DeWine (R-OH) (2/3/97)
  <bullet>  *Greater Lawrence County Area (OH) Chamber of Commerce to 
    U.S. Representative Sherrod Brown (D-OH). Also sent to U.S. 
    Senators DeWine (R-OH) and Glenn (D-OH), and U.S. Representatives 
    Kasich (R-OH), Ney (R-OH), and Strickland (2/3/97)
  <bullet>  Oklahoma State Chamber to Carol Browner (10/23/96)
  <bullet>  *Oklahoma State Chamber to EPA (PM docket) (2/21/97)
  <bullet>  *Oklahoma State Chamber to EPA (ozone docket) (2/21/97)
  <bullet>  *Pennsylvania Chamber of Commerce (2/13/97)
  <bullet>  Greater Philadelphia Chamber of Commerce to U.S. Senator 
    Arlen Specter (R-PA) (10/21/96)
  <bullet>  Greater Providence Chamber of Commerce (RI) (5/21/96)
  <bullet>  *Northern RI Chamber of Commerce (2/12/97)
  <bullet>  *South Carolina Chamber of Commerce to U.S. Senators Strom 
    Thurmond (R-SC) and Ernest Hollings (D-SC) (2/4/97)
  <bullet>  *Greater Columbia Chamber of Commerce (SC) (2/3/97)
  <bullet>  *Industry and Commerce Association of South Dakota to U.S. 
    Senator Tom Daschle (D-SD) (6/2/97)
  <bullet>  *Industry and Commerce Association of South Dakota to U.S. 
    Senator Tim Johnson (D-SD) (9/2/97)
  <bullet>  *Hopewell Area--Prince George (VA) Chamber of Commerce (2/
    4/97)
  <bullet>  *Roanoke (VA) Regional Chamber of Commerce (2/6/97)
  <bullet>  VA Chamber of Commerce (7/17/96)
  <bullet>  Virginia Chamber of Commerce to Governor George Allen (7/
    17/96)
  <bullet>  *Virginia Chamber of Commerce (1/16/97)
  <bullet>  West Virginia Chamber of Commerce to West Virginia Governor 
    Gaston Caperton (5/14/96)
  <bullet>  Letters/comments from economic development boards
  <bullet>  *Milledgeville-Baldwin County (GA) Development Authority 
    (3/10/97)
  <bullet>  *Albany, Dougherty (GA) Economic Development Commission (3/
    11/97)
  <bullet>  *Commerce Legislative Alliance of St. Joseph County (IN--
    econ. dev.) (3/5/97)
  <bullet>  *Metropolitan Association of Greater Indianapolis 
    Communities (IN--econ. dev.) to Indiana Governor Frank O'Bannon (3/
    4/97)
  <bullet>  *Mason County Economic Development Alliance (MI) (1/31/97)
  <bullet>  St. Louis (MO) Regional Commerce & Growth Association 
    (RCGA) to Missouri Governor Mel Carnahan (8/9/96)
  <bullet>  *Grandview Area Economic Development Council (MO) (2/12/97)
  <bullet>  *Akron (OH) Regional Development Board to the Northeast 
    Ohio Areawide Coordinating Agency (1//28/97)
  <bullet>  *Ohio Regional Office of Economic Development (Vandalia, 
    OH) (2/27/97)
  <bullet>  *Southwestern Pennsylvania Growth Alliance (1/13/97)
  <bullet>  Rhode Island Economic Development Corporation to Rhode 
    Island Governor Lincoln Almond (5/9/96)
  <bullet>  *Rhode Island Economic Development Corporation to RI 
    Governor Lincoln Almond (1/8/97)
  <bullet>  *Tri-County Alliance (SC-econ. dev. org.) to U.S. Senator 
    Ernest Hollings (D-SC) (8/20/97)
  <bullet>  *Copperas Cove (TX) Economic Development Corporation 
    Chairman Russell Love to Vice President Gore (6/5/97)
  <bullet>  *Copperas Cove (TX) Economic Development Corporation to 
    U.S. Representative Chet Edwards (D-TX) (6/5/97)
  <bullet>  *Joint letter from the West Bend Economic Development 
    Corporation and the Washington County Board of Supervisors (WI) to 
    EPA (3/7/97)
  <bullet>  Letters/comments from transportation interests
  <bullet>  *Letter to President Clinton signed by state transportation 
    department officials from 21 states (6/25/97)
  <bullet>  *C.J. Bridges Railroad Contractor, Inc. (FL) (1/19/97)
  <bullet>  Engine Manufacturers Association (EMA) (11/25/96)
  <bullet>  *Engine Manufacturers Association (EMA) (3/11/97)
  <bullet>  *GTO Association of America (assoc. of auto enthusiasts) to 
    Carol Browner (2/5/97)
                               __________
Letters/comments from truckers
  <bullet>  American Trucking Associations, Inc. (ATA) (10/15/96)
  <bullet>  *American Trucking Associations to U.S. Senator Christopher 
    Bond (R-MO) (2/21/97)
  <bullet>  *American Trucking Associations, Inc. (ATA) to President 
    Clinton (6/13/97)
  <bullet>  Arizona Motor Transport Association to the Governor of 
    Arizona (11/18/96)
  <bullet>  *Arkansas Motor Carriers Association to President Clinton 
    (6/5/97)
  <bullet>  Colorado Motor Carriers Association to Colorado Governor 
    Romer (11/18/96)
  <bullet>  *Motor Transport Association of Connecticut, Inc. to 
    Connecticut Governor Rowland (12/6/96)
  <bullet>  Hawaii Transportation Association to the Governor of Hawaii 
    (11/18/96)
  <bullet>  *Indiana Motor Truck Association, Inc. (2/25/97)
  <bullet>  *Iowa Motor Truck Association to President Clinton (6/13/
    97)
  <bullet>  *Maine Motor Transport Association (2/7/97)
  <bullet>  *Maryland Motor Coach Association (3/12/97)
  <bullet>  *Frederick I-70 Truck City (MD) (3/12/97)
  <bullet>  *Independent Truckers & Drivers Association (MD) (3/11/97)
  <bullet>  *Maryland Motor Truck Association, Inc. (2/14/97)
  <bullet>  *Massachusetts Motor Transportation Association to 
    Massachusetts Governor Weld (12/6/96)
  <bullet>  *D & W Trucking, Inc., (MI) to President Clinton (no date)
  <bullet>  Montana Motor Carriers Association to Montana Governor 
    Raciot (11/18/96)
  <bullet>  *New Jersey Motor Truck Association to new Jersey Governor 
    Whitman (12/6/96)
  <bullet>  New Mexico Motor Carriers' Association to New Mexico 
    Governor Johnson (11/19/96)
  <bullet>  *New York State Motor Truck Association (2/12/97)
  <bullet>  *New York State Motor Truck Association, Inc. to New York 
    Governor Pataki (12/10/96)
  <bullet>  *North Carolina Trucking Association to Erskine Bowles, 
    White House Chief of Staff (6/4/97)
  <bullet>  *Fabrizi Trucking & Paving Co., Inc. (OH) to President 
    Clinton (6/18/97)
  <bullet>  *Associated Motor Carriers of Oklahoma, Inc. to U.S. 
    Senator Inhofe (12/23/96)
  <bullet>  *Pennsylvania Motor Truck Association (1/22/97)
  <bullet>  *Pennsylvania Motor Truck Association to Pennsylvania 
    Governor Ridge (12/6/96)
  <bullet>  *Rhode Island Trucking Association, Inc.(2/5/97)
  <bullet>  *Rhode Island Trucking Association to Rhode Island Governor 
    Almond (12/6/96)
  <bullet>  South Carolina Trucking Association (11/4/96)
  <bullet>  *South Carolina Trucking Association (2/6/97)
  <bullet>  South Carolina Trucking Association to the South Carolina 
    Congressional Delegation (11/4/96)
  <bullet>  Texas Motor Transport Association to the Governor of Texas 
    (11/18/96)
  <bullet>  Utah Motor Transport Association to the Governor of Utah 
    (11/18/96)
  <bullet>  *Edward A. Miller, Jr. on behalf of the Vermont Truck and 
    Bus Association (1/13/97)
  <bullet>  *Vermont Truck and Bus Association (2/5/97)
  <bullet>  *Virginia Trucking Association (3/4/97)
  <bullet>  Wisconsin Motor Carriers Association (no date)
  <bullet>  Letters/comments from the automakers
  <bullet>  American Automobile Manufacturers Association (AAMA) (10/
    10/96)
  <bullet>  American Automobile Manufacturers Association (AAMA) 
    letters to Governors of Missouri and Michigan (5/10/96)
  <bullet>  *Comments from AAMA on the proposed rule (12/20/96)
  <bullet>  *General Motors Corporation to Indiana Governor Frank 
    O'Bannon (2/14/97)
  <bullet>  *Chrysler Corporation to Indiana Governor Frank O'Bannon 
    (2/14/97)
  <bullet>  Ford Motor Company to Indiana Governor Bayh (11/25/96)
  <bullet>  *Ford Motor Company to Indiana Governor Frank O'Bannon (2/
    13/97)
  <bullet>  *Pundmann Ford (MO) (2/13/97)
  <bullet>  *Reuther Ford, Mazda (MO) (2/19/97)
  <bullet>  *Ford Motor Company, Gregory Moreland, Regional Manager 
    (NY) to Mayor of Buffalo, NY (6/10/97)
  <bullet>  *Ford Motor Company (TN) to U.S. Representative Bob Clement 
    (D-TN) (8/11/97)
  <bullet>  *Texas Automobile Dealers Association to U.S. Senator Phil 
    Gramm (R-TX) (8/15/97)
  <bullet>  *Texas Automobile Dealers Association to U.S. Senator Kay 
    Bailey Hutchison (R-TX) (8/15/97)
  <bullet>  *Texas Automobile Dealers Association to U.S. 
    Representative Joe Barton (R-TX) (8/14/97). Letter also went to the 
    other Texas Delegation members who were H.R. 1984 cosponsors at the 
    time: Bonilla (R), Combest (R), Granger (R), Hall (D), Ortiz (D), 
    Sandlin (D), Sessions (R), Stenholm (D), Thornberry (R), Turner 
    (D).
  <bullet>  *Texas Automobile Dealers Association to U.S. 
    Representative Bill Archer (R-TX) (8/14/97). Letter also went to 
    the other Texas Delegation members who were not H.R. 1984 
    cosponsors at the time: Johnson (R), Brady (R), Lampson (D), 
    Doggett (D), Edwards (D), Paul (R), Hinojosa (D), Reyes (D), Lee 
    (D), Gonzalez (D), Smith (R), DeLay (R), Frost (D), Bentsen (D), 
    Armey (R), Green (D), Johnson (D).
  <bullet>  *Wyatt Buick Sales Co. (VA) (3/5/97)
  <bullet>  Letters from highway user groups and AAA affiliates
  <bullet>  *Mid-Continent Highway Users Conference resolution (9/3--9/
    5/97)
  <bullet>  *AAA Northern New England (1/13/97)
  <bullet>  *AAA Mid-Atlantic (3/12/97)
  <bullet>  *AAA Club South
  <bullet>  *Highway Users Federation of Delaware (1/13/97)
  <bullet>  *Georgia Highway Users Conference (3/12/97)
  <bullet>  *Indiana Highway Users Conference (3/11/97)
  <bullet>  *Indiana AAA to Carol Browner (11/18/96)
  <bullet>  *Indiana AAA to OMB (11/18/96)
  <bullet>  *Indiana AAA to the White House (11/18/96)
  <bullet>  *Maine Better Transportation Association to U.S. 
    Representative John Baldacci (D-ME) (2/12/97)
  <bullet>  *Maryland Highway Users Federation (3/3/97)
  <bullet>  *Highway Users Federation of Michigan to members of the 
    Michigan House and Senate (2/27/97)
  <bullet>  *Pennsylvania AAA Federation (1/13/97)
  <bullet>  *Virginia Hospitality & Travel Association (VHTA) (2/6/97)
  <bullet>  *Wisconsin Highway Users Conference (3/10/97)
  <bullet>  *Wisconsin Highways Users Conference to U.S. Representative 
    Jay Johnson (D-WI) (8/14/97). Same letter went to Reps. Kind, 
    Petri, Kleczka, Klug, Sensenbrenner, Obey, Barrett, and Neumann.
                               __________
Letters/comments from the petroleum industry
  <bullet>  *American Petroleum Institute (3/4/97)
  <bullet>  *American Petroleum Institute (3/12/97)
  <bullet>  Petroleum Transportation and Storage Association (11/7/96)
  <bullet>  Comments from NPRA on the Advanced Notice of Proposed 
    Rulemaking (8/20/96)
  <bullet>  *National Petroleum Refiners Association (NPRA) (1/24/97)
  <bullet>  *National Petroleum Refiners' Association (3/12/97)
  <bullet>  *National Association of Texaco Wholesalers, Inc. (1/28/97)
  <bullet>  Alabama Oilmen's Association/Association of Convenience 
    Stores to Alabama Governor Fob James (5/2/96)
  <bullet>  *Diesel Equipment Co. (CA) (3/9/97)
  <bullet>  *Buccaneer Marine, Ltd. (CA-petroleum) (3/10/97)
  <bullet>  *Steven Evans Kirby (CA-petroleum) (3/11/97)
  <bullet>  *Delaware Petroleum Council (1/13/97)
  <bullet>  Florida Petroleum Marketers & Convenience Store Association 
    (10/31/96)
  <bullet>  Florida Equipment Sales (industrial and petroleum) (11/6/
    96)
  <bullet>  McKenzie Petroleum (FL) (11/5/96)
  <bullet>  Mid-State Energy, Inc. (petroleum) (FL) (11/6/96)
  <bullet>  Thomas Oil Company (FL) (11/7/96)
  <bullet>  Pioneer Oil Company (FL) (11/12/96)
  <bullet>  Lake Oil Company (FL) (11/12/96)
  <bullet>  Smith Oil Company (FL) (no date, but before rule proposal)
  <bullet>  *Quality Petroleum Corporation (FL) (1/8/97)
  <bullet>  *Georgia Petroleum Council (3/12/97)
  <bullet>  *Georgia Association of Petroleum Retailers, Inc. (3/17/97)
  <bullet>  *Amoco Corporation (Atlanta, GA office) (3/14/97)
  <bullet>  *Young Refining Corporation (GA) (2/27/97)
  <bullet>  *Lynch Oil, Inc. (ID) to U.S. Senator Dirk Kempthorne (R-
    ID) (3/17/97)
  <bullet>  Indiana Oil Marketers' Association, Inc. to Carol Browner 
    (11/19/96)
  <bullet>  Indiana Oil Marketers' Association, Inc. to OMB (11/19/96)
  <bullet>  Indiana Oil Marketers' Association, Inc. to the White House 
    (11/19/96)
  <bullet>  Indiana Oil Marketers' Association, Inc. to U.S. Senator 
    Dan Coats (R-IN) (11/19/96)
  <bullet>  Indiana Oil Marketers' Association, Inc. to U.S. Senator 
    Richard Lugar (R-IN) (11/19/96)
  <bullet>  *Amoco--Whiting refinery to U.S. Senator Richard Lugar (R-
    IN) (2/20/97)
  <bullet>  *Marathon Oil (OH) (2/19/97)
  <bullet>  *Indiana Petroleum Council to Governor Frank O'Bannon (1/
    29/97)
  <bullet>  *Iowa Petroleum Council (3/7/97)
  <bullet>  *Kansas Oil Marketers Association to Kansas Governor Bill 
    Graves (2/7/97)
  <bullet>  *Kansas Oil Marketers Association to all members of the 
    Kansas Congressional Delegation (2/7/97)
  <bullet>  *Kansas Oil Marketers Association comments (2/10/97)
  <bullet>  *Kansas Petroleum Council (2/11/97)
  <bullet>  *National Cooperative Refinery Association (KS--petroleum) 
    (3/5/97)
  <bullet>  Kentucky Petroleum Marketers Association (5/6/96)
  <bullet>  Kentucky Petroleum Marketers Association to Kentucky 
    Governor Paul Patton (5/7/96)
  <bullet>  *Louisiana Mid-Continent Oil and Gas Association to U.S. 
    Senators Mary Landrieu (D-LA) and John Breaux (D-LA) (2/18/97)
  <bullet>  *Louisiana Mid-Continent Oil and Gas Association (3/10/97)
  <bullet>  *Maine Petroleum Association (3/7/97)
  <bullet>  *Maryland Petroleum Council (3/11/97)
  <bullet>  *Southern Maryland Oil to U.S. Representative Steny Hoyer 
    (D-MD) (2/4/97)
  <bullet>  *WMDA (Washington/MD/Delaware Service Station and 
    Automotive Repair Association) (3/11/97)
  <bullet>  *Mid-Atlantic Petroleum Distributors' Association (MD) (1/
    28/97)
  <bullet>  *Ewing Oil (MD) (2/12/97)
  <bullet>  *Ewing Oil (MD) to Maryland Governor Parris Glendening (2/
    12/97)
  <bullet>  *Ewing Oil (MD) to U.S Representative Roscoe Bartlett (R-
    MD), and U.S. Senators Barbara Mikulski (D-MD) and Paul Sarbanes 
    (D-MD) (2/12/97)
  <bullet>  *Service Station Dealers of America and Allied Trades (MD) 
    (2/7/97)
  <bullet>  *Minnesota Petroleum Council (3/10/97)
  <bullet>  *Minnesota Petroleum Council to U.S. Rep. Jim Ramstad (R-
    MN) (7/31/97). Similar letters also went to U.S. Reps. Oberstar (D-
    MN), Minge (D-MN), Luther (D-MN), and Gutknecht (R-MN)
  <bullet>  *Minnesota Petroleum Council to U.S. Sen. Rod Grams (R-MN) 
    (8/4/97)
  <bullet>  *Nebraska Petroleum Council (3/6/97)
  <bullet>  *Nebraska Petroleum Marketers & Convenience Store 
    Association (2/3/97)
  <bullet>  *Johnson & Dix Petroleum Marketers (NH) to NH Senators Judd 
    Gregg and Bob Smith, and others (1/24/97)
  <bullet>  *New Hampshire Petroleum Council (3/7/97)
  <bullet>  *Reid Petroleum Corporation (NY) (2/5/97)
  <bullet>  North Carolina Petroleum Marketers Association (5/13/96)
  <bullet>  *Newsom Oil Company, Inc. (NC) to U.S. Representative Eva 
    Clayton (D-NC) (5/6/97)
  <bullet>  *Newsom Oil Company, Inc. (NC) to U.S. Representative Bob 
    Etheridge (D-NC) (5/6/97)
  <bullet>  *Associated Petroleum Industries of Pennsylvania (1/14/97)
  <bullet>  *Associated Petroleum Industries of Pennsylvania to U.S. 
    Senator Arlen Specter (R-PA) (9/5/97)
  <bullet>  Liberty Oil Company, Inc. (PA) to U.S. Representatives 
    Timothy Holden (D-PA) and Paul Kanjorski (D-PA) (no date)
  <bullet>  *DB Companies (RI) (2/20/97)
  <bullet>  *South Carolina Petroleum Marketers Association (2/14/97)
  <bullet>  South Carolina Petroleum Council to U.S. Senator Ernest 
    Hollings (D-SC) (5/9/96)
  <bullet>  *South Carolina Petroleum Council to members of the SC 
    Congressional Delegation (3/26/97)
  <bullet>  *Infinger Transportation Company, Inc. (SC-petroleum) too 
    U.S. Senator Hollings (D-SC) (3/20/97)
  <bullet>  *Stern Oil Co. Inc. (SD) to Lynn Cutler, Office of 
    Intergovernmental Affairs (6/3/97)
  <bullet>  *South Dakota Petroleum Council to U.S. Senator Tim Johnson 
    (D) (8/20/97)
  <bullet>  *South Dakota Petroleum Council to U.S. Senator Tom Daschle 
    (D) (8/20/97)
  <bullet>  *Tennessee Petroleum Council to Lt. Governor/Speaker of the 
    Tennessee Senate John Wilder (1/22/97)
  <bullet>  *Tennessee Petroleum Council to U.S. Representative Ed 
    Bryant (R-TN) (8/20/97)
  <bullet>  *Tennessee Petroleum Council to U.S. Representative Bob 
    Clement (D-TN) (8/20/97)
  <bullet>  *Tennessee Petroleum Council to U.S. Representative Bart 
    Gordon (D-TN) (8/20/97)
  <bullet>  *Tennessee Petroleum Council to U.S. Representative Van 
    Hilleary (R-TN) (8/20/97)
  <bullet>  *Tennessee Petroleum Council to U.S. Representative Zach 
    Wamp (R-TN) (8/20/97)
  <bullet>  *Virginia Gasoline Marketers Council (2/21/97)
  <bullet>  *Virginia Petroleum Jobbers Association, Inc. (1/9/97)
  <bullet>  *Virginia Petroleum Council (3/7/97)
  <bullet>  *Virginia Petroleum Council to selected local officials (5/
    20/97)
  <bullet>  *Virginia Petroleum Council to U.S. Representative Frank 
    Wolf (R-VA) (8/14/97)
  <bullet>  *Virginia Petroleum Council to U.S. Representative Thomas 
    Davis (R-VA) (8/14/97)
  <bullet>  *Virginia Petroleum Council to U.S. Representative Robert 
    Scott (D-VA) (8/14/97)
  <bullet>  *Virginia Petroleum Council to U.S. Representative Herbert 
    Bateman (R-VA) (8/14/97)
  <bullet>  *Wisconsin Petroleum Council (3/11/97)
                               __________
Letters/comments from the mining and minerals processing industry
  <bullet>  *China Clay Producers Association, Inc. (GA--mining) (1/31/
    97)
  <bullet>  *Mine & Mill Supply Company (FL) (1/9/97)
  <bullet>  *JuNo Industries (FL--does business with the phosphate 
    industry) (1/23/97)
  <bullet>  *Anderson Mining Corporation (FL) (1/10/97)
  <bullet>  *Florida Rock Industries, Inc. (1/13/97)
  <bullet>  *Indiana Coal Council email (3/12/97)
  <bullet>  *Maryland Coal Association (3/11/97)
  <bullet>  *Anthracite Industries, Inc. (PA), to Pennsylvania 
    Congressmen/Senators (2/6/97)
  <bullet>  *Bradford Coal Co., Inc.(PA) to U.S. Representative Bud 
    Shuster (R-PA) (1/21/97)
  <bullet>  *Mine Safety Appliances Company (PA) to U.S. Senator Rick 
    Santorum (R-PA) (2/4/97)
  <bullet>  *Virginia Coal Association (3/7/97)
  <bullet>  Letters/comments from the cast metals industry
  <bullet>  *Nichols Wire Inc. (AL) to President Clinton (6/9/97)
  <bullet>  *Brown Tank & Steel (AZ) to President Clinton (6/18/97)
  <bullet>  *Steiner Fabrication, Inc. (AZ--cast metals) to President 
    Clinton (6/3/97)
  <bullet>  *Valley Metal Treating Inc. (CA) to President Clinton (6/
    13/97)
  <bullet>  *Artsons Manufacturing Inc. (CA--cast metals) to President 
    Clinton (6/27/97)
  <bullet>  *Pressure Cast Products Corp. (CA) to President Clinton (6/
    20/97)
  <bullet>  *California Cast Metals Assoc. (CA--cast metals) to 
    President Clinton (6/13/97)
  <bullet>  *ASC Tubing, Inc. (CA-metals casting) to President Clinton 
    (6/19/97)
  <bullet>  *Atlantic Steel Industries, Inc. (GA) (2/28/97)
  <bullet>  *Macon Iron (GA) (2/28/97)
  <bullet>  *Metallurgical Processing, Inc. to U.S. Representative Mark 
    Souder (R-IN) (3/25/97)
  <bullet>  *Indiana Steel Environmental Group to Indiana Governor 
    Frank O'Bannon (1/27/97)
  <bullet>  *Inland Steel Flat Products (IN) to Indiana Department of 
    Env. Management Commissioner (1/31/97)
  <bullet>  *I/N Tek and I/N Kote (IN--steel) (3/11/97)
  <bullet>  *Indiana Metal Treating (IN) to President Clinton (6/4/97)
  <bullet>  *Merchants Metals (IN) to President Clinton (6/24/97)
  <bullet>  *Truecast Precision Castings LLC (KY) to President Clinton 
    (6/5/97)
  <bullet>  *Dailey Ironworks Inc. (LA) to President Clinton (6/24/97)
  <bullet>  *Metalloy Manufacturing Inc. (MI) to President Clinton (6/
    26/97)
  <bullet>  *Western Foundry Co., (MI) to President Clinton (6/9/97)
  <bullet>  *Non-Ferrous Cast Alloys, Inc. (MI) to President Clinton 
    (7/1/97)
  <bullet>  *Modern Metal Processing, Inc. (MI) to President Clinton 
    (6/10/97)
  <bullet>  *GST Steel Company (MO) (1/22/97)
  <bullet>  *GST Steel Company (MO) (2/6/97)
  <bullet>  *Shamrad Metal Fabricators (MO) (2/28/97)
  <bullet>  *Shamrad Metal Fabricators (MO) (3/4/97)
  <bullet>  *Atlas Casting Co., Inc. (MO) to President Clinton (6/24/
    97)
  <bullet>  *Engelhard-Clal (NJ--metals casting) to President Clinton 
    (6/18/97)
  <bullet>  *F. W. Winter Inc. & Co. (NJ--metals casting) to President 
    Clinton (6/24/97)
  <bullet>  *Aluminum Shapes (NJ--metals casting) to President Clinton 
    (6/6/97)
  <bullet>  *Century Tube Corp. (NJ--cast metals) to President Clinton 
    (6/6/97)
  <bullet>  *Wormuth Brothers Foundry (NY--cast metals) to President 
    Clinton (6/2/97)
  <bullet>  *Lamothermic Corp. (NY--cast metals) to President Clinton 
    (6/19/97)
  <bullet>  *Funk FineCast, Inc. (OH) to President Clinton (6/12/97)
  <bullet>  *American Wire and Cable Co. (OH) to President Clinton (6/
    11/97)
  <bullet>  *T & B Foundry Co. (OH) to President Clinton (6/3/97)
  <bullet>  *Blanchester Foundry Co. (OH) to President Clinton (6/13/
    97)
  <bullet>  *Lincoln Foundry (PA) to President Clinton (6/4/97)
  <bullet>  *Gupta Permold, Corp. (PA-cast metals) to President Clinton 
    (6/8/97)
  <bullet>  *United Foundry Co. Inc. (PA) to President Clinton (6/5/97)
  <bullet>  *All-Lite Metal Co. (PA) to President Clinton (6/18/97)
  <bullet>  *Weatherly Casting & Machine Co. (PA) to President Clinton 
    (6/2/97)
  <bullet>  *Pennsylvania Precision Cast Parts, Inc. (PA) to President 
    Clinton (6/3/97)
  <bullet>  *Arcos Alloys (PA) to U.S. Representative Paul Kanjorski 
    (D-PA), and Senators Arlen Specter (R-PA) and Rick Santorum (R-PA) 
    (2/4/97)
  <bullet>  *Benton Foundry, Inc. (PA) to U.S. Representatives Paul 
    Kanjorski (D-PA), Peterson, and Joseph McDade (R-PA) (2/3/97)
  <bullet>  *Bucks Fabricating (PA) to U.S. Rep. English (R-PA), U.S. 
    Sen. Santorum (R-PA), and U.S. Sen. Specter (R-PA) (1/20/97)
  <bullet>  *Caparo Steel (PA) to U.S. Representative Phil English (R-
    PA) (2/11/97)
  <bullet>  *FLO BIN Fabricated Metals, Inc. (PA) to U.S. Senator Rick 
    Santorum (R-PA) (1/21/97)
  <bullet>  *National Torch Tip Co. (PA--manufactures welding and 
    cutting devices), to U.S. Representative Mike Doyle (D-PA) (2/11/
    97)
  <bullet>  *Symphony P/M Inc. (RI-metalworking) to President Clinton 
    (6/9/97)
  <bullet>  *Metallurgical Solutions, Inc. President John O'Meara (RI) 
    to President Clinton (6/2/97)
  <bullet>  *Metallurgical Solutions, Inc. VP, Metallurgist Gregory W. 
    Dexter (RI) to President Clinton (6/9/97)
  <bullet>  *Castex Industries (RI) (and member of the White House 
    Conference on Small Business) to Clinton, Sen. Bumpers (AR), Sen. 
    Bond (MO) and the U.S. Small Business Administration (1/20/97)
  <bullet>  *Kingsport Foundry & Manufacturing Corp. (TN) to President 
    Clinton (6/4/97)
  <bullet>  *General Smelting & Refining, Inc. (TN) to President 
    Clinton (6/3/97)
  <bullet>  *Assured Castings Corp. (TN) to President Clinton (6/10/97)
  <bullet>  *TexCast, Inc. (TX) to President Clinton (6/11/97)
  <bullet>  *Alloy Casting (TX) to President Clinton (6/27/97)
  <bullet>  *Intermountain Precision Casting (UT) to President Clinton 
    (6/6/97)
  <bullet>  *KBAlloys, Inc. (WA) to President Clinton (5/30/97)
  <bullet>  *Pentz Design, Inc. (WA-foundry) to President Clinton (6/
    10/97)
  <bullet>  *Wisconsin Cast Metals Association (1/13/97)
  <bullet>  *Wisconsin Cast Metals Association (WI) to President 
    Clinton (6/9/97)
  <bullet>  *Crown Metal Company Inc. (WI) to President Clinton (6/10/
    97)
  <bullet>  *Westwood Aluminum Castings, Inc. (WI) President to 
    President Clinton (6/19/97)
  <bullet>  *Westwood Aluminum Castings, Inc. (WI) Vice President to 
    President Clinton (6/19/97)
  <bullet>  *Westwood Aluminum Castings, Inc. (WI) Admin. Manager to 
    President Clinton (6/19/97)
  <bullet>  *Westwood Aluminum Castings, Inc. (WI) Sales Manager to 
    President Clinton (6/19/97)
  <bullet>  Letters/comments from labor groups
  <bullet>  *Building and Construction Trades Department Emergency 
    Action letter (DC) (6/6/97)
  <bullet>  *International Brotherhood of Electrical Workers (DC) to 
    President Clinton (5/15/97)
  <bullet>  United Mine Workers of America Resolution (no date)
  <bullet>  *Eugene Trisko for the United Mine Workers of America 
    (UMWA) to U.S. Senator James Inhofe (R-OK) (2/28/97)
  <bullet>  *Laborers' International Union of North America, Midwest 
    Regional Office (IL) to President Clinton (6/11/97)
  <bullet>  *Illinois Brotherhood of Teamsters Joint Council No. 25 to 
    President Clinton (5/30/97)
  <bullet>  Illinois Brotherhood of Teamsters Joint Council No. 25 
    resolution (no date)
  <bullet>  *United Mine Workers of America (Indiana COMPAC) to Indiana 
    Governor Frank O'Bannon (2/18/97)
  <bullet>  *United Mine Workers of America (Indiana COMPAC) (3/8/97)
  <bullet>  *Comments of the United Mine Workers of America (UMWA) (3/
    11/97)
  <bullet>  *International Brotherhood of Teamsters, Central Region 
    (Missouri and Kansas) Vice President Phil Young to President 
    Clinton (5/28/97)
  <bullet>  *Laborers-Employers Cooperation and Education Trust 
    (Western Missouri and Kansas district to President Clinton (6/16/
    97)
  <bullet>  *Greater Kansas City Building and Construction Trades 
    Council, AFL-CIO to Ron Klain (6/26/97)
  <bullet>  *Bakery, Confectionery and Tobacco Workers International 
    Union (MD) to President Clinton (5/23/97)
  <bullet>  *Baltimore, MD International Union of Operating Engineers 
    to President Clinton (5/30/97)
  <bullet>  Baltimore, MD International Union of Operating Engineers 
    resolution (no date)
  <bullet>  *Resolution passed by the Michigan State AFL-CIO (5/2/97)
  <bullet>  *Michigan Teamsters Joint Council No. 43 to President 
    Clinton (5/7/97)
  <bullet>  Michigan Teamsters Joint Council No. 43 resolution (no 
    date)
  <bullet>  *Dearborn, MI Utility Workers Union of America, AFL-CIO to 
    President Clinton (5/12/97)
  <bullet>  *Detroit, MI Service Employees International Union to 
    President Clinton (5/13/97)
  <bullet>  *Southfield, MI Hotel Employees and Restaurant Employees 
    Union to President Clinton (5/9/97)
  <bullet>  *Wayne County, MI Sheriff/Airport Police, Local 502 to 
    President Clinton (5/9/97)
  <bullet>  *Montana Pulp and Paperworkers to U.S. Senator Max Baucus 
    (D-MT) (6/5/97)
  <bullet>  *General Drivers & Helpers, Local Union No. 554 (NE) to 
    President Clinton (5/21/97)
  <bullet>  *Columbiana Mahoning & Trumbull, Ohio UAW to Carol Browner 
    (6/9/97)
  <bullet>  *Ohio AFL-CIO to President Clinton (6/9/97)
  <bullet>  *Toledo Area AFL-CIO Council (OH) (5/19/97)
  <bullet>  *Toledo, OH Port Council to President Clinton (5/28/97)
  <bullet>  *International Brotherhood of Electrical Workers--Local 
    Union No. 8 (OH) (2/24/97)
  <bullet>  *Oil, Chemical & Atomic Workers International Union, AFL-
    CIO (OH) (resolution-no date)
  <bullet>  *Washington State Building Construction Trades Council to 
    President Clinton (5/9/97)
  <bullet>  *Washington State Building Construction Trades Council to 
    Alexis Herman, Secretary, U.S. Department of Labor (5/12/97)
  <bullet>  *Washington State Building Construction Trades Council 
    resolution (5/29/97)
  <bullet>  Letters/comments from agricultural interests
  <bullet>  *20 groups representing agricultural interests to the 
    Senate Agriculture, Nutrition & Forestry Committee, the Senate 
    Environment & Public Works Committee, the House Agriculture 
    Committee, and the House CommerceCommittee (2/24/97)
  <bullet>  *National Farmer's Union to EPA (3/12/97)
  <bullet>  Florida Nurserymen and Growers Association (11/4/96)
  <bullet>  *Gold Kist Inc. (GA--farm cooperative) (3/3/97)
  <bullet>  *Illinois Agriculture Roundtable to the members of the 
    Illinois Congressional Delegation (7/28/97)
  <bullet>  Growmark, Inc. (IL--a regional agricultural supply and 
    grain marketing cooperative) (no date)
  <bullet>  *CENEX, Inc. (regional agricultural supply cooperative) (2/
    27/97)
  <bullet>  *Countrymark Cooperative, Inc. (IN--farm cooperative) (3/
    10/97)
  <bullet>  *Grain Processing Corporation (IA) to U.S. Representative 
    Jim Leach (R-IA) (2/13/97)
  <bullet>  *Maryland Farm Bureau, Inc. (3/10/97)
  <bullet>  *Rhone-Poulenc Ag Company (MO) (2/6/97)
  <bullet>  *Syntex Agribusiness, Inc. (MO) (1/24/97)
  <bullet>  *Bayer Agriculture Division (MO) (2/11/97)
  <bullet>  *Nebraska Farm Bureau Federation (3/12/97)
  <bullet>  *Nebraska Farm Bureau Federation (5/30/97)
  <bullet>  *New Hampshire Farm Bureau Federation (3/11/97)
  <bullet>  *New York Farm Bureau (2/7/96)
  <bullet>  *North Carolina Farm Bureau Federation email to Carol 
    Browner (no date)
  <bullet>  *Pennsylvania State Grange (1/8/97)
  <bullet>  *South Carolina Farm Bureau Federation (3/10/97)
  <bullet>  *Tennessee Forage and Grassland Council (1/29/97)
  <bullet>  *Virginia Agribusiness Council (2/17/97)
  <bullet>  Virginia Farm Bureau Federation (11/21/96)
  <bullet>  Letters/comments from bakers
  <bullet>  *Smith's Bakeries (CA) to President Clinton (6/11/97)
  <bullet>  *Henri's Bakery (GA) to President Clinton (6/14/97)
  <bullet>  *Lovin Oven Cakery (IL) to President Clinton (6/13/97)
  <bullet>  *Donut Express (MA) to President Clinton (6/19/97)
  <bullet>  *The Bread Basket (MI) to President Clinton (6/19/97)
  <bullet>  *Freedman's Bakery Inc. (NJ) to President Clinton (no date)
  <bullet>  *Century Bakery (NJ) to President Clinton (6/11/97)
  <bullet>  *Britts Donut Shop (NC) to President Clinton (6/9/97)
  <bullet>  *Brown's Bakery, Inc. (OH) to President Clinton (5/30/97)
  <bullet>  *Link's Bakery (OH) to President Clinton (6/23/97)
  <bullet>  *New Horizons Baking Company (OH) to U.S. Representative 
    Steven LaTourette (R-OH) (2/17/97)
  <bullet>  *New Bakery Co. of Ohio to U.S. Representative Robert Ney 
    (R-OH) (2/12/97)
  <bullet>  *Sno-White Donut Company (OH) to President Clinton (6/19/
    97)
  <bullet>  *Mt. Washington Bakery (OH) to President Clinton (6/17/97)
  <bullet>  *Maiers Inc. (PA-bakery) to President Clinton (6/4/97)
  <bullet>  *DeRosa Bakery, Inc. (PA) to President Clinton (6/17/97)
  <bullet>  *Moio's Italian Pastry Shop (PA) to President Clinton (6/5/
    97)
  <bullet>  *Donut Den (TN-bakery) to President Clinton (6/10/97)
  <bullet>  *Great American Cookie, Co. (TN) to ``Whom It May Concern'' 
    (no date)
  <bullet>  *Erika M. Pepas' bakery (TX) to President Clinton (6/17/97)
  <bullet>  *Poffenbarger's Bakery (VA) to President Clinton (6/24/97)
  <bullet>  Letters/comments from the food industry
  <bullet>  Florida Gift Fruit Shippers Association (11/1/96)
  <bullet>  *Jackson Beverages (GA) (2/28/97)
  <bullet>  *Universal Foods Corporation (MD) (3/11/97)
  <bullet>  *Seagram Americas (MD) (3/10/97)
  <bullet>  *Hercules Food & Functional Products (MO) (1/21/97)
  <bullet>  *American Dehydrated Foods, Inc. (MO) (2/6/97)
  <bullet>  *Curry Flour Mills, Inc. (PA) to U.S. Senators Arlen 
    Specter (R-PA) and Rick Santorum (R-PA), and U.S. Representative 
    George Gekas (R-PA) (2/6/97)
  <bullet>  *Moyer Packing Company (PA--beef packers) to U.S. Senator 
    Arlen Specter (R-PA) (2/3/97)
  <bullet>  *Pennsylvania Food Processors Association (3/3/97)
  <bullet>  *R&H Maxxon, Inc. (SC--Depot Food Stores) (2/5/97)
  <bullet>  *R&H Maxxon, Inc. (SC-food) to U.S. Senator Ernest Hollings 
    (D-SC) (3/20/97)
  <bullet>  Letters/comments from state manufacturing associations
  <bullet>  *Associated Industries of Kentucky (1/30/97)
  <bullet>  Associated Industries of Massachusetts (6/3/96)
  <bullet>  Associated Industries of Massachusetts to Massachusetts' 
    DEP Commissioner David Struhs (no date, but before rule proposal)
  <bullet>  *Associated Industries of Massachusetts sent to the 
    Massachusetts' Congressional Delegation (2/10/97)
  <bullet>  *Associated Industries of Massachusetts to U.S. 
    Representative John Joseph Moakley (D-MA) (2/10/97)
  <bullet>  *Mississippi Manufacturers Association (3/6/97)
  <bullet>  Associated Industries of Missouri to Missouri Governor Mel 
    Carnahan (4/12/96)
  <bullet>  Associated Industries of Vermont to Governor Dean (11/26/
    96)
  <bullet>  Virginia Manufacturers Association to Virginia Secretary of 
    Natural Resources, Becky Norton Dunlop (7/2/96)
  <bullet>  Letters/comments from utility interests
  <bullet>  *American Public Power Association (DC) to John Haines, EPA 
    (3/24/97)
  <bullet>  *Flint Electric Membership Corporation (GA) to U.S. Sens. 
    Max Cleland (D-GA) and Paul Coverdell (R-GA), and U.S. Reps. Jack 
    Kingston (R-GA), Mac Collins (R-GA), John Lewis (D-GA), and Bob 
    Barr (R-GA) (3/18/97)
  <bullet>  *Southern Indiana Gas And Electric Company (SIGECO) to the 
    Indiana Congressional Delegation (12/3/96)
  <bullet>  *Southern Indiana Gas And Electric Company (SIGECO) to the 
    Indiana Congressional Delegation (4/16/97)
  <bullet>  *Southern Indiana Gas And Electric Company (SIGECO) to 
    Governor O'Bannon (2/21/97)
  <bullet>  *Southern Indiana Gas And Electric Company (SIGECO) to 
    President Clinton (1/29/97)
  <bullet>  *Muscatine Power and Water (IA) (2/21/97)
  <bullet>  *Western Resources (KS--utility) (1/16/97)
  <bullet>  *Hopkinsville Electric System (KY) to U.S. Senator Wendell 
    Ford (D-KY) (2/6/97)
  <bullet>  *Hopkinsville Electric System (KY) (2/6/97)
  <bullet>  *St. Joseph Light & Power Company (MO) (1/20/97)
  <bullet>  *The Empire District Electric Company (MO) (2/11/97)
  <bullet>  *Associated Electric Cooperative, Inc. (MO) (3/6/97)
  <bullet>  *Auburn (NE) Board of Public Works (Utility) General 
    Manager James P. Dietz to U.S. Senator Bob Kerrey (D-NE) (9/10/97)
  <bullet>  *Duke Power (NC) to U.S. Representative Richard Burr (R-NC) 
    (1/28/97)
  <bullet>  *North Carolina Association of Electric Cooperatives, Inc. 
    to North Carolina Gov. Hunt (6/4/97)
  <bullet>  *Ohio Electric Utility Institute (2/3/97)
  <bullet>  *Ohio Municipal Electric Association to the Ohio 
    Congressional Delegation (1/29/97)
  <bullet>  *Michigan Electric and Gas Association to U.S. 
    Representative James Barcia (D-MI) (2/28/97)
  <bullet>  *Sam Rayburn Municipal Power Agency (TX) (3/11/97)
  <bullet>  *Menasha Utilities (WI) (3/5/97)
  <bullet>  Letters/comments from chemicals interests
  <bullet>  *Chemical Specialties Manufacturers Association (3/10/97)
  <bullet>  *Chemical Industry Council of Delaware (1/13/97)
  <bullet>  Florida Manufacturing and Chemical Council, Inc. (11/12/96)
  <bullet>  *Melamine Chemicals Inc. (LA) to President Clinton (no 
    date)
  <bullet>  *Manufacturers and Chemical Industry Council of North 
    Carolina (3/10/97)
  <bullet>  *Occidental Chemical Corporation (NC) to U.S. Senator Jesse 
    Helms (R-NC) (4/28/97). Same letter also went to U.S. Senator Lauch 
    Faircloth (R-NC) and U.S. Representative Mike McIntyre (D-NC).
  <bullet>  Sterling Chemicals to U.S. Sens. Phil Gramm (R-TX), Kay 
    Bailey Hutchison (R-TX), Governor George W. Bush (R-TX), U.S. Reps. 
    Joe Barton (R-TX), Bill Archer (R-TX), Nick Lampson (D-TX), Ron 
    Paul (R-TX), Tom DeLay (R-TX), Dick Army (R-TX), and Gene Green (D-
    TX)
  <bullet>  *Virginia Chemical Manufacturers' Association prepared by 
    W. Thomas Hudson & Associates, Inc. (3/7/97)
  <bullet>  Letters/comments from natural resources interests
  <bullet>  Florida Forestry Association (11/15/96)
  <bullet>  *Southeastern Association of Fish and Wildlife Agencies 
    (FL) (12/5/96)
  <bullet>  Letters/comments from other businesses/industry groups
  <bullet>  Ray Distributing Company (FL) (11/5/96)
  <bullet>  Greater Houston Partnership (10/8/96)
  <bullet>  Illinois Retail Merchants Association (10/25/96)
  <bullet>  Tenneco Packaging (GA) (11/15/96)
  <bullet>  South Dakota Retailers Association (11/21/96)
  <bullet>  *South Dakota Retailers Association to U.S. Senator Tim 
    Johnson (D-SD) (8/26/97)
  <bullet>  Indiana Manufactured Housing Association--Recreation 
    Vehicle Indiana Council (11/11/96)
  <bullet>  *Indiana Manufactured Housing Association Recreation 
    Vehicle Indiana Council, Inc. to Indiana Governor Frank O'Bannon 
    (2/28/97)
  <bullet>  *Fridrich & Clark Realty (TN) (1/27/97)
  <bullet>  *Vermont Ski Areas Association (1/13/97)
  <bullet>  *Whirlpool Corporation (MI) (2/3/97)
  <bullet>  *National Federation of Independent Business (NFIB) New 
    York (2/10/97)
  <bullet>  *Hasbro (RI) (3/6/97)
  <bullet>  Associated Petroleum Industries of Michigan, Michigan 
    Manufacturers Assn., Michigan Chamber of Commerce, Michigan Oil and 
    Gas Assn., Michigan Chemical Council, and the National Federation 
    of Independent Business to Michigan Governor John Engler (4/15/96)
  <bullet>  *Several Texas business and industry groups to the Texas 
    Natural Resource Conservation Commission (TNRCC) (1/10/97)
  <bullet>  *Texas division of Citizens for a Sound Economy to the 
    Texas Natural Resources Conservation Commission (TNRCC) (1/10/97)
  <bullet>  *Robertshaw Controls Company (PA) to U.S. Representative 
    Frank Mascara (D-PA) (1/25/97)
  <bullet>  *Red Hill Grinding Wheel Corporation (PA) to U.S 
    Representative Paul McHale (D-PA) (1/20/97)
  <bullet>  *Surco Products, Inc. (PA--odor control) to Pennsylvania 
    state Senators Bodack, Habay, and Ridge (1/23/97)
  <bullet>  *Ohio Air Quality Standards Coalition to Governor Voinovich 
    (2/7/97)
  <bullet>  *Gow-Mac Instrument Co. (PA) to U.S. Senator Arlen Specter 
    (R-PA) and U.S. Representative Paul McHale (D-PA) (2/10/97)
  <bullet>  *Acme Wire Products Inc. (PA) to U.S. Representative Jon 
    Fox (R-PA) (2/10/97)
  <bullet>  *Weave Corporation (PA) to U.S. Senators Arlen Specter (R-
    PA) and Rick Santorum (R-PA), and U.S. Representatives Tim Holden 
    (D-PA) and Joseph Pitts (R-PA) (2/3/97)
  <bullet>  *R.E. Uptegraff Manufacturing Co. (PA) to U.S. Senator Rick 
    Santorum (R-PA) (2/4/97)
  <bullet>  *Grinnell (PA) to U.S. Senator Arlen Specter (R-PA) (1/20/
    97)
  <bullet>  *Cyklop (PA) to U.S. Representatives Joseph Pitts (R-PA) 
    and Curt Weldon (R-PA) (2/3/97)
  <bullet>  *Rigidply Rafters, Inc. (PA) to U.S. Representative George 
    Gekas (R-PA) (2/4/97)
  <bullet>  *C-B Tool Co. (PA) to U.S. Senators Arlen Specter (R-PA) 
    and Rick Santorum (R-PA), and U.S. Representative Joseph Pitts (2/
    5/97)
  <bullet>  *Air-Scent International (PA--env. air fresheners) to 
    Pennsylvania state Representative Jeffrey Habay (1/23/97)
  <bullet>  *SMC Business Councils (PA--small business) to U.S. Senator 
    Arlen Specter (R-PA) (2/14/97)
  <bullet>  *Legislative Clean Air Policy Committee (3/12/97)
  <bullet>  *Georgia Clean Air Group (3/11/97)
  <bullet>  *Georgia Clean Air Group to U.S. Senator Max Cleland (D-GA) 
    (3/20/97)
  <bullet>  *Minnesota Environmental Coalition of Labor and Industry 
    (3/3/97)
  <bullet>  *NC Association of Financial Institutions (3/12/97)
  <bullet>  *Aluminum Company of America (ALCOA) (3/11/97)
  <bullet>  *Connecticut Business & Industry Association (3/11/97)
  <bullet>  *Connecticut Business & Industry Association to U.S. 
    Senator Chris Dodd (D-CT) (6/2/97) Same letter sent to all members 
    of the CT Congressional Delegation.
  <bullet>  *American Council on Science and Health (3/7/97)
  <bullet>  *New Jersey Air Quality Standards Coalition (3/11/97)
  <bullet>  *Associated General Contractors of America (New York State 
    Chapter) (2/5/97)
  <bullet>  *Associated General Contractors of America, New York State 
    Chapter, Inc. to U.S. Senator Daniel Patrick Moynihan (D-NY) (5/30/
    97)
  <bullet>  *Associated General Contractors of America, New York State 
    Chapter, Inc. to U.S. Senator Alfonse D'Amato (R-NY) (5/30/97)
  <bullet>  *Associated Constructors of Maine, Inc. (2/18/97)
  <bullet>  *Construction Industries of Rhode Island (3/10/97)
  <bullet>  *National Federation of Independent Business--Virginia 
    Chapter (3/24/97)
  <bullet>  *Georgia Economic Developers Association, Inc. (2/28/97)
  <bullet>  *Georgia Industry Association (3/11/97)
  <bullet>  *Georgia Textile Manufacturers Association, Inc.
  <bullet>  *ASR Manufacturing Company (GA) (3/3/97)
  <bullet>  *Carr & Associates (GA) (3/6/97)
  <bullet>  *Cushman & Wakefield (GA) (3/10/97)
  <bullet>  *Dublin Construction Co., Inc. (GA) (3/3/97)
  <bullet>  *Engelhard Corporation (GA) (3/10/97)
  <bullet>  *Fabritex, Inc. (GA) (3/3/97)
  <bullet>  *Futren Corporation (GA) (3/3/97)
  <bullet>  *Horton Homes, Inc. (GA) (2/27/97)
  <bullet>  *Huron Tech Corp (GA) (2/27/97)
  <bullet>  *J.L. Todd Auction Company (GA) (2/27/97)
  <bullet>  *Macgregor Associates Architects (GA) (3/13/97)
  <bullet>  *Law firm representing the City of Toccoa, GA and a number 
    of businesses in Stephens County (2/27/97)
  <bullet>  *Reddick Construction Company (GA) (2/27/97)
  <bullet>  *Richport Properties (GA) (3/12/97)
  <bullet>  *Sandersville Railroad ? (GA) (2/7/97)
  <bullet>  *Sanford Rose Associates--Atlanta North (GA) (2/28/97)
  <bullet>  *Synovus Financial Corp. (2/27/97)
  <bullet>  *T. Eleanor Davis, Inc. (GA) (no date)
  <bullet>  *Wilheit Packaging Materials Company (GA) (2/26/97)
  <bullet>  *Yancy Bros. Co. (GA) (3/12/97)
  <bullet>  *Competitive Enterprise Institute (Washington, DC) (3/12/
    97)
  <bullet>  *Ernst & Young (MO) (3/10/97)
  <bullet>  *Leak-Goforth Company (NC--econ. development consultants) 
    to U.S. Representative Howard Coble (R-NC) (4/4/97)
  <bullet>  *Leak-Goforth Company LLC to U.S. Representative Cass 
    Ballenger (R-NC) (4/4/97)
  <bullet>  *Center Management Corporation (IN) to U.S. Representative 
    Tim Roemer (D-IN) (2/27/97)
  <bullet>  *Missouri NAAQS Coalition to U.S. Senator Ashcroft (R-MO) 
    (4/10/97)
  <bullet>  *Missouri NAAQS Coalition to U.S. Senator Kit Bond (R-MO) 
    (4/10/97)
  <bullet>  *Bill Pfeiffer (concerned citizen--MO) (2/3/97)
  <bullet>  *Commercial Lithographing Co. (MO) (2/3/97)
  <bullet>  *Wabash Fibre Box Company (MO) (1/23/97)
  <bullet>  *Peterson Manufacturing Company (MO) (1/21/97)
  <bullet>  *Prime Tanning Corporation (MO) (1/17/97)
  <bullet>  *Chester P. Gunn (MO) (1/24/97)
  <bullet>  *Bary Marquardt (KS) (2/5/97)
  <bullet>  *Neff Printing, Inc. (KS) (2/6/97)
  <bullet>  *Stouse Sign & Decal, Inc. (KS) (2/5/97)
  <bullet>  *Spangler Printers (KS) (1/22/97)
  <bullet>  *Burd Fletcher (MO) (2/5/97)
  <bullet>  *Sweetheart Cup Company, Inc. (MO) (2/11/97)
  <bullet>  *Crest Mobil Home Court (MO) (2/14/97)
  <bullet>  *Pundmann Family Real Estate Company (MO) (2/17/97)
  <bullet>  *Larkin Associates, Consulting Engineers, Inc. (MO) (1/24/
    97)
  <bullet>  *Lyle Van Vleet (KS) (1/24/97)
  <bullet>  *James L. Fletcher, Jr., M.D. (MO) (2/13/97)
  <bullet>  *Jesco Resources, Inc. (MO) (3/10/97)
  <bullet>  *Mid America Dental, Hearing & Vision Center of Mt. Vernon, 
    MO (1/29/97)
  <bullet>  *Joseph Crenshaw (MO) (2/12/97)
  <bullet>  *Jim Seamon (MO--concerned citizen) (2/8/97)
  <bullet>  *American Society of Civil Engineers (MD) (3/11/97)
  <bullet>  *Printing Industries of Maryland (3/12/97)
  <bullet>  *Greater Baltimore Committee (MD) (3/11/97)
  <bullet>  *Maryland Highway Contractors Association (3/12/97)
  <bullet>  *National Federation of Independent Business--Maryland (no 
    date)
  <bullet>  *Maryland Aggregates Association, Inc. (MD) (3/10/97)
  <bullet>  *Edward Looker, Concerned Citizen (MD) (3/10/97)
  <bullet>  *Marine Trades Association of Maryland, Inc. (2/17/97)
  <bullet>  *Campbell House Inn, Suites, and Golf Club (KY) (2/5/97)
  <bullet>  *Campbell House Inn, Suites, and Golf Club (KY) to U.S. 
    Senator Wendell Ford (D-KY) (2/5/97)
  <bullet>  *Partnership for Environmental Progress (IL) to Sally 
    Katzen, OMB (4/17/97)
  <bullet>  *Partnership for Environmental Progress (IL) to Dr. Laura 
    D'Andrea Tyson, the White House (4/17/97)
  <bullet>  *John Maxwell (NJ--concerned citizen) to Mary Nichols (3/
    12/97)
  <bullet>  *Vincent D. Brown (NE-concerned citizen) (3/7/97)
  <bullet>  *Vincent D. Brown (NE-attorney) (3/6/97)
  <bullet>  *Barbara Lampe (NE-concerned citizen) (3/5/97)
  <bullet>  *Carol Nash-Drain (NE-concerned citizen) (3/6/97)
  <bullet>  *David Klas, Tenneco Packaging (NY) to U.S. Senator Daniel 
    Patrick Moynihan (D-NY) (3/25/97)
  <bullet>  *David Klas, Tenneco Packaging (NY) to U.S. Senator Alfonse 
    D'Amato (R-NY) (3/25/97)
  <bullet>  *David Klas, Tenneco Packaging (NY) to U.S. Representative 
    Bill Paxon (R-NY) (3/25/97)
  <bullet>  *Anthony Searing, Tenneco Packaging (NY) to U.S. 
    Representative John McHugh (R-NY) (3/27/97). Same letter went to 
    U.S. Sens. Alfonse D'Amato and Daniel Patrick Moynihan
  <bullet>  *New York Coalition for Clean Air Standards to U.S. 
    Representative James Walsh (R-NY) (4/4/97)
  <bullet>  *Empire State Marine Trades Association (NY) (2/7/97)
  <bullet>  *Bryce Harthoorn, Deere & Company (IA) (3/10/97)
  <bullet>  *Ralph Grotelueschen, Deere & Company (IA) (3/12/97)
  <bullet>  *South Carolina Textile Manufacturers' Association (3/6/97)
  <bullet>  *South Carolina Asphalt Pavement Association (3/10/97)
  <bullet>  *Kansas Air Quality Coalition to Governor Bill Graves (2/
    13/97)
  <bullet>  *Kansas Air Quality Coalition to Kansas legislators on NCSL 
    Environment Committee (2/13/97)
  <bullet>  *Kansas Air Quality Coalition to U.S. Senator Pat Roberts 
    (R-KS) (2/13/97)
  <bullet>  *Kansas Air Quality Coalition to U.S. Senator Sam Brownback 
    (R-KS) (2/13/97)
  <bullet>  *Kansas Air Quality Coalition to U.S. Representative Jerry 
    Moran (R-KS) (2/13/97)
  <bullet>  *Kansas Air Quality Coalition to U.S. Representative Jim 
    Ryun (R-KS) (2/13/97)
  <bullet>  *Kansas Air Quality Coalition to U.S. Representative Vince 
    Snowbarger (R-KS) (2/13/97)
  <bullet>  *Kansas Air Quality Coalition to U.S. Representative Todd 
    Tiahrt (R-KS) (2/13/97)
  <bullet>  *Joan Gilbert (ME-concerned citizen) (3/6/97)
  <bullet>  *Asphalt Paving Association of Iowa (3/12/97)
  <bullet>  *Iowa Association of Business and Industry (2/14/97)
  <bullet>  *The Fulton Group (TN--former mayor of Nashville) (no date)
  <bullet>  *Joint letter from 29 associations representing small 
    businesses to President Clinton (6/18/97)
  <bullet>  *R.J. Reynolds Tobacco Company to EPA (2/14/97)
  <bullet>  *R.J. Reynolds Tobacco Company to U.S. Senator Jesse Helms 
    (R-NC) (3/17/97)
  <bullet>  *R.J. Reynolds Tobacco Company to U.S. Senator Lauch 
    Faircloth (R-NC) (3/17/97)
  <bullet>  *R.J. Reynolds Tobacco Company to U.S. Representative 
    Richard Burr (R-NC) (3/17/97)
  <bullet>  *R.J. Reynolds Tobacco Company to NC Governor Jim Hunt (D) 
    (3/17/97)
  <bullet>  *Rohm and Haas Company (NC) to U.S. Senator Lauch Faircloth 
    (R-NC) (4/29/97). Same letter also went to U.S. Sen. Jesse Helms 
    (R-NC) and U.S. Rep. Sue Myrick (R-NC).
  <bullet>  *Allied Signal Fibers (NC) to U.S. Representative David 
    Price (D-NC) (5/9/97)
  <bullet>  *Richard Sweetman to Kathleen McGinty, Council on 
    Environmental Quality (6/10/97)
  <bullet>  *Richard Sweetman to Sally Katzen, OMB (6/10/97)
  <bullet>  *Joe Turnham, Chairman Alabama Democratic Party to 
    President Clinton (6/4/97)
  <bullet>  *Arizona Corporation Commission Chair, Carl Kunasek to 
    President Clinton (6/4/97)
  <bullet>  *Martin Luther King, III (GA) to President Clinton (6/3/97)
  <bullet>  *Parkway Corporation (PA) to Edward Rendell, Mayor of 
    Philadelphia (6/11/97)
  <bullet>  *Hooker Furniture Corporation (VA) to U.S. Representative 
    Virgil Goode (D-VA) (2/19/97)
  <bullet>  *Illinois Environmental Regulatory Group to EPA (3/11/97)
  <bullet>  *Industrial Development Authority of Kansas City (MO) 
    President Jane Kieffer to U.S. Representative Karen McCarthy (D-MO) 
    (8/25/97)
  <bullet>  *President, National Baptist Convention (FL) to President 
    Clinton (6/4/97)
  <bullet>  *Republic Container Company (WV) President/CEO Jon Amores 
    to President Clinton (6/10/97)
  <bullet>  *The Biscuit and Cracker Manufacturers' Association to all 
    House Agriculture Committee members, all House Commerce Committee 
    members, all Senate Agriculture, Nutrition and Forestry Committee 
    members, and all Senate Environment and Public Works Committee 
    members (9/4/97)
  <bullet>  *Letter signed by 11 business and industry trade 
    associations to U.S. Senator Tom Harkin (D-IA) (9/9/97). 
    Signatories include: Iowa Farm Bureau Federation, Iowa Petroleum 
    Council, Iowa Bankers Association, Iowa Retail Federation, Iowa 
    Utility Association, Iowa Association of Municipal Utilities, Iowa 
    Good Roads Association, Inc., Iowa Association of Business 
    Industry, Iowa Limestone Producers Association, Inc., Iowa 
    Association of Electric Cooperatives, and Asphalt Paving 
    Association of Iowa.
  <bullet>  *Illinois Municipal League resolution (9/11--9/14/97)
  <bullet>  *McGregor (TX) citizen Bob Melton to President Clinton (6/
    5/97)
  <bullet>  *McGregor (TX) citizen Bob Melton to Vice President Gore 
    (6/5/97)
  <bullet>  *McGregor (TX) citizen Bob Melton to U.S. Representative 
    Chet Edwards (D-TX) (5/30/97)
  <bullet>  *McGregor (TX) citizen Bob Melton to U.S. Representative 
    Lloyd Doggett (D-TX) (5/30/97)
  <bullet>  *President Elect, NABCO (DC) to President Clinton (no date)
  <bullet>  *Texas State Democratic Committee member Ruth L. Wyrick to 
    President Clinton (6/13/97)
  <bullet>  *Pharr (TX) Chairman of the Southwest Voter Registration 
    and Education Project Juan J. Maldondo to President Clinton (6/16/
    97)
  <bullet>  *McGinley Mills Inc. (NJ) to President Clinton (6/18/97)
  <bullet>  *Oxford Instruments Inc. (NJ) to President Clinton (6/18/
    97)
  <bullet>  *Valley Brook Machine Tool Co. Inc. (NJ) to President 
    Clinton (6/10/97)
  <bullet>  *Lisa Industries, Inc. (NJ) to President Clinton (6/13/97)
  <bullet>  *Double O Mfg., Inc. (NJ) to President Clinton (6/3/97)
  <bullet>  *Somerset Wood Products Co.(NJ) to President Clinton (6/18/
    97)
  <bullet>  *Krisanna Construction, Inc. ( NJ) to President Clinton (6/
    16/97)
  <bullet>  *Smith and Aquirre Construction Co, Inc. (NM) to President 
    Clinton
  <bullet>  *HSFS Industries (NY) Inc. to President Clinton (6/23/97)
  <bullet>  *Ben Mer Manufacturing Inc. (NY) to President Clinton (6/
    13/97)
  <bullet>  *Precision Molding & Millwork (NY) to President Clinton (6/
    12/97)
  <bullet>  *Rainbow Ribbons and Fabrics Inc. (NY) to President Clinton 
    (6/13/97)
  <bullet>  *IMC (Industrial Management Council) Services (NY) to State 
    Representative Erskine Bowles (6/25/97). Similar letter went to 
    Clinton, appropriate staff and cabinet officials.
  <bullet>  *U. C. Millwork (NY) to President Clinton (5/30/97)
  <bullet>  *GRC (NY) to President Clinton (6/11/97)
  <bullet>  *Intercontinental Polymers, Inc. (NC) to President Clinton 
    (6/24/97)
  <bullet>  *Charles D. Roberts Company (NC) to President Clinton (6/
    15/97)
  <bullet>  *Perry's Frame Shop, Inc. (NC) to President Clinton (6/19/
    97)
  <bullet>  *Tim Smith (NC) to President Clinton (no date)
  <bullet>  *Myers Carving & Sanding Co., Inc. (NC) to President 
    Clinton (6/17/97)
  <bullet>  *McDonald Grading Company, Inc. (NC) to President Clinton 
    (6/18/97)
  <bullet>  *Cecil--Johnson MFG. (NC) to President Clinton (6/11/97)
  <bullet>  *Edward B. Seguin, Jr. (citizen--OH) to President Clinton 
    (6/30/97)
  <bullet>  *Cincinnati Woodworks, Inc. (OH) to President Clinton (6/
    18/97)
  <bullet>  *Architectural Wood Products (OH) to President Clinton (6/
    12/97)
  <bullet>  *Abbott Assembly, Inc. (OH) to President Clinton (no date)
  <bullet>  *The Velotta Company (OH--highway construction) to 
    President Clinton (6/19/97)
  <bullet>  *Smith-Wheeler Inc. (OH) to President Clinton (6/25/97)
  <bullet>  *Tru-Line Manufacturing (AL) Quality Manager R.B. Fiske to 
    President Clinton (7/10/97)
  <bullet>  *Tru-Line Manufacturing (AL) Quality Spec. Geoff Haney to 
    President Clinton (7/9/97)
  <bullet>  *White Fab Inc. (AL) President Clinton (6/18/97)
  <bullet>  *Arizona Custom Millwork & Contracting (AZ) to President 
    Clinton (6/10/97)
  <bullet>  *Arizona Chapter Associated General Contractors (AZ) to 
    President Clinton (6/24/97)
  <bullet>  *Marchand Co. of Arizona (AZ) to President Clinton (no 
    date)
  <bullet>  *Construction 70 Inc. (AZ) to President Clinton (6/16/97)
  <bullet>  *Pima Paving Inc. (AZ) to President Clinton (6/6/97)
  <bullet>  *Hunter Contracting (AZ) to President Clinton (6/20/97)
  <bullet>  *Garner Heat Treat (CA) to President Clinton (6/12/97)
  <bullet>  *C. Beecham Co. (CA) to President Clinton (no date)
  <bullet>  *FCI Constructors, LLP (CA) to President Clinton (6/3/97)
  <bullet>  *Eezer Products (CA--plastics) to President Clinton (no 
    date)
  <bullet>  *C & S Door and Trim, Inc. (CA) to President Clinton (6/17/
    97)
  <bullet>  *Homefix Inc. (CA) to President Clinton (6/16/97)
  <bullet>  *Banks Construction Company, Inc. (CA) to President Clinton 
    (6/18/97)
  <bullet>  *Industrial Weed Control (CA) to President Clinton (6/1/97)
  <bullet>  *Eagle Claw Quality Fishing Tackle (CO) to Lynn Cutler (6/
    11/97)
  <bullet>  *Kendo, Inc. to President Clinton (7/2/97)
  <bullet>  *De Sio Inc. (CT) to President Clinton (7/6/97)
  <bullet>  *Conway Hardwood Products (CT) to President Clinton (6/24/
    97)
  <bullet>  *HMT Hooven Metal Treating, Inc. (CT) to President Clinton 
    (6/17/97)
  <bullet>  *Blakeslee Arpaia Chapman Inc. (CT) to President Clinton 
    (6/19/97)
  <bullet>  *Nelson Heat Treating Co., Inc. (CT) to President Clinton 
    (6/19/97)
  <bullet>  *PTFE Compounds, Inc. (DE--plastics) to President Clinton 
    (6/5/97)
  <bullet>  *Industrial Metal Treating Corp. (DE) to President Clinton 
    (6/6/97)
  <bullet>  *Culpepper Lumber Co., Inc. (GA) to President Clinton (no 
    date)
  <bullet>  *Walker & Walker Co. (GA) to President Clinton (6/5/97)
  <bullet>  *Southern Asphalt (GA) to President Clinton (no date)
  <bullet>  *Cherry Lists (GA) to President Clinton (no date)
  <bullet>  *Montgomery Contracting Co. (GA) to President Clinton (5/
    30/97)
  <bullet>  *Futura Co. (GA) to President Clinton (6/19/97)
  <bullet>  *Gossen Corp. (GA) to President Clinton (6/18/97)
  <bullet>  *Yuenger Wood Moulding, Inc. to President Clinton (6/17/97)
  <bullet>  *Reese Construction Co. (IL) to President Clinton (6/9/97)
  <bullet>  *John Sterling Corp. (IL) to President Clinton (6/12/97)
  <bullet>  *W. H. Maze Nails Inc. (IL) to President Clinton (6/11/97)
  <bullet>  *Station Eight, Inc. (IL) to President Clinton (6/11/97)
  <bullet>  *Applied Thermal Technologies (IN) to President Clinton (6/
    12/97)
  <bullet>  *Nampa Paving & Asphalt Co., (ID) to President Clinton (no 
    date)
  <bullet>  *Sheilen Industries, Inc. (IN) to President Clinton (6/18/
    97)
  <bullet>  *J.H Rudolph & Co. (IN) to President Clinton (6/11/97)
  <bullet>  *E.E. & E Industries Inc. (IA) to President Clinton (6/24/
    97)
  <bullet>  *Andrews Asphalt & Construction, Inc. (KS) to President 
    Clinton (6/12/97)
  <bullet>  *Heartstone, Inc. (KS) to President Clinton (6/10/97)
  <bullet>  *Judy Co., Engineers & Contractors (KS) to President 
    Clinton (6/12/97)
  <bullet>  *TA Millwork (KS) to President Clinton (6/18/97)
  <bullet>  *WSI Wood Specialties Inc. (KS) to President Clinton (6/10/
    97)
  <bullet>  *Shelby Industries (KY) to Lynn Cutler (6/11/97)
  <bullet>  *Shelby Industries to Sally Katzen (6/11/97)
  <bullet>  *Alvey Co., (KY) to President Clinton (6/5/97)
  <bullet>  *Diefenthal Investments LLC (LA) to President Clinton (6/
    10/97)
  <bullet>  *Western Stress (LA) to President Clinton (6/25/97)
  <bullet>  *Richard Price Contracting Co. Inc. (LA) to President 
    Clinton (6/17/97)
  <bullet>  *Marine Industrial Contractors Inc. (LA) to President 
    Clinton (6/16/97)
  <bullet>  *Highland Cabinets & Millworks, Inc. (LA) to President 
    Clinton (6/25/97)
  <bullet>  *Leo Lebourgeois (LA) to President Clinton (6/17/97)
  <bullet>  *General Marine Construction Corp. (ME) to President 
    Clinton (6/6/97)
  <bullet>  *Russell Paving Co., (MD) to President Clinton (no date)
  <bullet>  *Precision Form (MD) to President Clinton (6/9/97)
  <bullet>  *Vintage Lumber (MD) to President Clinton (6/8/97)
  <bullet>  *Clendenin Brothers Inc. (MD) to President Clinton (6/9/97)
  <bullet>  *Advanced Tool & Mfg., Co.(MD) to President Clinton (no 
    date)
  <bullet>  *AmTote International Inc. (MD) to President Clinton (6/9/
    97)
  <bullet>  *Metals Service, Inc. (MD) to President Clinton (6/9/97)
  <bullet>  *Cosmec XL (MA) to President Clinton (6/13/97)
  <bullet>  *Henry Perkins Co., (MA) to President Clinton (6/10/97)
  <bullet>  *Palmer Paving Corp. (MA) to President Clinton (6/11/97)
  <bullet>  *Dyecraftsmen, Inc., (MA) to President Clinton (6/3/97)
  <bullet>  *National Cord & Braid Corp. (MA) to President Clinton (6/
    19/97)
  <bullet>  *Daiek Woodworks (MI) to President Clinton (6/14/97)
  <bullet>  *Ad-Tech Plastic Systems Corp. (MI) to President Clinton 
    (6/9/97)
  <bullet>  *Atmosphere Annealing, Inc. (MI) to President Clinton (6/
    23/97)
  <bullet>  *Milbocker & Sons, Inc. (MI) to President Clinton (6/10/97)
  <bullet>  *Ajax Paving Industries Inc., (MI) Chairman. to President 
    Clinton (6/10/97)
  <bullet>  *Ajax Paving Industries Inc. (MI) President to President 
    Clinton (6/10/97)
  <bullet>  *Harbor Black Oxide, Inc. (MI) to President Clinton (6/25/
    97)
  <bullet>  *Applied Process, Inc. (MI) to President Clinton (5/30/97)
  <bullet>  *Great Lake Woods, Inc. (MI) to President Clinton (6/12/97)
  <bullet>  *Henry H. Smith & Co. (MI) to President Clinton (6/18/97)
  <bullet>  *Process Prototype Inc. (MI) to President Clinton (6/19/97)
  <bullet>  *Automated Building Components, Inc. (MN) to President 
    Clinton (6/2/97)
  <bullet>  *Building Material Wholesalers, Inc. (MN) to President 
    Clinton (6/2/97)
  <bullet>  *CMIC Construction Mortgage Investors Co. (MN) to President 
    Clinton (6/2/97)
  <bullet>  *Lyman Development Co. (MN) to President Clinton (6/2/97)
  <bullet>  *Mid-America Cedar (MN) to President Clinton (6/2/97)
  <bullet>  *Keystone Report (MN) to President Clinton (6/2/97)
  <bullet>  *Hitchiner Manufacturing Co. Inc.(MO) to President Clinton 
    (6/20/97)
  <bullet>  *Earthmovers, Inc. (MS) to President Clinton ( no date)
  <bullet>  *Regal Plastic Supply Co. (NE) to President Clinton (6/23/
    97)
  <bullet>  *Flinn Paving Co., Inc. (NE) to President Clinton (6/3/97)
  <bullet>  *Integrity Hardwoods Inc.(NE) to President Clinton (6/13/
    97)
  <bullet>  *Peavine Construction, Inc. (NV) to President Clinton (6/
    20/97)
  <bullet>  *Nevada Hydrocarbon, Inc. to President Clinton (6/9/97)
  <bullet>  *Anthony Galluzzo Corp. (NH) to President Clinton (6/3/97)
  <bullet>  *Chamberlain Companies, Inc. (NH) to President Clinton (6/
    13/97)
  <bullet>  *G.A. Avril Co. (OH) to President Clinton (6/23/97)
  <bullet>  *Northwestern Ohio Building & Construction Trades (OH) to 
    President Clinton (6/17/97)
  <bullet>  *Pemjay, Inc. (OH) to President Clinton (6/11/97)
  <bullet>  *Landscaping & Reclamation Specialists, Inc. (OH) to 
    President Clinton (6/6/97)
  <bullet>  *Morris Bean & Co. (OH) to President Clinton (6/6/97)
  <bullet>  *Zircoa Co. (OH) to President Clinton (6/6/97)
  <bullet>  *Delta Railroad Construction, Inc. (OH) to President 
    Clinton (7/7/97)
  <bullet>  *Kool Seal, Inc. (OH) to President Clinton (6/19/97)
  <bullet>  *Gemini Coatings, Inc.(OK) to President Clinton (6/20/97)
  <bullet>  *Gemini Coatings, Inc. (OK) to Lynn Cutler (6/19/97)
  <bullet>  *Toth Lane Clearing (PA) to President Clinton (6/9/97)
  <bullet>  *MP of Easton (PA) to President Clinton (6/18/97)
  <bullet>  *CMI Tech Cast, Inc. (PA) to President Clinton (no date)
  <bullet>  *JMG Excavating Co. Inc. (PA) to President Clinton (6/23/
    97)
  <bullet>  *Milestone Materials, Inc. (PA) to President Clinton (6/11/
    97)
  <bullet>  *E.J. Breneman, Inc. (PA) to President Clinton (6/4/97)
  <bullet>  *Center Manufacturing, Inc. (PA) to President Clinton (6/
    18/97)
  <bullet>  *Bird-in-Hand Woodworks, Inc. (PA) to President Clinton (6/
    2/97)
  <bullet>  *Latrobe Construction Co. (PA) to President Clinton (6/10/
    97)
  <bullet>  *Stanwood Mills, Inc. (PA) to President Clinton (6/25/97)
  <bullet>  *PRL, Inc. (PA) to President Clinton (6/16/97)
  <bullet>  *Portec (PA) to President Clinton (6/5/97)
  <bullet>  *Ranbar Technology, Inc. (PA) to President Clinton (6/10/
    97)
  <bullet>  *King Asphalt, Inc. (SC) to President Clinton (6/16/97)
  <bullet>  *Pickens Construction, Inc. (SC) to President Clinton (6/
    23/97)
  <bullet>  *Superior Bands, Inc. (SC) to President Clinton (6/19/97)
  <bullet>  *Sloan Construction (SC) to President Clinton (6/25/97)
  <bullet>  *Steve Ward & Associates, Inc. (TN) to President Clinton 
    (6/9/97)
  <bullet>  *Loudon Hickory Products, Inc. (TN) to President Clinton 
    (6/26/97)
  <bullet>  *Carolina Commercial Heat Treating (TN) to President 
    Clinton (6/23/97)
  <bullet>  *Plant Maintenance Service Corp. (TN) to President Clinton 
    (6/10/97)
  <bullet>  *Sudberry Millwork, Inc. (TN) to President Clinton (6/23/
    97)
  <bullet>  *Ford Construction Co. (TN) to President Clinton (6/2/97)
  <bullet>  *Keay Construction, LLC (TN) to President Clinton (6/2/97)
  <bullet>  *LaMontagne Wood Furnishings (TN) to President Clinton (no 
    date)
  <bullet>  *Memphis Stone and Gravel Co. (TN) to President Clinton (6/
    18/97)
  <bullet>  *Lehman-Roberts Co. (TN) to President Clinton (6/18/97)
  <bullet>  *Cox Fence Fittings, Co. (TX) to President Clinton (6/25/
    97)
  <bullet>  *Quality Heat Treat, Inc. (TX) to President Clinton (6/9/
    97)
  <bullet>  *Lowman Land Clearing, Inc. (TX) to President Clinton (6/
    18/97)
  <bullet>  *J-N Construction Co., (TX) to President Clinton (6/3/97)
  <bullet>  *Wm. B. Schieffer Studio (TX--wood carving) to President 
    Clinton (6/12/97)
  <bullet>  *ABC (TX) to President Clinton (6/11/97)
  <bullet>  *Paramount Liquid Seal (TX) to President Clinton (6/11/97)
  <bullet>  *Russell & Sons Construction Co. (TX) to President Clinton 
    (6/6/97)
  <bullet>  *Houston Flame Hardening Co. (TX) to President Clinton (6/
    25/97)
  <bullet>  *O'Hair Shutters, Inc. (TX) to President Clinton (6/13/97)
  <bullet>  *DMV Stainless USA, Inc. (TX) to President Clinton (6/16/
    97)
  <bullet>  *Techemet, Inc. (TX) to President Clinton ( no date )
  <bullet>  *Roadway Construction, Inc. (TX) to President Clinton (6/
    25/97)
  <bullet>  *Megatrend Designs, Inc. (TX) to President Clinton (6/10/
    97)
  <bullet>  *Western Quality Concrete, Inc. (UT) to President Clinton 
    (6/18/97)
  <bullet>  *Triplett Lumber Co., Inc. (VA) to President Clinton (6/16/
    97)
  <bullet>  *Interior Building Systems Corp. (VA) to President Clinton 
    (6/17/97)
  <bullet>  *Dan River, Inc. (VA) to President Clinton (6/9/97)
  <bullet>  *Salem Frame Co. (VA--wood) to President Clinton ( no date)
  <bullet>  *Phil R. Hobbs & Son, Inc. (VA) to President Clinton (6/24/
    97)
  <bullet>  *Wintech, Inc. (WA) to President Clinton (6/18/97)
  <bullet>  *Air-Tite Mfg. Inc. (WA) to President Clinton (6/19/97)
  <bullet>  *Kimberly Industries (WV) to President Clinton (6/12/97)
  <bullet>  *Wilson Construction Co.(WV) to President Clinton (6/11/97)
  <bullet>  *Plastomeric Inc. (WI) to President Clinton (6/11/97)
  <bullet>  *Lyman Lumber Co. (WI) to President Clinton (6/2/97)
  <bullet>  *Rice Enterprises (WY) to President Clinton (6/9/97)
  <bullet>  *Precious Metals Plus (NY) to President Clinton (6/18/97)
  <bullet>  *Protectnical Manufacturers (AL) to President Clinton (6/
    26/97)
  <bullet>  *Lampros, Inc. (CA) to President Clinton (6/11/97)
  <bullet>  *C.C. Johnson Co. (VA) to President Clinton (6/10/97)
  <bullet>  *Jack Webb (CA--citizen) to President Clinton (6/9/97)
  <bullet>  *Theodore J. Rapallo (GA--citizen) to President Clinton (6/
    25/97)
  <bullet>  *Fred Evens (IL--citizen) to President Clinton (6/2/97)
  <bullet>  *Victor M. Perez (TX--citizen) to President Clinton (6/19/
    97)
  <bullet>  *Virginia Smith (state unknown--citizen) to President 
    Clinton (6/5/97)
  <bullet>  *John J. Surinak (WI--citizen) to President Clinton (6/20/
    97)
  <bullet>  *Mead Publishing Paper Division to U.S. Representative Bart 
    Stupak (D-MI) (9/25/97)
  <bullet>  *Lignite Energy Council President to U.S. Representative 
    Earl Pomeroy (D-ND) (9/26/97)
  <bullet>  *Lignite Energy Council President to U.S. Senator Kent 
    Conrad (D-ND) (9/26/97)
  <bullet>  Other
  <bullet>  Article in FYI, ALEC's newsletter (5/8/96)
  <bullet>  *ALEC ``Action Alert'' (solicits comments from members) (3/
    10/97)
  <bullet>  Conference report from the VA-HUD appropriations bill (9/
    23/96)
  <bullet>  AAA press release (3/31/97)
  <bullet>  Updated October 17, 1997
    * An asterisk indicates letters sent or resolutions passed after 
EPA proposed the NAAQS rules.
                               __________
Statement of Jim Martin, Vice President, Martin's Famous Pastry Shoppe, 
                                  Inc.
    Good day and thank you for the opportunity to be here. I am Jim 
Martin, an owner of Martin's Famous Pastry Shoppe, Inc. We have 
bakeries in Chambersburg and Shippensburg, Pennsylvania. Ours is a 
family business started in 1955 by my parents--perhaps you have seen 
our ``Martin's Famous Potato Rolls'' in the grocery store bread aisle.
    Today I am speaking for myself and for the members of the American 
Bakers Association. The American Bakers Association represents 80 
percent of the wholesale baking business which includes small 
businesses like ours and the companies with national brand names that 
you may know. Bakeries are captured by the Clean Air Act because the 
natural process of yeast fermentation used to make bread and rolls 
produces ethanol, an alcohol, which is considered a volatile organic 
compound (VOC). Ethanol from bakeries is nontoxic and low reactive, 
probably eaten by bacteria in the atmosphere.
    The American Bakers Association strongly supports S.1084. This bill 
will ensure that sound science and good planning have the time to 
develop before costly and potentially inappropriate controls are 
required. The baking industry has already spent $28 million to comply 
with existing requirements. We estimate that the baking industry will 
spend $236 million to implement the new standard. The equipment to 
control bread aroma from a bakery costs about $500,000 to install and 
costs between $35,000 and $100,000 each year to operate. That is about 
$12,000 per ton of VOC controlled, not the $1400 per ton estimated by 
the US EPA.
    The American Bakers Association has worked with the bakers in each 
state and with the state officials to develop reasonable rules to bring 
the states and industry into compliance. The states have worked hard to 
implement the Clean Air Act under demanding and often changing EPA 
policies. We offer our compliments to Pennsylvania and many of the 
other states where hard work has put the most cost-effective control 
requirements in place. However, state officials are struggling to 
further reduce emissions and are being forced to look at smaller and 
smaller sources, that is, small businesses.
    Bakeries are low volume, low profit margin businesses. Let me give 
you an example of how a small baker might be affected by control 
requirements. Imagine Joe's Bakery in your state. Joe is operating the 
white bread bakery he inherited from his father. The bakery has been in 
business for 80 years with a profit margin of 1.7 percent. His bakery, 
like others, is labor intensive, providing jobs at a relatively high 
pay rate and supporting many families in the neighborhood. No one is 
getting rich but everyone is being paid and the local area has good 
tasting fresh bread. His potential emissions of ethanol trigger control 
requirements. Joe goes to his bank and asks for a loan for the $500,000 
to install controls and cut his profit margin by 24 percent. The bank 
denies his request, which is good business practice for the bank. If he 
can find a buyer, he can sell his bakery or Joe can close. Sadly, some 
bakeries have closed during the implementation of the current standard.
    Now let me share with you the situation at our bakeries. We emit 
enough ethanol to trigger control requirements. Stack testing, 
permitting, engineering reports, communication, and costs associated 
with investigating new technology have exceeded $250,000 to date at our 
bakeries. Our engineers calculate that adding a control device will 
increase our production energy consumption by 50 percent per package of 
rolls. However, rather than purchase the control equipment we have 
chosen to limit our production and the growth of our business. This 
means our ability to serve the region with the maximum variety of 
product or to respond quickly to changes in consumer taste and demand 
is limited. This is not my understanding of free enterprise. And I've 
wondered, is less bread on the table a good trade for no measurable 
improvement in air quality?
    I and the bakers I represent urge you to pass S. 1084 to make clear 
legal statements about the funding of the research and science and the 
timing of the implementation of the air quality standard. Please help 
us do the right thing to protect our air quality and the earth!
    Thank you for this opportunity to speak. I will be glad to answer 
any questions.
                                 ______
                                 
The Honorable James M. Inhofe, Chairman,
Subcommittee on Clean Air, Wetlands, Private Property Nuclear Safety,
Committee on Environment Public Works,
United States Senate,
Washington, DC 20510-6175.

    Submitted for the Subcommittee Hearing Record on S. 1084, October 
22, 1997

Dear Mr. Chair: I am Jim Martin, an owner of Martin's Famous Pastry 
Shoppe, Inc. We have bakeries in Chambersburg and Shippensburg, 
Pennsylvania. I am writing in support of S. 1084, the Ozone and 
Particulate Matter Research Act of 1997.
    Our bakeries release ethanol from the yeast fermentation of rolls. 
To put the amount of ethanol we release into perspective, I learned, 
through discussion with Pennsylvania based medical professionals, that 
if less than one percent of our customers drink to the legal limit, 
they emit from their breath more alcohol than our bakery.
    Clearly more study is needed before costly control requirements are 
put in place. I believe that we first need to define ``Clean Air.'' Is 
it the naturally occurring ozone from the very productive environment 
of the Smokey Mountains National Park; or is it the semi-arid east side 
of the Rocky Mountains with its very limited natural production 
potential? Scientists are only beginning to understand atmospheric 
science and the relationship between the natural and human-made 
processes on the air quality.
    To illustrate the potentially interrelated processes, I note that 
rain forms on airborne particulate, falls to the ground; and dissolves 
excess carbon dioxide and other naturally occurring contaminates from 
the atmosphere to nourish the earth! I have attached pages 453 to 456 
from Meteorology. The Atmosphere and The Science of Weather by Joseph 
M. Morgan, Michael D. Morgan, and Patricia M. Pauley, New York; 
Macmillan Publishing Company, 1991.
            Sincerely,
                                           James A. Martin,
                                           Executive Vice President
                                 ______
                                 
                  Air Pollution's Impact on Weather\1\
---------------------------------------------------------------------------
    \1\ Taken from: Meteorology: The Atmosphere and the Science of 
Weather, by Joseph M. Morgan, Michael D. Morgan, and Patricial M. 
Pauley, New York: Macmillian Publishing Company, 1991.
---------------------------------------------------------------------------
    We have seen how weather conditions influence air pollution 
potential. Air pollution also impacts weather. Air pollution affects 
the amount of cloudiness, and the quantity and quality of 
precipitation, especially downwind from large urban-industrial areas. 
In Chapter 18, we discuss how air pollution may be affecting global 
climate.
Urban Weather
    Certain air pollutants usually found in urban air, including a 
variety of dust particles and acid droplets, can influence the 
development of clouds and precipitation within and downwind from a 
city. These pollutants, many of which are hydroscopic serve as nuclei 
for cloud droplets and thus accelerate condensation. In addition, the 
heat island effect of large urban areas (Chapter 19) spurs uplift of 
air and consequent cloud formation.
    The influence of urban air pollution on condensation and 
precipitation is illustrated by the typical climatic contrasts between 
urban and rural areas. Winter fogs occur about twice as frequently in 
cities as in the surrounding countryside. Downwind from cities, 
rainfall may be enhanced by 5 to 10 percent. The greater contrasts tend 
to occur on weekdays, when urban/industrial activity is at its peak, 
suggesting that increased precipitation is at least partially due to 
urban-industrial air pollution. Data from the Metropolitan 
Meteorological Experiment (METROMEX) indicate significantly greater 
precipitation enhancement downwind of St. Louis. METROMEX scientists 
analyzed weather observations during an intensive field study over 5 
years (1971-1975) and concluded that summer rainfall was up to 30 
percent greater downwind of St. Louis than upwind of the city. This 
rainfall anomaly was attributed to the combined effect of urban 
contributions of heat and ``giant'' cloud condensation nuclei.
    Because precipitation, fog, and cloudiness in urban areas of en 
have adverse effects on both surface and air transportation, any 
artificial increase in these conditions is potentially troublesome. 
Reduced visibility, for example, slows surface traffic, contributes to 
auto accidents, and curtails air travel. In the last decade, 
significant improvement in local urban visibilities has been reported 
and is apparently the consequence of enforcement of stricter air 
quality standards.
    Jet aircraft traffic is modifying the cloud cover, especially along 
the heavily traveled air corridors between major cities. The visible 
jet contrails etching the sky are composed of ice crystals that are 
traceable to the water vapor and condensation nuclei produced by jet 
engines as combustion products (refer back to the Special Topic, 
``Clouds by Mixing: in Chapter 6). Contrails sometimes dissipate 
rapidly; and sometimes spread laterally as a thin cirrus overcast 
Increased cloudiness, in turn, reduces sunshine penetration and may 
enhance local precipitation by serving as a source of ice-crystal 
nuclei for lower clouds.
Acid Deposition
    As we saw in Chapter 6, the atmospheric subcycle of the hydrologic 
cycle purifies water. That is, through evaporation or sublimation and 
subsequentcondensation or deposition, dissolved and suspended 
substances are removed from water. As raindrops and snowflakes fall 
from clouds to the ground, however, they wash pollutants from the air, 
thereby altering the chemistry of the precipitation.
    Rain is normally acidic because it dissolves some atmospheric 
carbon dioxide, providing a weak acid solution. Where the air is 
polluted with oxides of sulfur and oxides of nitrogen, these gases 
interact with moisture in the atmosphere to produce tiny droplets of 
sulfuric acid (H<INF>2</INF>SO<INF>4</INF>) and nitric acid 
(HNO<INF>3</INF>). These substances dissolve in precipitation and 
thereby increase its acidity: Precipitation that falls through such 
contaminated air may become 200 times more acidic than normal. 
Furthermore, in the absence of precipitation. sulfuric acid droplets 
convert to acidic particles that settle to the ground as dry deposition 
(See Figure 16.11).The combination of acidic precipitation with dry 
deposition is often referred to as acid deposition.
    The rank of acidity and alkalinity, called the pH scale, is shown 
in Figure 16.12. which compares the normal acidity of rainwater with 
the pH values of some other familiar substances. The normal pH of 
rainwater: is 5.6; rain that is more acidic than normal is called acid 
rain. \2\ Note that the pH scale is logarithmic; that is. each unit 
increment corresponds to a tenfold change in acidity. Hence, a drop in 
pH from 5.6 down to a value of 3.6 represents a hundredfold (10 x 10) 
increase in acidity.
---------------------------------------------------------------------------
    \2\ Distilled seater that is saturated with carbon dioxide has a pH 
of 5.6. This is why a pH of 5.6 is taken as the threshold for acid 
precipitation; that is. rain or snow having a pH under 5.6 is described 
as acidic. However, recent studies demonstrates that small amounts of 
naturally occurring acids (other than carbonic acid) lower the normal 
pH of precipitation closer to 5.0. This argues for a revision of the 
current pH criterion for acid precipitation.
---------------------------------------------------------------------------
    Gene E. Likens (now of the New York Botanical Garden) and his 
associates reported an increase in the acidity of rainfall over the 
eastern United States during the 1955 to 1973 period. Their findings 
were later confirmed and updated by measurements made by the National 
Atmospheric Deposition Program in the United States and by the Canadian 
Networks for Sampling Precipitation (Figure 16.13). Much of this 
upswing in precipitation acid. can be attributed to acid rain 
precursors emitted during fuel combustion for power.
                               __________
  Statement of Adam Sharp, Assistant Director Governmental Relations, 
                    American Farm Bureau Federation
    Thank you, Mr. Chairman, for the opportunity to provide testimony 
for this important hearing on air quality. I am Adam Sharp, Assistant 
Director of Governmental Relations for the American Farm Bureau 
Federation, here in Washington, DC. I also am a partner in my family's 
farm in southeastern Ohio. Along with my three brothers, father and 
grandfather, we operate a dairy farm and a diversified crop farm. I am 
a member of the Virginia Farm Bureau Federation and today I am 
representing the American Farm Bureau Federation, the nation's largest 
general farm organization with more than 4.7 million member families. I 
am pleased to have the opportunity to discuss with you today the 
impacts of new air standard on the agricultural community. My comments 
focus primarily on the Environmental Protection Agency's decision to 
revise the National Ambient Air Quality Standard (NAAQS) for 
particulate matter. Farm Bureau supports Senate Bill 1084 for many 
reasons. but foremost because it would allow the necessary time for the 
agriculture community and EPA to gain a mote accurate understanding of 
agriculture emissions, how much we emit, and to what extent the air 
quality standards will impact our industry My comments focus primarily 
on the new PM<INF>2.5</INF> standard.
    As a preface to my comments, I think that it would be appropriate 
to share with you a portion of Farm Bureau's policy on air quality chat 
was adopted by delegates to our annual meeting. It clearly outlines the 
position of America's farmers and rancher.
Regarding the Importance of Clean Air
    It reads in part:

    ``We support a healthy environment.''
    ``We support government policies that: Are based on sound 
    scientific evidence; provide incentives to industries seeking to 
    become more energy efficient or to reduce emissions of identifiable 
    atmospheric pollutants; sect cooperation of organizations and 
    governments, foreign and domestic, to develop better understanding 
    and research on the implications of atmospheric pollution and the 
    means of preventing it.''
    The evidence is quite strong that conservation has been a priority 
for farmers and ranchers for many years. There has been and continues 
to be a tremendous amount of conservation activity on farms and ranches 
across the country. These activities include such things as protecting 
wildlife habitat, creating wetlands, grassed waterways and field buffer 
strips. We also use conservation tillage techniques, cover crops and 
planting trees and vegetation for wind breaks. All these activities 
reduce wind erosion of the soil. which in turn, provides cleaner air. 
The Conservation Reserve Program alone will idle up to 36.4 million 
acres across the country that provides vegetation that stabilizes soil 
and prevents wind blown dust. Wind erosion on 84 percent of the 
nation's rangeland, 86 percent of the cropland, and virtually all of 
the pasture land is now less than the tolerable soil loss rate--
meaning, the rate at which soil erosion can occur without surpassing 
the natural rate of soil regeneration (which is 2-12 tones per acre per 
year). And soil lost to wind erosion continues to decrease as farmers 
expand these extremely environmentally beneficial practices. Farmers 
are cleaning the air and should get credit for those activities.
    However, agriculture is concerned because EPA lacks actual 
measurements of what agriculture emits in the form of fine particulate. 
One estimate is that 34.3 percent of primary fine particulate matter 
can be attributed to agriculture and forestry. Another suggests as low 
as 5 percent of primary fine particulate. However, that figure does not 
take into account diesel emissions. fertilizer and chemical sources, 
unpaved roads, organic and ammonia sources and many others.
    EPA is finally acknowledging what we have been telling them: 
Agriculture is not a major emitter of this pollutant However, nothing 
has been done to date to correct faulty documentation that 
overestimates agricultural sources, or solidify Administrator Browners' 
promise that agriculture will not be impacted. The Administrator's 
promises have done little for our concerns because State decide who 
will be regulated, not her.
    Regarding these questionable estimates, I quote Dr. Calvin Parnell, 
a professor of Agricultural Engineering at Texas A&M University and a 
member of the U.S. Department of Agriculture's Task Force on Air 
Quality. He says, and we agree that:

    ``The data used to develop this inventory was based on erroneous 
    emission factors published by CPA for cattle feed yards, feed 
    mills, grain elevators and dust from farmers' field operations.''
    Those comments were made last spring in a hearing held by a 
subcommittee of the House Agriculture Committee, Furthermore, I quote 
the Honorable Larry Combest, Chairman of the House Agriculture 
Subcommittee on Forestry Resource Conservation, and Research, from that 
same hearing. He says, and we agree, that:

    The science employed in developing this rule is not up to par, and 
    I'm concerned that farmers could bear the brunt of a bad policy 
    based on equally bad science, We don't have the research yet to 
    know whether we can actually attain theme standards, how much it 
    will cost the agriculture industry and the consuming public, and 
    bow much agriculture activity actually contribute to air pollution 
    problems.''
    We share these same concerns. We also commend and extend the 
comments raised by the USDA, the USDA Task Force on Air Quality and the 
Small Business Administration in regards to economic impacts of this 
standard on farms and ranches.
California Situation
    Today, however, I want to focus on the actual present situation 
California agriculture is dealing with in regards to the present 
PM<INF>10</INF> Non-Attainment Area for central and southern 
California. as determined by the 1990 Amendments to the Clean Air Act. 
Under this status, a major potion of California's agriculture has been 
faced with a number of challenges which, in many cases, are yet to be 
resolved. Agriculture in others areas of the country may face the same 
situations if a new PM standard is imposed.
    The money, time and resources California agriculture has spent 
attempting to meet the PM<INF>10</INF> ambient air quality standard has 
given Farm Bureau plenty of reasons to believe that we cannot jump 
immediately into a new air quality standard of which we know so little 
about. It is an absolute necessity to allow science surrounding 
PM<INF>2.5</INF> to develop so that intelligent, reasonable and 
justifiable decisions can be made.
    Let me expand on one air district's experiences in dealing with the 
present PM<INF>10</INF> standard. These are examples of situations 
agriculture has faced in the San Joaquin Valley Unified Air Pollution 
Control District.
    Example 1: The emission inventory for agricultural tillage 
operations was the focus of the initial discussions with the air 
district. There are two major problems identified in this inventory. 
First, the actual number of passes the equipment makes per acre, and 
second, the PM<INF>10</INF> emission produced from each type of 
operation such as discing, ripping or furrowing. This problem was due 
to the fact that information, published by the EPA, indicated that 
alfalfa was disced 8 times per year, rice 13 times per year and 
rangeland twice per year. This greatly overestimated the emissions and 
made agriculture the prime target. First, farmers disc and seed alfalfa 
maybe only once every 3 or more years, not 8 per year, and farmers 
don't even disc rice or rangeland at all, especially 13 times and twice 
per year respectively.
    Some of the control measures suggested for agriculture operations 
included: sprinkler irrigation on fields prior to planting; water tanks 
mounted on tractors and water sprays on the back of discing equipment 
(without thing into account that water is at a premium in California), 
and the use of shaking equipment to shake trucks and farm implements 
prior to exiting a field or unpaved road onto a paved road (this would 
supposedly eliminate the carry-out of mud or dirt, which would later be 
entrained into the atmosphere by cars or trucks on paved roads). These 
irrational and impractical controls would have done little if nothing 
to clean the air and would have been extremely costly for California 
agriculture, had they not been corrected.
    Just by updating the inventory with current acreage information for 
each crop and correcting the number of passes per acre for tillage 
equipment, the agricultural PM<INF>10</INF> emission inventory for 
tillage operations was reduced 30 percent.
    Example 2: At one point it was discussed that farms should be 
permitted by their local air districts. In the San Joaquin Valley 
alone, it was speculated that there would be over 31,000 permits for 
farms written. Each silage pile, unpaved road and equipment storage 
yard, to name a few, would have been permitted. The District estimated 
that they would need 70 additional permitting engineers to process air 
quality permits just for farms (local stationary source permit, and 
also a Federal Operating permit).
    Example 3: As, I indicated, there has been information used by the 
air districts that identifies agriculture as a primary source of 
PM<INF>10</INF> emissions. For the past 5 years, California's 
agriculture community has fought to address the deficiencies in those 
inventories. One example is windblown dust emissions from agricultural 
lands. In the original inventory, it was assumed that all farming in 
California was ``dryland'' farmed. It assumed that the land was not 
irrigated, and that there was no vegetation cover, or cover canopy, 
from the crops. Once irrigation and vegetation cover was put into the 
wind erosion equations, the wind erosion PM<INF>10</INF> emission 
inventory was reduced an incredible 80 percent from 410 tons per day of 
PM<INF>10</INF>, to 58 tons per day of PM<INF>10</INF>.
    Example 4: Probably the most blatant example of an inaccurate 
inventory, which would have cost the agricultural industry thousands of 
dollars, was the initial emission inventory for combustion engines used 
to drive irrigation pumps. The original inventory estimated nitrogen 
oxide (NOX) emissions (a precursor of PM) at 626 tons per day from all 
of the diesel engine pumps in the San Joaquin Valley. This would be the 
highest emissions category for NOX emissions in the San Joaquin Valley, 
exceeding all the mobile sources including all cars and trucks, which 
together only emit 353 tons per day. Driven by agricultural inquiries a 
new study was commissioned that was based on actual interviews with 360 
farmers. The new study determined that the NOX emission for these pumps 
is only 32 tons per day.
    We have only begun to address agriculture's problems with 
PM<INF>10</INF> measurements. Many of which are still unaddressed and 
uncorrected. And, other PM<INF>10</INF> issues are still arising. For 
example, EPA is also looking at oxides of nitrogen (NOX) and ammonia 
(NH3) from soils as contributors to ambient levels of PM<INF>10</INF>. 
This could mean farmers will also have to address the application of 
fertilizers and pesticides as an air quality concern, not to mention 
livestock. Yet, recent studies performed in the Valley indicate that 
there is very little NOX or NH3 emissions from the soil. Questions 
about how much particulate matter is released into the air through 
natural occurrences, such as high wind or volcanoes also remain to be 
addressed.
    Considering all these discrepancies, it is unbelievable the we are 
now again faced with the same problems, only this time with smaller 
particulate matter. Based on the 1994 Emissions Inventory for the 
National Particulate Matter Study, fugitive dust emissions from 
agriculture have been listed as the third largest source of 
PM<INF>2.5</INF> nationwide, falling behind paved and unpaved roads. 
This is hard to believe, since there has never been any actual 
PM<INF>2.5</INF> emission data taken on agricultural tillage equipment 
using EPA approved PM<INF>2.5</INF> samplers. All of these examples 
only emphasizes the necessity to fully study PM<INF>2.5</INF> before 
deadlines are set and rules are developed.
California Study
    In attempting to resolve some of the previously mentioned issues, 
it became necessary to conduct a multi-year, multi-faceted air quality 
study. Such a study was developed and is now underway in California. 
This study, known as the California Regional Particulate Matter Air 
Quality Study (CRPMAQS), will address all areas of PM<INF>10</INF> and 
PM<INF>2.5</INF> issues. This includes emissions determinations and 
quantifications, data analyses, demonstration studies, ambient air 
quality measurements and model development. USDA is playing a major 
role in this study by helping to fund emissions studies for 
agricultural activities and operations. Once completed, it will be the 
source by which decisions in regards to particulate matter will be made 
in California, and will serve to aid other areas in the nation and the 
world in their particulate matter decisionmaking process.
    This comprehensive study, however, will not be completed for 
roughly 5 years and is not all inclusive for agricultural sources. S. 
1084 would give agriculture the needed time to attain this important 
agriculture PM<INF>2.5</INF> emissions data I want to emphasize that 
this study is the first comprehensive study that actually measures, 
instead of estimating, agriculture's PM<INF>2.5</INF> emissions. In 
order to avoid the mistakes made for PM<INF>10</INF>, this study and 
others like it must be completed before implementation activities, 
attainment deadlines and regulations begin for yet a new PM standard.
Conclusion
    In conclusion, I want to reiterate that much work is yet to even 
begin in regards to agriculture industry emissions which should be 
finished before setting a new standard for particulate matter. We must 
develop an accurate measurement method for PM<INF>2.5</INF> in order to 
determine and quantify the significant sources of PM<INF>2.5</INF> and 
we must complete the necessary research to understand the true nature 
of PM<INF>2.5</INF> and what contributes to its formation so as not to 
make the same mistakes that we are making with agricultural 
PM<INF>10</INF> emissions.
    The present approach will only serve to put American agriculture at 
a competitive disadvantage with other countries and put agricultural 
producers out of work. Because U.S. agricultural commodity prices are 
tied to world prices, a farmer cannot simply ``pass on'' the cost of 
doing business to the consumer. In other words, we are ``price takers 
and not a price makers.'' Therefore, any increase in operational costs 
of farming is significant and must be based on accurate information 
that justifies the expenditures.
    Agriculture will also see a tremendous amount of indirect impact 
from the new standards. Targeted industries such as the utilities, 
fuel, transportation, chemical, equipment and many more will pass costs 
on to their users. One of which is agriculture. In a study by AUS 
Consultants to be released soon, net cash income for all farmers is 
projected to fall by 10 percent or $5 billion annually over the first 6 
years of implementation of these standards.
    We also want to be careful in not tipping the balance of regulation 
in this country too far, and force our grocers to fill market orders 
with food purchased from other countries that do not always meet the 
same safeguards and health standards as U.S. produced commodities.
    The agriculture community enjoys breathing clean air as much as 
anybody, yet doesn't want to waste money on control measures that have 
little or no effect on cleaning up the air of this nation.
    Finally, the USDA must maintain a strong presence as discussions 
continue on these new standards. The USDA, the Small Business 
Administration and the USDA Agricultural Air Quality Task Force and 
this committee must continue to raise and demand that the concerns of 
America's farmers and ranchers are addressed by the EFA in order to 
ensure a continued safe, abundant, healthy and affordable U.S. food 
supply.
    I end on a note of caution as expressed by Paul Johnson, Chief of 
the Natural Resources Conservation Service of the USDA, who remarked at 
last spring's hearing that:

    ``When local air quality administrators make decisions about which 
    pollution control programs to implement they will consider factors 
    such as the percentage of total pollution in the airshed that is 
    caused by a specific activity or source, and costs and benefits of 
    implementing a set of controls on these activities. Agriculture is 
    practiced throughout the country using many different technologies 
    on a variety of soils and in a variety of climates. Conditions, 
    technology and practices, along with a number of other factors 
    determine emissions. Agricultural emissions are highly variable 
    within and across airsheds and must be evaluated carefully.''

    Thank you.
                               __________
 Statement of Ande Abbott, International Brotherhood of Boilermakers, 
           Iron Ship Builders, Blacksmiths, Forgers & Helpers
    The ``Boilermakers'' union represents approximately 90,000 workers 
who are employed in cement production, foundry and forging industry, 
shipyards, and in the construction and maintenance of coal and fossil 
fuel power plants and their emission equipment. In addition, 
Boilermaker members fabricate, install, and maintain cement kilns and 
their emissions equipment.
    Our members strongly support the Clean Air Act. We also worked hard 
to pass the amendments strengthening the Clean Air Act in 1990. We are 
proud that the Clean Air Act has been an effective tool in reducing air 
pollution through out the United States. In the refined amendments to 
the Clean Air Act in 1990, Congress carefully crafted methods to clean 
the air and preserve jobs at the same time. However, in regards to the 
Environmental Protection Agency's (EPA) Particulate and Ozone Standards 
which has gone into effect, EPA was, even reckless, in promulgating 
their proposal.
    We support S. 1084 which would mandate a moratorium on 
implementation of the regulations until reasonable research can be 
conducted. Congress has the right to say ``no'' to the immediate 
implementation of these regulations, and we are encouraging members of 
Congress to stop the process of implementing such radical air quality 
changes.
    The Clean Air Act has a provision that requires the EPA to review 
the law after 5 years to see if modifications need to be made. EPA has 
used that 5-year review provision to propose new air quality standards 
to the law. These Standards are referred to as the National Ambient Air 
Quality Standards (NAAQS).
    On November 27, 1996, U.S. EPA proposed a substitution to the 
existing ozone standard and a new air quality standard for fine 
particulate matter (PM<INF>2.5</INF>). Under the new rules the 
regulated particulate matter would be reduced from 10 microns to 2.5 
microns. Additionally, they are counting particulate matter from ALL 
sources--including nature. These levels were proposed despite the fact 
that serious scientific uncertainties exist about the health benefits 
associated with them. Even EPA's own Clean Air Scientific Advisory 
Committee (CASAC) has raised several questions about the technical 
basis and scientific justifications for these proposals. CASAC could 
not reach a consensus that the specific controls would result in 
improved health. Moreover, at this time, we do not even have an air 
monitoring system with the ability to track the levels of PM that have 
been proposed.
    Based on EPA's own information, including its 1996 Air Quality and 
Emissions Trend Report, air quality nationwide is improving and the 
emissions of particulate and ozone are decreasing. All air pollutant 
levels have declined significantly over the past several years, 
primarily as a result of implementation of the Clean Air Act Amendments 
of 1990. (The 1990 Amendments of the Clean Air Act are only 40% 
enacted). As subsequent controls mandated by this Act are put in place, 
air quality will be further improved and additional particulate and 
ozone emission reductions will be realized.
    These emission reductions have come at a considerable cost to the 
U.S. economy. Many plants have added clean air equipment to meet 
existing standards. Other companies have escaped meeting the standards 
by using various legal schemes and are currently directed by EPA to 
comply with the clean air standards and comply with the law over the 
next few years Other companies have packed up and left the United 
States, opting to move to Mexico or Asia.
    The added expense associated with the new EPA particulate and ozone 
rules, estimated in the tens of billions of dollars a year, should not 
be imposed without a clear demonstration that the public health and 
environmental benefits are commensurate with the costs. Those companies 
that have made the investment to comply with the current standards may 
have to lay out additional money to comply with the new standards, 
while providing no real improvement in clean air quality.
    Because of the significant uncertainty surrounding the costs, 
benefits, and impacts of EPA's proposed ozone and particulate matter 
rules, the Boilermakers' International President, Mr. Charles W. Jones 
has urged the EPA to reaffirm the current standards, conduct additional 
monitoring of particulate matter and related air quality issues, and 
allow the states to complete action on the ambitious clean air 
standards that are already in place, including existing standards on 
ozone, before embarking on entirely new and costly undertakings. On 
June 25, 1997, President Clinton sided with EPA and ordered the new 
regulations to be put in effect. The President did modify the 
implementation schedule of the new standards, but the effect on U.S. 
workers and industry will be the same in 5 years; disastrous. It is the 
millions of average Americans--not companies or their stockholders--who 
will ultimately pay most of the bill as the costs of implementing the 
standards are passed along throughout the economy in the form of higher 
prices and lower wages. Industry analysts estimate 1.3 million American 
jobs will be lost as a result of the implementation of the new 
particulate matter and ozone rules.
    By including particulate matter from natural sources in the air 
quality counts, many more areas of the country will be in noncompliance 
with the Air Quality Standards. This will force many more companies to 
move out of the U.S. and into other countries such as Mexico, South 
America or Asia where there is no enforcement of clean air standards.
    Nearly half of the country and virtually every economic sector will 
be threatened, the new rules amount to the most aggressive EPA 
regulation ever. The proposed changes would immediately place 800 
counties--five times the current number--into nonattainment. Some parts 
of the country could remain in a perpetual state of nonattainment 
because the proposed ozone standard is so tough.
    Areas that fail to comply with the standard could have severe 
controls and sanctions imposed upon them. These include: limitations on 
the construction of and the expansion of manufacturing facilities; a 
delay of highway projects and a loss of federal highway funds; a 
complex and lengthy permitting process; a need for high emissions 
offsets; residential growth limits; and other restrictions on 
construction.
    A nonattainment designation for any area is not an insignificant 
action. It translates into slower economic growth and fewer new 
businesses and expansions. Offset requirements and other new source 
review and licensing provisions increase the difficulty of luring new 
companies into nonattainment areas.
    Additionally, because of the EPA implemented standards, those areas 
of the country that are not currently in compliance will have an 
additional 10 years to comply with the Clean Air Act. Under the current 
clean air standards, Washington, D.C., as an example, must be in 
compliance in 1998, since these new regulations have been implemented, 
the Washington D.C. area will have until 2008 to comply with the Clean 
Air Act. Therefore, air quality will actually be worse in that area.
    Other onerous restrictions and sanctions also impact plants in 
nonattainment areas. The Clean Air Act requires a complex and time-
consuming permitting requirement on all new construction in 
nonattainment areas. All transportation projects must be found to be in 
``conformity'' with the State's clean air plan before they can go 
forward. And if a State misses any of the myriad of Clean Air 
requirements, the Act mandates EPA to withhold all federal highway 
funds as an automatic sanction. The result: industrial and 
infrastructure projects can be delayed years--even decades--by Clean 
Air Act requirements in nonattainment areas.
    The primary way EPA intends to reduce ozone emissions is to target 
large power plants, ``37 states have worked over the last 2 years to 
address the long distance transport of ozone. This plan focuses on 
major power plants (which offer the most cost-effective opportunities 
for reducing pollution) to reduce nitrogen oxide, a key ingredient of 
smog.''
    EPA cannot reduce or eliminate natural airborne particulates. EPA's 
standards, according to their own press releases, are intended to 
reduce or eliminate the effects that air pollutants have on people with 
lung ailments such as asthma. Asthma is an allergic reaction to various 
substances. Many people are allergic to grass, dust mites, dogs, cats, 
birds, weeds, trees, flowers, carpet, perfume, etc. and, unfortunately, 
some people die of exposure to those substances. Some studies show that 
the incidence of asthma actually increases as the air gets cleaner. 
However, there are no scientific studies that indicate that the 
incidence of asthma related deaths would be reduced by the new air 
quality standards. In addition, EPA is forced to control only man made 
sources of emissions.
    There are periods of times when the pollen count from grass and 
trees are high enough to trigger an EPA action day. As a result, EPA 
has said they would be forced to shut down construction sites, ban lawn 
mowing, shut down power plants and force car pooling.
    In the long range, coal and fossil fuel fired plants would not be 
permitted to exist. Cement plants would not be permitted to be built in 
most areas of the United States and turbine powered electrical power 
generators would be the EPA preferred plant type. Utilities would cost 
more and the jobs of most workers who build and maintain the coal and 
fossil fuel boiler plants would be eliminated.
    Considering the effect on our foundry and forging industry, cement 
plants, shipyards and shops, Boilermakers are likely to lose 35,000 
jobs over the next seven to 10 years because of the new standards. And, 
the United States would not have air quality any cleaner than it would 
have been under the current standards.
Conclusion
    There are also serious questions regarding the need to change these 
air quality standards at this time. EPA must under the Clean Air Act 
review these air quality standards every 5 years. There are ample 
reasons why waiting until the next review to change the standards would 
make more sense.
    First and foremost, EPA is trying to fix something that isn't 
broken. EPA has publicly and repeatedly stated that the Clean Air Act 
Amendments of 1990 are working to reduce air pollution. For instance, 
EPA's recent air pollution ``trends'' analysis found 204 metropolitan 
areas with downward trends in pollution levels and only 16 showing an 
upward increase; 15 of these 16 are in no danger of violating any EPA 
air quality standard.
    This progress will continue. The Clean Air Amendments of 1990 
created a blueprint for state and federal action on ozone that will 
deliver continuing improvements in air quality well into the next 
century. A myriad of other Clean Air Act programs, such as the acid 
rain, clean cars, and air toxin programs, have yet to be fully 
implemented and will also insure that continued progress is made on 
ozone, particulates, and other pollutants for the foreseeable future.
    For particulate matter, EPA acknowledges that additional monitoring 
of the air should be done to determine the extent of the fine particle 
problem. Moreover, because of the lack of monitoring data, EPA and 
states cannot start designating areas and ordering emissions reductions 
for approximately 5 to 8 years. This delay gives ample time for EPA to 
reconsider the science and build consensus before implementing a new 
standard.
    In conclusion, due to the significant uncertainty surrounding the 
costs, benefits, and impacts of EPA's implemented ozone and PM rules, 
we urge Congress to support S. 1084 which would mandate a moratorium on 
implementation of the regulations until reasonable research can be 
conducted. This is an issue of considerable importance to the 
Boilermakers, the nation and to all of America's working families--
especially to those American workers whose lives would be enormously 
disrupted due to the twin requirements that would keep new jobs away 
and drive existing jobs out of the urban areas and into rural areas--
and potentially out of the U.S. We believe we can continue to enjoy air 
quality improvements without imposing additional costly and potentially 
unnecessary rules, like those implemented by the EPA for particulate 
matter and ozone.
                               __________
  Statement of Jason Grumet, Executive Director, Northeast States for 
                Coordinated Air Use Management (NESCAUM)
    Good morning. My name is Jason Grumet. I am Executive Director of 
the Northeast States for Coordinated Air Use Management or NESCAUM, a 
regional association of state air pollution control agencies 
representing the six New England states, New York and New Jersey. Since 
1967, NESCAUM has provided technical assistance and policy guidance to 
its member states on regional air pollution issues of concern in the 
Northeast. On behalf of my colleagues who work every day to achieve 
compliance with the national air quality standards, I appreciate the 
opportunity to present our views regarding S. 1084 and the revised 
National Ambient Air Quality Standards (NAAQS) for ozone and 
particulate matter.
    As most of you are undoubtedly aware, the Northeast states support 
the revised ozone and PM standards. We support them because they make 
more sense, because they will do a better job of protecting and 
informing the public, and because they will drive more rational air 
quality management decisions. For the same reasons, we oppose S. 1084 
which would effectively rescind the new standards and lead to another 5 
years of unnecessary delay when we could be moving in the right 
direction.
    I would like to try and provide some insight into the thinking that 
has led us to this position. It begins with a fundamental premise: that 
certainty and perfection are always goals, but never options. Over the 
last 30 years we have made incredible progress reducing the public 
health threat from polluted air while the economy has prospered and 
grown. Still, in the field of air pollution control I am not aware of a 
single instance when we were able to make a decision with the benefit 
of scientific consensus. Rather, our decisions have been relative 
choices between imperfect options. Examined in this context, sound 
decisions have been made which have substantially improved our quality 
of life. The new standards represent another such decision. When facing 
the question of supporting or opposing the new NAAQS, we asked 
ourselves two basic questions:

  1. Will the new standards provide the public with better information 
    about the risks associated with air pollution than the old 
    standards?
  2. Will the new standards result in more rational, cost-effective, 
    and equitable pollution control strategies than the old standards?

    To both these questions, the answer is yes. I submit to the 
Subcommittee that we do know enough right now to be certain that the 
new standards based on 1990's science do a better job in both these 
respects than the old standards that were based on 1970's science. 
Because the new standards better reflect the physical reality of the 
pollution problems they address, they will more accurately inform the 
public, thereby empowering people to better protect their health, and 
they will inspire more effective and less costly pollution control 
efforts.
Overview of Old & New Ozone Standards
    The old standards are based on 20-year-old science. Much of it 
conducted in the geological and meteorological oddity we refer to as 
the Los Angeles Air Basin. These standards, that S. 1084 would 
perpetuate, provide at best a partial diagnosis of our air quality 
problems. As such, they inspire a regulatory framework that at times 
drives inefficient and inequitable results. Our physical understanding 
of ozone in the 1970's was that it was primarily an urban problem 
driven by volatile organic compounds (VOCs). Believing that ozone was 
formed locally each day and destroyed each night, we designed a 
standard to protect against one hour spikes in peak ozone levels.
    We now know that ozone pollution is a regional problem which 
adversely effects large areas for several days at a time. In the last 
20 years, we also have learned that regionwide controls on nitrogen 
oxides (NOx) are by far the most effective approach to bringing down 
these chronically high ozone levels in both urban and rural areas. 
While VOC controls have reduced peak ozone levels in our heavily 
urbanized areas, a continued effort to address a regional environmental 
problem primarily through urban control efforts will ultimately fail. 
The mismatch between the old standard and the true science is 
demonstrated by the fact that many areas ``bounce'' in and out of 
attainment every few years. This inefficient and confusing situation 
results from the old standard's extreme sensitivity to a single high 
ozone episode and from the old standard's incorrect assumption that 
local air quality is determined solely by local actions.
    The new eight-hour ozone standard--because it aims at bringing down 
the underlying average ozone values over a several year period--is less 
susceptible to meteorological variability. Removing the threat that one 
hot summer will bring an area into nonattainment will allow states to 
focus their regulatory efforts on long term strategies that will 
provide government and business with the certainty necessary to plan 
for the future.
The New Ozone Standard Provides the Public with Accurate Information
    One of government's fundamental obligations is to provide the 
public with accurate information about the risks we face. This 
obligation is particularly strong in the case of ozone pollution since 
daily levels vary greatly and people with proper information can take 
steps to diminish their exposure. The present ozone standard fails to 
accurately inform tens of millions of people that the air in their 
communities presents a health risk. The old standard's focus on ozone 
peaks leads one to conclude that residents of the Northeast bear 
substantial risk from ozone pollution whereas residents throughout most 
of the Southeast and Midwest live in places that are ozone free.
    An examination of the chronic ozone levels monitored over a 5-year 
period tells a very different story. Attachment A depicts the highest 
ozone level recorded each and every day during the summer months from 
1991 through 1995. Under the old standard which determines an areas' 
status based on the fourth highest hour long ozone level in a 3-year 
period, the entire state of Massachusetts is designated as a 
``serious'' ozone nonattainment area. Yet when measuring the ozone 
levels experienced every day, Massachusetts residents experience 
considerably less exposure to ozone smog than residents in a host of 
states that are entirely or largely in attainment of the old standard. 
Most troubling from a public health standpoint is that millions of 
people are being misled by the old standards regime to believe that 
they are not being exposed to unhealthy levels of ozone smog. The new 
ozone standard will go a long way toward aligning chronic exposure 
levels with an area's attainment status. Vacating this new standard, as 
S. 1084 proposes to do, will knowingly perpetuate misinformation.
    Such an action would also mean missing a critical opportunity to 
build, over the next several years, the public support needed to 
implement future pollution control measures. Unsurprisingly, many of 
the areas with the highest chronic ozone exposures happen to be the 
areas with the highest NOx emissions. See Attachment B. Under the old 
standard, political leaders and citizens from many of these areas had 
little motivation to reduce their emissions because they believed, 
incorrectly, that their air was clean. We have found that the 
altruistic desire to reduce the pollution transported into other states 
has failed to motivate upwind states to impose even the most cost 
effective pollution controls. Given accurate information, millions of 
midwesterners will quickly learn that there is a compelling new reason 
to support clean air efforts--protection of their health and their 
children's health. In the Northeast, rational self-interest has 
motivated substantial reductions in utility NOx emissions. We 
anticipate similar behavior by our upwind neighbors once they are given 
accurate information by the EPA. The fact that controlling pollution 
from midwest power plants will also improve air quality and public 
health in the Northeast is simply an added benefit.
Overview of Old and New Particulate Standards
    While the Northeast states have far less experience dealing with 
fine particle pollution, our support for the new fine particle 
standards reflects many of the same themes outlined in the previous 
discussion about ozone smog. We believe that the health science 
strongly supports a focus on small particles. The new standard 
recognizes the regional nature of the fine PM problem. And, the new 
standard appears relatively robust and not contingent upon sporadic 
meteorological events.
    Under the old standard, which targeted larger particles of ten 
microns or less, control efforts focused on highly localized problems 
of windblown dust often associated with construction sites in the East 
and agricultural practices in the West. Under the new standards, our 
attention will turn to the small combustion related particles less than 
2.5 microns in diameter. Far from a localized problem, elevated levels 
of PM<INF>2.5</INF> persist across most of the Eastern United States. 
These tiny particles are emitted directly from sources like heavy-duty 
diesel trucks and are formed from the gaseous emissions of sulfates, 
nitrates, and organic aerosols. Undoubtedly debate will persist for 
years over particle size, the stringency of the standards and the exact 
biological mechanisms that cause more people to die and get sick when 
fine particle levels are elevated. However, the existence of debate and 
disagreement does not justify interrupting progress toward 
implementation of the new PM standards.
    EPA has created ample time for additional scientific review and 
extensive state based monitoring prior to the designation of 
PM<INF>2.5</INF> nonattainment areas and prior to the imposition of 
controls. The presence of the new PM<INF>2.5</INF> standard provides 
the certainty necessary for states and industry to begin to plan 
effectively. The Northeast States are moving quickly to design 
monitoring networks and to build a better understanding of the sources 
and science behind small particle pollution. If S. 1084 becomes law, 
these efforts will be slowed considerably and possibly stopped 
altogether. The fact that no one state can solve this problem 
independently creates an impediment to continued action without the 
knowledge that all states are working to achieve a federal health 
standard.
The New Standards are More Cost Effective than the Old Standards
    I've indicated previously that the new standards will focus our 
control efforts where they will have the greatest environmental 
benefit. The new standards will also assist states in focusing controls 
where they're most cost-effective. While Congress was correct in 
instructing EPA to disregard economic considerations when setting 
health based air quality standards, cost has everything to do with how 
we go about implementing these standards. Compliance costs are a matter 
of great concern to our states, to those impacted by our regulatory 
decisions, and I'm sure, to the members of this Subcommittee.
    We believe the new standards are more cost-effective than the 
standards they will replace. For ozone, the focus will shift to NOx 
controls on utilities. The good news is that very significant NOx 
reductions are available from utilities and heavy duty diesel engines 
(the largest sources of regional NOx emissions) for less than $1,000 
per ton. By comparison, we have spent up to $10,000 ton for VOC 
controls in attempts to meet the old ozone standard. Since highly cost-
effective emissions controls are available in these sectors, the costs 
that will be passed through to manufacturers in the form of electricity 
or transportation costs will be quite low. For example, a study we 
performed in 1995 and many similar studies indicate that utility NOx 
reductions on the order of 85 percent can be achieved for one to two 
tenths of a cent per kilowatt hour--a small fraction of the savings 
that will be achieved through utility restructuring. For fine 
particles, the focus of our control efforts will shift to emissions 
from heavy duty diesel engines and to sulfur dioxide (SO2) emissions 
from utilities. Because we haven't done as much to regulate heavy duty 
engines in the past, further, cost-effective emissions reductions are 
still available from this sector. And SO2 is, as you know, a pollutant 
we already regulate very cost-effectively under the acid rain program.
    Much attention has been devoted to attempts to identify the costs 
and benefits of complying with the new air pollution standards. Some of 
these studies provide useful insights and can improve the quality and 
thoughtfulness of regulatory proposals. However, I would caution anyone 
relying solely on cost-benefit analysis to reach a decision on the 
efficacy of the new standards. The sum of uncertainties contained in 
any effort to project costs and benefits over a 20-year period is often 
greater than the insight provided. For one thing, it is very difficult 
to fairly express clean air benefits in monetary terms. At the same 
time, the costs of complying with new environmental standards tend to 
be are consistently overstated, thus skewing the cost-benefit analysis.
    First, industry estimates are almost always overly conservative 
since they are based on worst-case scenarios and contain a host of 
negative contingencies which are often never realized. Second, once 
environmental requirements are clearly set, competition among bidders 
and vendors invariably lower compliance costs. Third, innovation in 
methods, processes and technologies often substantially lowers the 
costs of compliance. Finally, the recent regulatory trend toward 
market-based control strategies has succeeded in allowing companies 
with higher than average marginal control costs to procure credits from 
companies with lower than average costs.
    These factors have consistently produced actual control costs far 
below industry predictions. Looking across a wide range of industries, 
predicted costs seem to be overstated by a factor of five to ten. 
Attachment C provides some examples to illustrate this point. In New 
Jersey, when opposing regulations to control the pollution emitted when 
marine vessels off-load gasoline, the industry estimated an increased 
cost of 2 cents per gallon. Actual costs were later reported by the 
industry to be 1/5 of a cent per gallon. Similarly, the American 
Petroleum Institute argued that removing lead from gasoline would add 
8-10 cents to a gallon of gasoline when the actual cost turned out to 
be less than 2 cents per gallon. The American Automobile Manufacturers 
Association and its member companies testified on numerous occasions 
that it would cost over $1000 per car to meet the Low Emission Vehicle 
Tailpipe standards if it was technologically possible at all. The 
actual cost has been found by California to be roughly $100 per 
vehicle. Moreover, the automobile manufacturers are promoting a 
voluntary program to sell vehicles meeting these standards nationwide. 
When the acid rain program was under consideration in 1990, we were 
told by utility representatives to expect costs up to $1,000 per ton of 
SO2 removed. Today you can buy a one-ton SO2 allowance for about $100 
under the kind of flexible, market based emissions trading approach 
we're bound to see more of as we implement the new standards. It seems 
no one is immune from overstating predicted costs, even the EPA. In its 
March 1994 guidance on NOx reductions from utilities, the Agency 
predicted that sources should be able to achieve a 30 percent to 50 
percent NOx reduction for under $1,300 per ton. A mere 3 years later, 
present technology can achieve a 90 percent NOx reduction for under 
$1,000 per ton.
    In short, we have every reason to expect that these new standards, 
like all the ones that came before, will turn out to be cheaper to 
implement that their critics now estimate. There is only one dynamic 
that can interrupt the technological innovation and competition 
necessary to drive down the cost of additional pollution control. That 
dynamic is uncertainty and delay. If the standards are repealed under 
S. 1084 while more studies are conducted, industry will not commit the 
investment necessary to innovate. The result will be higher than 
necessary compliance costs.
    My third and final point relates to regional equity. One of the 
reasons we in the Northeast support the new ozone and fine particle 
standards is because we are deeply concerned by the inequity that 
exists between upwind and downwind regions under the present ozone 
standard and EPA's traditional implementation regime. I mentioned 
earlier that many of the ``chronic exposure attainment areas'' in the 
industrial Midwest also happen to be the states with the highest 
utility NOx emissions. A comparison of Attachments A and Bdemonstrates 
this fact. As you will note, each of the seven states identified in 
Attachment B produce more utility NOx emissions than the eight 
northeast states combined.
    We commend EPA for recognizing that the long-range windborne 
transport of pollutants--especially in the case of ozone and fine 
particulates--requires regional solutions and for incorporating this 
understanding in its plans for the implementation of the new standards. 
Attachment D illustrates the importance of long-range transport with 
respect to ozone. Analysis of 5 years of ozone and wind data shows that 
on good air quality days in the Northeast, the wind is coming from 
Canada and is stagnant over the Midwest. But on the highest ozone days 
in the Northeast, winds are blowing strongly over the Ohio River Valley 
which is home to many of the largest NOx sources in the nation. The new 
standards should at long last require these upwind areas to join the 
Northeast in emissions reduction strategies. By doing so, those areas 
won't just be doing the Northeast a favor, they'll be creating 
immediate public health and environmental benefits for their own 
citizens. When you consider that the states with the highest chronic 
ozone exposure and highest utility emissions are largely in compliance 
with the old standard, while states with lower chronic ozone exposures 
and lower utility emissions are largely out of compliance with the old 
standard, I hope you will understand why the Northeast states are 
opposed to S. 1084 and any other efforts to slow the transition to a 
new ozone standard.
    In short, we believe that implementation of the revised standards 
can result in more rational, equitable, and cost-effective emissions 
reduction strategies. That doesn't mean it will be easy or that there 
will be no regulatory impacts. It will be a challenge. But it is one 
that we in the Northeast are prepared to take on because we know that 
regional levels of both ozone and fine particulate matter must be 
lowered to protect the public health. We also know that we need the new 
standards, now, to empower us to begin to do just that. Thank you again 
for this opportunity to present testimony.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Statement of George D. Thurston, Sc.D., Associate Professor of 
   Environmental Medicine at the New York University (NYU) School of 
                                Medicine

    I am George D. Thurston, a tenured Associate Professor of 
Environmental Medicine at the New York University (NYU) School 
of Medicine. My scientific research involves investigations of 
the human health effects of air pollution.
    I am also the Director of the National Institute of 
Environmental Health Sciences' (NIEHS) Community Outreach and 
Education Program at NYU. A goal of this program is to provide 
an impartial scientific resource on environmental health issues 
to decision-makers, and that is my purpose in testifying to you 
here today.
    I must take issue with much of the intent of Bill S. 1084 
and with the findings upon which it is based. First, the new 
ozone standard will not disrupt or delay ozone reductions, as 
implied by Finding 4: instead, it is S. 1084 that would 
increase uncertainty in the marketplace and by regulators, 
thereby slowing air quality progress. Second, Findings 5 and 6 
fail to acknowledge that, as stated in George Wolff's letters 
of closure to the Administrator, CASAC reached a consensus that 
a fine particulate matter (PM<INF>2.5</INF>) standard is 
needed, and that the ozone standard should be changed to an 8-
hr basis, both of which the EPA promulgated on July 18, 1997. 
The revocation of these new ozone and PM<INF>2.5</INF> 
standards that is called for in Bill S. 1084 would be unwise, 
and would be inconsistent with the intent of the Clean Air Act.
    It is argued in the findings of Bill S. 1084 that 
significant progress has already been made, but this is not 
really the case for ozone over the last decade. As shown in the 
figure below, progress regarding ambient ozone levels in the 
U.S. had slowed in recent years under the old standards. In 
contrast, the new standards will engender a cleaning up of the 
air on a broader geographical basis than under the old 
standard. Thus, implementing the standards recently set by the 
EPA is the best way to ensure continued and even more rapid 
U.S. air quality improvements.
    Moreover, Bill S. 1084 wrongly seeks to fundamentally 
rewrite the Clean Air Act by restructuring who decides whether 
new standards are needed. The existing Clean Air Act requires 
that the EPA review the standards every 5 years, and then 
leaves that standard setting decision to the Administrator, 
with advice from CASAC. Bill S. 1084, in contrast, seeks to 
shift that power to the Congress, by imposing a change back to 
the old O<INF>3</INF> and PM standards. In addition, this bill 
says that the next science review of these standards may not 
occur any earlier than 4 years from now, but sets no 
requirement for the latest that this review may occur, which 
could possibly be interpreted as eliminating the Clean Air Act 
requirement for every 5-year reviews of these pollutants. These 
changes would represent a dramatic and unacceptable change in 
the Clean Air Act.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The CAA has worked well for the last quarter of a century, 
right up to today. During the most recent O<INF>3</INF> and PM 
standard reviews, CASAC reached consensus that the PM standard 
needed to be revised to directly control fine particles 
(PM<INF>2.5</INF>), and that the ozone standard needed to be 
changed to an eight hour average basis. The EPA followed that 
advice, and set standards that are in the best interest of the 
American public. The Congress should not try to ``fix'' 
something that isn't broken: the Clean Air Act is working just 
fine, and there is no need for the fundamental change in the 
Clean Air Act that is being proposed by S. 1084.
    The adverse health consequences of breathing ozone or 
particulate matter are serious and well documented, even at 
levels below the U.S. National Ambient Air Quality Standards 
(NAAQS) that were in effect before July 18, 1997. This 
documentation includes impacts demonstrated by controlled 
chamber exposures and by observational epidemiology showing 
consistent associations between each of these pollutants and 
adverse impacts across a wide range of human health outcomes. 
The implementation of the NAAQS promulgated by the U.S. EPA on 
July 18 will provide a substantial improvement in the public 
health protection provided to the American people by the Clean 
Air Act, but the passage of Bill S. 1084 would block that much 
needed improvement in public health protection.
    Ozone (O<INF>3</INF>) is a highly irritating gas that is 
formed in our atmosphere in the presence of sunlight from other 
``precursor'' air pollutants, including nitrogen oxides and 
hydrocarbons. These precursor pollutants, which cause the 
formation of ozone, are emitted by pollution sources including 
automobiles, electric power plants, and industry.
    Particulate Matter (PM) air pollution is composed of two 
major components: primary particles, or ``soot,'' emitted 
directly into the atmosphere by pollution sources such as 
industry, electric power plants, diesel buses, and automobiles, 
and; ``secondary particles'' formed in the atmosphere from 
sulfur dioxide and nitrogen oxide gases, emitted by many 
combustion sources, including coal-burning electric power 
plants.
    Observational epidemiology studies have shown compelling 
and consistent evidence of adverse effects by ozone and PM 
below the old U.S. standards that Senate Bill 1084 seeks to 
regress back to, if passed. These scientific studies 
statistically evaluate changes in the incidence of adverse 
health effects in a single population as it undergoes varying 
real-life exposures to pollution over time, or across multiple 
populations experiencing different exposures from one place to 
another. They are of two types: 1) population-based studies, in 
which aggregated counts of effects (e.g., hospital admissions 
counts) from an entire city might be considered in the 
analysis; and, 2) cohort studies, in which selected 
individuals, such as a group of asthmatics, are considered. 
Both of these types of epidemiologic studies have shown 
confirmatory associations between ozone and PM air pollution 
exposures and increased adverse health impacts, including:

<bullet> decreased lung function (a measure of our ability to 
    breathe freely);
<bullet> more frequent respiratory symptoms;
<bullet> increased numbers of asthma attacks;
<bullet> more frequent emergency department visits;
<bullet> additional hospital admissions, and;
<bullet> increased numbers of daily deaths.

    The newly promulgated EPA air quality standards are 
appropriate, and are based on sound science.
    In my own research, I have found that both ozone and 
particulate matter air pollution are associated with increased 
numbers of respiratory hospital admissions in New York City, 
Buffalo, NY, and Toronto, Ontario, even at levels below the 
current standards. My results have been confirmed by other 
researchers considering locales elsewhere in the world. The 
U.S. EPA used my New York City asthma results in their ``Staff 
Paper'' when estimating the health benefits of tightening the 
ozone standard.
    In previous Congressional hearings, much discussion 
centered on the hospital admissions effects of ozone, but 
ozone's other impacts have been largely ignored. Indeed, 
hospital admissions in New York City are only a small fraction 
of the benefits to be accrued by lowering pollution levels. The 
effects of ozone on hospital admissions represent only the 
``tip of the iceberg'' of all of the many adverse effects 
associated with this pollutant, and they are therefore best 
viewed as indicators of the much broader spectrum of adverse 
health effects being experienced unnecessarily by the public 
today as a result of air pollution exposures. Most of these 
adverse effects are not directly recorded, however, as no 
central records are kept of these related, but more numerous, 
adverse pollutant impacts, such as increased restricted 
activity days and doctors visits.
    In order to give some insight into the much larger numbers 
of other effects lurking beneath the surface of the ozone 
hospital admissions effects noted by George Wolff in Table VI-2 
(revised) of the Ozone OAQPS Staff Paper (June, 1996) and 
during previous testimony to this Subcommittee, I have made 
working estimates of the other documented adverse impacts of 
ozone exposure that will also be reduced in New York City, if 
the EPA's new ozone standard were to be implemented as 
originally proposed.
    The results of my analysis are presented in the figure 
below, entitled the ``Pyramid of Annual New York City Adverse 
Impacts of Ozone Avoided by the Implementation of the Proposed 
New Standard (vs. ``As Is''). This pyramid is intended to be 
illustrative of the enormous gaps in the table presented by Dr. 
Wolff, and is not presented as a peer-reviewed comprehensive 
documentation of all the benefits which would be accrued by 
achieving the EPA's proposed new standard. Please note that the 
figure could not be drawn ``to scale.'' If it were drawn ``to 
scale'', the New York City (NYC) asthma admissions triangle 
would not even be visible, since it accounts for only 
approximately 0.01% of the total number of ozone related 
impacts noted for NYC. However, despite the fact that it 
visually overstates the relative size of the NYC hospital 
asthma admissions, and the fact that still other ozone effects 
cannot be considered in these calculations due to a lack of 
data, this figure still makes very clear that the New York City 
asthma admissions counts considered in the Wolff table 
represent only a small fraction (far less than 1 percent) of 
the adverse effects of air pollution which will be avoided 
through the implementation of the new standard being proposed 
by the EPA.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The starting point of the analysis I used to estimate the 
``pyramid'' of effects noted in the attached figure is the 265 
New York City asthma admissions estimated to be avoided as a 
result of the implementation of the new standard, as per the 
top line of the Wolff chart (i.e., 385-120 = 265 admissions). 
First, as I noted above, there are also non-asthma respiratory 
admissions effects. Based upon the average ozone impacts 
derived from my ozone-admissions regression results for New 
York City and Buffalo, this indicates that the non-asthma 
respiratory admissions avoided (for causes such as pneumonia 
and bronchitis) are about 90 percent of the size of the asthma 
admissions, or 240/yr. Now, based on the fact that New York 
City hospital records indicate that 12.6% of pediatric asthma 
emergency department (ED) visits result in an asthma hospital 
admission (Barton et al, 1993), it is estimated that the ED 
visits associated with the 505 ozone-related respiratory 
admissions would amount to approximately 3,500 ozone-induced ED 
visits (i.e., 505 x 1.126). Furthermore, using the ozone 
adverse health effect coefficients derived from the published 
literature by the Empire State Electric Energy Research 
Corporation (ESEERCO) in the New York State Environmental 
Externalities Cost Study (Oceana Publications, Inc., December, 
1995), and ratioing the ozone effect coefficients provided in 
that report with that for asthma hospital admissions in New 
York City (used to get the 265 admissions), effects for other 
outcomes were derived, based on the original 265 NYC hospital 
admissions/day estimate. In this way, estimated annual effects 
to be avoided in New York City each year were also derived for:

<bullet> acute (i.e., daily) mortality,
<bullet> asthma attacks,
<bullet> restricted activity days (i.e., the total number of 
    person-days during which some normal activities were 
    curtailed), and
<bullet> acute respiratory symptom days (i.e., the total number 
    of person-days during which additional respiratory symptoms 
    would be experienced).

    Some may quarrel with the specific coefficients chosen here 
to model the other effects, but the overall point remains that 
these other effects collectively represent large multiples of 
the hospital admissions benefits noted for New York City in the 
chart presented at the hearing. Moreover, the categories of 
effects considered in the attached figure are not exhaustive by 
any means, but they still serve to show that the table 
presented by Dr. Wolff greatly underestimates the number of 
adverse health events that can be avoided by the meeting the 
standard.
    Note that the numbers in this figure have been corrected to 
avoid double counting of adverse health ``events.'' For 
example, the number of hospital admissions has been subtracted 
from the total number emergency department visits, assuming 
that the patients would have first passed through the ED before 
being admitted.
    Note also that this figure can be used to consider other 
cases in Dr. Wolff's chart as well, since all estimates have 
been scaled to the asthma admissions number. For example, for 
the difference between the existing and the proposed new 
standard cases, the numbers in this figure would all be divided 
by three (= (210-120)/(385-120) = 90/265). However, this 
calculation underestimates the benefits of the new standard, 
since it fails to account for the more rapid progress which 
will no doubt be able to be achieved in New York City under the 
new standard, when upwind counties clean up. The comparison to 
the ``as is'' case contained in the above figure is the more 
apt comparison.
    Finally, while there are about 7 million persons in New 
York City, there are a total of some 122 million persons 
throughout the U.S. who now live in areas exceeding the 
proposed O<INF>3</INF> standard, and will therefore also be 
benefited by that new standard. Thus, the New York City 
hospital admissions effects are best viewed as an indicator of 
a much broader spectrum of potentially avoidable adverse health 
effects being experienced by the public today as a result of 
air pollution exposures.
    Mr. Wolff's table also ignores the point that these 
pollution-related hospital admissions differ from other 
admissions, in that they are a violation of the law in the 
U.S., as embodied in the Clean Air Act. It is important to 
remember that these admissions are unlike most other admissions 
in this important way, and, thus, warrant the regulation and 
societal expense needed to eliminate them.
    It is not illegal to be admitted to the hospital, but it is 
illegal for pollution to cause people to go to the hospital. In 
other words, it is right to go to the hospital if you are sick, 
but it is wrong to cause someone else to have to go. This is 
how air pollution induced hospital admissions differ from most 
others, and why it is inappropriate to treat them as equivalent 
to, or as a percentage of, other admissions in legislative 
deliberations and policy making decisions.
    Thus, since polluters are today causing many people to get 
sick enough to go to the hospital, and even to die prematurely, 
who would otherwise not have this happen, and since the Clean 
Air Act has appropriately declared this to be unacceptable and 
illegal, then we must act as a society to stop it, even if it 
is only a small percentage of all admissions or deaths.
    A relevant analogy is to homicides in the U.S.: 
approximately 2 million persons die in the U.S. each year, but 
only about 1 percent of these deaths are due to homicides. We 
as a society do not ignore these homicides because they are 
expensive to prevent and represent only a small fraction of all 
deaths. Homicide is wrong and illegal, so we as a society 
expend a great deal of money and effort trying to prevent 
homicides, and in bringing violators to justice, even though 
homicides represent only a small fraction of all deaths. If one 
were to apply the logic that we should do nothing about air 
pollution because it represents only one of many causes of 
hospital admissions to this case, we would therefore not try to 
prevent or prosecute killers because it is too expensive, 
relative to the small percentage of deaths that homicides 
represent. No one would make this argument for homicides, and 
neither should we make it for hospital admissions and deaths 
caused by pollution. The hospital admissions and deaths induced 
by polluters must also be stopped, even if it is expensive, as 
the Clean Air Act has declared them to be illegal.
    I believe that this rationale is one reason why the 
legislative history of the Clean Air Act, as affirmed by the 
Courts, indicates that these NAAQS must be set without 
consideration of attainment costs.
    Returning to the subject of air pollution health effects, 
among the important adverse effects noted above as also 
occurring in the New York region as a result of air pollution 
exposure are asthma attacks. The airway inflammation induced by 
present day ozone and PM is especially a problem for children 
and adults with asthma, as it makes them more susceptible to 
having asthma attacks. For example, recent controlled human 
studies (e.g., Molfino et al., 1991) have indicated that prior 
exposure to ozone enhances the reactivity of asthmatics to 
aeroallergens, such as pollens, which can trigger asthma 
attacks. In addition, the increased inflammation and diminished 
immune system ozone effects in the lung can make the elderly 
more susceptible to pneumonia, a major cause of illness and 
death in this age group.
    In February, the results of a study I conducted on the 
effects of air pollution on children at a summer ``asthma'' 
camp in Connecticut were published. This study of a group of 
about 55 moderate to severely asthmatic children shows that 
these children experience diminished lung function, increased 
asthma symptoms, and increased use of unscheduled asthma 
medications as ozone pollution levels rise. As shown in the 
figure below, the risk of a child having an asthma attack was 
found to be approximately 40 percent higher on the highest 
ozone days than on an average study day, with these adverse 
effects extending to below the old 120 ppb O<INF>3</INF> air 
quality standard.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The O<INF>3</INF> morbidity associations indicated by 
epidemiologic studies are supported by a large body of data 
from controlled exposure studies that give consistent and/or 
supportive results, and that have demonstrated pathways by 
which ozone can damage the human body when it is breathed. 
Clinical studies have demonstrated decreases in lung function, 
increased frequencies of respiratory symptoms, heightened 
airway hyper-responsiveness, and cellular and biochemical 
evidence of lung inflammation in healthy exercising adults 
exposed to ozone concentrations at the present standard, and at 
exposures as low as 80 parts per billion for 6.6 hours (e.g., 
Follinsbee et al., 1988, and Devlin et al, 1991).
    Similarly, animal exposures to combustion-related fine 
particles (PM<INF>2.5</INF>) have also been shown by recent 
controlled exposure studies to have significant adverse effects 
on the lung, including diminished respiratory defense 
mechanisms, opening the lung to illness from other causes. In 
addition, repeated exposures to acidic fine particulate matter, 
a portion of the fine PM<INF>2.5</INF> which the EPA now aims 
to focus on in the newly proposed reductions in the PM 
standard, has been shown to affect clearance in the lung in a 
manner similar to that of tobacco smoking, suggesting that 
these fine particles may have analogous long-term exposure 
effects on the development of Chronic Obstructive Pulmonary 
Disease.
    The epidemiologic evidence indicating an association 
between PM and increased mortality and morbidity has been well 
documented by numerous investigators in the published 
literature (e.g., see Schwartz, 1997). The fact that these 
effects have both been shown so consistently across outcomes 
and from place to place is supportive of the interpretation of 
these associations as causal, and not due to some unknown 
confounder. Furthermore, controlled human and animal exposures 
of combustion aerosols have shown significant adverse effects 
by these fine particles, which are the class of particles which 
EPA now appropriately aims to regulate.
    While the exact causal mechanism (i.e., the ``smoking 
gun'') of the PM-mortality association is not yet known at this 
time, there are biologically plausible mechanisms that are now 
known which could account for the associations. For example, PM 
stresses on the lung (e.g., by inducing edema), places extra 
burden on the heart, which could induce fatal complications for 
persons with cardiac problems. Recent animal experiments by 
Godleski and coworkers (1996, 1997) at Harvard University 
confirm that exposures to elevated concentrations of ambient PM 
can result in cardiac related death in animals. Thus, the 
situation with PM and mortality is similar to many public 
health risks in the past, such as cholera in London 100 years 
ago, or smoking over the past few decades: the epidemiology 
shows biologically plausible effects, but the exact mechanism 
by which the documented adverse impacts are effected is not yet 
known. This uncertainty about the exact mechanism of effect did 
not stop us from taking societal action against 
epidemiologically documented health threats, such as smoking, 
in the past, and should not be a deterrent to controlling the 
adverse consequences of particulate matter air pollution now.
    Epidemiological evidence has also accumulated over recent 
years indicating a role by O<INF>3</INF> in daily human 
mortality, a factor not fully considered by the U.S. EPA in the 
latest O<INF>3</INF> Staff Paper or in the EPA's recent 
Regulatory Impact Assessment (RIA) for ozone. For example, 
Verhoeff, et al. (1996) used Poisson regression analysis to 
analyze associations between daily mortality and air pollution 
concentrations in Amsterdam, The Netherlands during 1986-1992, 
finding a daily mortality RR=1.10 per 100 ppb 1-hr daily 
maximum O<INF>3</INF>, even after controlling for weather and 
co-pollutants. Anderson et al. (1996) investigated whether 
outdoor air pollution levels in London, England influenced 
daily mortality during 1987-1992, finding a daily mortality 
RR=1.10 per 100 ppb 8-hr O<INF>3</INF> (RR=1.08 per 100 ppb 1-
hr O<INF>3</INF>), even after controlling for weather and co-
pollutants. Samet et al. (1997) considered total daily 
mortality and environmental data for Philadelphia during 1973-
1980, finding that, when pairs of pollutants were considered 
simultaneously, only the ozone coefficient consistently 
remained unchanged and statistically significant, with a total 
mortality RR of 1.02 for a 20 ppb increase in 24-hr daily 
average ozone. Cause of death-specific regressions indicated 
the largest ozone RR for respiratory deaths, consistent with 
biological plausibility. More recently, I have found that daily 
mortality also rises after high ozone days in the U.S. cities 
of New York City, Atlanta, Detroit, Chicago, St. Louis, 
Minneapolis, San Francisco, Los Angeles, and Houston, even 
after accounting for other factors such as season and weather, 
and at ozone levels below the current NAAQS standard (Thurston, 
1997). I find that the overall population's risk of death rises 
by about 6 percent on ozone days having a 1-hour maximum of 
ozone that is 100 ppb above the average. The many new studies 
released since the EPA Criteria Document was prepared that 
document associations between ozone air pollution and human 
mortality are listed in the attached Table 1.
    Once the weight of this new evidence of biologically 
plausible associations between acute ozone exposures and 
increased daily human mortality is considered, it is clearer 
than ever that important reductions in public health risks can 
be achieved by going from the old standard (equivalent to about 
a 90 ppb 8-hour standard) down to an 80 ppb 8-hour 
O<INF>3</INF> standard, as was promulgated by the EPA.
    In conclusion, I would like to restate the key messages 
contained in the letter that I and 26 other air pollution 
researchers and physicians sent to President Clinton earlier 
this year:

    <bullet>  Please listen to the medical and scientific 
community on this issue.
    <bullet>  Exposures to O<INF>3</INF> and PM air pollution 
have been linked to medically significant adverse health 
effects.
    <bullet>  The pre-July 18, 1997 NAAQS for these pollutants 
were not sufficiently protective of public health.

    Thus, the recently promulgated air quality standards for 
both ozone and particulate matter should be retained.
    Thank you for the opportunity to testify on this important 
issue.

References

    Anderson, H. R., Ponce de Leon, A, Bland, J.M., Bower, 
J.S., and Strachen, D.P. (1996) Air pollution and daily 
mortality in London: 1987-92. British Medical Journal, 312:665-
669.
    Barton, D.J.; Teets-Grimm, K.; and Kattan, M. (1993) 
Emergency room visit patterns of inner city children for 
asthma. Am. Rev. of Resp. Dis. 147: A577.
    Devlin, R.B.; McDonnell, W.F.; Mann, R.; Becker, S.; House, 
D.E.; Schreinemachers, D., and; Koren, H.S.. (1991) Exposure of 
humans to ambient levels of ozone for 6.6 hours causes cellular 
and biochemical changes in the lung. Am. J. Respir. Cell Mol. 
Biol. 4: 72-81.
    Follinsbee, L.J.; McDonnell, W.F., and; Horstman, D.H. 
(1988) Pulmonary function and symptom responses after 6.6 hour 
exposure to 0.12 ppm ozone with moderate exercise. JAPCA 38:28-
35.
    Godleski, J.J.; Sioutas, C.; Katler, M.; Catalano, P.; and 
Koutrakis, P. (1996) Death from inhalation of concentrated 
ambient air particles in animal models of pulmonary disease. 
Proceedings of the Second Colloquium on Particulate Air 
Pollution and Human Health, May 1-3, 1996, Park City, Utah.
    Godleski, J.J., Sioutas, C., Verrier, R.L.; Killingsworth, 
C.R.; Lovett, E.; Murthy, G.G.; Hatch, V.; Wolfson, J.M.; 
Ferguson, T., and Koutrakis, P. (1997) Inhalation exposure of 
canines to concentrated ambient air particles. Am. J. Resp. and 
Crit. Care Med., 155:(4) A246.
    Molfino, N.A.; Wright, S.C.; Katz, I.; Tarlo, S.; 
Silverman, F.; McClean, P.A.; Szalai, J.P.; Raizenne, M.; 
Slutsky, A.S., and; Zamel, N. (1991) Effect of low 
concentrations of ozone on inhaled allergen responses in 
asthmatic subjects. Lancet. 338(8761): 199-203.
    Samet, J.M.; Zeger, S.L.; Kelsall, J.E., Xu, J.; and 
Kalkstein, L.S. (1997) Air pollution, weather, and mortality in 
Philadelphia 1973-1988. Analyses of the Effects of Weather and 
Multiple Air Pollutants. The Phase I.B Report of the Particle 
Epidemiology Evaluation Project. Health Effects Institute, 
Cambridge, MA, March, 1997.
    Schwartz, J. (1997) Health effects of air pollution from 
traffic: ozone and particulate matter. Health at the 
Crossroads: Transport Policy and Urban Health, T. Fletcher and 
A.J. McMichael Eds., John Wiley and Sons Ltd., New York, NY.
    Thurston, G.D. (1997) Ozone Air Pollution and Human 
Mortality. Paper 97-MP9.04. For presentation at the Air & Waste 
Management Association's 90th Annual Meeting & Exhibition, June 
8-13, 1997, Toronto, Ontario, Canada
    Verhoeff, A.P., Hoek, G.; Schwartz, J.; and Wijnen, J.H. 
(1996) Air pollution and daily mortality in Amsterdam. 
Epidemiology. 7:225-230.
    Table 1. Recent Studies Linking Ozone With Daily Mortality
    Not Considered by the U.S. EPA O<INF>3</INF> Criteria 
Document or Staff Paper
    Anderson et al. 1996. Air Pollution and Daily Mortality in 
London: 1987-1992. BMJ 312:665-669.
    Bates, D. 1995. Ozone: A Review of Recent Experimental, 
Clinical and Epidemiological Evidence, with Notes on Causation, 
Part 2. Can. Respir. J. 2(3): 161-171.
    Cifuentes, L.A. and L. Lave. 1997. Association of Daily 
Mortality and Air Pollution in Philadelphia, 1983-1988. J. Air 
Waste Manage. Assoc. (In press).
    Hoek et al. 1997. Effects of Ambient Particulate Matter and 
Ozone on Daily Mortality in Rotterdam, The Netherlands. 
Accepted to: Arch. Environ. Health.
    Ito, K. and Thurston, G.D. 1996. Daily PM<INF>10</INF>/
Mortality Associations: An Investigation of At-Risk 
Subpopulations. J. Expo. Analysis Environ. Epidemiol. 6(1): 79-
225.
    Kinney et al. 1995. A Sensitivity Analysis of Mortality/
PM<INF>10</INF> Associations in Los Angeles. Inhal. Toxicol. 
7:59-69.
    Loomis et al. 1996. Ozone Exposure and Daily Mortality in 
Mexico City: A Time-Series Analysis. Health Effects Institute 
Research Report Number 75, October 1996.
    Moolgavkar et al. 1995. Air Pollution and Daily Mortality 
in Philadelphia. Epidemiology 6(5): 476-484.
    Ostro. 1995. Fine Particulate Air Pollution and Mortality 
in Two Southern California Counties. Environ. Res. 70: 98-104.
    Ostro et al. 1996. Air Pollution and Mortality: Results 
from a Study of Santiago, Chile. J. Expo. Analysis Environ. 
Epidemiol. 6: 97-114.
    Ozkaynak et al. 1995. Associations Between Daily Mortality, 
Ozone and Particulate Air Pollution in Toronto, Canada. Paper 
Presented at the Colloquium on Particulate Air Pollution, 
Irvine, CA, January 24-25.
    Saldiva et al. 1994. Association Between Air Pollution and 
Mortality Due to Respiratory Diseases in Children in Sao Paulo, 
Brazil: A Preliminary Report. Environ. Res. 65: 218-225.
    Saldiva et al. 1995. Air Pollution and Mortality in Elderly 
People: A Time-Series Study in Sao Paulo, Brazil. Arch. 
Environ. Health 50(2): 159-163.
    Samet et al. 1996. Air Pollution and Mortality in 
Philadelphia, 1974-1988. Report to the Health Effects Institute 
on Phase IB: Particle Epidemiology Evaluation Project, March 
25, 1996 (Accepted for publication).
    Samet et al. 1997. Particulate Air Pollution and Daily 
Mortality: Analysis of the Effects of Weather and Multiple Air 
Pollutants. The Phase I.B Report of the Particle Epidemiology 
Evaluation Project. Health Effects Institute, March 1997.
    Sartor, F. et al. 1995. Temperature, Ambient Ozone Levels, 
and Mortality during Summer 1994, in Belgium. Environ. Res. 70: 
105-113.
    Sunyer et al. 1996. Air Pollution and Mortality in 
Barcelona. J. Epidemiol. Community Health 50 (Suppl. 1): S76-
S80.
    Thurston, G.D. 1997. Ozone Air Pollution and Human 
Mortality. Paper 97-MP9.04. Presented at the Air and Waste 
Management Association's 90th Annual Meeting and Exhibition, 
June 8-13, 1997, Toronto, Canada.
    Touloumi et al. 1997. Short Term Effects of Ambient 
Oxidants Exposure on Mortality: A Combined Analysis Within the 
APHEA Project. Am. J. Epidemiol. (In press).
    Verhoeff, A.P. et al. 1996. Air Pollution and Daily 
Mortality in Amsterdam. Epidemiology 7(3): 225-230.
    Wyzga, R.E. and F.W. Lipfert. 1995. Temperature-Pollution 
Interactions with Daily Mortality in Philadelphia. In: 
Particulate Matter: Health and Regulatory Issues: Proceedings 
of an International Specialty Conference Sponsored by the Air 
and Waste Management Association, April, Pittsburgh, PA, pp. 3-
42.
    Wyzga, R.E. and F.W. Lipfert 1996. Ozone and Daily 
Mortality: The Ramifications of Uncertainties and Interactions 
and Some Initial Regression Results. In: Vostal, J.J., Ed., 
Tropospheric Ozone: Critical Issues in the Regulatory Process: 
Proceedings of a Specialty Conference Sponsored by the Air and 
Waste Management Association, May, 1994, Orlando, FL, pp. 453-
487.
    Zmirou et al. 1996. Short Term Effects of Air Pollution on 
Mortality in the City of Lyon, France, 1985-1990. J. Epidemiol. 
Community Health 50(Suppl. 1):S30-S35.
                              ----------                              


  Statement of Tom Smith, President, National Coalition of Petroleum 
                               Retailers

    I am Tom Smith, President of NCPR, the chief advocate of 
the interests of America's 45,000 mom and pop gasoline 
retailers, and a Texaco dealer in Griffin, GA, located just 
outside the metro Atlanta non-attainment area, but inside what 
EPA would call an ``area of influence''.
    NCPR strongly supports S. 1084, the Ozone and Particulate 
Matter Research Act. We have always supported environmental 
regulation that has a basis in common sense, and that we can 
explain to our members in a simple and straightforward manner. 
While NCPR supported the change to an 8 hour ozone standard, 
EPA's proposals fail this test.
    S. 1084 is necessary legislation, because the evidence 
shows few if any increased health benefits, while the costs of 
compliance are enormous. A greater return of health benefits 
will occur if our limited resources are spent elsewhere.
    The argument that there is no need for the legislation 
because the compliance deadlines are well off in the future is 
misleading. Without the legislation, compliance schedules will 
be dictated by citizens' suits and sanctions threats, well in 
advance of the deadlines EPA speaks of.
    Under the Clean Air Act, once an area reaches a certain 
level of non-attainment, gasoline retailers are required to 
implement control strategies such as Stage 2 vapor recovery, 
enhanced motor vehicle inspection and maintenance, and sale of 
reformulation gasolines, by reason of the plain language of the 
statute.
    Because the Act mandates control strategies. That can be 
enforced by citizen suits and other threats, which will 
inevitably occur well before the dates EPA is talking about--
States will be forced to act now if the legislation is not 
passed.
    The threat is so severe that NCPR has had to file suit 
against EPA alleging that the provisions of the Clean Air Act 
that mandate certain control strategies are unconstitutional 
under the 10th Amendment, and a 1997 Supreme Court decision.
    While we believe that the Act's provisions are 
unconstitutional because the legislative and regulatory 
apparatus of the state is commandeered by EPA, as States must 
pass authorizing legislation, propose and enact implementing 
regulations, and then enforce those enactments against the 
private sector, including the mom and pop retailers we 
represent; passage of S. 1084 would alleviate the immediate 
problem, because it allows us time to be sure of what we are 
doing before we turn the States into puppets whose strings can 
be pulled by lawsuits and other threats.
    Thus, even though EPA has promised to be flexible, the 
statute, to the extent it is constitutional, ties their hands.
    Based on our experience with the motor vehicle I/M debate, 
our members have deep seated reservations over EPA's 
``flexibility'' promise. To quote Georgia State Representative 
Mike Evans testifying under oath before the House Commerce 
Committee in the 104th Congress:

    EPA's assertion that they have been flexible is simply not 
    so. We have not seen it in Georgia, nor do I believe that 
    the other States have seen it either. The only thing we 
    have heard is sanctions, sanctions, sanctions . . . .
    It is abundantly clear, in closing, that people across this 
    country do not want and will not accept this consumer 
    unfriendly plan. It is also just as clear that without 
    public support, any plan is bound to fail. Please help us 
    by allowing Georgia to tailor a plan that specifically 
    meets the needs of Georgia.\1\
---------------------------------------------------------------------------
    \1\ House Hearing No. 104-12 at 307.
---------------------------------------------------------------------------
    We also question the flexibility claims in light of EPA's 
position that changing the standard does not implicate SBREFA 
or ``Reg Flex''--the change of the standard automatically 
worsens the non-attainment level of many areas, and forces 
these areas to adopt control; measures that inflict substantial 
costs on a significant number of small businesses as a matter 
of law. EPA has already started playing games with the 
``Implementation Process,'' forcing small business to have to 
threaten to walk out of a March 18 meeting
    We are also disturbed by what appears to be pandering to a 
given audience, as shown by EPA's claims before the Agriculture 
Committee to the effect that farmers would be minimally 
impacted by the new standards. As one with family in farming, 
and a number of farm based customers', I can tell you they do 
not share EPA's sunny outlook, rather they correctly fear that 
higher fuel prices will squeeze already thin farm margins.
    As a gasoline retailer, I was deeply disturbed by her 
remarks that the standards would mean more use of ethanol; 
blended gasoline, and ``good news for farmers.'' Ethanol blends 
raise the Reid Vapor Pressure of gasoline, and cannot be used 
in many non-attainment areas because they will worsen the ozone 
problem, and EPA's efforts to rewrite the 1990 Amendments by 
mandating ethanol fuel were struck down by the U.S. Court of 
Appeals for the D.C. Circuit. Therefore, we do not understand 
what the basis is for this claim, other than political 
posturing.
    The ethanol subsidy itself distorts, and is destructive to 
competition in the gasoline industry. All it does is allow 
large chain marketers a government mandated competitive 
advantage over small ``mom and pop'' dealers such as myself, 
while draining the treasury, and providing little real relief 
for farmers. We would be better off taking the money and block 
granting it to the states, or finding a way to ensure that the 
benefits went to real farmers, not ethanol producers. NCPR 
would add that any extension of the highway bill that extends 
the ethanol subsidy for another 7 years is to us ``Poison-Tea'' 
and would force us to oppose the entire bill, though we support 
CMAQ funding.
    As very small locally owned and operated businesses' 
gasoline dealers limited funds limited resources must be used 
in a way so as to achieve the maximum environmental bang for 
the buck.
    If EPA moves forward with these regulation, our limited 
resources will be forced into spending money on technology such 
as Stage 2 Vapor Recovery, something EPA Administrator Lee 
Thomas called ``a costly technological redundancy that will do 
little to solve the ozone problem''--instead of spending the 
money on underground tank upgrades required by 1998 in order to 
protect groundwater. It does not appear that the left hand of 
EPA knows what the right hand is doing, and that they are 
willing to ``rob Peter to pay Paul''; and that the net result 
will be an environmental detriment, as our members limited 
resources would be diverted from compliance with the 1998 
underground tank regulatory deadline, where they would most 
benefit human health and the environment.
    It is very important that policy makers at all levels of 
government be aware of the fact that thousands of gasoline 
station franchise agreements will be coming up for renewal; and 
franchisers will be required to decide whether or not to make 
the investment in upgrading the facility. In the event the 
franchiser decides that it does not wish to make the 
investment; the Petroleum Marketing Practices Act, 15 U.S.C. 
2801, 2802(b)(3)(D), requires that an offer to sell the leased 
marketing premises be made to the franchisee. As a result, many 
stations and their tanks will be sold and replaced in the 
remaining 21 months.
    NCPR expects a significant ``1998 Bubble'' to occur, that 
will stress the resources of states and their existing 
underground tank trust funds. and those of our members. who 
need to be focused on addressing this problem. including moving 
Sen. Allard's legislation. as opposed to preparing to implement 
new air standards, whose benefits are questionable at best.
    Gasoline dealers have long been involved in the debate over 
clean air, primarily because the dealer and his family, as well 
as our employees and their families breath the same air and 
drink the same water as our friends and neighbors do. We 
sponsor the Little League teams, Boy and Girl Scout troops and 
other children's activities, and our children and grandchildren 
take part in these activities as well. We take exception to 
those who would use our children as pawns, or try to paint 
those of us who wish to regulate sensibly as ``anti-child'' in 
order to advance their political agendas and ambitions.
    S. 1084 passes the common sense test; EPA's new standards 
do not.
                              ----------                              

            Statement of Associated Builders and Contractors
    Associated Builders and Contractors (ABC) thanks the Senate Clean 
Air, Wetlands, Private Property and Nuclear Safety Subcommittee of the 
Environment and Public Works Committee for the opportunity to submit a 
statement on the Environmental Protection Agency's (EPA) regulations on 
ozone and particulate matter in the atmosphere. ABC believes the EPA's 
new federal air quality regulations for ozone smog and fine particles 
could have crippling effects on hundreds of thousands of American 
construction workers and cost consumers and businesses billions of 
dollars, with little or no health benefit.
    ABC is a national trade association representing over 19,000 
contractors, subcontractors, material suppliers, and related firms from 
across the country and from all specialties in the construction 
industry. ABC's diverse membership is bound by a shared commitment to 
the merit shop philosophy of awarding construction contracts to the 
lowest responsible bidder through open and competitive bidding. This 
practice assures taxpayers and consumers the most value for their 
construction dollar. With 80 percent of the construction performed 
today by open shop contractors, ABC is proud to be their voice.
    ABC strongly supports S. 1084, which would retain EPA's existing 
air quality regulations for ozone and small particles until research 
can be conducted to determine if the agency's more stringent new rules 
would benefit public health. EPA could reissue the new standards if the 
research showed they were necessary. The legislation would ensure that 
the scientific facts are well established before the nation makes a 
huge investment in new emission control programs that could, according 
to the Reason Public Policy Institute, cost as much as $150 billion 
annually. The nation would pay this bill in higher business and 
consumer costs, lost jobs, less economic development, and inconvenient 
lifestyle changes.
    After careful review of the technical and health information and 
analyses in the Criteria Document and the Staff Paper prepared by EPA 
for this rulemaking, the Clean Air Scientific Advisory Committee 
(CASAC), the agency's expert review panel established by the Clean Air 
Act and appointed by the Administrator, concluded there were 
significant uncertainties and unanswered questions that had to be 
addressed before EPA proceeds with the Particulate Matter (PM) 
rulemaking. Additionally, the same panel concluded there was no health 
basis to establish new National Ambient Air Quality Standards (NAAQS) 
for ozone. ABC concurs with CASAC's opinion and strongly advises EPA to 
reaffirm the current standards for PM and ozone while initiating a 
targeted research program to resolve the questions and uncertainties 
identified during the just-completed review process.
    The proposed tightening of the ozone and PM NAAQS, in conjunction 
with the highway funding sanction authorities and Metropolitan Planning 
Organizations (MPOs) approval requirements of the Clean Air Act 
Amendments (CAAA) and 1991 Intermodal Surface Transportation Efficiency 
Act (ISTEA), pose enormous restrictions to the transportation 
construction industry throughout the United States. The combination of 
these new regulatory requirements endangers tens of thousands of jobs 
and creates major new constraints to mobility.
    Additionally, ABC is concerned that the EPA has not adequately 
taken into account the affect these costly new requirements will 
undoubtedly have on the American worker and average motorists. If the 
EPA succeeds in changing the standard such limitations as mandatory 
employee carpooling, centralized state-run emissions inspections, and 
the use of more expensive reformulated gasoline are only a few of the 
policies that will adversely affect small business. Other transit 
initiatives could be higher vehicle taxes and higher tolls in peak 
driving times.
    Non-vehicle remedies could place restrictions on the use of power 
tools, lawn mowers, and snow blowers as well as other equipment. ABC 
shares with all Americans an interest in efforts to preserve, protect 
and enhance the natural environment. Pollution prevention is in our 
nation's interest; however, efforts to reduce emissions must be 
balanced with considerations for the safety of those operating the 
equipment, as well as the cost and technological feasibility of 
achieving any prescribed reductions. Many construction industry workers 
rely upon non-road engines in their daily efforts to safely build 
construction projects on time and on budget. The performance and 
reliability of these engines directly impact a contractor's ability to 
successfully execute their contracted responsibilities on the 
construction job site.
    The EPA initially claimed the new PM/ozone standard would extend 
the lives of as many as 20,000 people a year (recently revised down to 
15,000 people). Clearly, the extent of this health risk is of concern. 
However, exactly which components in urban air are causing the health 
problems is not yet well understood. The EPA's preference for 
regulating every fine particle in the air before understanding the real 
causes and quantifiable health benefits is not a prudent strategy. ABC 
is concerned that:

    1) The EPA has failed to properly characterize PM concentrations 
    across the United States. Key technical analyses have not been 
    completed. For example, the EPA has not determined the chemical 
    composition or size of the particulate matter that is linked to the 
    supposed increases in mortality and morbidity. The EPA has also 
    failed to identify the biological mechanism that would explain the 
    link between PM<INF>2.5</INF> and increases in mortality. The use 
    of a nationwide PM<INF>2.5</INF>/PM<INF>10</INF> ratio to estimate 
    PM<INF>2.5</INF> concentrations is insupportable from the limited 
    PM<INF>2.5</INF> data available.
    2) The EPA has failed to accurately analyze the impact of the new 
    standard. The EPA has stated its refusal to conduct a small 
    business analysis for these rules. The Regulatory Impact Analyses 
    (RIAs) are incomplete; no analysis was conducted on the proposed 
    secondary ozone standard, no analysis was conducted on impacts to 
    small businesses, the Unfunded Mandates Act was not addressed, and 
    the analyses do not estimate the full cost of attaining the 
    proposed standards throughout the country (there are ``residual 
    nonattainment areas''). The RIA for ozone rulemaking does not use 
    the proposed standards in the Notice of Proposed Rulemaking as the 
    basis for its costs and benefits projections.
    3) The EPA has used questionable health impact studies to justify 
    their actions. There is virtually no PM<INF>2.5</INF> exposure data 
    on either the general population or on susceptible populations. The 
    use of community-based epidemiological studies is not appropriate 
    because individual personal exposures do not correspond to these 
    community-based studies.

    Due to the predominance of small businesses within the construction 
industry, ABC remains concerned that compliance with the Clean Air Act 
Amendments could have significant adverse affect. We continue to 
encourage the Congress to give serious consideration to the impact 
these new requirements would have on small businesses.
    Associated Builders and Contractors strongly urges that there be no 
change in the ozone or particulate matter standards at this time until 
more comprehensive scientific studies can be performed. Again, ABC 
appreciates the opportunity to submit this statement for the record.

                                  <all>
</pre></body></html>
